                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250



                                                                              June 21, 2000


REPORT TO THE SECRETARY ON THE MEAT AND POULTRY INSPECTION PROCESS

FROM:         Roger C. Viadero
              Inspector General

SUBJECT:      Food Safety Initiative


The Office of Inspector General initiated a series of audits of the U.S. Department of
Agriculture’s Food Safety Inspection Service (FSIS) to determine whether FSIS’ meat
and poultry inspection program remains effective under the science-based Hazard
Analysis and Critical Control Point (HACCP) System. Our initiative included reviews of
three facets of the new inspection system—HACCP, laboratory analyses, and foreign
imports—and a review of the compliance program that carried over from the previous
system.

The results of our Food Safety Initiative demonstrate that FSIS has taken positive steps
to secure the safety of meat and poultry products. However, more needs to be done in
all four of the areas we reviewed. For the science-based system to reach its full
potential, FSIS needs to take maximum advantage of the expanding role that science
now plays as a control over the meat and poultry that enters the marketplace. Some of
this control is seen directly in the identification of pathogens; some is seen in the
integration of scientific techniques (e.g., operational procedures, reliance on objective
data) into the systems being established.

Most significantly, we found that FSIS needs to command a more aggressive presence
in the inspection and verification process. FSIS has not always established needed
procedures or apprised itself of all areas where inspection is critical; consequently, it
has reduced its oversight short of what is prudent and necessary for the protection of
the consumer.

FSIS initiated its conversion to HACCP in July 1996 when it issued the rules regarding
HACCP and the Pathogen Reduction system. These rules clarified the respective roles
of Government and industry in food safety: Industry is accountable for producing safe
food; Government is responsible for setting food safety standards, maintaining
inspection oversight, and maintaining an enforcement program to ensure that
establishments that do not meet standards are appropriately sanctioned.
Report to the Secretary on the Meat and Poultry Inspection Process                        2


The key elements that constitute FSIS’ transition from its former methodology to a
science-based system include testing for Salmonella and other harmful pathogens and
residues, ensuring the implementation of sanitation standard operating procedures
(SSOP) at each of the 6,000 meat and poultry establishments under Federal inspection,
and monitoring HACCP operating plans for each of these establishments. FSIS also
implemented an “equivalency” program through which the food safety standards of
foreign countries could be judged according to the requirements of the HACCP and
Pathogen Reduction systems.

As the transition took form, we proactively monitored FSIS’ implementation plans. Our
goal was to ensure that the guarantee of product safety and wholesomeness existing
under FSIS’ former methodology would continue under the science-based system.

We reviewed FSIS’ activities across a broad spectrum of meat and poultry inspection
operations to assess the agency’s major inspection and control components. Our
reviews focused on—

§   implementation of the HACCP program and of sanitation standard operating
    procedures, including efforts to test for pathogens and reduce their presence,

§   FSIS’ quality assurance programs over its laboratory facilities and operations,
    product sample integrity, and laboratory testing operations,

§   FSIS’ process to determine whether foreign countries’ safety inspection systems are
    equivalent to that of the United States, and

§   the effectiveness of FSIS’ compliance review program in detecting violations of
    meat and poultry inspection laws at non-federally inspected firms.

The graphic on the following page depicts the relationship of the four evaluated areas.
HACCP and laboratory testing are integral to FSIS’ domestic industry oversight. FSIS
also determines the “equivalency” of foreign systems, whose meat and poultry may then
flow into domestic industry or directly to the marketplace. FSIS’ program of
enforcement and compliance monitors both the industry and the marketplace to verify
compliance with meat and poultry inspection laws and the wholesomeness of meat and
poultry products.
Report to the Secretary on the Meat and Poultry Inspection Process                          3




         Domestic Meat and Poultry
         - grant of inspection                           Foreign Meat and Poultry
         - industry responsibility                       - equivalency determination
         - FSIS oversight                                - foreign country responsibility
         - laboratory analysis                           - FSIS reinspections
         - verification                                  - laboratory analysis
                                                         - verification
         - compliance                                    - compliance

                                 U.S. Distributors/Retail Markets
                                           - compliance




FSIS needs to strengthen its oversight in all four areas we reviewed. For example:

§   FSIS allowed establishments to limit or reduce the number of critical control points
    identified in their HACCP plans and thereby limit Government oversight.

§   FSIS’ data base did not list all establishments subject to tests for pathogens and
    residues (i.e., pesticides, etc.).

§   FSIS did not list all firms subject to compliance reviews and did not always target
    reviews at major metropolitan and geographic areas or at firms that could be
    regarded as high-risk.
Report to the Secretary on the Meat and Poultry Inspection Process                           4


§   FSIS approved equivalency status to foreign countries without adequately
    developing and implementing procedures for determining the equivalency of foreign
    inspection systems or clearly documenting such determinations. Unclear lines of
    authority, the absence of inspection system verification, and minimal FSIS oversight
    did not always validate that foreign food safety inspection systems were equivalent
    to U.S. standards.

FSIS also needs to be more aggressive in using laboratory analyses and scientific
expertise as a control against unwholesome product. We found that pathogen and
residue testing were underutilized in many areas. For example:

§   FSIS did not always review establishments’ microbial testing plans and protocols to
    ensure the samples taken under the HACCP system were scientifically selected and
    accurately tested.

§   FSIS did not enforce the requirement that foreign countries submit annual residue
    test plans and results.

§   FSIS did not always adequately document the involvement of technical subject-
    matter experts in its determinations of foreign country equivalency, and it did not
    always timely use the results of microbiological tests to update its reinspection data
    of those countries.

§   FSIS inspectors at meat and poultry establishments did not always provide required
    product samples to the FSIS laboratories for testing, thus leaving gaps in the
    sources of samples.

We also concluded that FSIS should expand its own testing requirements to increase
the number of tests taken of E. coli, Listeria, and Salmonella, and to include other
pathogens in those requirements. FSIS does not currently test for some major
foodborne pathogens, such as Campylobacter, that are now scientifically detectable.

In the area of compliance, we concluded that FSIS needs to act more aggressively
against repeat violators of the meat and poultry inspection laws. FSIS does not have
authority to impose civil penalties in cases that do not warrant criminal prosecution.
Letters of warning are often the only enforcement tool applied.

Overall, we are recommending that FSIS strengthen its procedures over the food safety
system. It needs to institute stronger procedures to ensure that all establishments are
tested. In the case of imported meats and poultry, FSIS needs to develop and
implement formal procedures over its entire equivalency process and enforce existing
regulatory requirements. For compliance verification, FSIS needs to refine its existing
compliance plan to establish the universe and scope of its reviews and target its
Report to the Secretary on the Meat and Poultry Inspection Process                             5

resources, and it needs to seek authority to impose monetary penalties and ensure that
violations of the meat and poultry inspection laws are met with these penalties and other
sanctions commensurate with the violation.

We are also recommending that FSIS assert its authorities over the HACCP system to
ensure that the intent of the program is met. To this end, FSIS needs to enhance its
grant of inspection so it functions like a contract, stipulating exactly what is required of
the establishments and defining the authorities and responsibilities FSIS has over their
operations.

FSIS’ responses to each of the audit reports are contained in the appropriate sections of
this report.




The results of our Food Safety Initiative are presented in four sections:

      I. Implementation of the Hazard Analysis and Critical Control Point System
         (24001-3-At) (FSIS’ response is found beginning on page 75.)
     II. Laboratory Testing of Meat and Poultry Products (24601-1-Ch) (FSIS’ response
         is found beginning on page 58.)
    III. Imported Meat and Poultry Inspection Process (24099-3-Hy) (FSIS’ response is
         found beginning on page 91.)
    IV. District Enforcement Operations—Compliance Activities (24601-4-At) (FSIS’
         response is found beginning on page 67.)

The diagram on the following page depicts the control points in the farm-to-table
process that we reviewed through our initiative.
Report to the Secretary on the Meat and Poultry Inspection Process                                   6




                                     Domestic Meat & Poultry              Foreign Meat & Poultry




                                           HACCP
                                                                                    Country
                                            SSOP                                  Equivalency
                    Meat & Poultry    Pathogen Reduction        Meat &            Determination
                       Product              Efforts             Poultry
                                                                Product


                                                                                         Processed
                                                                                         Product



                      Samples are removed from the food chain for testing

                                            Laboratory
                                             Testing
                                           (Verification)

                        If analyses show the presence of pathogens or residues,
                             products may be rejected, recalled, or reworked



                                  Notification


                                          Marketplace
                                          Compliance
                                          Verification
U.S. Department of Agriculture
 Office of Inspector General
     Food Safety Initiative
  Meat and Poultry Products


FOOD SAFETY AND INSPECTION SERVICE
IMPLEMENTATION OF THE HAZARD
ANALYSIS AND CRITICAL CONTROL
        POINT SYSTEM




                          Report No.
                          24001-3-At
                          June 2000
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250


DATE:         June 21, 2000

REPLY TO
ATTN OF:      24001-3-At

SUBJECT:      Implementation of the Hazard Analysis and
              Critical Control Point System

TO:           Thomas J. Billy
              Administrator
              Food Safety and Inspection Service

ATTN:         Margaret O’K. Glavin
              Associate Administrator


This report presents the results of our audit of the Food Safety and Inspection Service’s
implementation of Hazard Analysis and Critical Control Point System to ensure that
domestic meat and poultry products are safe and wholesome. This review is part of the
Office of Inspector General’s food safety initiative, which also included the District
Enforcement Operations’ compliance activities, oversight and controls over imported meat
and poultry products, and the agency’s procedures established for testing meat and poultry
products. Your response to the official draft report, dated May 18, 2000, is included as
exhibit D with excerpts and the Office of Inspector General’s position incorporated into the
Findings and Recommendations section of the report. Based on your response,
management decisions have been reached on Recommendations Nos. 7, 13, 14, and 19.
Please follow your agency’s internal procedures in forwarding documentation for final
action to the Office of the Chief Financial Officer.

Management decisions have not been reached on Recommendations Nos. 1 through 6, 8
through 12, 15 through 18, and 20. Management decisions can be reached once you have
provided the additional information outlined in the report sections, OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and the timeframes for implementation
of the remaining recommendations. Please note that the regulation requires management
decisions to be reached on all recommendations within 6 months of report issuance.


/s/
ROGER C. VIADERO
Inspector General
                     EXECUTIVE SUMMARY
                FOOD SAFETY AND INSPECTION SERVICE
              IMPLEMENTATION OF THE HAZARD ANALYSIS
                AND CRITICAL CONTROL POINT SYSTEM
                    AUDIT REPORT NO. 24001-3-At


                                     This report presents the results of our
      RESULTS IN BRIEF               audit of the Hazard Analysis and Critical
                                     Control Point (HACCP) inspection
                                     system, administered by the U.S.
         Department of Agriculture's (USDA) Food Safety and Inspection
         Service (FSIS). The purpose of our audit was to evaluate FSIS'
         implementation of the HACCP program and to determine whether
         the program was effective in ensuring the wholesomeness of the
         meat and poultry sold to consumers. This audit was part of the
         Office of Inspector General’s (OIG) food safety initiative, which also
         included reviews of imported meat, compliance operations, and
         USDA’s laboratory testing procedures.

            The HACCP system, which was recommended by USDA’s National
            Advisory Committee on Microbiological Criteria for Foods and
            endorsed by the scientific community, established seven principles
            for plants to implement in their food safety system. It replaced FSIS'
            longstanding program of meat and poultry inspection. Under the pre-
            HACCP system, the production of meat and poultry products was
            monitored at every stage by Government employees rather than by
            in-plant production managers. The HACCP program reversed this
            arrangement by allowing a plant to monitor itself. It gave industry,
            not Government, the primary responsibility for ensuring the safety of
            meat and poultry products. Industry was required to implement a
            HACCP system that identified and controlled (1) physical, chemical,
            and biological hazards to the production process and (2) a program
            of ongoing microbial testing that served as verification that the
            system was working.

            Overall, we concluded that FSIS and the industry were making
            progress in changing from the traditional inspection methodology to
            the type of science-based production control system that had been
            recommended by various studies over several years.            FSIS
            developed regulations and guidance that was consistent with the
            seven HACCP principles, and plants developed HACCP plans that


USDA/OIG-A/24001-3-At                                            Section I, Page i
             addressed these principles. In reviewing both the production
             process and the microbial testing programs under HACCP, we found
             no instances at plants visited in which plants or slaughterhouses
             flagrantly violated standards of environmental hygiene.             We
             concluded, however, that for HACCP to realize its full potential, FSIS
             must assert its authorities under the program to ensure that the
             intent of the program is met. Because FSIS was uncertain of its
             HACCP authorities and had not established needed procedures, it
             had reduced its oversight beyond what was prudent and necessary
             for the protection of the consumer. For example, FSIS does not
             require plants to provide inspectors with positive environmental
             microbial test results although these tests could provide an indication
             of sanitary deficiencies in the plant.

             Under the HACCP program, every meat and poultry plant must
             perform a hazard analysis to identity the food safety hazards likely to
             occur in its production process. Critical control points (CCP) also need
             to be documented where preventive measures need to be established
             to reduce or eliminate each of the hazards. In addition, the measures
             the plant can apply to control the hazards must be identified. In our
             review of 15 meat and poultry plants nationwide, we found that
             hazard analyses were incomplete and CCP’s were not established.
             Although FSIS inspectors were aware of these deficiencies, they did
             not take corrective action because of uncertainties of their authority
             to do so.

             •   Because HACCP plans constitute the basis for FSIS oversight,
                 plants can limit that oversight by reducing the number of CCP’s
                 identified in their plans. For example, although FSIS’ model
                 HACCP plan for fully-cooked products contained seven CCP’s,
                 most of the plants visited producing cooked products had only
                 one or two CCP’s. FSIS was consequently restricted in its
                 oversight of the plant’s products. None of the establishments
                 audited included end-product microbial testing as a CCP in their
                 plans, although, FSIS included such testing in its HACCP models.

             •   Although FSIS required a minimum of one CCP per process, we
                 found some plants listed none. Also, there were HACCP plans
                 that identified hazards for which no control points were listed. For
                 example, one plant correctly showed that cold storage could
                 introduce a hazard if the room temperature increased (to a level
                 where hazardous microbes could grow), but it did not show that
                 this was a CCP even though the plant itself was monitoring the
                 temperature of the cooler. FSIS agreed that this should be


Section I, Page ii                                        USDA/OIG-A/24001-3-At
               considered a control point after an OIG auditor pointed out the
               condition.

           •   HACCP plans also did not include scientific data to support the
               critical limits the plant had established, such as heating and
               cooling temperatures, and did not always document their
               responses to deviations from these critical limits. Critical limits
               established by the plants were primarily based on historical
               practice, not scientific data. Also, stated limits were inconsistent
               with practice.     One plant documented "zero tolerance" for
               deviations from one control, but the plant's HACCP plan allowed
               three discrepancies before action needed to be taken.

           Currently, FSIS does not review plants' microbial testing plans to
           ensure that sampling protocols are completed and followed, and it
           does not adequately secure samples sent to USDA labs for testing.
           One recent investigation in Florida found that samples under lax
           security had been tampered with, resulting in false test results. Test
           results from samples taken in violation of protocols could also be
           worthless.

           FSIS also needs to assert itself more aggressively in the plants'
           testing programs. In the current environment with the absence of
           FSIS guidance, plants are not testing for pathogens in end-products,
           and they are not notifying FSIS of all test results, particularly those
           showing the potential presence of pathogens. Because FSIS
           requires plants to notify it only if microbial tests confirm the presence
           of specific pathogens causing adulterated products, plants often limit
           their tests when the results indicate the presence of generic
           microbes. Thus, plants do not test end-products for specific
           pathogens like E. coli 0.157:H7 or Listeria monocytogenes (LM) even
           after positive generic E. coli or Listeria tests are obtained. We
           believe prudent oversight requires FSIS to be aware of all positive
           test results, generic or otherwise. FSIS should also expand their
           own testing to increase the number of tests for E. coli 0.157:H7, LM,
           and Salmonella and to include other pathogens in their testing
           requirements. FSIS’ current testing program is primarily aimed at
           three main pathogens and is insufficient as a reliable assessment of
           individual plants. It also does not include other major foodborne
           pathogens, such as Campylobacter, that are now detectable through
           microbial testing.

           In areas in which FSIS has asserted its oversight of the HACCP
           program, it has not always been effective. Although regulations



USDA/OIG-A/24001-3-At                                            Section I, Page iii
             require FSIS to verify the adequacy of each plant's Sanitation
             Standard Operating Procedures (SSOP) of the plant environment,
             we found that inspectors did not ensure that plants sanitation plans
             contained all required elements. We also noted that FSIS had no
             follow-up procedures to ensure that returned products were re-
             inspected or destroyed.

             •   At 4 of the 15 plants we reviewed, the SSOP’s approved by FSIS
                 did not include plant cleaning schedules and frequencies. At one
                 plant, violations of the standards were documented but no
                 corrective actions were required.      Unsanitary environments
                 jeopardize the wholesomeness of the meat and poultry produced
                 by the plant. (See Finding No. 11).

             •   Salmonella testing at one plant was never completed because
                 the FSIS laboratory did not inform the inspector at the plant that
                 some samples had to be discarded and additional replacement
                 samples were needed. (See Finding No. 7).

             •   National office documentation showed that field personnel were
                 not performing over 17 percent of the scheduled tasks assigned
                 to them. We found that many assigned tasks were invalid
                 because plant profiles had not been updated to reflect current
                 operations. Field offices were not required to explain why the
                 tasks were never performed. (See Finding No. 13).

             •   For plants with documented deficiencies, FSIS has not
                 established when corrective action needs to be taken or when an
                 action taken has proven inadequate. One plant we reviewed did
                 not respond to a documented deficiency for over 4 months. Four
                 plants had repetitive deficiencies even though they took
                 corrective actions. One of these plants had 102 deficiency
                 notices, one-third of which involved the same noncompliance
                 concerning fecal contamination. Since FSIS had set no limit to
                 the number of deficiency notices a plant could receive on the
                 same deficiency, no long-term correction was applied. (See
                 Finding No. 14).

             We concluded that FSIS' oversight of the HACCP program would
             improve if FSIS established an internal review of FSIS activities at
             meat and poultry establishments.      Although FSIS has a unit
             responsible to perform these reviews, it has not used that unit
             effectively in this area.




Section I, Page iv                                       USDA/OIG-A/24001-3-At
            FSIS also needs to gain access to plant records. Under its current
            system of oversight, FSIS requests access only to those documents
            responding to HACCP requirements. Consequently, plants have
            limited the information they provide in their HACCP documents, and
            regard even those documents as proprietary. For example, during the
            audit, some plants initially denied both the Inspector General’s and
            FSIS’ requests for testing information. The denial of records was
            elevated to the FSIS Headquarters, and the plants provided the
            information only after extended negotiations and under restrictive
            terms.

            We believe the key to establishing FSIS' authority over the HACCP
            program and gaining access to plant records is the Grant of
            Inspection. In order to obtain a Grant of Inspection under current
            procedures:

               •   plants must apply.

               •   agree to conform to Grant of Inspection regulations.

               •   be found to be in compliance with regulations during an FSIS’
                   survey of the establishment.

            We believe FSIS needs to enhance the Grant of Inspection so that it
            is a contract that stipulates exactly what is required of the plant to be
            recognized as operating under the HACCP assurances, and
            specifies what FSIS' authorities are over that plant's operations.

            During the audit, we issued three management alerts that identified
            weaknesses in FSIS oversight procedures. We reported that one
            plant had not met minimum requirements for HACCP plans. We also
            reported that two plants own microbial testing showed the potential
            for pathogens in the product, but these results were not available to
            FSIS inspectors.

                                     We recommended that FSIS should
  KEY RECOMMENDATIONS                strengthen its management controls to
                                     provide greater oversight over HACCP
                                     implementation, pathogen testing, and
         independent reviews of plant and inspection activities. FSIS should
         also expand the language contained in the Grant of Inspection
         agreement to include the requirements and responsibilities required
         of the plant under the HACCP program and FSIS’ authority,
         oversight, and access to information regarding the plant’s operation.


USDA/OIG-A/24001-3-At                                              Section I, Page v
             We also recommend that FSIS use the Grant of Inspection as a
             contract, or enforceable agreement between the Government and
             the establishment signed by all parties and subject to review and
             renewal.

                                     In its May 18, 2000, written response to
     AGENCY RESPONSE                 the draft report, FSIS was in general
                                     agreement with the findings and
                                     recommendations. However, FSIS did
         not always provide specific details, timeframes, and actions taken or
         planned for each of the recommendations. Its specific comments
         and OIG’s position are presented in the relevant sections of the
         report for each finding. FSIS’ entire response is shown in exhibit D
         of the report.




Section I, Page vi                                      USDA/OIG-A/24001-3-At
                                            TABLE OF CONTENTS



EXECUTIVE SUMMARY ............................................................................................i
    RESULTS IN BRIEF..............................................................................................i
    KEY RECOMMENDATIONS.................................................................................v
    AGENCY RESPONSE.........................................................................................vi
INTRODUCTION.......................................................................................................1
    BACKGROUND...................................................................................................1
    OBJECTIVES......................................................................................................7
    SCOPE ...............................................................................................................7
    METHODOLOGY.................................................................................................8
FINDINGS AND RECOMMENDATIONS.....................................................................9
    CHAPTER 1........................................................................................................9
    HACCP PLANS WERE NOT ALWAYS COMPLETE ..............................................9
    FINDING NO. 1..................................................................................................11
    RECOMMENDATION NO. 1...............................................................................16
    FINDING NO. 2..................................................................................................19
    RECOMMENDATION NO. 2...............................................................................23
    FINDING NO. 3..................................................................................................26
    RECOMMENDATION NO. 3...............................................................................28
    FINDING NO. 4..................................................................................................29
    RECOMMENDATION NO. 4...............................................................................30
    CHAPTER 2......................................................................................................31
    FSIS NEEDS TO PLACE GREATER EMPHASIS ON PATHOGEN TESTING.........31
    FINDING NO. 5..................................................................................................32
    RECOMMENDATION NO. 5...............................................................................35




USDA/OIG-A/24001-3-At                                                                            Section I, Page vii
                                             TABLE OF CONTENTS



   RECOMMENDATION NO. 6...............................................................................36
   RECOMMENDATION NO. 7...............................................................................37
   FINDING NO. 6..................................................................................................38
   RECOMMENDATION NO. 8 ...............................................................................39
   FINDING NO. 7..................................................................................................40
   RECOMMENDATION NO. 9...............................................................................42
   FINDING NO. 8..................................................................................................44
   RECOMMENDATION NO. 10 .............................................................................45
   CHAPTER 3......................................................................................................47
   FSIS NEEDS TO DEFINE ITS OVERSIGHT ROLE IN THE HACCP SYSTEM
   AND HOLD PLANTS ACCOUNTABLE FOR NONCOMPLIANCE .........................47
   FINDING NO. 9..................................................................................................48
   RECOMMENDATION NO. 11 .............................................................................52
   RECOMMENDATION NO. 12 .............................................................................52
   RECOMMENDATION NO. 13 .............................................................................53
   FINDING NO. 10................................................................................................54
   RECOMMENDATION NO. 14 .............................................................................55
   FINDING NO. 11................................................................................................55
   RECOMMENDATION NO. 15 .............................................................................57
   FINDING NO. 12................................................................................................58
   RECOMMENDATION NO. 16 .............................................................................59
   RECOMMENDATION NO. 17 .............................................................................60
   FINDING NO. 13................................................................................................60
   RECOMMENDATION NO. 18 .............................................................................62




Section I, Page viii                                                           USDA/OIG-A/24001-3-At
                                            TABLE OF CONTENTS



  FINDING NO. 14................................................................................................64
  RECOMMENDATION NO. 19 .............................................................................67
  RECOMMENDATION NO. 20 .............................................................................67
  EXHIBIT A – SITES VISITED..............................................................................69
  EXHIBIT B – NUMBER OF HACCP PLANS REVIEWED ......................................70
  EXHIBIT C – COMPARISON OF PLANT CCP’S TO FSIS MODEL........................71
  EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT ..................................75
  ABBREVIATIONS..............................................................................................91




USDA/OIG-A/24001-3-At                                                                     Section I, Page ix
                          INTRODUCTION

                                        The Hazard Analysis and Critical Control
        BACKGROUND                      Point (HACCP) program has been
                                        undergoing implementation since the
                                        beginning of 1998. Endorsed by the
          National Advisory Committee on Microbiological Criteria for Foods,
          HACCP offers a new approach to reducing hazards in the food
          supply by stressing the prevention of contamination before it occurs
          rather than dealing with it after its detection. Before the advent of
          HACCP, the U.S. Department of Agriculture’s (USDA) Food and
          Safety Inspection Service (FSIS) monitored the meat and poultry
          slaughter plants under a system of continuous inspection. Under
          HACCP, plants monitor their own production to identify and remove
          the threat of contamination. FSIS is responsible for oversight to
          ensure that the plants have implemented an adequate HACCP
          program.

           The HACCP program requires two types of microbial testing,
           Salmonella and Escherichia coli-Biotype 1 (generic E. coli ). All
           plants are required to pass a Salmonella testing series administered
           by the agency. Slaughter facilities must also perform generic E. coli
           testing and make the testing results available to FSIS inspectors.
           FSIS has also developed a directed testing program, outside of
           HACCP, to identify harmful pathogens, such as Listeria
           monocytogenes (LM) and E. coli 0157:H7. The directed testing
           program administered by FSIS is designed to provide assurances on
           a nationwide basis that pathogen reduction measures are working.

           The requirements of HACCP were contained in the Pathogen
           Reduction and HACCP rule, issued by USDA in July 1996. The rule
           requires plants to address each of seven principles in implementing
           their HACCP plans.

           •   Principle No. 1: Conduct a hazard analysis – Plants determine
               the food safety hazards that are likely to occur and identify the
               measures needed to control them. Hazards can be biological
               (bacteria, etc.); chemical (pesticides, etc.); and physical (metal
               fragments from machinery, etc.)




USDA/OIG-A/24001-3-At                                          Section I, Page 1
             •   Principle No. 2: Identify critical control points (CCP) - Plants
                 identify a point in the production process where controls can be
                 applied to eliminate the hazard.

             •   Principle No. 3: Establish critical limits for each control
                 point - Plants set the maximum and/or minimum values (such as
                 temperatures) at which a hazard (such as bacterial growth) must
                 be controlled.

             •   Principle No 4: Establish monitoring requirements - In-plant
                 quality control reviewers monitor the CCP’s to ensure their
                 operation.

             •   Principle No. 5: Establish corrective actions - Plants define
                 actions to be taken when monitoring discloses a deviation from a
                 critical limit.

             •   Principle No. 6: Establish record-keeping procedures -
                 Plants are required to maintain documentation of their hazard
                 analysis and HACCP plans, as well as records of their monitoring
                 of control points and establishment of critical limits.

             •   Principle No. 7: Establish verification procedures - Plants
                 must ensure that their HACCP plans accomplish their intended
                 goal.

             Since publishing the HACCP regulations in July 1996, USDA has
             issued several clarifications and modifications including new
             requirements that all HACCP plans must contain at least one CCP
             and must be self-contained documents that do not refer to good
             manufacturing practices as mechanisms for controlling hazards.

             In May 1999, FSIS published a series of generic HACCP plans to
             assist the industry in writing their own plant specific plans. The
             generic plans provide guidance on the elements that should be
             included in the documents and recommend CCP’s for the various
             processes covered. Examples of process flow diagrams are
             provided to illustrate the type of chart needed as the first step in
             performing the hazard analysis.




Section I, Page 2                                         USDA/OIG-A/24001-3-At
           The FSIS suggested process flow diagram for making fresh pork
           sausage, for example, follows:

           Figure 1. Process Flowchart



              RECEIVING          RECEIVING
              PACKAGING           NONMEAT
              MATERIALS         INGREDIENTS
                                                                       RECEIVING
                                                                         MEAT


                                  STORAGE
                                  NONMEAT                               STORAGE
                                INGREDIENTS                               MEAT
                                                                         (COLD)


                                                                        ASSEMBLE/
                                 ASSEMBLE/           GRIND/
                                                                          WEIGH
                                 PRE-WEIGH           BLEND
                                                                          MEAT
                                  NONMEAT
                                INGREDIENTS



                                                     SAUSAGE
                                                                          REWORK
                STORAGE                              STUFFER
               PACKAGING
               MATERIALS

                                                    PACKAGING
                                                       AND
                                                     LABELING




                                                    FINISHED
                                                    PRODUCT
                                                    STORAGE
                                                     (COLD)




                                                    SHIPPING




         The models also provide examples of the recommended elements to
         include in the hazard analysis. One page of the FSIS suggested
         hazard analysis form for raw ground product follows:




USDA/OIG-A/24001-3-At                                          Section I, Page 3
     Figure 2. Hazard Analysis
       Process       Food Safety     Reasonably       Basis         If Yes in Column 3,     Critical
        Step           Hazard         Likely to                    What Measures Could      Control
                                       Occur?                      be Applied to Prevent,    Point
                                                                   Eliminate, or Reduce
                                                                      the Hazard to an
                                                                     Acceptable Level
       Grind/      Biological –
       Blend       None
                   Chemical –
                   None
                   Physical –           Yes       Plant records    In-line magnets are        3P
                   Metal                          show that        installed on the
                   contamination                  during the       stuffing lines
                                                  grinding
                                                  process metal
                                                  contamination
                                                  is likely to
                                                  occur.
       Sausage
       Stuffer     Biological –
                   None
                   Chemical –
                   None
                   Physical - None
       Rework      Biological -         No        Rework left at
                   Pathogens                      the end is
                                                  condemned or
                                                  used in a
                                                  cooked product
                                                  at the plant.
                   Chemical –
                   None
                   Physical –
                   None

                 The hazard analysis page illustrates the identification of a CCP
                 (listed as “3P” in the model) for a physical hazard related to the
                 grind/blend process. A potential biological hazard was also identified
                 for the rework process step but was rated as not reasonably likely to
                 occur because the reworked product was either condemned or
                 cooked if any was left at the end of a production run. The analytical
                 process illustrated on the form page is to be followed for every
                 processing step shown on the process flowchart.

                 The FSIS model plan also shows how the CCP, or 3P, is to be
                 documented in the HACCP plan (1) a critical limit is set for the CCP,
                 (2) monitoring procedures are defined, (3) a system of records to
                 document monitoring and corrective actions is specified,


Section I, Page 4                                                  USDA/OIG-A/24001-3-At
              (4) verification procedures are listed, and (5) corrective actions for
              deviations above the critical limit are shown as illustrated below.

 Figure 3. Documentation of Critical Control Point
   CCP #     Critical      Monitoring        HACCP     Verification       Corrective Actions
    and      Limits        Procedures        Records   Procedures and
  Location                     and                     Frequency
                           Frequency
    3P       No metal    Maintenance      In-Line      Maintenance        Stuffing line supervisor
   Grind/    particles   personnel will   Magnet Log   supervisor will    will control and segregate
   Blend     to exceed   check                         verify in-line     affected product.
             1/32        the in-line      Corrective   magnet is          Maintenance personnel
             inches      magnets          Action Log   functioning.       will identify and eliminate
                         every two                                        the problem with the in-
                         hours.                        QA will verify     line magnets.
                                                       that the in-line   Preventive maintenance
                                                       magnets are        program will be
                                                       functioning as     implemented.
                                                       intended by        QA will run seeded
                                                       running a          sample through in-line
                                                       seeded sample      magnets after repair.
                                                       through the in-    All potentially
                                                       line magnets       contaminated product will
                                                       twice per shift    be run through in-line
                                                       (once in the       magnets and metal
                                                       AM and once        detector prior to shipment.
                                                       in the PM).



              The model HACCP plan also includes examples of other needed
              documents under HACCP. These include a product description
              showing such factors as end use, type of packing, intended
              customers, shelf life, labeling, handling requirements, etc., and
              suggested forms to use for CCP monitoring. Although the use of the
              model is not mandatory, it does provide an illustration of the types of
              documentation and records that should be available under HACCP.
              It also shows how the documentation flow follows the analytical
              process used in developing a HACCP program.

              In addition to requiring the development of HACCP plans, regulations
              specify three other requirements that plants must comply with:

              •   Plants must ensure hygienic facilities. They must develop and
                  implement written Sanitation Standard Operating Procedures
                  (SSOP) to document such activities as plant cleaning schedules
                  and to track adverse sanitary conditions that recur.




USDA/OIG-A/24001-3-At                                                         Section I, Page 5
             •     Slaughter plants must maintain a microbial testing program.
                   They must perform regular testing for generic E. coli, and they
                   must meet pathogen reduction performance standards for
                   Salmonella (plants producing raw Meat products also must meet
                   the Salmonella performance standards).

             •     Plants must ensure a product-safe environment. They must
                   implement a system of preventive controls designed to improve
                   the safety of the product, and they must maintain records
                   documenting that the controls are working as intended.

             Although the HACCP final rule was issued in July 1996, the
             implementation dates for plants were based on the size of the plants.
             The largest plants (500 or more employees) were required to have
             their HACCP plans in place by January 1998, small plants by
             January 1999. Very small plants (nine or fewer employees) had until
             January 2000. SSOP and E. coli testing requirements became
             effective in January 1997. Salmonella pathogen reduction standards
             became effective with the implementation dates of HACCP.

             In addition to the HACCP and SSOP programs, plants also develop
             their own procedures and follow the procedures and processes
             recommended by industry groups (Good Manufacturing Processes).
             These programs that are outside the documented HACCP plan are
             intended to provide additional controls to ensure food safety.

             Food borne disease may cause an estimated 76 million illnesses,
             325,000 hospitalizations, and 5,000 deaths in the United States each
             year according to the Centers for Disease Control. These estimates
             show that certain “Known Foodborne Pathogens” cause the following
             health problems.

             Table 1: Foodborne Pathogens
                       Disease/Agent       Illnesses      Hospitalizations   Deaths
                 Salmonella                   1,341,873             15,608        553
                 Listeria monocytogenes           2,493              2,298        499
                 Toxoplasma gondii              112,500              2,500        375
                  Campylobacter               1,963,141             10,539         99
                 E. coli 0.157:H7                62,458              1,843         52



             While plants are accountable under HACCP for producing safe food,
             FSIS is responsible for setting appropriate food safety standards,
             maintaining inspection oversight to ensure those standards are met,


Section I, Page 6                                            USDA/OIG-A/24001-3-At
           and maintaining a strong enforcement program to deal with plants that
           do not meet the regulatory standards. Approximately 7,500 Federal
           inspectors carry out inspection law in some 6,000 plants nationwide.
           FSIS conducts its inspection activities through its National office in
           Washington, D.C.; a technical service center in Omaha, Nebraska; 17
           district offices; and field offices where plants are located.

           In December 1999, the General Accounting Office (GAO) issued,
           “Meat and Poultry – Improved Oversight and Training Will Strengthen
           New Food Safety System,” Report No. GAO/RCED-00-16. In this
           report, GAO concluded that the HACCP regulations, along with
           implementing directives and other guidance, were consistent with the
           seven HACCP principles endorsed by the Advisory Committee. In
           addition, GAO reported that HACCP training for inspectors was
           generally adequate although weaknesses in the training program, such
           as the inspectors’ authority to ask for changes in the HACCP plans,
           when inspectors should collect Salmonella samples, and when it was
           appropriate to issue noncompliance reports, affected their ability to
           ensure consistent and effective oversight of the HACCP systems.
           GAO also concluded that the FSIS appeal process contained
           inconsistent and incomplete data that precluded FSIS from effectively
           analyzing the HACCP-related actions that were appealed or the extent
           to which plants appealed inaccurate reports. We coordinated with
           GAO representatives to avoid duplication of efforts.

                                      The overall objective of this audit was to
         OBJECTIVES                   review FSIS’ implementation of HACCP
                                      regulations and to determine the
                                      effectiveness of the program.
          Specifically, we determined whether plants (1) analyzed hazards and
          established CCP’s, (2) implemented microbial testing and other
          pathogen controls, and (3) developed control procedures, including
          SSOP’s, and maintained records of their effectiveness.

                                       The audit fieldwork was performed at the
            SCOPE                      FSIS National Office in Washington,
                                       D.C.; 6 district offices; and 15 field
                                       offices located at industry plants in
           Alabama, Arkansas, Iowa, Kansas, Minnesota, Missouri, Nebraska,
           and South Dakota (see exhibit A). The locations visited included 11
           plants that slaughtered poultry, swine, or cattle. (Ten of the
           slaughter plants also processed meat products.) We also visited four
           plants that processed only meat products and frozen foods. We
           reviewed FSIS policies and procedures at the district and field offices
           visited. Our reviews at the plant locations included evaluations of the

USDA/OIG-A/24001-3-At                                           Section I, Page 7
             plants’ written SSOP’s, HACCP plans, pathogen testing procedures,
             and responses to FSIS noncompliance reports. Our evaluation of
             HACCP plans included an indepth review of 57 of the 107 plans in
             effect at the 15 plants visited. (See exhibit B.) We also toured the
             plant locations and observed plant operations including pre-
             operational clean-up procedures and monitoring activities at the
             designated CCP’s. FSIS provided review officers from the technical
             service center in Omaha, Nebraska, to assist in our reviews and
             ensure our conclusions were technically accurate and consistent with
             regulations. We judgmentally selected the districts and plants to be
             visited. In selecting the sites to be reviewed, we attempted to obtain
             a variety of operations. We selected both problem plants and plants
             which FSIS records showed were operating satisfactorily. In making
             our selections we considered the number of violations cited by
             inspectors, assigned tasks not performed, laboratory test results,
             animals slaughtered, products processed, consultations with FSIS
             officials, and geographical areas.

             Fieldwork was conducted during the period April though December
             1999. We conducted this audit in accordance with Government
             auditing standards.

                                            To fulfill our objectives, we performed the
        METHODOLOGY                         following fieldwork.


             •      We analyzed documents and conducted interviews with FSIS
                    Headquarters officials.

             •      We contacted officials of the food industry and representatives
                    of the Centers for Disease Control and USDA’s Agricultural
                    Research Service (ARS).

             •      We reviewed FSIS’ regulations, instructions, procedures, and
                    studies; published reports; media releases; and other
                    Government reviews and studies.

             •      We conducted site visits to the FSIS National Office, FSIS’
                    technical service center, district offices, and field offices located
                    at industry plants for review and analysis.




Section I, Page 8                                            USDA/OIG-A/24001-3-At
                 FINDINGS AND RECOMMENDATIONS


CHAPTER 1                    HACCP PLANS WERE NOT ALWAYS COMPLETE

                    In order to accomplish its food safety mission, we believe that
                    everything that happens within meat and poultry establishments from
                    the receiving dock to the shipping dock, must come under FSIS'
                    oversight. We believe that the HACCP program is in effect an
                    umbrella covering the plant’s documented HACCP plan, its SSOP
                    program, and its good manufacturing processes program.           We
                    believe FSIS should have access to everything that happens
                    regarding meat and poultry from slaughter through processing -
                    including access to all records and pathogen testing results.

                    Under the HACCP system, Federal regulations require every meat
                    and poultry plant to determine the food safety hazards likely to occur
                    in its production process, list the CCP’s at which preventive measures
                    need to be established to reduce or eliminate each of the hazards,
                    and identify the measures the plant can apply 1. This information is to
                    be contained in a formal HACCP plan and must include all hazards -
                    biological, chemical, and physical - that may cause food produced by
                    the plant to be unsafe for human consumption. The regulations also
                    require the HACCP plan to be a self-contained document and not
                    refer to such extrinsic criteria as “good manufacturing practices” that
                    cannot be evaluated2. Failure of any plant under HACCP to develop
                    and implement an adequate HACCP plan and system may result in an
                    FSIS determination that the plant is producing adulterated products3.

                    We reviewed 57 HACCP plans from 15 plants nationwide, and found
                    that at least 1 plan was incomplete at 14 of these plants. Plant
                    officials’ neither identified all CCP’s nor listed all hazards to their
                    product, or even showed all the stages of their production that might
                    be exposed to hazards. Almost half the plans prepared by one plant
                    indicated that no food safety hazards were likely to occur during the
                    production process, a conclusion that FSIS does not believe possible


1
    9 Code of Federal Regulations (CFR) § 417.2(a)(1), and 9 CFR § 417.2.
2
    Federal Register, vol. 63, No. 20, dated January 30, 1998.
3
    9 CFR § 417.2(e).

USDA/OIG-A/24001-3-At                                                       Section I, Page 9
                    for any production process4. Nevertheless, on the strength of that
                    assertion, this plant listed no CCP’s and no preventive measures.
                    Nine other plants named their operating procedures as sufficient to
                    control existing hazards in lieu of establishing CCP’s. Most plants
                    tended to limit the number of hazards and CCP’s they reported
                    (thereby limiting FSIS oversight), even though the number of actual
                    controls in place was larger and generally appeared to satisfy the
                    HACCP requirements. Representatives from FSIS’ Technical Service
                    Center visited the plants’ with us and assisted us on our reviews of
                    plants’ HACCP plans.

                    FSIS inspectors and district office officials believed that plants
                    abbreviated their HACCP plans as a measure to reduce FSIS
                    oversight. Because the HACCP concept limits FSIS monitoring to
                    only those controls declared in the HACCP plan, plants can
                    distinguish between the controls available to Federal scrutiny and
                    those in actual operation. In some cases, plants have even declared
                    their HACCP plans’ proprietary documents and do not allow FSIS to
                    copy them or release their contents.

                    HACCP plans also failed to establish a scientifically based tolerance
                    for all of the hazards that were identified. Maximum temperature
                    requirements for coolers differed between plants processing similar
                    products. One plant required beef not to exceed 45 degrees prior to
                    boning; another plant allowed the beef to reach 55 degrees. Critical
                    limits were established by plants primarily based on historical practice,
                    not scientific data. Some tolerances were not even implemented. At
                    plants that prescribed temperature limits, corrective action was not
                    always taken when temperatures exceeded the limits.

                    We determined that FSIS did not enforce a greater disclosure in the
                    HACCP plans because it was unsure of its authorities. Although
                    FSIS had announced that it would treat failure to specify at least one
                    CCP for each food safety hazard as a failure to implement a HACCP
                    plan that conforms to HACCP requirements 5, it had not fully
                    implemented this notice. Inspectors-in-Charge (IIC) at each plant
                    review the HACCP plans using a checklist 6 that covers the minimum
                    regulatory requirements in 9 CFR 417 but there are no procedures
                    for FSIS to specifically approve the HACCP plans. Inspectors also



4
    Federal Register, vol. 63, No. 20, dated January 30, 1998.
5
    Federal Register, vol. 63, no. 20, dated January 30, 1998.
6
    FSIS Directive 5000.1, Attachment 2.



Section I, Page 10                                                USDA/OIG-A/24001-3-At
                    stated that plants could change their HACCP plans without notifying
                    FSIS of the change.

                    The inspectors either accept the plans as written or reject them
                    based on failure to meet regulatory requirements. The inspectors did
                    not know if they had the authority to require specific changes in the
                    plans. Also, district or other FSIS officials do not routinely review
                    HACCP plans as part of management control responsibilities.
                    Chapter 3 shows that FSIS had not performed independent reviews
                    to ensure programs under the food safety umbrella were operating
                    as intended. We are recommending that FSIS improve its oversight,
                    clarify requirements for HACCP plans including mandating minimum
                    CCP’s, and provide field personnel with clear authority to enforce this
                    mandate.

                                             Plants had not identified, documented
           FINDING NO. 1                     CCP’s in their food manufacturing
                                             processes or established corrective
    ALL CRITICAL CONTROL POINTS              measures for all CCP's. Some of the
        WERE NOT IDENTIFIED                  plants visited had developed HACCP
                                             programs prior to implementation of the
                                             regulatory requirements and had revised
              their existing program after the regulations went into effect. We found
              (1) plants did not develop CCP's for key processes, (2) the number of
              CCP's was generally reduced (frequently to one per plan) after
              implementation of HACCP, (3) plants with similar processes did not
              have similar CCP's and were not consistent with the FSIS model
              HACCP plans, and (4) plants frequently showed Good Manufacturing
              Processes (GMP), SSOP’s, USDA inspection activities, and plant
              operating procedures in lieu of CCP monitoring for identified hazards.
              Regulations require that the HACCP plans must contain a list of the
              CCP’s for each of the identified food safety hazards7. FSIS IIC’s cited
              a lack of specific guidance for identifying CCP’s and lack of authority
              to require additional CCP’s as the reasons for not requiring plants to
              establish needed CCP’s. Inspectors also stated that plants could
              change their HACCP plans without notifying FSIS of the change.
              Establishments need to set up and monitor CCP's appropriate for their
              processes to ensure food safety is not compromised and prevent a
              loss of control over their food production processes.




7
    9 CFR § 417.2 (c) (2).

USDA/OIG-A/24001-3-At                                                   Section I, Page 11
             A.      Plants Did Not Develop CCP's for Key Processes

                     FSIS inspectors at the plants, circuit supervisors, and district
                     managers did not always require plants to meet minimum
                     requirements for HACCP plans. For example in August 1999, we
                     issued Management Alert No. 3 to FSIS stating that 8 of 20
                     HACCP plans prepared by Plant L included no CCP's. These
                     plans indicated that no significant food safety hazards were likely
                     to occur during the production processes dealing with raw
                     product. (See Finding No. 3.) Therefore, the HACCP plans did
                     not include any CCP's where critical limits were established and
                     monitored, and where controls could be applied to prevent or
                     eliminate food safety hazards or reduce them to acceptable
                     levels. For example, the plant identified no CCP's for its pork
                     sausage, although FSIS' Generic HACCP Model, dated May
                     1999, lists six CCP's for raw, ground product. (See exhibit C
                     page 56.)

                     Plant L's assertion that there were no significant food safety
                     hazards likely to occur during those processes was doubtful.
                     The plant had a history of microbial contamination of products; it
                     had not passed established FSIS performance standards on
                     Salmonella testing (more than 6 of a series of 55 samples were
                     positive) for the first two series of tests before finally passing the
                     standards on its third attempt.

                     On March 25, 1999, FSIS national office officials developed a
                     model letter to be issued to plant management when inspection
                     personnel identified an establishment where all food safety
                     hazards, reasonably likely to occur, may not be addressed or
                     controlled in the HACCP plan. The letter, referred to as a "30-day
                     letter", gave a plant 30 days to reassess its HACCP plans, and
                     required the plant to provide scientific and technical data to
                     support any conclusion that it had no food safety hazards likely to
                     occur during its production process. However, FSIS did not send
                     plant L such a letter. The IIC said that she did not have a
                     problem with the lack of CCP's in the plant's HACCP plans.
                     Other inspectors at the plant said that they felt they had no
                     authority to question the HACCP plans.

                     The district manager told us that he was not aware that 8 of
                     20 HACCP plans at this plant had no CCP’s. Although he had
                     sent out 30-day letters to other plants in the district, the
                     responsible circuit supervisor had not identified this plant as



Section I, Page 12                                             USDA/OIG-A/24001-3-At
                requiring the letter. He said he had been told by both the IIC and
                plant personnel that the hazard analysis indicated there were no
                significant food safety hazards reasonably likely to occur during
                the processes covered by the eight plans. Therefore, he did not
                intend to take any further action concerning the lack of CCP's.

                In reply to Management Alert No. 3, the agency agreed to issue
                a 30-day reassessment letter to the establishment. The district
                office was to review all HACCP plans within the circuit to
                determine if similar conditions existed within other
                establishments under HACCP. In addition, the district manager
                was to address failures in the execution of inspection
                methodology by inspection personnel and frontline supervisors
                through the procedures identified under the supervisory
                performance system.

                We identified similar conditions for plants K and O. These plants
                had not established any CCP's for their raw, not ground
                products. A technical service center representative told us that
                at the initiation of HACCP, FSIS allowed slaughter and
                fabrication (cutting meat into commercial cuts, boning, etc.) to be
                under one HACCP plan. He said that if a plant had at least one
                slaughter CCP, inspectors might not have required a CCP for the
                raw, not ground fabrication process. It was his position now that
                each process should have a CCP.

                Plant C had not established a CCP for cooling hot dogs after
                cooking. We found serious deficiencies (i.e., the plant had no
                documented corrective actions or preventative measures to
                explain how deviations from minimum/maximum temperatures
                would be corrected and/or prevented in the plant’s chilling of hot
                dogs), which could pose a health threat. Without written
                procedures for controlling the cooling process, including
                corrective actions when temperature limits were exceeded, we
                could not readily determine whether the plant properly dealt with
                the food safety issues related to chilling hot dogs after cooking.

           B.   Plants Limited CCP's

                Our observation of plant operations showed that plants actually
                monitored many more points in the processes than they
                identified as CCP’s, and the HACCP plans did not appear to
                reflect all of the hazard controls actually in place. Also, plant F
                had already implemented its own HACCP program prior to
                implementation of the regulatory requirements, then revised that

USDA/OIG-A/24001-3-At                                          Section I, Page 13
                     program by reducing the number of CCP’s from six to one after
                     regulations went into effect. Therefore, although, the control
                     processes at the other five points continued in effect, plant F
                     was able to avoid FSIS oversight on them.

                     In addition, it is common for metal shavings to be incorporated
                     into ground meat products because of fabrication and grinding
                     operations. Only one of five plants with a raw, ground process
                     had established a CCP for metal detection. Our review at Plant
                     A found that metal detection was initially established as a CCP.
                     Although the plant continued to monitor product for metal, plant
                     management made the decision to delete this step from the
                     HACCP plan.

             C.      Plants with Similar Processes Had Widely Differing CCP's

                     FSIS inspectors told us that they believed that some plants
                     intentionally kept the number of CCP's low to reduce the
                     involvement of FSIS, reduce the likelihood that FSIS could find
                     justification to shut down the plant (i.e., withdraw inspection
                     service) and reduce likelihood of adverse or confidential
                     information becoming public.

                     Exhibit C shows that plants frequently established a minimum of
                     CCP's in comparison to the HACCP models issued by FSIS. For
                     example, only 2 of 11 plants producing raw, not ground product,
                     had established more than one of the four CCP's outlined in
                     FSIS’ model for that process. In addition, four plants having fully-
                     cooked products had established only one or two CCP’s that
                     corresponded to the seven CCP’s listed in FSIS’ model. (See
                     Exhibit C.)

             D.      Programs and Procedures Were Used in Lieu of CCP's

                     Plants showed GMP, SSOP, USDA inspection activities, and
                     plant operating procedures in lieu of establishing CCP’s for
                     identified hazards at 9 of the 15 plants. Regulations require
                     that HACCP plans must be self-contained documents and
                     references to programs and procedures outside of the HACCP
                     program are not sufficient. Plants frequently identified a hazard
                     as significant but cited programs and procedures in lieu of
                     establishing a CCP. In other cases, plants documented a
                     hazard as not significant and justified their decision by citing
                     programs and procedures they believed made the hazard not



Section I, Page 14                                            USDA/OIG-A/24001-3-At
               likely to occur. Consequently, inspectors found it very difficult
               to monitor non-CCP preventive measures in programs outside
               HACCP and questioned if they had the authority to require a
               CCP. As a result, it was unclear whether the programs and/or
               procedures cited in the HACCP plans were monitored by FSIS
               and provided effective controls or preventive measures for the
               associated food safety hazards.

               Using prerequisite programs, such as GMP's, SSOP's, and
               plant operating procedures outside HACCP as justification for
               determining that a food safety hazard is not likely to occur (not
               a significant hazard) is not acceptable. It is very difficult for
               FSIS to determine whether the prerequisite programs are
               effective in reducing the likelihood that specific hazards will
               occur. These programs have no documentation requirements
               to show that they will prevent a specific hazard in the production
               process. We noted that plants carried out extensive monitoring
               activities outside of their HACCP programs, which showed that
               FSIS needed the authority to verify these preventive or control
               measures on an on-going basis. For example, plants used
               detection devices to control metal particles from entering their
               products during the fabrication or grinding processes without
               including a CCP in their HACCP plans that subjected it to FSIS
               monitoring. In addition, FSIS has no assurance that plant
               operating procedures have been adequately developed and
               implemented. For example, the hazard analysis for Plant C
               cited operating procedures as justification for not having a CCP
               to prevent the growth of pathogens during storage of perishable
               products. Our review disclosed that the plant had not yet
               developed the written operating procedures referenced in the
               HACCP plan.

               The number of instances (processing steps) noted at the nine
               plants where GMP's, SSOP's, USDA inspection activities, and
               plant operating procedures were used in lieu of CCP's is shown
               below.




USDA/OIG-A/24001-3-At                                        Section I, Page 15
             Table 2: Prerequisite Programs Used in Lieu of CCP’s
                                        Number of Times                      Number of Times
                                Program Outside HACCP Shown As        Program Outside HACCP Shown
                                Preventive Action For a Significant   As Reason Hazard Not Considered
                  Plant                      Hazard                             Significant
                    A                              82                               0
                    B                              29                               0
                    C                               0                               4
                    E                               0                               1
                    F                               0                               2
                    H                               0                               7
                    I                              32                               22
                    M                               0                               4
                    O                               6                               0



                          The cited deficiencies occurred because the FSIS inspectors who
                          reviewed the plant HACCP plans either were not aware of all
                          requirements for HACCP plans or did not believe they could
                          require the HACCP plans to be changed for issues that did not
                          clearly constitute a failure to meet regulatory requirements. The
                          inspectors were faced with the choice to either reject the plans on
                          regulatory grounds or accept them as written. It should be noted
                          that the cases cited above would constitute a violation of
                          regulatory requirements because the HACCP plans would not
                          meet the intent of 9 CFR 417.

                          However, the requirement that HACCP plans must be self-
                          contained documents was not clearly stated in the published
                          regulations but was added in a clarification to the regulations in
                          the Federal Register dated January 30, 1998. 8

                                       Implement a system of oversight, such as
      RECOMMENDATION NO. 1             district office or independent reviews, to
                                       ensure HACCP plans contain minimum
                                       required CCP’s based on the HACCP
            models.     Issue instructions that provide clear guidance on
            requirements for establishing CCP’s and inspector’s authority to
            require changes to documented CCP’s. Revise the checklist used to
            evaluate HACCP plans accordingly, including:

                          a. mandating minimum CCP requirements based on type of
                             process, as indicated by the HACCP models,

8
    Federal Register/Vol. 63, No. 20/ Page 4562.


Section I, Page 16                                                      USDA/OIG-A/24001-3-At
                b. specifying that field office personnel have the authority to
                   approve CCP's and to require additional CCP’s as needed in
                   their assigned plants, and

                c. requiring the establishments to inform the IIC of any proposed
                   change in the HACCP plan, thereby allowing FSIS review
                   prior to the change.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                FSIS agrees that a system of oversight such as independent
                reviews is necessary. Development of the system of
                oversight i.e., the In-Depth Verification (IDV) has been
                underway for over one year. In Fiscal Year (FY) 2000, FSIS
                initiated the IDV Review. The IDV protocol is designed to
                evaluate the essential features of establishments’ Pathogen
                Reduction/HACCP systems. It was developed with input
                from the National Advisory Committee on Meat and Poultry
                Inspection. It verifies Pathogen Reduction requirements and
                includes scientific and technical criteria drawn from the
                National Advisory Committee on Microbiological Criteria for
                Foods (NACMCF). It contains 10 checklists addressing
                SSOPs, E. coli testing and HACCP requirements. Each
                checklist has a documentation component and a system
                verification component.

                FSIS issued instruction to provide clear guidance to plants
                on requirements for establishing CCPs and inspector’s
                authority in relation to CCPs. * * * FSIS agrees that there
                may be some inspectors who still may not fully understand
                their authority with regard to the PR/HACCP rule. * * * FSIS
                is conducting a series of National Supervisory Conferences
                to reinforce a full understanding of inspection authorities.
                Circuit Supervisors through work unit meetings will share the
                information covered in these meetings at the in-plant level.
                FSIS will also continue to issue policy directives and notices
                to explain inspection verification methods and regulatory
                actions.

                Furthermore, FSIS believes that PR/HACCP system
                implementation was conducted effectively within constraints
                of limited training and of a field force, which does not,

USDA/OIG-A/24001-3-At                                           Section I, Page 17
                     collectively, possess all the skills necessary to perform
                     inspection fully consistent with HACCP precepts. Now that
                     implementation has been completed, FSIS agrees that
                     additional instructions need to be developed for inspection
                     program personnel to begin assessing the completeness of
                     the HACCP plans.

                     FSIS will reaffirm to its inspection program personnel that
                     the Agency has sufficient authority to accomplish its
                     statutory mission of protecting the public health and welfare
                     of consumers by preventing the distribution of products that
                     are unwholesome, otherwise adulterated, or misbranded.
                     As a first step, FSIS has begun developing a series of
                     limited surveys, which should be completed by the end of
                     July 2000, to ascertain if there is need to make any
                     regulatory changes or new instructions pertaining to
                     HACCP. Furthermore, the Agency is developing an FSIS
                     Notice, which is intended to provide instruction to inspection
                     program personnel regarding a three-step approach on how
                     to verify establishment compliance with hazard analysis and
                     HACCP Plan requirements. This Notice should be issued
                     by October 2000.

                     FSIS will not approve the CCPs selected, or require
                     notification by the plant that changes have been made to the
                     HACCP plan. FSIS believes that its role is one of verification
                     that the HACCP plan is being implemented as defined by
                     the establishment, and that the scientific basis and rationale
                     for the HACCP plan is credible. FSIS will challenge the
                     adequacy of HACCP plans which are inadequately
                     supported. FSIS will not serve as a quality control function
                     for the establishment; the establishment is responsible for
                     producing safe product.

             OIG Position

             Although FSIS has implemented a system of oversight with
             independent reviews, we cannot reach management decision on the
             recommendation at this time. FSIS contends that it will not approve
             CCPs, or require notification by the plant that changes have been
             made to the HACCP plan.

             In verifying whether the scientific basis and rationale for the HACCP
             plan is credible, FSIS inspectors review CCPs and determine whether



Section I, Page 18                                           USDA/OIG-A/24001-3-At
             CCPs are sufficient to reduce or eliminate food safety hazards
             reasonable likely to occur. If CCPs are sufficient, the inspectors have
             in effect approved them.

             In addition, FSIS contends that it will not serve as a quality control
             function for the establishment. Although the establishment is required
             to verify its established controls, FSIS is responsible to ensure that
             establishments’ control processes are adequate and functioning. To
             reach management decision, we need the results of surveys and
             specific decisions made to revise regulations or instructions pertaining
             to HACCP. We also need to review the FSIS Notice regarding
             verification of establish compliance with hazard analyses and HACCP
             plan requirements. In addition, we concluded that it is essential for
             plant management to notify FSIS inspectors when changes are made
             to HACCP plans. This could be incorporated into the Grant of
             Inspection agreement. Without this requirement, plants could produce
             food from inadequate processes for extensive time periods without
             FSIS knowledge or verification. FSIS inspectors are already required
             to review HACCP plans when reassessments occur, but unless the
             plant notifies the inspectors they may not be aware of it.

                                        We found that critical limits and corrective
       FINDING NO. 2                    actions identified by plants were
                                        inadequate. (Plants were to establish
     CRITICAL LIMITS AND                critical limits for each CCP identified in
  CORRECTIVE ACTIONS WERE               the HACCP plan to control food safety
        INADEQUATE                      hazards. The critical limits were generally
                                        a numerical value, such as maximum or
                                        minimum          temperature,     maximum
          allowable defects, etc.) The critical limits were not always based on
          documented scientific data, prescribed corrective actions were not
          sufficient to control the identified hazard, and documentation was not
          sufficient to ensure proper actions were taken when critical limits were
          exceeded. In some cases, the prescribed corrective actions for
          deviations were either not appropriate or were not implemented.
          Further, FSIS established specific temperature requirements for some
          products but not others. FSIS inspectors did not ensure that critical
          limits were properly documented in the HACCP plans and that
          appropriate corrective actions were provided or documented when the
          limits were exceeded because they did not believe they had authority
          to require changes to HACCP plans. As a result, there was reduced
          assurance that hazards were properly controlled from monitoring
          critical limits and corrective actions for deviations from prescribed
          limits.



USDA/OIG-A/24001-3-At                                            Section I, Page 19
                   Federal regulations 9 state that the HACCP plan shall list the critical
                   limits of each CCP and specify that those limits shall be designed to
                   ensure that applicable targets or performance standards are met.
                   These regulations also state that the HACCP plan shall describe the
                   corrective action to be taken to ensure that the cause of the deviation
                   is eliminated and measures to prevent recurrence are established.

                   A.    Lack of Scientific Data to Support Critical Limits

                         There was no scientific data documented in plant files to
                         support critical limits established for various processes at seven
                         of the plants (Plants B, C, I, J, K, L, and M). We noted that
                         there were wide ranges in the maximum temperatures specified
                         for similar pork and beef processes at various locations (see
                         exhibit C and Table 3 below).




9
    9 CFR § 417.2 and 9 CFR § 417.3.


Section I, Page 20                                                USDA/OIG-A/24001-3-At
                  Table 3: Variations in Temperatures Used As Critical Limits
                      Product/
                                                                    PROCESS
                      Plant

                      Pork
                                     Slaughter - Cooler temperature cannot exceed 60 degrees.

                           K         Pork sausage - If the temperature of trimmings at the grinder exceeded 60
                                     degrees, corrective action was to be taken.

                                      Fabrication – Prior to cutting, carcasses cannot have a surface temperature
                            A        exceeding 45 degrees nor an average internal ham temperature exceeding 45
                                     degrees within 24 hours.

                                     Product - Prior to shipping variety meats, the dock temperature cannot
                                     exceed 50 degrees and the dock temperature for other products cannot exceed
                                     41 degrees. The trailer unit cannot exceed 40 degrees.

                                     Fabrication - Prior to cutting, carcasses cannot exceed 48 degrees, and the
                                     fabrication area room temperature cannot exceed 50 degrees.
                            C
                                     Pork sausage - If product temperature exceeded 45 degrees, grinding of
                                     product was to stop and corrective action taken.

                      Beef
                                     Fabrication – The surface temperature of meat was not to exceed 55 degrees
                                     prior to boning. (Plant documentation shows the boning CCP was set at 55
                            B        degrees because it was a temperature the plant could achieve and microbial
                                     testing at or below this temperature did not indicate excessive microbial
                                     growth.)

                                     Fabrication – Carcass surface temperature was not to exceed 45 degrees
                            I        prior to fabrication.
                      1
                          All temperatures are in Fahrenheit (F).



                                In contrast, we noted that poultry plants having similar
                                processes    also     had     similar maximum     temperature
                                requirements. According to technical service center personnel,
                                FSIS had set specific requirements for poultry products. 10
                                Temperature requirements had been considered for raw beef
                                and pork but never finalized.

                                Industry officials noted that it was very difficult and expensive
                                (particularly for small plants) to obtain scientific data to support
                                the establishment of critical limits.
10
     9 CFR §381.66.


USDA/OIG-A/24001-3-At                                                                    Section I, Page 21
                     B.   Corrective Actions Not Appropriate and/or Not Implemented

                          The prescribed corrective actions 11 to be taken for deviations
                          from critical limits were not appropriate for the deviation and/or
                          did not provide assurance that the problem was corrected at
                          four plants (Plants E, J, L, and M). For example, the
                          documented corrective action at Plant E for cases where the
                          temperature of raw, ground products exceeded 45 degrees
                          was to cool down the product or rework the meat into another
                          product. The plant’s HACCP coordinator said that since the
                          growth of pathogens could occur if the raw product exceeded
                          45 degrees, the appropriate corrective action would be to
                          rework (cook) the meat. The corrective measures for deviations
                          from the critical limits for 24 of 27 CCP’s at plant L and 8 of 12
                          CCP’s at plant J were not specific procedures related to the
                          product and process but rather were generic requirements
                          contained in the Federal regulations.          For example, the
                          corrective action shown for a CCP in plant L was:

                              Identify and eliminate the cause of the deviation.
                              Bring CCP under control. Establish measures to
                              prevent recurrence. Segregate and hold any affected
                              product.

                          We also found that the prescribed corrective actions were not
                          always followed at plants J and M. For example, in plant J, we
                          noted three instances where a temperature limit was exceeded.
                          The prescribed corrective action of cooling down the product
                          was only taken in two of the cases. At plant M, the internal
                          temperature of the product exceeded the critical limit at two
                          separate monitoring checks during one shift. There was no
                          documentation to show that any corrective action was taken.

                     C.   Critical Limit Documentation Discrepancies

                          At plants L and J, there were 16 cases where limits were unclear
                          or the monitoring activity occurred at a time that precluded
                          measuring the critical limit, (i.e., temperatures were taken either
                          before or after the time the product was required to meet the
                          limit). The critical limit at plant F for one CCP was documented
                          in the HACCP plan as "Zero Tolerance," but the plan stated that
                          if more than 3 of 10 discrepancies were noted, critical limits
                          were exceeded. At plant E, the critical limits for cooking beef
11
     9 CFR § 417.3


Section I, Page 22                                                USDA/OIG-A/24001-3-At
                for two HACCP plans did not include the time requirement
                associated with the specified cooking temperatures. Also, plant
                J's slaughter HACCP plan did not list the frequency to verify
                critical limits.

                                        Implement a system of oversight to
  RECOMMENDATION NO. 2                  ensure HACCP plans contain adequate
                                        critical limits and corrective actions are
                                        proper including:

                 a. issue instructions that provide clear guidance on
                    requirements for establishing critical limits and clarify the
                    authority of FSIS to require changes to critical limits
                    documented in the HACCP plan,

                 b. provide additional guidance (such as maximum
                    temperatures for raw beef and pork) and scientific data to
                    assist plants in establishing critical limits for standard types
                    of processes,

                 c. require plants to provide documentation of the scientific data
                    used to support critical limits for their manufacturing
                    processes, and

                 d. strengthen the supervisory and independent review process
                    to ensure critical limits and corrective actions for deviations
                    from critical limits are appropriate, documented, and can be
                    verified.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                FSIS believes that it has issued instructions that provide
                clear guidance on requirements for establishing critical
                limits. (See 9 CFR 417.1 and 417.2.) It also believes that
                inspector authorities are clear, and that it is contrary to the
                philosophy of the PR/HACCP regulation for inspectors to
                “require” changes to critical limits or corrective actions
                documented in the HACCP plan. As stated by the
                NACMCF, strong plant management commitment is
                required for successful implementation of a HACCP plan,
                because it provides company employees with a sense of
                importance of producing safe food. FSIS believes that
                having inspectors “require” changes to the HACCP plan, as

USDA/OIG-A/24001-3-At                                           Section I, Page 23
                     suggested by this recommendation, would undermine the
                     effectiveness of the HACCP system within the plant. In
                     cases of noncompliance, or at any time when inspectors
                     have a concern about the safety or product being produced,
                     such as inadequate critical limits or ineffective corrective
                     actions, inspectors have effective authorities under the
                     HACCP regulation which they can use to address the
                     situation. * * *

                     With regard to recommendation (b), FSIS intends to provide
                     additional guidance, and scientific data to assist plants in
                     establishing critical limits for standard types of processes;
                     however, it will not specify “maximum temperatures”. FSIS
                     will prepare appropriate guidance for inspection program
                     personnel, and, if necessary, compliance guidance for
                     industry to address performance standards.

                     FSIS has a regulatory reform initiative to convert current
                     command-and-control regulations (which do specify things
                     such as maximum temperatures) to performance standards
                     (e.g., FSIS Directive 7111.1).           The corresponding
                     compliance guidance documents produced by FSIS are
                     being made available to establishments in an effort to
                     provide industry with specific control limits (e.g., time and
                     temperature) to achieve the performance standards. The
                     establishments can then incorporate the guidance
                     procedures into their HACCP plans and demonstrate,
                     through verification and validation, that the procedures are
                     being implemented properly and are effective. It is the
                     responsibility of establishments to identify specific
                     temperatures that are necessary to ensure that safe food is
                     produced.

                     Scientific data to assist plants in establishing critical limits for
                     standard types of processes were provided through the
                     generic HACCP models (references to scientific papers,
                     etc.). There are also many sources of such assistance that
                     have been widely available to plants during HACCP
                     implementation (universities, Extension Service personnel,
                     industry association materials). It is not the role of FSIS to
                     be the exclusive provider of scientific data to assist plants.
                     FSIS will continue to seek scientific information from the
                     scientific community at large, as industry should as well, and
                     FSIS will continue to provide scientific data as it relates to



Section I, Page 24                                               USDA/OIG-A/24001-3-At
                rulemaking and policy development. However, FSIS will not
                take on the responsibility for providing such data to plants.
                FSIS’ role in relation to scientific data and HACCP plans is
                to evaluate through verification activities the scientific and
                other supporting data plants use as the basis for decision-
                making used to develop HACCP plans.

                Therefore, FSIS agrees with recommendation (c) to “ensure
                that plants provide documentation of the scientific data used
                to support critical limits.” FSIS established the TSC in
                Omaha, Nebraska, in part to serve as a resource to
                inspection personnel and industry representatives when
                questions arose regarding such scientific data or critical
                limits.   The TSC hosted the HACCP Implementation
                Technical Conference in August 1999, to reinforce plants’
                responsibilities relative to validating HACCP plans with
                documentation such as scientific data. FSIS agrees to
                reinforce this with field inspection personnel through
                avenues such as the National Supervisory Conferences.

                FSIS agrees with recommendation (d) and has established
                the IDV review process as an independent review of plants’
                SSOPs and HACCP plans. The IDV protocol includes
                scientific and technical criteria drawn from the NACMCF.

           OIG Position

           FSIS inspectors can effectively require changes to the HACCP plan
           when inadequate food safety systems are found by withholding
           inspection until HACCP plan reassessment is performed to address
           the deviations. In reviewing HACCP plans, FSIS inspectors were
           either not requiring plants to provide scientific, technical, or regulatory
           documentation to support critical limits, or not questioning inadequate
           support provided by plants. Further instructions are needed for FSIS
           inspectors on what constitutes acceptable scientific, technical, or
           regulatory documentation.        With regard to section (b) of the
           recommendation, we agree with FSIS’ reform initiative to convert old
           regulations to new performance standards in an effort to provide
           industry data with specific control limits to achieve performance
           standards. However, to accept management decision, we need a copy
           of this Directive and the expected implementation date of this initiative.




USDA/OIG-A/24001-3-At                                            Section I, Page 25
                   With regard to sections (c) and (d), more specific details are needed on
                   how FSIS will ensure that plants provide adequate supporting
                   documentation and timeframes for completion.

                                         Hazard analyses were not complete or
          FINDING NO. 3                  were inaccurate.        Specifically, the
                                         analyses did not always identify or
      HAZARD ANALYSIS DID NOT            address all microbiological, physical, and
      SHOW ALL LIKELY HAZARDS            chemical food safety hazards that were
                                         reasonably likely to occur 12. We found
                                         HACCP plans and processes where no
             CCP's were identified because the hazard analysis did not show
             existing significant food safety hazards. (See Finding No. 1.) In
             addition, some hazard analyses omitted products and manufacturing
             processes, so no evaluation of hazards or identification of CCP's was
             done for the products or processes left out. We also found that the
             description of listed hazards was not always adequate to allow
             evaluation of the safety risk and the appropriateness of assigned
             preventive measures. Some hazard analyses were also not
             sufficiently documented to show whether all likely food safety
             hazards were identified and considered.

                   Because plant analyses did not show all food safety hazards, there is
                   reduced assurance that the plants properly identified and provided
                   preventive measures for the hazards. This reduced assurance
                   increases the possibility of contaminated or adulterated products
                   entering the market place. FSIS IIC’s cited a lack of specific
                   guidance for hazards, along with a lack of authority to require
                   specific hazards to be addressed, as the reasons for permitting
                   incomplete and inaccurate hazard analyses.

                   We reviewed 57 of 107 HACCP plans at the 15 plants and evaluated
                   the plants’ hazard analyses with the assistance of review officers
                   from FSIS’ technical service center in Omaha, Nebraska. Based on
                   our reviews and the opinions of the officials assisting us, we
                   identified defects in the analyses for one or more of the plans
                   reviewed at 4 of the 15 plants.

                   A.    All Food Safety Hazards Had Not Been Analyzed

                         The hazard analysis deficiency we found with the most serious
                         impact was where existing significant food safety hazards had

12
     9 CFR § 417.2(a).



Section I, Page 26                                              USDA/OIG-A/24001-3-At
                not been identified or analyzed, and a determination made on
                the need for additional CCP's at the plant. For example, we
                found product lines in plants F and L and processing steps in
                Plants D and H that were omitted from the hazard analyses.
                The manufacturing processes for the omitted products and
                steps had not been evaluated to determine if food safety
                hazards existed and if additional CCP's were needed.

           B.   Food Safety Hazards were not Adequately Described

                The description of listed hazards in the hazard analyses of one
                or more HACCP plans reviewed at plant L was not sufficient to
                allow an evaluation of the actual risk associated with the
                process and appropriateness of the designated preventive
                measure. The hazard analysis did not describe the hazards in
                enough detail to determine the actual nature of the hazard.
                Scalding agents were listed as a chemical hazard but it was not
                clear if the agents were toxic, carcinogenic, or caused allergic
                reactions (either mild or life threatening). The appropriateness
                of assigned preventive measures could vary depending on the
                actual nature of the chemical hazard.

           C.   Analyses Were Not Documented to Show All Likely Hazards
                Were Considered

                The hazard analyses at plant D did not document any physical
                or chemical hazards as a possibility even though other plants
                had considered these types of hazards. The only hazard shown
                in the hazard analyses for the eight HACCP plans was
                “microbial.” The hazard analyses at the other plants visited
                showed that all three types of hazards were considered but
                physical or chemical hazards were usually shown as not
                applicable or not likely. The hazard analyses appeared to
                concentrate primarily on biological hazards.

           Improvements are needed in plants’ hazard analyses. All product
           lines and processing steps need to be evaluated to determine if food
           safety hazards exist. Hazard analyses also need to be described in
           sufficient detail to ensure that evaluation of actual risk and
           preventative measures assigned by the plants were appropriate. In
           addition, more emphasis is needed on plants’ evaluation of physical
           and chemical hazards within the processing environment.




USDA/OIG-A/24001-3-At                                        Section I, Page 27
                                            Implement a system of oversight to
  RECOMMENDATION NO. 3                      ensure that the hazard analyses include
                                            all food safety hazards that are
                                            reasonably likely to occur:

                      a. Work with plant management to review the hazard analyses
                         for completeness and accuracy,

                      b. ensure that scientific and technical data have been provided
                         to support conclusions that processes do not pose any food
                         safety hazards that are reasonably likely to occur.

                     c.   provide the district office with clear authority to enforce the
                          requirement to address identifiable hazards, as required by
                          the HACCP regulations.

             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated:

                     FSIS agrees that hazard analyses must be conducted to
                     determine the food safety hazards reasonably likely to occur
                     in the production process (9 CFR 417.2, NACMCF Hazard
                     Analysis and Critical Control Point Principles and Application
                     Guidelines). FSIS disagrees with recommendation (a),
                     “work with plant management to review the hazard analyses
                     for completeness and accuracy,” for reasons cited in earlier
                     FSIS responses regarding the role of industry in taking
                     responsibility for HACCP plans.            Having inspection
                     personnel review plants’ hazard analyses for completeness
                     and accuracy are tantamount to “approving” the plant’s
                     hazard analyses.          However, FSIS agrees with
                     recommendations (b) and (c). Through verification and
                     recordkeeping activities, FSIS inspection personnel are
                     required to ensure that scientific and technical data are
                     provided to support conclusions in the HACCP plan. If
                     inspection personnel have questions about the adequacy of
                     this data, they can either contact the TSC or request the
                     plant to provide clarification.         If, as inferred by
                     recommendation (c), the establishment has not addressed
                     hazards that are reasonable likely to occur, inspection
                     personnel have enforcement protocols to apply, 9 CFR
                     417.6.



Section I, Page 28                                            USDA/OIG-A/24001-3-At
                   OIG Position

                   FSIS inspectors are already required to review initial HACCP plans
                   and plans after reassessments. As part of this review, inspectors are
                   required to review this plant’s hazard analyses. We found that in many
                   cases, these reviews were not sufficient to detect food safety hazards
                   that were not addressed in the HACCP plans. Without more intensive
                   reviews by FSIS inspectors, plants operating with these HACCP
                   systems may not produce safe and wholesome meat and poultry.
                   Therefore, to reach management decision, FSIS should provide
                   specific plans (along with associated timeframes) that will ensure
                   needed improvements in plants’ hazard analyses.

                                          Flowcharts had not been prepared for all
           FINDING NO. 4                  processes in the plants, and those that
                                          had been prepared did not always fully
     FLOWCHARTS DID NOT SHOW              document the production process. In
     ALL PRODUCTION PROCESSES             addition, some products produced by the
                                          plants were omitted from the HACCP
                                          plans and production flowcharts. Plants
              are to use the flowcharts to identify potential food safety ha zards at
              each process. Consequently, FSIS' ability to ensure food safety was
              impaired because FSIS relies on the flowcharts to identify processes
              and points to monitor.

                   Federal regulations 13 state that a flowchart describing the steps of
                   each process in the establishment shall be prepared and the
                   intended use or consumer of the finished product shall be identified.
                   Although these regulations support the need for accurate flowcharts,
                   FSIS has not exercised its authority to demand them. The IIC at
                   each plant reviews the HACCP plan and either rejects it as not
                   complying with regulations or accepts it as written, but lacks the
                   authority to require changes in it.

                   We reviewed 57 of 107 HACCP plans at the 15 plants and evaluated
                   the production flowcharts included in the plans with the assistance of
                   review officers from FSIS’ technical service center. We identified
                   defects in the production flowcharts for one or more of the plans
                   reviewed at 8 of the 15 plants. Products, production processes, or
                   individual processing steps were omitted from the flowcharts or the
                   processing flow was not accurately documented. For example, at
                   plant F, the production of offal products (i.e., liver, tripe, tongue) was
                   not shown on the flowchart and the chart did not show the

13
     9 CFR § 417.2(a)(2).

USDA/OIG-A/24001-3-At                                                    Section I, Page 29
             processing flow for the head boning operation. At plant L, the
             flowchart did not document the production of beef bacon. Other
             noted defects in flowcharts were:

                •    Steps related to receiving ingredients (including meat
                     products from other plants) and other materials used in the
                     production process were omitted (plants I, J, and M).

                •    The processing flow (including disposition or transfer of
                     products to other processes) was unclear or not documented
                     (plants D, I, J, and L).

                •    Significant steps in the processing, such as trimming
                     carcasses and reworking product, were omitted (Plants D, F,
                     H, I, and L).

                •    The location of a CCP or testing for a CCP was not accurately
                     shown (Plants G and I).

             Plant officials generally agreed to either revise the charts as needed
             or further study the issue. In two cases, they questioned our
             interpretation of how the flowcharts should be documented.

                                     Implement a system of oversight, to
  RECOMMENDATION NO. 4               include management reviews and/or
                                     independent       reviews      requiring
                                     establishments to correct flowcharts to
        reflect the establishment’s actual operations.

             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated: “FSIS
             believes that its role is one of verification that the HACCP plan is being
             implemented as defined by the establishment, and that the scientific
             basis and rationale for the HACCP plan is credible. FSIS will
             challenge the adequacy of HACCP plans.”

             OIG Position

             FSIS’ response does not address this recommendation. FSIS should
             provide specific details on how the inspectors’ review of HACCP plans
             will better detect plants’ incomplete flowcharts.




Section I, Page 30                                          USDA/OIG-A/24001-3-At
                 FSIS NEEDS TO PLACE GREATER EMPHASIS ON
CHAPTER 2
                 PATHOGEN TESTING

           One of the keys to the success of the HACCP system is the
           technological advance in pathogen testing. Laboratory tests are
           capable of identifying a host of microbiological agents whose
           presence in meat and poultry had thus far been undetermined. As part
           of our FSIS initiative, we also performed an audit to assess the
           adequacy of FSIS lab testing programs. Under HACCP, FSIS meat
           and poultry producing establishments maintain their own testing
           programs. Slaughter plants are required to test for generic E. coli.
           FSIS is required to test for Salmonella. In addition, FSIS’ directed
           testing program (not part of HACCP) tests for other harmful
           pathogens, such as E. coli 0157:H7 and Listeria monocytogenes (LM).
           Plants may voluntarily test for specific pathogens and other generic
           pathogens, but they are not required to do so.

           The seriousness of pathogens in meat is illustrated by a case that
           occurred in late 1998, where 101 people became ill apparently from
           eating meats contaminated with LM. Of those who became ill, 15 died
           and 6 suffered a miscarriage or stillbirth. The plant that produced the
           meats had a history of positive tests for generic Listeria in the
           environment and on its product. However, FSIS inspectors had no
           knowledge of the presence of these bacteria because notification was
           not required. FSIS' nationwide sampling programs found that over 40
           percent of raw ground chicken and 5.7 percent of sliced ham and
           luncheon meats tested positive for LM. Overall, 3 percent of cooked
           product tested positive.

           During our review, we found that FSIS field employees needed the
           authority to require plants to expand their pathogen testing and to
           notify FSIS of positive test results. Under current procedures, plants
           that practice voluntary pathogen testing need not test for specific
           strands of E. coli, even after they detect the presence of generic E.
           coli, and they need not notify FSIS, even if their generic test results
           are positive (see Finding No. 9). Plants also need not test for any
           form of Listeria or any emerging pathogens, such as Campylobacter
           that causes an estimated 99 deaths and 1.9 million illnesses each
           year.

           FSIS also needs to increase its oversight of plant testing protocols and
           improve its security of laboratory samples gathered. Generally, FSIS
           inspectors do not review the protocols to ensure they are based on

USDA/OIG-A/24001-3-At                                          Section I, Page 31
                 scientific standards and do not secure FSIS samples against
                 tampering. These conditions reduce assurances that test results
                 accurately reflect conditions at the plants. In a recent Office of
                 Inspector General (OIG) Investigation case in Florida, officials at one
                 plant opened FSIS’ samples before they were shipped and sanitized
                 the meat to eliminate microbial contamination.

                 FSIS’ testing program also does not always ensure that production
                 was subjected to testing. We found that rigid timeframes and poor
                 communication have allowed some products to enter the market
                 without being subjected to testing for pathogens. Tests on seasonal
                 products did not always fall within FSIS’ testing timeframes in the
                 directed testing program, and a Salmonella series test was stopped
                 prior to completion.

                                      Pathogen reduction is achieved when
       FINDING NO. 5                  HACCP performance standards are
                                      established and met.          FSIS did not
EXPANDED PATHOGEN TESTING             establish  standards     that required plant
WOULD INCREASE FOOD SAFETY HACCP plans to include pathogen testing
                                      of the plant environment, product contact
                                      surfaces, or ready-to-eat products. FSIS
          had limited testing to Salmonella and generic E. coli. and did not
          require plants to test for other known pathogens, such as E. coli.
          0157:H7, and LM. Although FSIS recently required plants to reassess
          their HACCP plans for LM, no documentation of the review was
          required and instructions did not specifically require plants to establish
          a CCP to test for the pathogen14. One of the keys to the success of
          HACCP is microbiological testing, and sound management practices
          dictate that known harmful pathogens should be monitored through an
          effective testing program.

                 Industry officials purchasing meats from HACCP plants informed us
                 that they routinely require additional microbiological tests for
                 pathogens as part of the purchase contracts. These tests are for
                 pathogens, such as E. coli 0157:H7 and LM, that are not required by
                 FSIS, but are needed to meet the individual company food safety
                 standards.




14
  Federal Register/Vol. 64, No. 101 (May 26, 1999), Pages 28351-28353; Listeria Guidelines for Industry (May
1999); FSIS Notice 17-99 (June 17, 1999); and FSIS Notice 23-99 (August 3, 1999).




Section I, Page 32                                                         USDA/OIG-A/24001-3-At
                  Under HACCP, slaughter plants are only required to test for generic E.
                  coli, which aids in evaluating the effectiveness of their sanitation
                  procedures and the possible presence of pathogens. FSIS performs a
                  testing series to ensure plants comply with established Salmonella
                  standards. Under its directed testing program, FSIS also tests for
                  specific pathogens, such as E. coli 0157:H7, and LM on a nationwide
                  basis. (A test revealing the presence of a specific pathogen means
                  that the product is regarded as adulterated, while a test revealing
                  nonspecific microbes does not.) However, although FSIS tests are
                  more meaningful than plant tests concerning the wholesomeness of
                  the product, the number of directed tests FSIS obtains from an
                  individual plant is generally not sufficient to assess reliability on an
                  individual plant basis.

                  In May 1999, after the tragedy referred to earlier in which 15 people
                  died after consuming LM-tainted hot dogs, FSIS advised
                  manufacturers of ready-to-eat meat products that establishments must
                  reassess their HACCP plans. FSIS took the position that LM
                  contamination should be considered to be reasonably likely to occur in
                  the production of products, especially if an establishment has
                  produced products adulterated with LM or is producing ready-to-eat
                  products susceptible to such contamination in an environment that is
                  not known to be free of this pathogen.

                  At the time of our field visits, none of the six plants producing ready-to-
                  eat products had included plant environmental or final product testing
                  as a CCP. Generally, plants had established microbiological testing
                  programs outside of HACCP, but they did not test for specific
                  pathogens, which could result in the product being considered
                  adulterated. For example, although plant H did not mention such
                  testing in its HACCP plan, it tested the environment and final product,
                  but only for the generic Listeria species. Plant C's HACCP plan
                  justified not establishing a CCP by claiming that testing was done of
                  both product and environment. However, our review showed that only
                  environmental testing was performed.

                  As reported in Finding No. 9, plants did not inform FSIS when they
                  developed a history of frequent positive generic tests on contact
                  surfaces and products. FSIS' industry guidance 15 suggests that if
                  positive samples are found on product contact surfaces for samples
                  indicated in the HACCP plan for generic Listeria, the next lot of
                  product produced from the line should be sampled and tested for LM.
                  (If a sampled lot already in commerce test positive, it will be subject to
                  recall.) This guidance further suggests that an end-product sampling
 15
      Listeria Guidance for Industry (May 1999), FSIS Internet.

USDA/OIG-A/24001-3-At                                                   Section I, Page 33
                  program for ready-to-eat products may serve as verification of the
                  HACCP plan.

                  To encourage plants to take greater responsibility for the
                  wholesomeness of their product, FSIS developed procedures that
                  may in fact have limited its ability to identify products containing
                  pathogens 16. Under these procedures, FSIS inspection personnel
                  generally may not collect raw ground beef samples to be tested for E.
                  coli 0157:H7 at plants that have pathogen reduction interventions on
                  beef carcasses in place. Plants under this program are not required to
                  notify FSIS of positive test results. In lieu of pulling a sample for FSIS
                  testing when a request is received from the National Office’s directed
                  sampling program, inspectors are limited to reviewing plant records for
                  positive test results within the last 6 months.

                  Based on data from FSIS and Centers for Disease Control (CDC),
                  there are other known pathogens that pose danger to consumers.
                  Foodborne disease may cause an estimated 76 million illnesses,
                  325,000 hospitalizations, and 5,000 deaths in the U.S. each year
                  according to the CDC. CDC reported that Campylobacter has been
                  the number one pathogen causing foodborne illnesses, and
                  Salmonella and LM cause the most foodborne deaths. In addition,
                  significant levels of both Campylobacter and LM were reported for
                  some products in baseline studies conducted by FSIS prior to the
                  implementation of HACCP.

                  FSIS' testing ideology appears to be more reactive than proactive to
                  testing for emerging foodborne pathogens. An FSIS National Office
                  official told us that while there is a zero tolerance standard for LM on
                  ready-to-eat product, there is no consensus on standards for Listeria
                  on raw products including ground products. The regulations provide
                  specific authority to impose standards on Salmonella. FSIS does not
                  have standards for testing other pathogens in products or on
                  environmental and contact surfaces. The FSIS official believed it
                  was not FSIS' role to require plants to test ready-to-eat product for
                  pathogens such as Listeria and Campylobacter. He believed that
                  FSIS should focus the plant's attention on sanitation problems, and
                  that it should be left to the plant to decide how to ensure it produces
                  a safe and wholesome product.




16
     FSIS Directive 10,010.1 (February 1, 1998).




Section I, Page 34                                               USDA/OIG-A/24001-3-At
            ARS supports FSIS in implementing HACCP by providing improved
            sampling protocols, user friendly pathogen identification methodology,
            technology to provide microbiological controls, and information to base
            standards for processing specific products. ARS research provides
            for the development of methods to ensure food safety through
            microbial sampling technologies to more accurately estimate the true
            burden of food products covered by HACCP.

            We believe that FSIS is not fully addressing the danger posed by
            known and other new or emerging foodborne pathogens. FSIS may
            be placing undue reliance on plants that may be unable or unwilling to
            take necessary action in the face of repeated tests showing the
            presence of potentially harmful microbes.

            For example, we issued a management alert for plant H because the
            plant did not notify FSIS inspectors when Listeria was found in their
            voluntary environmental and product pathogen testing programs.
            Inspectors became aware of the problem by questioning plant officials
            why some inventory had remained in the plant for an extended period.
            An employee informally told the inspectors of the Listeria problem.
            The product in question was subsequently destroyed after we visited
            the plant.

            The Grant of Inspection (Form 5200-1) is the only agreement between
            the plant’s management and FSIS. The Grant of Inspection is a one-
            page form that does not spell out important plant responsibilities, such
            as responsibilities for maintaining sanitation records and FSIS
            notification when a plant’s pathogen testing identifies adverse
            conditions. Also, the Grant of Inspection does not address FSIS
            authority to gain access to all plant pathogen test records.

            We concluded that consumer safety would be improved if plants using
            voluntary programs were required to immediately report positive test
            results and if provisions were made for routine verification testing by
            FSIS.

                                       Develop and implement procedures that
  RECOMMENDATION NO. 5                 provide FSIS employees at the
                                       appropriate level with the authority to
                                       require HACCP plans to include pathogen
        testing of product environment, contact surfaces, and final products,
        particularly if a plant has a history of positive test results for microbes
        such as Listeria.




USDA/OIG-A/24001-3-At                                           Section I, Page 35
             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated that:

                     FSIS has clear authority to enforce the requirements of the
                     HACCP regulations. HACCP is an effective preventive
                     system and a properly designed system includes
                     microbiological validation and verification by the
                     establishment. Moreover, FSIS believes that microbiological
                     verification is an appropriate responsibility of FSIS. FSIS is
                     pursuing a number of microbiological-based performance
                     standards which would further ensure that the
                     establishments are adequately addressing food safety.
                     FSIS is especially concerned about the presence of
                     pathogens on ready-to-eat products and in the production
                     environment, and FSIS is now evaluating the response by
                     the establishments to last year’s Listeria monocytogenes
                     reassessment (attachment 5). FSIS held a public meeting
                     on Listeria monocytogenes on May 15, 2000, at which the
                     agency addressed current thinking regarding further action
                     associated with this pathogen. By December 2000, FSIS
                     expects to issue a proposed regulation addressing ready-to-
                     eat meat and poultry. This proposed rule is expected to
                     contain a performance standard specifically addressing this
                     pathogen.

                     FSIS agrees that its role is to verify that the HACCP plan is
                     being implemented as defined by the establishment, and
                     that the scientific basis and rationale for the HACCP plan is
                     credible. FSIS will challenge the adequacy of HACCP plans.

             OIG Position

             To achieve a management decision for the recommendation, we need
             specific details on proposed performance standards over the
             production environment, and when the standards will be implemented.

                                            Provide clear authority in the Grant of
  RECOMMENDATION NO. 6                      Inspection contract for FSIS oversight of
                                            all plant pathogen testing.




Section I, Page 36                                           USDA/OIG-A/24001-3-At
           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated: “FSIS
           has been investigating the regulatory requirement associated with the
           Grant of Inspection and, if feasible, will pursue options to amend the
           Grant of Inspection to make clear the authority of FSIS to oversee
           plant pathogen testing. A conclusion will be reached by June 2001.”

           OIG Position

           To achieve a management decision for this recommendation, we need
           to know FSIS’ detailed plans on how the recommendation will be
           implemented. Departmental Regulation No. 1720-1 requires that
           management decisions be reached within 6 months.

                                        Develop testing programs in coordination
  RECOMMENDATION NO. 7                  with the ARS for other pathogens that
                                        impact food safety.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                FSIS continues to work closely with ARS in a variety of food
                safety research and development areas. However, ARS
                does not develop “testing programs” (which is the role of
                FSIS) but ARS does play a significant and critical role in the
                design and development of methods used by FSIS’
                laboratories for analyses of regulatory samples. A recent
                example of the collaborative work between FSIS and ARS is
                the design and development of an improved analytical
                method for E. coli O157:H7. ARS performed the basic
                research and development for the new method and then
                collaborated with one of FSIS’ laboratories to adapt the
                method for analyses of regulatory samples. This joint effort
                resulted in FSIS’ use of an improved, more sensitive testing
                method, allowing increased recovery of this significant
                pathogen to better protect public health. In September
                1999, this improved immunomagnetic bead method was
                implemented in all three FSIS laboratories.

                Additional projects are underway including a project
                involving Listeria monocytogenes and a project on handling/
                transportation and chilling of meat and poultry. FSIS is also
                developing proposals for new research projects to develop

USDA/OIG-A/24001-3-At                                           Section I, Page 37
                          detection methods for foodborne viruses, the parasite
                          Toxoplasma gondii and the foodborne pathogenic
                          bacterium, Yersinia enterocolitica.

                   OIG Position

                   Since collaborative efforts are underway with ARS, we accept the
                   management decision for this recommendation.

                                          Security over samples sent by FSIS field
           FINDING NO. 6                  offices to USDA labs needs improvement.
                                          Current FSIS instructions do not provide
       FSIS NEEDS TO IMPROVE              guidance for the security of test samples
     SECURITY OVER LABORATORY             after packaging by inspectors until the
              SAMPLES                     shipping agent collects the package. In
                                          addition, instructions do not address
                                          security for samples stored in FSIS
              refrigerators. These test results are used by FSIS to assess the
              effectiveness of a plant’s HACCP programs. Consequently, there is
              reduced assurance that FSIS’ testing program reflects the actual
              conditions in the plants.

                   Instructions to inspectors cover selecting, preparing, and packaging
                   samples for shipment to USDA labs for analysis; however, the
                   instructions do not address sample security17. FSIS samples are
                   evidence of the sanitation conditions in a plant and must be sufficient,
                   competent, and relevant. (In the scientific community this is commonly
                   referred to as quantitative and qualitative.)

                   Our review at 15 FSIS field offices found that inspectors were not
                   required to package lab samples in tamper resistant shipping
                   containers. The containers used had Velcro seals so that FSIS could
                   reuse the boxes. We found that inspectors at nine field offices left their
                   sample containers where plant officials had access to the samples
                   prior to pickup by the shipping agent. Because the containers could be
                   opened without detection, there is no assurance that the samples were
                   not altered by plant officials.

                   For example in 1998, an OIG criminal investigation found that plant
                   officials in Florida had tampered with FSIS samples left for the shipping
                   agent. This was done to disguise intentional product alteration of
                   excessive fat and water in the products. Also, the plant officials added

17
     FSIS Directive 10210.1.




Section I, Page 38                                               USDA/OIG-A/24001-3-At
            sanitizer to meat samples to eliminate microbial contamination. After
            the tampering was discovered, several million pounds of meat products
            suspected of being contaminated with E. coli were recalled and
            destroyed.

            Our review also found that the FSIS refrigerators at two plants, used to
            freeze and store FSIS samples, were not locked while inspectors were
            not in the room. The IIC at plant C had a lock installed on the
            refrigerator during our visit. (Plant personnel had access to the
            refrigerators when the inspection personnel were temporarily gone.)
            Also, carcasses selected for sampling were accessible to plant
            personnel while hanging in the freezer at one slaughter plant.
            Consequently, samples were not secured prior to shipment to the labs
            for analysis.

            FSIS relies on their sampling program to monitor and assess plant
            conditions to ensure that safe and wholesome products reach
            consumers. However, the integrity of the sampling program was
            compromised because inspectors did not maintain custody of samples
            prior to their receipt by the shipping agent.

                                      Improve controls by issuing instructions
  RECOMMENDATION NO. 8                for securing FSIS test samples until the
                                      samples are in the possession of the
                                      shipping agent and review security to
        ensure that instructions are being followed.

            Agency Response

            In its May 18, 2000, response to the draft report, FSIS stated:

                 FSIS has undertaken an effort to improve sample security.
                 Currently, FSIS Directive 7355.1 outlines procedures for
                 sample security.      The FSIS laboratories are revising
                 Directive 7355.1 to reflect a more fail-safe procedure, which
                 is estimated to be completed by September 30, 2000. This
                 will require developing new forms, educating laboratory
                 personnel, and training inspectors.

            OIG Position

            To achieve a management decision for this recommendation, we need
            the revised FSIS Directive 7355.1 showing the new requirements for
            sample security.



USDA/OIG-A/24001-3-At                                            Section I, Page 39
                                             FSIS needs to improve its monitoring of
            FINDING NO. 7                    the Salmonella testing series and ensure
                                             that testing results are communicated to
          CONTROLS OVER FSIS                 FSIS field inspectors. FSIS Technical
        PATHOGEN TESTING NEED                Service Center officials were not always
             IMPROVEMENT                     aware that field inspectors had stopped
                                             the Salmonella testing series before
                                             completion and that other required tests
               were not being performed. In addition, field office inspectors did not
               always receive test results for samples submitted. Consequently, FSIS
               inspectors did not know if the pathogen-testing program had revealed
               indications of problems in the plants which required appropriate
               monitoring actions to ensure that adverse conditions were eliminated.

                   FSIS directives18 provide for a directed sampling program and a
                   Salmonella testing series for establishments receiving inspection
                   services. FSIS depends on its testing programs to assess a plant’s
                   compliance with established standards and to identify harmful
                   pathogens. The FSIS technical service center is responsible for
                   monitoring testing programs and providing inspectors testing results.
                   FSIS' testing programs were designed to provide inspectors with a tool
                   for monitoring to ensure that establishments complied with established
                   standards.

                   A.     Incomplete Salmonella Testing Series

                          At 2 of the 15 plants we visited, the Salmonella testing series
                          were incomplete. FSIS field office inspectors thought the tests
                          were completed when in fact several tests remained in the series.
                          Inspectors stopped submitting samples when they ran out of
                          testing materials provided instead of receiving notification from
                          the technical service center to stop testing. The IIC stated that
                          they were unaware the testing series was incomplete because
                          test results were not routinely provided to the field office. In
                          addition, the FSIS technical service center official responsible for
                          monitoring the testing series was unaware that the inspectors had
                          stopped testing and assumed tests were ongoing because he
                          had not notified the IIC to stop testing. Salmonella testing was
                          resumed after we brought this to the district’s attention. Without
                          our intervention, FSIS had no assurance that the plants complied
                          with established Salmonella standards.


18
     FSIS Directives 10,010 and 10,240.




Section I, Page 40                                                 USDA/OIG-A/24001-3-At
                At one plant, we found that the IIC did not obtain samples for
                each day’s production during the Salmonella testing series. The
                IIC excluded Saturday production because the shipping agent did
                not provide weekend service. The IIC was unaware that a valid
                sample could be taken if the selected carcass was held until the
                following Monday for testing. As a result, not all production was
                subject to random testing during the Salmonella series.

                We also found that FSIS had not initiated a Salmonella testing
                series in a timely manner when plants entered the HACCP
                program. We found that FSIS had not begun its Salmonella
                testing series for two plants until 6 months had passed after the
                first plant implemented HACCP and until 8 months had passed
                after the second plant had entered the program.             FSIS’
                Salmonella testing series does not specify when Salmonella
                testing should begin after a plant enters the HACCP program.
                Without testing, FSIS has no assurance that the plants' pathogen
                reduction programs were effective.

           B.   Production Not Included in the Directed Testing Program

                FSIS' directed testing program did not ensure regular testing for
                establishments. The IIC at plant D had not been directed to
                sample for Listeria or Salmonella in over 2 years because the
                sampling frame form (list of products subject to the directed
                testing program) was incorrectly completed. The IIC did not
                believe that the sampling frame form contained any of the
                products produced at the plant, even though the sampling frame
                form included processed meats that were produced at the
                establishment. Without directed testing of the establishment’s
                products, there is no assurance that products had not been
                contaminated or adulterated.

                We also found that the directed sampling requests were for
                specific timeframes and were not linked to the times that products
                were produced. At plant E, the IIC did not sample raw pork
                sausages that were only produced on selected Fridays. Thus,
                seasonal or limited production-run products would not be tested
                unless samples were requested during production.             FSIS'
                sampling frame form does not allow inspectors to identify
                seasonal products or those products with infrequent production
                schedules. Thus, there is no assurance that all products will be
                subject to testing under FSIS directed testing program.




USDA/OIG-A/24001-3-At                                         Section I, Page 41
                     We believe that inspectors lose a valuable tool to assess a plant’s
                     operations when testing series are incomplete, when products are
                     not included in the directed testing program, and when test results
                     are not communicated. FSIS field office inspectors also lose the
                     opportunity to increase monitoring of identified problem areas.
                     Failure to perform direct testing and complete Salmonella testing
                     series increases the possibility of contaminated or adulterated
                     product entering the market place.

                                              Implement management controls, which
  RECOMMENDATION NO. 9                        would include:


                      a. timely providing field office inspectors all microbe testing
                         results,

                      b. instructions to FSIS field offices to continue Salmonella
                         testing each production day, until notified by the technical
                         service center to stop,

                      c. procedures to notify the district office if a field office stops
                         submitting Salmonella samples prior to the completion of a
                         testing series, and

                      d. procedures to ensure that seasonal and products with
                         irregular production schedules are tested in the direct testing
                         program.
             .
             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated:

                     With regard to recommendation 9 (a) FSIS currently uses
                     the Biological Information Transfer E-mail System as
                     outlined in Notice 25-99 (attachment 7) to provide timely
                     notification to field offices of testing results. The laboratories
                     send electronic messages to District Offices informing them
                     of laboratory results (positive and negative).               They
                     immediately contact District Offices to notify them of
                     potential and confirmed positive results. They also send e-
                     mail laboratory results, with the exception of Salmonella
                     results, to plants that have provided e-mail addresses. FSIS
                     shares results of Salmonella testing only when the sample
                     set is complete. In addition, FSIS is also initiating a system



Section I, Page 42                                              USDA/OIG-A/24001-3-At
               that will allow Circuit Supervisors and in-plant inspectors to
               obtain test results by accessing on-line electronic folders.

               In response to recommendation 9 (b), (c) and (d), current
               procedures require FSIS in-plant personnel to continue
               Salmonella testing each production day until notified by the
               TSC to stop. FSIS acknowledges, that in some cases,
               inspectors did not understand that some of the samples they
               had submitted to the laboratory were discarded; therefore,
               they stopped testing prematurely. FSIS has instituted a non-
               responders report (attachment 8) that is sent from
               Headquarters monthly using the Pathogen Reduction
               Enforcement Program to the District Office. The report lists
               by district all plants that have not submitted a Salmonella
               sample or a reason for not submitting the sample in the last
               30 days. This allows the District Office to investigate and
               correct the problem. Also, some inspectors reported that
               they exhausted their supply of sample forms, and did not
               know how to request additional materials. Information about
               how to request additional materials was included in HACCP
               training and in FSIS Directive 10,230.5 (attachment 9).
               There are also experts at the TSC to answer inspector
               questions. Finally, if the plant has entered the third
               Salmonella sample set, and they fail the sampling is
               discontinued and inspectors follow instructions in FSIS
               Directive 10,011.1 (attachment 10).

               FSIS expects to issue a Notice to District Managers and
               Circuit Supervisors related to Salmonella performance
               standard testing status reports. The reports relate to the
               Pathogen Reduction Enforcement Program (PREP), an
               automated scheduling system to be used in the
               management of Salmonella performance standard testing.
               The PREP system will assist in the day-to-day scheduling,
               tracking, and reporting of Salmonella sample sets. The
               Notice is expected to be finalized by August 2000.

           OIG Position

           To achieve a management decision for this recommendation, we
           need specific details along with completion timeframes, of the
           system being initiated for inspectors to access test results in
           electronic folders. FSIS also need to address part (d) of the
           recommendation regarding the testing of seasonal products in the
           directed sampling program.

USDA/OIG-A/24001-3-At                                          Section I, Page 43
                                           FSIS inspectors did not review plant
           FINDING NO. 8                   microbial testing plans for required
                                           generic E. coli testing to ensure the
     FSIS DOES NOT VERIFY PLANT            sampling protocols were based on
      SAMPLING PROTOCOLS FOR               scientific standards and that the microbial
     REQUIRED MICROBIAL TESTING            testing was reliable. Current procedures
                                           do not require FSIS approval of plant
                                           microbial testing protocols. In addition,
              inspectors concentrate their review efforts on plant generic E. coli
              testing results when monitoring tasks are assigned and do not review
              the testing protocol. As a result, there was reduced assurance that
              required procedures designed to provide an indication of overall plant
              sanitary conditions accurately reflected conditions in the plant and
              identified cases where corrective action was needed.

                   Regulations require that pork and beef slaughter plants regularly test
                   for generic E. coli (Escherichia coli-Biotype 1) and that the plants have
                   written procedures for specimen collection19. The written procedures
                   must identify employees designated to collect samples, the location(s)
                   from which the samples are taken, how sampling randomness is
                   achieved, and how sample integrity is maintained. The regulations
                   further require that the procedures and test results be available for
                   FSIS review. (Note: FSIS officials do not have access to test results
                   plants perform that are not required by regulations. See Finding
                   No. 9.) If a plant has more positive E. coli test results than allowed in
                   the regulations, FSIS considers the failure to meet the standard as an
                   indication the plant may not be maintaining process controls sufficient
                   to prevent fecal contamination and may take further action to ensure
                   the plant is complying with all provisions of the law.

                   FSIS assigns inspectors daily tasks to monitor the sanitary conditions
                   of a plant. These tasks, in most cases, are comprised of several steps
                   and/or areas to be reviewed. Inspectors are routinely assigned an E.
                   coli testing review, task 05A01. This task requires an inspector to
                   ensure that plants have (1) documented a written sampling protocol,
                   (2) collected the required samples, and (3) recorded the test results
                   on a control chart. FSIS inspectors informed us that when this task
                   is assigned, they only review the last 13 tests for a failure and ensure
                   that the plant implemented an appropriate corrective action.

                   We visited seven pork or beef slaughter plants and found the following
                   problems with the sampling protocols and plant testing procedures at
                   four of the plants.
19
     9 CFR § 310.25 Contamination with microorganisms; pathogen reduction performance standards.


Section I, Page 44                                                        USDA/OIG-A/24001-3-At
              •    Plant I was not following the written sampling procedures in
                   that samples were not taken during every hour of production.

              •    Plant A had not developed any written sampling protocols for
                   generic E. coli.

              •    The written protocols at Plants B, I, and K did not include all
                   required information, such as location where samples were
                   taken or how randomness was achieved.

           Plant officials attributed the problems noted to a misunderstanding of
           the requirements in the regulations or to inaccurate documentation of
           the procedures followed. FSIS inspectors stated that they only
           reviewed the generic E. coli testing results and did not approve the
           plants’ microbial testing protocols.

           We concluded that management controls could be improved if FSIS
           required inspectors to review and approve a plant pathogen sampling
           protocol for all required testing.

                                        Implement procedures that require
 RECOMMENDATION NO. 10                  inspectors to review and approve plant's
                                        sampling protocols for generic E. coli
                                        testing to ensure they are complete and
           being followed.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                  FSIS agrees that improvements can be made regarding the
                  generic E. coli testing programs operated by the
                  establishments and is planning a number of activities to
                  assess the adequacy of the establishment’s procedures as
                  required by 9 CFR 310.24 and 381.94. During FY 2001
                  FSIS expects to begin a more complete review of HACCP
                  implementation, which may include instructions, related to
                  generic E. coli. FSIS expects to issue updated instructions
                  before the second quarter of FY 2001.

           OIG Position

           To achieve a management decision for this recommendation, we need
           a description of how the recommendation will be implemented and a
           timeframe for implementation.

USDA/OIG-A/24001-3-At                                           Section I, Page 45
Section I, Page 46   USDA/OIG-A/24001-3-At
                 FSIS NEEDS TO DEFINE ITS OVERSIGHT ROLE IN
CHAPTER 3        THE HACCP SYSTEM AND HOLD PLANTS
                 ACCOUNTABLE FOR NONCOMPLIANCE

           As has been noted previously in this report, FSIS is uncertain of its
           authorities under the HACCP system and is reluctant to challenge
           plants that have taken measures to limit Federal oversight. We
           concluded that FSIS needed to define its oversight role in HACCP and
           ensure that industry understands the nature of its presence: to ensure
           that HACCP is operating as intended and that the expectations of
           HACCP—sanitary environment, identification and elimination of
           harmful bacteria on food products—are met.

           To fully define its oversight role, FSIS needs to grant IIC the authority
           to require changes to SSOP when those procedures are inadequate,
           and it needs to provide guidance to IIC’s when they confront plants
           with a history of repetitive critical deficiencies. Plant inspectors are
           currently unsure when to declare a plant’s corrective actions
           unworkable.      Some plants have received numerous notices of
           noncompliance for the same deficiency, but the inspectors had no
           understanding of what number, frequency, or nature of deficiencies
           would constitute a breakdown in the system.

           FSIS procedures need to be expanded to include requirements for
           returned products and microbial test reporting. (See also Finding
           No. 6.) Plant inspectors are not always aware when returned
           products enter the plants and do not know how the plants dispose of
           them. They are also unaware of the results of a plant’s internal
           microbial testing. FSIS instructions only require plants to provide
           FSIS the results of last 13 generic E. coli tests. When plants test for
           other pathogens, they are not obligated to inform FSIS of their test
           results and in fact do not allow FSIS access to those results. In one
           case, FSIS was unaware of a plant that had been testing for Listeria
           on its own initiative, and had positive tests for generic Listeria in its
           environment and LM in its products. FSIS did not discover the
           situation until it received an anonymous complaint.

           Overall, FSIS could improve its oversight by performing internal
           reviews to evaluate the effectiveness of HACCP, and by monitoring the
           tasks assigned to field personnel. FSIS has not performed an internal
           review in the six districts we visited, and its system of tracking task


USDA/OIG-A/24001-3-At                                           Section I, Page 47
                  assignments could be improved to better help management monitor
                  field level activities.

                                         The current FSIS procedures do not
        FINDING NO. 9                    require plants to provide internal microbial
                                         testing results to inspectors or require
FSIS NEEDS ACCESS TO PLANTS’             plant officials to notify inspectors when
   MICROBIAL TEST RESULTS                environmental      testing    reveals   the
                                         presence or likelihood of a harmful
                                         pathogen. FSIS officials informed us that
           plants are not required to provide any testing results unless such tests
           are included in the HACCP plan or unless the plant identified an
           adulterated product. During our review, plant officials denied OIG
           access to their optional pathogen testing program records even though
           such testing was included in their HACCP plan. The FSIS national
           office intervened and the records were provided. Plants have also
           refused FSIS inspectors’ access to records of any food safety tests
           not mentioned as a CCP in their HACCP plans or as a SSOP. In turn,
           field office personnel are not required to review plant testing results.
           As a result, FSIS is not aware of all food safety data generated by the
           plant or the overall food safety performance of the plant. It is also not
           aware of other historical non-HACCP foodborne hazards at the plant.

                  FSIS instructions 20 require establishments to maintain daily records
                  sufficient to document the implementation and monitoring of the
                  SSOP's and HACCP plan and any corrective actions taken. Although
                  records required by these instructions are to be maintained and made
                  available to FSIS upon request, FSIS' instructions do not require
                  establishments to give inspectors access to optional pathogen test
                  results and to products or environmental tests not specifically
                  identified in HACCP or SSOP documents.

                  FSIS issues the Grant of Inspection to all plants that apply contingent
                  on their agreement to conform to inspection regulations, and are in
                  compliance during an FSIS survey of the establishment. The Grant of
                  Inspection does not address FSIS authorities such as access to plant
                  records, nor does it address penalties for noncompliance. Once
                  attained, the Grant of Inspection is not required to be renewed and
                  remains in place unless FSIS takes enforcement action. In our prior
                  reports, we recommended that FSIS revise the Grant of Inspection to
                  read and function more like a contract by placing the responsibility on



20
     9 CFR § 416.16 and 417.2.



Section I, Page 48                                             USDA/OIG-A/24001-3-At
           plant management to comply with regulations and to ensure the
           quality of plant operations.

           None of the 15 plants reviewed had included microbial testing as a
           CCP, and only two plants cited microbial testing in their HACCP plans.
           We found that FSIS inspectors had only reviewed the plants’ required
           E. coli testing records and believed that they did not have the authority
           to review any other plant testing records. Plant officials, in some
           instances, denied both OIG and FSIS inspectors access to test results
           even though the testing was cited in the HACCP plan. For example,
           even though plant C’s HACCP plan cited microbial testing, corporate
           officials initially denied FSIS’ request to review the testing records.
           Inspector General auditors had to leave the plant without reviewing
           these records. Only after negations with FSIS national office
           personnel did the corporate officials provide access. Our subsequent
           review of the plant’s environmental testing records revealed the
           presence of LM in production facilities and equipment. Consumption
           of food contaminated with LM can cause listeriosis, a potentially fatal
           disease.

           During 1999, 20 of 142 (14 percent), of the corporate lab testing forms
           identified the presumptive positive presence of LM in 28 environmental
           samples, 15 of which were taken from rooms with ready-to-eat
           products. In addition, we determined that four rooms in the plant had
           tested positive for LM two or more times, as shown on the following
           table. Further, plant officials stated that they did not test ready-to-eat
           products for the presence of Listeria, even after this pathogen was
           detected in production rooms.

                      Table 4: Positive Listeria Tests At Plant C
                                        February Through June 1999

                                                             Number of Positive
                                    Sample Site                   Tests
                        Spiral Ham Cutting Floor                     4
                        Ready-to-eat cooler floor                    3
                        Hot Dog Casing peeler vacuum tube            2
                        Ready-to-eat Tree Drop Floor                 2
                        Other Ready-to-eat Rooms                     4
                        Other Areas in the Plant                     13
                                       Total                         28




USDA/OIG-A/24001-3-At                                                    Section I, Page 49
             The IIC was unaware of the presence of LM in the plant until after our
             review. Also, the IIC and other FSIS officials were unaware that they
             had the authority to require the plant to share its test results because
             the HACCP plan included pathogen testing procedures.
             Consequently, the IIC did not monitor the plant’s corrective actions
             taken or submit ready-to-eat product samples to USDA labs to ensure
             the products were pathogen free.

             Even when plants identified the presence of generic microbes that are
             strong indicators of the presence of pathogens, they did not always
             conduct further testing. We confirmed with a national private
             laboratory that a LM confirmation test cost about $2 more than a
             presumptive positive LM test used at plant C, or a total of $28 for an
             additional test. At plant H, we reviewed microbial testing records
             voluntarily provided to us. We found that the plant had a long history of
             test results that suggested the presence of the general Listeria
             species. Tests showed suspect positive results from samples taken
             from the floor, product contact surfaces, and, in two instances, cooked
             product (see table 7). According to plant management, they did not
             perform testing to specifically determine the presence of LM. FSIS'
             current procedures do not require plants to confirm the presence of
             LM. Without such confirmation, the plants are not required to advise
             FSIS of positive Listeria test results, or product potentially adulterated
             with LM.

               Table 5: Positive Listeria Tests At Plant H
                                          January through June 1999

                                Sample Site                   Number of       Total Number
                                                             Positive Tests      of Tests

                 Work Floor                                       79              174
                 Product Contact Surfaces - Equipment             20              286


             According to the IIC and other FSIS officials, FSIS did not have the
             authority to require the plant to share its test results if the testing was
             not specifically required by the regulations or included as in the
             HACCP plan. The IIC was not aware of the extent of suspect Listeria
             incidents and became aware of the presence of Listeria in the plant
             only after questioning plant employees as to why some finished
             product was held in the freezer for a number of days. He was then
             informally advised that the product was suspected of containing
             Listeria. The plant took action to dispose of the product after our visit.




Section I, Page 50                                               USDA/OIG-A/24001-3-At
           We issued management alerts for these two plants to FSIS. FSIS
           advised it had issued FSIS Notice 23-99, dated August 3, 1999, which
           required all plants to perform a LM reassessment and instructed
           inspectors to determine if the plants reassessed their HACCP plans.
           However, the notice did not require the plants to maintain written
           documentation to support their reassessments, or require enhanced
           pathogen testing when adverse conditions were identified. A HACCP
           plan was considered reassessed when plant officials signed and dated
           the plan after the issuance of the FSIS Notice 23-99.

           In 1998, a plant (not one of the 15 plants visited) produced LM-
           adulterated products that reached consumers and caused illnesses
           and deaths. The plant’s environmental pathogen testing program
           revealed the presence of Listeria from product contact surfaces on the
           retail frank line from July to November 1998, when the plant
           discontinued pathogen testing. Company officials did not notify FSIS
           that the plant’s environmental tests had detected Listeria on product
           contact surfaces or perform additional testing to confirm the presence
           of LM. After the CDC started an investigation, the company voluntarily
           recalled about 35 million pounds of meat. Had the IIC been informed
           of the plant’s environmental testing results, FSIS could have increased
           its monitoring efforts through unscheduled monitoring tasks to help the
           plant eliminate its Listeria problem.

           In 1999, at another plant (not one of the 15 plants visited), an
           anonymous copy of a presumptive positive Listeria test result was left
           in an IIC's mailbox. The IIC was unaware of a Listeria problem at the
           plant, and after consulting with the district office was instructed to
           perform directed testing of plant products for Listeria. FSIS' testing
           found the presence of LM in the plant's products. An investigation
           found that the plant had performed general Listeria testing for both
           environment and products as part of its sanitation program, even
           though this testing was not required by the Government. These tests
           demonstrated a history of generic Listeria in the plant, and in one
           instance the presence of LM in plant products. The IIC was not
           notified of the unwholesome product, even though such a notification
           was required. As a result, 4 to 5 million pounds of hot dogs had to be
           recalled because of this incident. If the IIC had access to the plant's
           optional testing records, FSIS could have worked with the plant to
           eliminate the Listeria problem before contaminated products reached
           the consumers.

           Our review also disclosed that plants are not compelled to report when
           required E. coli test results exceed Federal standards. Our review of
           E. coli testing records at 11 slaughter facilities found that 9 plants had


USDA/OIG-A/24001-3-At                                            Section I, Page 51
             at least one E. coli test failure in 1999. We found that FSIS inspectors
             had access to and reviewed the testing records for only the most
             recent 13 test results when an inspection task was assigned to review
             the documented corrective action. When inspectors are not informed
             immediately of E. coli failures, they cannot monitor the plant’s
             corrective actions in progress. Consequently, inspectors do not have
             any assurances that the corrective actions are in fact implemented.

             We concluded that, in order to improve the effectiveness of HACCP
             and FSIS monitoring of plant operations, inspectors need access to all
             plant records of pathogen testing and timely notification by plant
             management of all adverse testing results.

                                    Expand the language contained in the
 RECOMMENDATION NO. 11              Grant of Inspection agreement to include
                                    the requirements and responsibilities
                                    required of the plant under the HACCP
       program and FSIS’ authority, oversight, and access to information
       regarding the plant’s operation. Use the Grant of Inspection as a
       contract, or enforceable agreement between the Government and the
       establishment signed by all parties and subject to review and renewal.

             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated: “FSIS
             has been investigating the regulatory requirements associated with the
             Grant of Inspection and, if feasible, will pursue options to amend the
             Grant of Inspection to make clear the scope of FSIS’ regulatory
             authority over plant pathogen testing. A decision will be reached by
             June 2001.”

             OIG Position

             To reach management decision for this recommendation, we need
             more detailed information on how the recommendation will be
             implemented. Departmental Regulation No. 1720-1 requires that
             management decisions be reached within 6 months.

                                          Require plants to include all pathogen
 RECOMMENDATION NO. 12                    testing performed by the plants in their
                                          HACCP plans, to retain test results, and
                                          to notify the IIC of adverse microbial test
             results.




Section I, Page 52                                        USDA/OIG-A/24001-3-At
           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                The PR/HACCP regulation does not require plants to
                include pathogen testing in their HACCP plans. The OIG’s
                concern is that plants are not notifying the IIC of adverse
                microbial test results and how the plant reacts to the
                adverse test results. As discussed in Agency responses to
                Recommendations No. 5 and 11, based on current
                regulations, plants must take corrective actions when such
                findings occur. FSIS will verify corrective actions taken and
                documented by the plant as well as the reassessment and
                modification of the HACCP plan when adverse microbial test
                results occur. FSIS is taking steps to make sure that in-
                plant inspection personnel understand this fully through
                workshops conducted at the National Supervisory
                Conferences and through work unit meetings.

           OIG Position

           The response did not address what will be done to require that plants
           include all pathogen testing in their HACCP plan nor explain in detail
           how inspectors will be informed of test results. To reach management
           decisions for this recommendation, we need a description of how
           the recommendation will be implemented and timeframe for
           implementation.

                                        Instruct IIC's to assess the adequacy of
 RECOMMENDATION NO. 13                  the plants’ corrective actions to eliminate
                                        harmful pathogens and to monitor those
                                        actions.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                FSIS agrees to reinforce the requirement to assess the
                adequacy of plant’s corrective actions and to monitor these
                actions. Although such instructions were provided during
                HACCP training, FSIS has accumulated information during
                HACCP implementation that can be used to create case
                studies that can be shared to reinforce such concepts. Case
                studies are being used at the National Supervisory
                Conference, and will be covered at local work unit meetings

USDA/OIG-A/24001-3-At                                           Section I, Page 53
                          and through policy issuances. The TSC continues to be
                          available as a resource to help answer inspectors’ questions
                          about the adequacy of plants’ corrective actions.

                   OIG Position

                   We accept the management decision for this recommendation.

                                        FSIS had not established an effective
       FINDING NO. 10                   internal review process to provide
                                        assurance that plant HACCP, SSOP, and
   FSIS NEEDS TO PERFORM                microbial testing programs are operating
    INTERNAL REVIEWS TO                 as intended. In the six districts we
 EVALUATE HOW WELL HACCP IS             reviewed, district office personnel had not
         OPERATING                      conducted any internal reviews to ensure
                                        that plants operated HACCP and other
                                        programs effectively and fully complied
          with regulatory requirements. In the absence of district and higher-
          level reviews, inspectors at each plant independently determined if the
          plant’s HACCP plan was effective in producing a safe product. The
          FSIS officials attributed the lack of reviews of HACCP to a lack of
          resources.     Without independent internal control reviews, FSIS
          management has reduced assurance that adequate controls are in
          place and functioning over HACCP as it is being implemented.

                   The Federal Manager’s Financial Integrity Act and Office of
                   Management and Budget Circular No. A-123 requires each agency to
                   evaluate the adequacy of its management controls.

                   Although the agency published the results of a study21 covering the
                   initial implementation of HACCP, no additional studies have been
                   performed to determine if the recommended corrective actions were
                   implemented and effective at the plant level. FSIS National and district
                   office officials told us that the agency did not have the funding for
                   internal reviews in fiscal year (FY) 1999, but that the funding was now
                   available and an internal review program was in the planning stage for
                   FY 2000. Further, district office officials stated that they were working
                   to help the very small plants prepare for the implementation of HACCP,
                   and this effort was tying up resources.




21
     Evaluation of Inspection Activities during Phase One of HACCP Implementation (July 1998).



Section I, Page 54                                                          USDA/OIG-A/24001-3-At
             Currently HACCP has been implemented in approximately 2,600 (300
             large and 2,300 small) plants and by January 2000 will be
             implemented in all (approximately 6,000) slaughter and processing
             plants that operate under Federal inspection. Thus, the need for
             internal reviews is paramount. In addition, our audit disclosed
             numerous instances in which HACCP, SSOP, and testing programs
             were not working as intended; this also suggests that internal reviews
             are needed immediately.

                                          Develop and implement an internal review
 RECOMMENDATION NO. 14                    system to provide assurances that plant
                                          level HACCP, SSOP, and microbial
                                          testing programs are operating as
             intended.

             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated:

                  As mentioned in response to Recommendation No. 1, FSIS
                  is implementing the IDV review. The review is conducted by
                  FSIS experts from the Office of Policy Program
                  Development and Evaluation, Office of Public Health and
                  Science, Office of Field Operations of a plant’s SSOPs and
                  HACCP system, including Salmonella and E. coli testing.
                  FSIS obtained input from its Advisory Committee on Meat
                  and Poultry Inspection during the development of the IDV
                  protocol. It is a comprehensive review.

             OIG Position

             Since FSIS has implemented In-Depth Verification (IDV) Review, we
             accept the management decision for this recommendation.

                                      FSIS needs to improve its verification and
       FINDING NO. 11                 oversight of SSOP to ensure that plants
                                      implement effective controls to prevent
FSIS OVERSIGHT OF SSOP NEEDS product contamination or adulteration.
          IMPROVING                   FSIS inspectors had not verified the
                                      adequacy of the SSOP's to ensure the
                                      plans included (1) plant cleaning
           schedules, (2) sanitary handling of products, and (3) identification of
           plant employees responsible for implementing and maintaining specific




USDA/OIG-A/24001-3-At                                             Section I, Page 55
                   procedures.22 Consequently, there is reduced assurance that SSOP's
                   implemented by plants were effective in ensuring that food safety was
                   not compromised.

                   A sanitary environment is a basic prerequisite for preparing safe foods.
                   Following established and effective SSOP's is the most basic way to
                   ensure that a safe product is produced. FSIS inspectors are required
                   to verify the adequacy and effectiveness of the SSOP but are not
                   required to approve them. Thus, inspectors are not required to make
                   changes or modifications to SSOP plans that would enhance the
                   overall sanitation at a plant. FSIS' noncompliance monitoring records
                   have demonstrated that many SSOP plans were in fact inadequate
                   because repetitive conditions were never corrected (see Finding
                   No. 14). We reviewed SSOP‘s from our sample plants and found that
                   6 of the 15 plans (40 percent) were deficient. We found the following
                   deficiencies:

                       •   SSOP’s for plants A and B did not include cleaning schedules
                           documenting the frequency of plant sanitation activities. Thus,
                           we could not determine if the plant had performed the required
                           sanitation procedures.

                       •   Plant D did not develop effective corrective actions in its SSOP
                           to eliminate repetitive deficiencies during pre-operational
                           cleaning. We found that the same, or similar, sanitary
                           conditions were documented in the plant’s daily SSOP records.

                       •   Plant M did not develop SSOP's for the sanitary handling of
                           plastic product totes during unloading, for preventing
                           condensation from dripping onto uncovered products, and for
                           cleaning worker boots. We observed these conditions during
                           our walk- through of the plant.

                       •   Plant L's SSOP did not include procedures for addressing
                           sanitation in peripheral areas of the plant, and it did not identify
                           the plant employees’ responsible for implementing and
                           maintaining specific procedures.           We observed plant
                           employees, who worked in cooking areas, entering and
                           returning from raw product and peripheral areas of the plant
                           without changing their frock or gloves. This increased the
                           potential for cross-contamination.


22
     9 CFR § 416.12(d) and 416.17.



Section I, Page 56                                                 USDA/OIG-A/24001-3-At
              •    The SSOP for plant J did not identify the plant employees
                   responsible for implementing and maintaining the sanitation
                   procedures.

           We concluded that for FSIS to effectively perform its oversight role, the
           IIC needs the authority to require changes to SSOP plans which do not
           contain effective controls to prevent product contamination or
           adulteration.

                                         Ensure that IIC’s routinely evaluate the
 RECOMMENDATION NO. 15                   effectiveness of SSOP’s and require
                                         changes and modifications to plants’
                                         SSOP plans when needed.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                  Under current regulations, when direct product
                  contamination occurs, the establishment is responsible for
                  implementing and documenting corrective action to prevent
                  it from occurring in the future, and must prevent it from
                  entering commerce (9 CFR 416.15). Inspection personnel
                  have the appropriate authority to address this in case of
                  noncompliance by the plant. In addition, 9 CFR 416.14
                  requires plants to routinely evaluate the effectiveness of the
                  SSOP’s. This information was covered during SSOP
                  training, HACCP training and is addressed FSIS Directive
                  5000.1 In addition, some of the examples cited in this report
                  indicate that there may be some misunderstanding on the
                  part of inspection personnel about the newly implemented
                  Sanitation Performance Standard regulations. FSIS held
                  district meetings to clarify inspection personnel’s
                  responsibilities prior to issuing this regulation. FSIS agrees
                  to reinforce through training and better communication the
                  FSIS inspectors’ authorities in relation to the Sanitation
                  Performance Standard regulation and SSOP’s through the
                  National Supervisory Conferences and work unit meetings.
                  It will also clarify how inspection personnel should respond
                  in cases of repetitive noncompliance.




USDA/OIG-A/24001-3-At                                            Section I, Page 57
                   OIG Position

                   To achieve a management decision for this recommendation, we
                   need specific details along with completion timeframes as to your
                   clarification of how inspection personnel will respond in cases of
                   repetitive noncompliance.

                                            Oversight of returned products needs
          FINDING NO. 12                    improvement (i.e., products that have
                                            entered commercial channels and have
       FSIS PROCEDURES FOR                  been returned to the plant for various
      RETURNED PRODUCTS ARE                 reasons, such as, being rejected by the
            INADEQUATE                      buyer due to damage in shipment, wrong
                                            quantity, etc.). FSIS does not require
                                            plant HACCP plans to include procedures
              for returned products, although all returned products require
              reinspection prior to entering the plant.23 As a result, returned products
              could be reworked (sent back through the production line) and placed
              back into the food distribution system without FSIS having any
              knowledge of the returned products.

                   Our review disclosed that inspectors were not always notified when
                   returned products entered the plant and were not informed of the
                   disposition of these products. We found that HACCP plans for the
                   15 plants we visited did not include procedures for returned products.

                   At plant G, the returned product records could not account for the
                   disposition of 56 percent (39 of 69 return forms) of the products
                   returned. Inspectors informed us that they were not certain if they had
                   re-inspected the returns in question or how the plant had used the
                   products. Inspectors stated that the plant generally informed FSIS
                   when goods were returned; however, under HACCP, the plant is no
                   longer required to inform FSIS when goods are returned.

                   We also found that 3 of the 15 plants (H, K, and O) did not have
                   procedures to account for returned goods or records of the products’
                   disposition. Because no records were kept for returned products, we
                   could not evaluate whether FSIS had re-inspected the returned goods
                   or how the plants had disposed of the products.




23
     9 CFR § 318.2 and 318.3.



Section I, Page 58                                              USDA/OIG-A/24001-3-At
           In order to ensure consumer protection, FSIS needs to require HACCP
           plans to include procedures to account for returned products to ensure
           that all products are re-inspected or disposed of properly.

                                        Establish procedures that require that the
 RECOMMENDATION NO. 16                  returned product process be included in
                                        the hazard analysis and HACCP plan.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                FSIS agrees that establishments receiving and handling
                returned products should be considering the returned
                product process when conducting its hazard analysis and
                when developing its HACCP plan.            The PR/HACCP
                regulation does not preclude this (9 CFR 417.2). The fact
                that plants may consider the returned product process while
                conducting its hazard analysis and when developing its
                HACCP plan doesn’t mean that it will be included in the
                plant’s HACCP plan. However, if inspection personnel have
                questions about the return product process not being
                included in the HACCP plan, they have the authority to
                question the plant’s rationale and to request documentation
                indicating why the returned product process (or any other
                process) is not included in the plant’s HACCP plan. FSIS
                disagrees that it needs to, “establish procedures that
                require,” the returned product process be included in the
                hazard analysis and HACCP plan, but it agrees to reinforce
                through training and improved communication with
                inspection personnel the regulatory requirements and
                responsibilities of the establishment with regard to
                controlling the returned product. FSIS will also do what is
                necessary to ensure that official establishments are
                cognizant of these requirements and responsibilities and of
                the consequences that flow from failure to meet this.

           OIG Position

           Our audit raised serious questions concerning product being
           returned without inspectors not always being notified or the
           disposition of the product, thus we continue to believe that returned
           product process should be addressed in the hazard analysis and
           HACCP plan. We are open to any alternative that FSIS may have to
           improve and strengthen the returned product process. However, to

USDA/OIG-A/24001-3-At                                           Section I, Page 59
             reach management decision, we need a description of how the
             recommendation will be implemented and a timeframe for
             implementation.

                                            Establish procedures for inspectors that
 RECOMMENDATION NO. 17                      include their oversight responsibilities
                                            from the point of product return to product
                                            distribution.

             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated:

                     According to 9 CFR 318.1, the inspector is required to
                     reinspect all returned products. The regulations also
                     indicate that if at any point, returned products are suspected
                     of being adulterated, appropriate actions will be taken. FSIS
                     disagrees that additional procedures need to be established
                     with regard to inspection oversight responsibilities.
                     However, FSIS agrees to reinforce with inspection
                     personnel their responsibilities related to returned product.

             OIG Position

             We agree that reinforcing inspection personnel responsibilities
             related to returned products is an acceptable management decision
             for this recommendation. However, to reach management decision,
             we need to know how and when this action will be performed.

                                        FSIS District Office personnel need to
       FINDING NO. 13                   maintain,      modify       and      update
                                        establishment/ shift plans on a continuous
     FSIS DISTRICT OFFICE               basis to ensure that applicable scheduled
 PERSONNEL NEED TO MAINTAIN             tasks are being performed. According to
    ESTABLISHMENT/SHIFT                 FSIS’ Performance Based Inspection
      PROCEDURE PLAN                    System (PBIS) computerized reports,
                                        about 17 percent of scheduled tasks were
                                        not being done by inspectors at the
           plants. This occurred because FSIS district office officials did not
           update the scheduled tasks when permanent changes occurred in the
           plants’ operations. In addition, a lack of coding or written explanation
           in the report made it impossible to differentiate between when a task
           that was no longer valid at the plant and a task that could have been




Section I, Page 60                                           USDA/OIG-A/24001-3-At
                    done but was not. As a result, inspectors may not be performing tasks
                    that carry the greatest public health significance or threat.

                    Inspection personnel are to develop and maintain an establishment/
                    shift procedure plan that reflects the current operations for shifts in an
                    establishment.     Personnel should review the form for each
                    establishment at least annually to ensure that there is a plan for every
                    shift and that the plan accurately reflects the operations that the
                    establishment currently conducts during the shift.24 District office
                    personnel need to update scheduled tasks on a continuous basis to
                    ensure that plant-specific tasks are being performed.

                    Inspection personnel complete the Establishment/Shift Inspection
                    Procedure Worksheet (Form 5400-5) to generate daily task schedules
                    to be performed at plants subject to HACCP system regulations. The
                    worksheet reflects the current operations of the plant.              After
                    completing the worksheets, inspection personnel submit them to their
                    district office where personnel enter all identified tasks into the PBIS.
                    The PBIS schedules the in-plant tasks to be performed by inspection
                    personnel in the plant each day on a Procedure Schedule (Form
                    5400-2). At four of the six district offices we visited, we found the
                    following deficiencies in the PBIS schedules:

                        •    District 20 – Two of the twenty-eight scheduled tasks assigned
                             to inspectors at plant B were not applicable. These two tasks
                             were for products that were no longer produced at the plant. In
                             addition, 2 of the 33 scheduled tasks assigned to plant A were
                             not applicable. Inspectors at the plant had given prior notice to
                             the district office that the tasks were not applicable; however,
                             district office personnel did not make the revisions.

                        •    District 25 – Three of the seventeen scheduled tasks assigned
                             to inspection personnel at plant E were not applicable. We also
                             found that scheduled tasks were documented for only the first
                             shift at plant D, although, the plant operated on two shifts.

                        •    District 35 – Four of ten plants reviewed had incorrect tasks
                             assigned based on current plant profile information.

                        •    District 90 – Three of thirteen plants reviewed had incorrect
                             tasks assigned based on current plant profile information.



24
     FSIS Directive 5400.5 Section IX.

USDA/OIG-A/24001-3-At                                                     Section I, Page 61
             We also found that FSIS should monitor and analyze the reasons
             inspection tasks are not being performed and address any needed
             changes. We could not tell whether the inspectors were unable to
             perform the tasks because they did not have time, because the plant
             profile was incorrect (generated inappropriate tasks), or because the
             plant’s operations simply made the task not applicable for that shift.
             FSIS instructions only require that the inspector circle "not performed"
             on the form. The instructions do not require the inspector to explain
             why the task was not performed. Inspectors advised that if the plant
             did not operate a shift, then they would code all tasks for that shift as
             “not performed.” They noted that the form 5400-2 could include codes
             such as ones that indicated the plant was not operating or was not
             performing the process to be reviewed. We found the following at the
             plants we visited.

                •    Plant A – At plant A, 35 of 207 (17 percent) of scheduled
                     monitoring tasks for February 1999 were not performed. The
                     IIC attributed this to staff following up on noncompliance
                     records, being unavailable due to vacation or illness, or
                     engaging in time-consuming export duties.

                •    Plant B – At plant B, 13 of 91 (14 percent) scheduled
                     monitoring tasks for February 1999 were not performed.
                     Inspectors attributed this to staff shortages due to vacation,
                     sickness, etc.

                •    Plant C – At plant C, 45 of 258 (17 percent) scheduled
                     monitoring tasks for February 1999 were not performed. The
                     IIC attributed this to staff shortages due to vacations, sickness,
                     etc.

                •    Plant G – At plant G, 53 of 225 (24 percent) scheduled
                     monitoring tasks for February 1999 were not performed. The
                     IIC attributed this to staff shortages.

                                 Require FSIS district office personnel to
 RECOMMENDATION NO. 18           monitor and update scheduled tasks on a
                                 continuous basis and to establish
                                 additional codes or require inspectors to
       document why tasks are not performed.




Section I, Page 62                                          USDA/OIG-A/24001-3-At
           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated:

                FSIS relies on the Inspection Systems Procedure Guide and
                the Performance Based Inspection System (PBIS) (see
                FSIS Directive 5400.5 and Module 6 of HACCP training) to
                schedule and record the performance of inspection
                procedures. In-plant inspectors report the procedures they
                perform to the District Offices. District Offices enter the
                procedures performed in the PBIS. In the event that a
                procedure no longer applies to an establishment, in-plant
                inspection personnel are instructed (in FSIS Directive
                5400.5) to make appropriate modifications to PBIS. In-plant
                inspectors are authorized to make changes to scheduled
                procedures based on plant conditions and their judgment
                (i.e., noncompliance with a scheduled 01 procedure triggers
                the inspector to perform an unscheduled 02 procedure,
                which would impact the performance of other scheduled
                procedures for that day). FSIS does not agree that it is
                necessary or beneficial to establish codes to require
                inspectors to document why tasks are not performed.
                Circuit Supervisors are responsible for reviewing PBIS
                reports on a regular basis and working with inspectors if they
                have questions about why procedures are not performed.
                FSIS is taking steps to reinforce the usefulness of PBIS data
                with Circuit Supervisors through circuit meetings at the
                District Offices and through the National Supervisory
                Conferences. The TSC is also summarizing PBIS data
                graphically on a national basis to indicate areas where,
                based on further investigation, correlation on the application
                of PBIS may be needed.

           OIG Position

           While FSIS does have the Performance Based Inspection System
           (PBIS) that they rely on to schedule and record the performance of
           inspection procedure, neither the system nor inspection personnel
           ensures that the assigned scheduled tasks are applicable or
           determine why tasks were not performed when they are applicable.
           Our audit disclosed that many applicable plant -specific tasks were
           not performed because establishment/shift plans were not modified
           and updated on a continuous basis to reflect the plants current
           operation. Also, for applicable tasks that were not performed, we
           could not determine the reason why. We could not determine

USDA/OIG-A/24001-3-At                                           Section I, Page 63
             whether the inspectors were unable to perform the task because
             (1) they did not have time, (2) the plant profile was incorrect or
             (3) the plant’s operation made the task not applicable. Because of
             these issues, we believe that FSIS should document the reason why
             task are not being performed. Also, FSIS needs to know why tasks
             are not being performed so they can assess inspectors performance
             and staffing needs. To reach management decision, we need details
             and timeframes on how the recommendation will be implemented.

                                      Inspection personnel perform thousands
       FINDING NO. 14                 of inspection procedures each day to
                                      determine whether plants comply with
  INADEQUATE RESPONSES TO             regulatory requirements. Any identified
   NONCOMPLIANCE RECORDS              instances     of    noncompliance        are
                                      documented on a Noncompliance Record
                                      (NR). The number of NR deficiencies at
          any particular establishment is not always an indicator as to the safety
          or wholesomeness of the plant’s products or an indicator of an
          inadequate system. Many NR’s are written for regulatory violations
          that are not related to food safety issues. For example, labeling
          violations and errors in product weights will result in issuance of an
          NR but the public health would not be endangered by the
          noncompliance.

             We found FSIS needs to establish specific guidelines for the number
             of repetitive noncompliance deficiencies that will support a
             determination that there has been a HACCP or SSOP system failure
             requiring administrative or enforcement actions. Also, we found that
             plants did not always promptly respond to NR or take timely corrective
             actions. During the audit, we found numerous repetitive critical
             deficiencies with the same cause, where permanent corrective action
             had not been taken or enforcement actions initiated. This occurred
             because FSIS has not issued any instructions as to how many and
             how frequently repetitive deficiencies can occur before corrective
             actions are deemed inadequate or when enforcement actions should
             start. In addition, procedures did not require plant management to
             respond to NR’s in a timely manner. As a result, appropriate product
             control and enforcement measures to protect consumers are not in
             place and plants are not presenting corrective action plans to
             eliminate the plant sanitation or process control systems deficiencies.

             There are no guidelines for the number, frequency, nature, or
             circumstances of repetitive critical deficiencies that constitute a
             breakdown in the sanitation or HACCP systems. An important part of



Section I, Page 64                                        USDA/OIG-A/24001-3-At
           this determination would be the failure of previously implemented
           corrective measures by the plant to prevent the recurrence of direct
           product contamination or adulteration. In plants operating under
           HACCP, FSIS inspection personnel perform inspection procedures to
           determine whether plants comply with regulatory requirements. Each
           time the performance of a procedure results in a finding of
           noncompliance with these regulatory requirements, inspection
           personnel document the finding on a Noncompliance Record (FSIS
           Form 5400.4). These NR’s are used to support, document, and notify
           plants of noncompliance noted in the plant's sanitation and process
           control systems. We found the following repetitive deficiencies with
           the same cause where the plant did not take long-term or permanent
           corrective actions to prevent recurrence of deficiencies.

              •   Plant O - From January 25, 1999, through July 2, 1999, FSIS
                  inspectors at this plant had written 102 NR’s, 31 of which (30
                  percent) had been written because the plant failed to comply
                  with its own zero tolerance for fecal contamination. Also, the
                  plant itself had identified 29 instances of noncompliance on its
                  CCP Monitoring Log For Zero Tolerance. Although the plant
                  took immediate action to correct the problem by rinsing the
                  product, no permanent corrective action was taken. It appears
                  that the plant needed to take additional measures to properly
                  alleviate the problem. FSIS inspectors said they were unaware
                  of any actions to take, thus they continued to allow the plant to
                  take the same corrective action of rinsing the product.

              •   Plant C - Three (9.4 percent) of the thirty-two NR’s written by
                  the inspectors at this plant were for repetitive violations. The
                  repetitive violations were for inadequate pre-operational
                  cleaning and corrective actions from prior NR’s that were not
                  implemented. We also found that company officials seemed to
                  wait for FSIS inspectors to point out deficiencies before taking
                  corrective actions. FSIS inspectors told us that the plant
                  management attitude was "if the inspector does not spot a
                  problem, then the problem does not exist."

              •   Plant A – Eleven (33 percent) of the thirty-three NR’s written by
                  inspectors at this plant were for repetitive violations. Seven of
                  the repetitive violations were for oil and grease on plant
                  equipment that came in contact with meat product. FSIS
                  inspectors stated that this problem had been ongoing for
                  several years and that nothing had been done to correct the
                  problem. The inspectors told us they wanted guidance on the
                  "specific number" of repetitive deficiencies that were needed to

USDA/OIG-A/24001-3-At                                          Section I, Page 65
                     force a corrective action because they were not able to get
                     support from the district office on this issue. District office
                     officials told us that for a violation to be repetitive, it must be on
                     the same piece of equipment and not the same problem on
                     different equipment on different days. Consequently, the plant
                     only performed minimal corrective action to appease the
                     inspectors but did not address the specific cause or eliminate
                     the problem.

                •    Plant B – Seven (20.5 percent) of the thirty-four NR’s written
                     by FSIS inspectors at this plant were for repetitive violations.
                     The corrective actions were inadequate to correct the problem.
                     The corrective actions were generally to "counsel the
                     employees" but never to correct the real cause of the problem.
                     Also, from January 1 through July 31, 1999, the plant was
                     opened for work 172 days of which 38 days (22 percent) had at
                     least one zero-tolerance failure. The FSIS technical service
                     center representative stated that the number of zero-tolerance
                     failures was excessive and the corrective measures taken were
                     inadequate.

             We also found that FSIS needs to establish timeframes for responding
             to NR’s. When FSIS does not respond to NR’s in a timely manner,
             plants do not promptly document the actions they intend to take to
             correct noncompliance. FSIS Directive 5400.5 Section IX. A, on NR’s
             does not address timeframes for responding to NR’s. However, the
             directive states that:

                     When an NR is issued, inspection personnel [should]
                     provide plant management with a copy of the NR (as
                     soon as possible, or by the end of the tour of duty) and an
                     opportunity to respond either orally or in writing.

             The directive also states that:

                     * * * until an establishment has brought itself into
                     compliance with the regulatory requirement(s) that
                     resulted in the issuance of the NR, the NR is "open."
                     When plant management returns the NR with their
                     proposed immediate and further planned actions and
                     inspection personnel determined that the actions by the
                     plant are acceptable and have brought the plant into
                     compliance with regulatory requirements that resulted in
                     the issuance of the NR, the NR is then "closed."



Section I, Page 66                                            USDA/OIG-A/24001-3-At
           We found the following cases where plants had not promptly
           responded to NR’s during our audit:

              •   Plant N - Seventeen NR’s had not been closed at the time of
                  our audit. These NR’s had been open from 11 to 131 days.
                  This occurred because inspection personnel did not review the
                  open NR file daily and follow up with plant management on a
                  continuous basis to determine the status of corrective actions
                  on open NR’s.
              •   Plant B - Nine NR’s were not closed from 8 to 83 days.

              •   Plant C - Fourteen NR’s were not closed from 8 to 29 days.

              •   Plant G – Sixteen NR’s were not closed from 4 to 60 days.

           In our opinion, the procedures for issuing NR’s need to be changed
           in order to provide FSIS management with an enhanced control that
           can be used to identify potential problem plants requiring
           enforcement actions.     In addition, local plant inspectors need
           additional guidance on how to prepare NR’s, monitor corrective
           action and evaluate the effectiveness of corrective action on NR’s.

                                  Develop and implement progressive
 RECOMMENDATION NO. 19            enforcement procedures that establish
                                  specific    parameters for  repetitive
                                  deficiencies and provide a basis for
       determining when corrective actions are inadequate and when
       enforcement actions should be promptly initiated.

           Agency Response

           In its May 18, 2000, response to the draft report, FSIS stated: “FSIS
           will develop procedures for repetitive deficiencies by December 2000.”

           OIG Position

           We accept the management decision for this recommendation.

                                       Establish timeframe requirements for
 RECOMMENDATION NO. 20                 responding to NR’s and initiating planned
                                       corrective actions.




USDA/OIG-A/24001-3-At                                         Section I, Page 67
             Agency Response

             In its May 18, 2000, response to the draft report, FSIS stated:

                     The Noncompliance Record (NR) states that plants must
                     respond immediately when notified by inspection personnel
                     of noncompliance. (Also see FSIS Directive 5400.5 and
                     HACCP training). Plants are also required to initiate
                     planned actions to prevent reoccurrence of the
                     noncompliance. Plants are not required to respond in
                     writing on the NR. They are, however, required, 9 CFR
                     416.16 and 417.5, to document corrective actions in plant
                     records. FSIS does not find it advisable to establish specific
                     timeframes (i.e., minutes, hours) for a plant to initiate and
                     implement corrective actions because of the nature and
                     variability among plants and production processes. The
                     nature of some corrective actions involve modifications that
                     can be made quickly, while others (e.g., equipment
                     changes) require longer timeframes. This may explain why,
                     as mentioned in the report, some NR’s remained open for a
                     period of time. FSIS believes its current regulations
                     appropriately hold plants accountable for initiating and
                     implementing corrective actions. FSIS does not agree to
                     change the procedures for issuing NR’s, but it does agree to
                     reinforce with inspection personnel their responsibilities for
                     monitoring and evaluating the effectiveness of corrective
                     actions. This is being done first through the content of the
                     National Supervisory Conferences and then through local
                     work unit meetings.

             OIG Position

             While we agree that the length of time to initiate and implement
             corrective actions for NRs differs based on the nature and variability
             among plants and production processes, there still needs to be
             processes in place to determine whether plants’ open NRs are due
             to the length of time it takes to correct deficiencies or due to the need
             of a description of how the recommendation will be implemented and
             a timeframe for implementation.




Section I, Page 68                                           USDA/OIG-A/24001-3-At
USDA/OIG-A/24001-3-At   Section I, Page 69
Section I, Page 70   USDA/OIG-A/24001-3-At
EXHIBIT A – SITES VISITED



DISTRICT NUMBER 20 - MINNEAPOLIS, MINNESOTA
     Plant A
     Plant B
     Plant C

DISTRICT NUMBER 25 - DES MOINES IOWA
     Plant D
     Plant E
     Plant F

DISTRICT NUMBER 30 - LAWRENCE, KANSAS
     Plant G
     Plant H
     Plant I

DISTRICT NUMBER 35 - SPRINGDALE, ARKANSAS
     Plant J
     Plant K

DISTRICT NUMBER 75 - GREENBELT, MARYLAND
     Plant L
     Plant M

DISTRICT NUMBER 90 - JACKSON, MISSISSIPPI

     Plant N
     Plant O




USDA/OIG-A/24001-3-At                         Page 69
EXHIBIT B – NUMBER OF HACCP PLANS REVIEWED

                                                       TOTAL      HACCP
                                                       HACCP      PLANS
      PLANT          PLANT TYPE                        PLANS      REVIEWED

          A          Hog Slaughter/Processing              1           1

          B          Beef Slaughter/Processing             2           2

          C          Hog Slaughter/Processing              54          5

          D          Processed Meat/Poultry Products       8           8

          E          Processed Meat/Poultry Products       3           3

          F          Beef Slaughter                        1           1

          G          Poultry Slaughter/Processing          2           1

          H          Processed Meat/Poultry Products       1           1

           I         Beef Slaughter/Processing             1           1

           J         Poultry Slaughter/Processing          2           2

          K          Beef Slaughter/Processing             9           9

           L         Hog Slaughter/Processing              20          20

          M          Processed Meat/Poultry Products       1           1

          N          Poultry Slaughter/Processing          1           1

          O          Poultry Slaughter/Processing          1           1

                              Total HACCP Plans           107          57




Section I, Page 70                                     USDA/OIG-A/24001-3-At
EXHIBIT C – COMPARISON OF PLANT CCP’S TO FSIS MODEL

        An X indicates the plant had a CCP similar to the model. The number in
        parentheses represents the critical limit temperature (Fahrenheit) of a process
        requiring heating or cooling.

             MODEL HACCP-12, FULLY COOKED, NOT SHELF STABLE


   PLANT CCP 1B      CCP 2B    CCP 3P    CCP 4B    CCP 5B   CCP 6B    CCP 7B   Remarks
    C                                    X(155°)
    D                X(40°)              X(165°)   X(40°)
    E                                    X(150°)   X(55°)                         1/
    H                                    X(148°)   X(50°)                         2/
    K                                    X(160°)




              1/ CCP 4B, Cooking - Temperature for poultry was 160 degrees.
              2/ CCP 4B, Cooking - Temperature for poultry was 155 degrees.




              Explanation of CCP's:
                    CCP 1B Receiving, Raw Meat
                    CCP 2B Storage, Cold - Raw Meat
                    CCP 3P Preparation of Raw Meat - Metal Detection
                    CCP 4B Cooking - Temperature
                    CCP 5B Chilling
                    CCP 6B Portioning (Zero tolerance for LM)
                    CCP 7B Finished Product Storage (cold)




USDA/OIG-A/24001-3-At                                                          Page 71
EXHIBIT C – COMPARISON OF PLANT CCP’S TO FSIS MODEL

                       MODEL HACCP-4, RAW, NOT GROUND

              PLANT   CCP 1B     CCP 2B    CCP 3B      CCP 4B    Remarks
               A                 X(45°)                X(40°)
               B                 X(55°)                            2/
               C                 X(48°)
               G                 X(55°)
                I                X(45°)
               J                 X(40°)        X       X(40°)
               K                                                   1/
               L                                                   1/
               M                 X(40°)
               N                 X(55°)
               O                                                   1/



             1/ Plant had no CCP's for this process.

             2/ The plant identified food safety hazards for Refrigerated Storage and
                Advanced Meat Recovery where CCP’s should have been established.
                The plant had developed, and was monitoring room temperatures in
                production areas; however, this control was not listed as a CCP. We
                also found that the plant had not established a CCP for their Advanced
                Meat Recovery system that produced a fine beef mixture. After our
                review, we were advised that CCP's were being established for both
                Refrigerated Storage and Advanced Meat Recovery.




             Explanation of CCP's
                   CCP 1B        Receiving - Carcasses
                   CCP 2B        Storage (cold) - Carcasses
                                 CCP 3P       Fabrication of trimmings and/or cuts -
                                 metal    detection
                   CCP 4B        Finished Product Storage (cold)




Section I, Page 72                                              USDA/OIG-A/24001-3-At
EXHIBIT C – COMPARISON OF PLANT CCP’S TO FSIS MODEL

                        MODEL HACCP-3, RAW, GROUND

          PLANT   CCP 1B    CCP 2B   CCP 3P    CCP 4B   CCP 5P    CCP 6B   Remarks
            C               X(45°)
            E               X(45°)
            I               X(45°)                         X
            K               X(60°)
            L                                                                 1/



           1/ Plant had no CCP's for this process.




           Explanation of CCP's
                 CCP 1B        Receiving Meat
                 CCP 2B        Storage (cold) meat
                 CCP 3P        Grind/Blend metal detection
                 CCP 4B        Packaging/labeling
                 CCP 5P        Packaging/labeling - metal detection
                 CCP 6B        Finished Product Storage (cold)




USDA/OIG-A/24001-3-At                                                      Page 73
EXHIBIT C – COMPARISON OF PLANT CCP’S TO FSIS MODEL

                       MODEL HACCP-14, PORK SLAUGHTER

                     PLANT   CCP 1B     CCP 2B    CCP 3B     CCP 4B
                       A       X                             X(45°)
                       C                 X
                       K                 X                   X(60°)
                       L                             X




             Explanation of CCP's
                   CCP 1B        Pre-Evisceration Wash
                   CCP 2B        Final Trim/Final Wash
                   CCP 3B        Pluck/Viscera Wash
                   CCP 4B        Chilling/Cold Storage


                       MODEL HACCP-13, BEEF SLAUGHTER

                     PLANT    CCP 1B   CCP 2B    CCP 3B    Remarks
                       B        X
                       I        X        X                    1/
                       F        X



             1/ The plant installed an intervention to reduce hazards, and to qualify for a
                 program whereby FSIS stops end-product testing (FSIS Directive
                 10010.1). However, the plant did not list the intervention as a CCP.




             Explanation of CCP's
                   CCP 1B        Final Wash (Antimicrobial) - Zero Fecal
                   CCP 2B        Chilling (All Products)
                   CCP 3B        Finished Product Storage (Cold)




Section I, Page 74                                           USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 75
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 76                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 77
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 78                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 79
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 80                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 81
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 82                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 83
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 84                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 85
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 86                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 87
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




Section I, Page 88                      USDA/OIG-A/24001-3-At
EXHIBIT D – FSIS’ RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24001-3-At                            Section I, Page 89
                            ABBREVIATIONS


ARS     - Agricultural Research Service

CCP     - Critical Control Point

CDC     - Centers for Disease Control

CFR     - Code of Federal Regulations

FSIS    - Food Safety and Inspection Service

GAO     - General Accounting Office

GMP     - Good Manufacturing Processes

HACCP   - Hazard Analysis and Critical Control Point

IIC     - Inspector-In-Charge

LM      - Listeria monocytogenes

NR      - Noncompliance Record

OIG     - Office of Inspector General

PBIS    - Performance Based Inspection System

QC      - Quality Control

SSOP    - Sanitation Standard Operating Procedure

USDA    - U.S. Department of Agriculture
U.S. Department of Agriculture
 Office of Inspector General
     Food Safety Initiative
  Meat and Poultry Products



   FOOD SAFETY AND INSPECTION
            SERVICE
LABORATORY TESTING OF MEAT AND
      POULTRY PRODUCTS




                     Report No.
                     24601-1-Ch
                     June 2000
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                 OFFICE OF INSPECTOR GENERAL

                                     Washington D.C. 20250




DATE:        June 21, 2000

REPLY TO
ATTN OF:     24601-0001-Ch

SUBJECT:     Laboratory Testing of Meat and Poultry Products

TO:          Thomas J. Billy
             Administrator
             Food Safety and Inspection Service

ATTN:        Margaret O’ K. Glavin
             Associate Administrator


This report presents the results of our audit of the Food Safety and Inspection Service’ s
laboratory operations and activities. This review is part of the Office of Inspector
General’ s food safety initiative, which also included the implementation of the Hazard
Analysis and Critical Control Point System, District Enforcement Operations’ compliance
activities, and the agency’ s controls to ensure the safety of imported meat products. Your
response to the official draft report, dated June 1, 2000, is included as exhibit B with
excerpts and the Office of Inspector General’ s position incorporated into the Findings and
Recommendations section of the report. Based on your response, management decisions
have been reached on Recommendations Nos. 1, 2, 4, 6, 7, 8, 9, 11, 13, 14, 15, and 16.
Please follow your agency’ s internal procedures in forwarding documentation for final
action to the Office of the Chief Financial Officer.

Management decisions have not been reached on Recommendations Nos., 3, 5, 10, 12,
and 17. Management decisions can be reached once you have provided the additional
information outlined in the report sections, OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and the timeframes for implementation
of the remaining recommendations. Please note that the regulation requires management
decisions to be reached on all recommendations within 6 months of report issuance.


/s/
ROGER C. VIADERO
Inspector General
                    EXECUTIVE SUMMARY
                        LABORATORY TESTING
                   OF MEAT AND POULTRY PRODUCTS
                     AUDIT REPORT NO. 24601-1-Ch

                                     This report presents the results of our
      RESULTS IN BRIEF               audit of the Food Safety and Inspection
                                     Service’s (FSIS) laboratory activities and
                                     operations as administered by the FSIS
         Office of Public Health and Science (OPHS). This review was part of
         the Office of Inspector General’s (OIG) food safety initiative, which
         also included the implementation of the Hazard Analysis and Critical
         Control Point System, the controls over imported meats, and District
         Enforcement Operations compliance activities. The objective of our
         audit was to evaluate whether FSIS had effective quality control
         procedures in place to ensure that all product is subject to testing,
         and that all laboratories performing tests of official product samples
         are adhering to applicable standards and are producing timely and
         accurate test results.

           We found that the three FSIS field laboratories we visited were
           generally following the procedures prescribed by the agency and by
           the Association of Analytical Chemists (AOAC) when performing tests
           for pathogens, residues, food chemistry, and species identification on
           product samples obtained from meat and poultry slaughtering and
           processing establishments.      In addition, the laboratories were
           producing timely and accurate test results. They correctly analyzed
           180 unmarked samples we sent to them to determine if they could
           detect the presence or absence of the bacteria Salmonella and E.
           coli 0157:H7.

           However, our review raised several important questions about the
           thoroughness of FSIS’ sample testing since not all meat and poultry
           products prepared for the marketplace are subject to sample testing.
           Specifically, we noted the following control weaknesses:

           •   The database of meat and poultry establishments maintained by
               OPHS did not list all establishments which should have been
               subject to testing. Our reviews of 4 of the 11 “sampling frames,”
               each of which is intended to list all establishments whose products
               are subject to testing under the various sampling projects,
               disclosed that the number of establishments listed was

USDA/OIG-A/24601-0001-Ch                                        Section II, Page i
                  understated by at least 31 percent. For instance, in our visit to
                  one of FSIS’ 17 district offices, we determined that there were at
                  least 97 establishments in the area served by that office which
                  produced processed meat and poultry products. FSIS sampling
                  frames listed only 48 of the 97 establishments. Any establishment
                  not included in its proper “sampling frame” cannot have product
                  selected for microbiological or species identification testing.
                  Undetected species mislabeling may affect individuals with dietary
                  or religious needs; undetected pathogens may have their greatest
                  effect on infants and the elderly.

              •   FSIS laboratories do not consistently test product samples from
                  all the establishments in FSIS’ sampling frames. We found that
                  inspectors do not respond, on average, to 24 percent of OPHS’
                  requests for samples to test. Although FSIS oversamples to
                  ensure adequate numbers of test results, the degree of
                  nonresponse leaves gaps in the sources of samples. In our
                  review of 1,401 establishments for which product samples were
                  requested under 3 sampling frames during the period January-
                  May 1999, FSIS inspectors at 419 establishments (29 percent)
                  did not respond to 2 or more requests for samples during the 5-
                  month period of our review. Inspectors at 197 establishments
                  (14 percent) did not respond to one or more requests during 3 or
                  more months of our review period.

              Two other deficiencies in FSIS’ testing program affected the testing
              of product. Late deliveries of test samples to the laboratories
              resulted in discarded samples, and tests for nitrosamines did not
              ensure that all meat capable of containing the carcinogen was tested.

              •   We found that FSIS’ overnight courier did not always provide next-
                  day delivery of samples to laboratories on weekends. Salmonella
                  samples for carcass products must be analyzed no later than the
                  day after collection; otherwise, they must be discarded without
                  being tested.

              •   Although FSIS regulations require that bacon products be tested
                  for the presence of nitrosamines, the agency did not have a list of
                  establishments that produced those products and did not even
                  know the number of such establishments under FSIS inspection.
                  Laboratory tests performed on samples from 34 different
                  establishments during a 21-month period revealed that all
                  contained nitrosamines, although none exceeded the established
                  tolerance level. However, products from many establishments are
                  not tested. At one FSIS district office with at least 30 bacon-

Section II, Page ii                                    USDA/OIG-A/24601-0001-Ch
               producing plants, only 2 such plants had product tested during the
               period of our review.

           We also found that FSIS’ quality assurance activities needed to be
           strengthened. The separate Quality Assurance Branches (QAB) that
           report to FSIS’ Microbiology Division and Chemistry and Toxicology
           Division are responsible for monitoring the field laboratories through a
           combination of onsite field reviews and the periodic assessment of
           the laboratories’ performance in analyzing “check samples” which
           contain known types and quantities of pathogens such as Salmonella,
           E. coli, and Listeria monocytogenes. We found that controls needed
           to be improved in several areas:

           •   The Microbiology Division’s QAB did not ensure that onsite visits
               were conducted on a regular basis or that the results of these
               visits and of check samples were communicated to the
               laboratories. The QAB also did not ensure that laboratories
               responded to its review reports as required, or that they took
               corrective actions to address deficiencies identified by QAB.

           •   FSIS uses rapid “screening” test kits as part of its Salmonella
               testing program because the large number of tests required by the
               Hazard Analysis and Critical Control Points Program could not
               feasibly be done using the traditional culture and biochemical
               methods. However, the agency procured approximately 55,000
               test kits that did not meet contract specifications, despite QAB
               tests that showed that the kits would fail to indicate the presence
               of Salmonella at more than twice the rate allowed by contract
               specifications. We issued a management alert to FSIS on this
               issue, and the agency is taking corrective actions to address the
               problem.

           We consider issues involving controls over collection and testing of
           product samples from FSIS-inspected establishments to be material
           internal control weaknesses. As such, to ensure their prompt
           attention and correction, they should be included in the agency’s
           annual management reports required under the Federal Manager’s
           Financial Integrity Act (FMFIA).

           Finally, we determined that laboratories need to better document their
           operations to assure that tests are performed according to FSIS
           standards and that test results are accurate. Two of the three
           laboratories we visited did not always document all steps in their
           analyses, including incubation times and temperatures. Also, the



USDA/OIG-A/24601-0001-Ch                                        Section II, Page iii
              laboratories did not always document equipment maintenance,
              including sterilization and calibration.

                                     We recommend that FSIS institute
  KEY RECOMMENDATIONS                stronger procedures and controls to
                                     ensure that all meat and poultry
                                     establishments under Federal meat and
         poultry inspection acts are subject to product testing, and that FSIS
         inspectors at establishments selected for testing respond to sampling
         requests in all instances to ensure that FSIS’ laboratory testing
         programs encompass the agency’s entire universe of FSIS-inspected
         establishments. We also recommend that the agency strengthen its
         quality assurance programs to ensure that all FSIS and accredited
         laboratories are in full compliance with all applicable standards and
         are producing valid and supportable analytical results.

                                      FSIS generally agreed with the findings
      AGENCY RESPONSE                 and recommendations as presented,
                                      except as otherwise noted in the Agency
                                      Response sections of the report. As one
          of its general comments, FSIS officials stated that the report
          prematurely uses the International Organization for Standardization
          (ISO) Guide 17025 as a standard for FSIS laboratories. They
          believed that the agency’s current standards were still valid, and were
          still being met.

              FSIS’ response to the official draft report, dated June 1, 2000, is
              included in its entirety as exhibit B of the audit report.

                                       Based on the information provided in
          OIG POSITION                 FSIS’ response, we have reached
                                       management          decisions       on
                                       Recommendations Nos. 1, 2, 4, 6, 7, 8,
            9, 11, 13, 14, 15, and 16. Management decisions have not yet been
            reached for Recommendations Nos. 3, 5, 10, 12, and 17.

              As we stated to FSIS officials in previous meetings, OIG audited
              against FSIS’ internal operating procedures wherever possible.
              However, we did make reference in several areas of the report to
              ISO Guide 17025 because FSIS either had not implemented its own
              procedures to cover certain areas of its operations or relied on draft
              procedures as described in Findings Nos. 6, 8 and 9. The relevance
              of the ISO Guide 17025 standards to the FSIS laboratories is also
              described in the Background section of the report.



Section II, Page iv                                   USDA/OIG-A/24601-0001-Ch
                                  TABLE OF CONTENTS

EXECUTIVE SUMMARY .......................................................................................... i
  RESULTS IN BRIEF ............................................................................................. i
  KEY RECOMMENDATIONS ............................................................................... iv
  AGENCY RESPONSE ........................................................................................ iv
  OIG POSITION .................................................................................................. iv
TABLE OF CONTENTS.......................................................................................... v
INTRODUCTION .................................................................................................... 1
  BACKGROUND .................................................................................................. 1
  OBJECTIVES ..................................................................................................... 6
  SCOPE............................................................................................................... 6
  METHODOLOGY................................................................................................ 7
FINDINGS AND RECOMMENDATIONS................................................................... 9
  CHAPTER 1........................................................................................................ 9
  CONTROLS OVER THE COLLECTION AND TESTING OF PRODUCT SAMPLES
  NEED TO BE IMPROVED ................................................................................... 9
  FINDING NO. 1................................................................................................. 10
  RECOMMENDATION NO. 1 .............................................................................. 13
  RECOMMENDATION NO. 2 .............................................................................. 14
  FINDING NO. 2................................................................................................. 14
  RECOMMENDATION NO. 3 .............................................................................. 17
  RECOMMENDATION NO. 4 .............................................................................. 18
  FINDING NO. 3................................................................................................. 19
  RECOMMENDATION NO. 5 .............................................................................. 20
  FINDING NO. 4................................................................................................. 21
  RECOMMENDATION NO. 6 .............................................................................. 23
  CHAPTER 2...................................................................................................... 25
  QUALITY ASSURANCE ACTIVITIES NEED TO BE STRENGTHENED ................ 25
  FINDING NO. 5................................................................................................. 26


USDA/OIG-A/24601-0001-Ch                                                                                       Page v
                                 TABLE OF CONTENTS
  RECOMMENDATION NO. 7 .............................................................................. 28
  FINDING NO. 6................................................................................................. 29
  RECOMMENDATION NO. 8 .............................................................................. 32
  FINDING NO. 7................................................................................................. 33
  RECOMMENDATION NO. 9 .............................................................................. 34
  RECOMMENDATION NO. 10 ............................................................................ 35
  RECOMMENDATION NO. 11 ............................................................................ 35
  FINDING NO. 8................................................................................................. 36
  RECOMMENDATION NO. 12 ............................................................................ 38
  FINDING NO. 9................................................................................................. 39
  RECOMMENDATION NO. 13 ............................................................................ 40
  CHAPTER 3...................................................................................................... 43
  BETTER CONTROLS OVER LABORATORY DOCUMENTATION AND
  SUPERVISORY REVIEWS ARE NEEDED........................................................... 43
  FINDING NO. 10 ............................................................................................... 43
  RECOMMENDATION NO. 14 ............................................................................ 47
  FINDING NO. 11 ............................................................................................... 47
  RECOMMENDATION NO. 15 ............................................................................ 49
  CHAPTER 4...................................................................................................... 51
  TIGHTER CONTROLS ARE NEEDED OVER THE ACCREDITED LABORATORY
  PROGRAM ....................................................................................................... 51
  FINDING NO. 12 ............................................................................................... 51
  RECOMMENDATION NO. 16 ............................................................................ 53
  RECOMMENDATION NO. 17 ............................................................................ 54
  EXHIBIT A – FSIS SAMPLING PROJECTS ........................................................ 57
  EXHIBIT B – AUDITEE RESPONSE TO DRAFT REPORT .................................. 58
ABBREVIATIONS................................................................................................. 97
GLOSSARY OF TERMS....................................................................................... 98




Section II, Page vi                                                   USDA/OIG-A/24601-0001-Ch
                          INTRODUCTION

                                    The Food Safety and Inspection Service
       BACKGROUND                   (FSIS) was established by the Secretary
                                    of Agriculture on June 17, 1981. The
                                    mission of FSIS is to ensure that the
         Nation’s commercial supply of meat, poultry, and egg products is
         safe, wholesome, and correctly labeled and packaged as required by
         the Federal Meat Inspection Act, the Poultry Products Inspection Act,
         and the Egg Products Inspection Act.

           FSIS laboratory activities include analyses of official product samples
           obtained from meat and poultry establishments under a variety of
           testing programs. These analyses include microbiology tests for
           pathogens such as Salmonella and E.coli, tests for antibiotic and
           chemical residues, food chemistry tests for fat content and for
           additives such as water and salt, and tests to verify the species of
           meat or poultry contained in product samples.

           FSIS’ Office of Public Health and Science (OPHS) provides
           microbiological, chemical, and toxicological expertise, leadership, and
           quality assurance and control for the agency. (See chart, next page.)
            OPHS also oversees field laboratory services for the agency. Within
           OPHS, two divisions are central to laboratory activities. The
           Chemistry and Toxicology Division provides scientific expertise to
           FSIS in chemistry, toxicology, and related science disciplines. It also
           manages the Accredited Laboratory Program and administers and
           provides technical expertise in quality assurance and quality control
           programs for FSIS laboratories through its Quality Assurance Branch
           (QAB), located in Washington, D.C. The Microbiology Division
           provides microbiological expertise regarding food borne pathogens,
           farm-to-table safety, and related public health issues. It plans and
           implements microbiological and analytical programs for the field
           support laboratories and administers microbiological quality
           assurance and quality control through its QAB, located in Athens,
           Georgia, to assure reliability of analytical data generated by FSIS
           laboratories.     It also provides expert scientific support for
           investigations or foodborne disease outbreaks, extraneous materials
           detection, and other public health hazards.




USDA/OIG-A/24601-0001-Ch                                       Section II, Page 1
                      About 7,400 full-time inspectors operating in approximately
                      6,200 federally inspected establishments throughout the United States
                      assist FSIS in carrying out its mission. It is their responsibility to
                      monitor the slaughter and processing of all meat and poultry products
                      produced for interstate commerce in the United States.

Figure 1: FSIS Office Of Public Health and Science

                                                                   OFFICE
                                                                     OF
                                                        PUBLIC HEALTH AND SCIENCE




                                  SCIENTIFIC RESEARCH
                                       OVERSIGHT
                                         STAFF




       EPIDEMIOLOGY AND                                                                                      CHEMISTRY AND
       RISK ASSESSMENT                            MICROBIOLOGY                                                TOXICOLOGY
           DIVISION                                     DIVISION                                                DIVISION




        FOOD HAZARD           EMERGING              QUALITY                 SPECIAL PROJECTS      EMERGING                    QUALITY
        SURVEILLANCE          MICROBIAL            ASSURANCE                   & OUTBREAK          ISSUES                    ASSURANCE
           DIVISION             ISSUES                  BRANCH                SUPPORT LAB.         BRANCH                     BRANCH
                               BRAMCH




           EMERGING
        PATHOGENS AND
           ZOONOTIC
         DISEASES DIV.                                                                              FIELD SERVICE
                                                                                                    LABORATORIES



         EMERGENCY
          RESPONSE
           DIVISION                                                                  EASTERN         MIDWESTERN               WESTERN
                                                                                  LABORATORY        LABORATORY               LABORATORY



                                                                                  REGULATORY         REGULATORY              REGULATORY
                                                                                   CHEMISTRY          CHEMISTRY               CHEMISTRY
                                                                                     SECTION          SECTION                 SECTION




                                                                                  MICROBIOLOGY      MICROBIOLOGY           MICROBIOLOGY
                                                                                     SECTION          SECTION                 SECTION




                                                                                    PATHOLOGY
                                                                                     SECTION




Section II, Page 2                                                                               USDA/OIG-A/24601-0001-Ch
           In addition to the inspectors, 3 field service laboratories and
           126 accredited laboratories provide analytical service support. The
           field service laboratories, located in Athens, Georgia; St. Louis,
           Missouri;    and    Alameda,     California,    provide   pathological,
           microbiological, chemical, and other scientific examination of meat,
           poultry, and egg products for disease, infection, extraneous materials,
           drug and other chemical residues, or other types of adulterants.

           In Calendar Year (CY) 1998, the three field service laboratories
           performed 729,661 analyses of 167,500 samples.           Of the
           126 accredited laboratories, 44 accredited laboratories analyzed
           681 samples during the same period.

           As part of their inspection duties, FSIS inspectors collect ready-to-eat
           and other processed product samples to be tested by the
           laboratories for the presence of pathogens and toxins. Since 1987,
           FSIS has conducted monitoring programs to identify the presence of
           Listeria monocytogenes and Salmonella in fully cooked, ready-to-eat
           meat and poultry products. Since proper cooking should destroy
           these pathogenic bacteria, a finding of these organisms in fully
           cooked, ready-to-eat products leads to regulatory action by FSIS. In
           Fiscal Year (FY) 1995, a monitoring program for E.coli O157:H7 in
           cooked meat patties was initiated. Thirteen separate subsamples are
           analyzed from each product lot submitted by inspectors. In FY 1998,
           dry and semi-dry ready-to-eat fermented sausages were added to
           the E.coli O157:H7 testing program.

           In addition to the collection of ready-to-eat and other processed
           product samples, inspectors collect raw product samples for
           Salmonella testing. Microbiological standards for raw products did
           not exist prior to July 1996 (with the exception of the monitoring
           program for E.coli O157:H7 in raw ground beef, which was initiated in
           FY 1995). On July 25, 1996, FSIS issued its landmark rule,
           Pathogen Reduction: Hazard Analysis and Critical Control Point
           (HACCP) Systems. The new, science-based system is designed to
           improve food safety and make better use of agency resources. In
           addition, the final rule established pathogen reduction performance
           standards for Salmonella in raw meat and poultry products. The
           FSIS inspectors collect the raw meat and poultry product samples
           from establishments and send them to the laboratories for
           Salmonella testing, in order to verify that establishments are meeting
           the pathogen reduction performance standards. Pathogen reduction
           performance standards for raw products are an essential component
           of FSIS’ food safety strategy because they provide a direct measure
           of progress in controlling and reducing the most significant hazards

USDA/OIG-A/24601-0001-Ch                                        Section II, Page 3
             associated with raw meat and poultry products. Accordingly, the
             collection of samples in establishments by inspection program
             personnel is a significant agency priority.

             Due to the addition of the large number of samples collected by
             inspectors under HACCP, the field service laboratories are using
             commercial test kits to perform an Enzyme-Linked Immunoassay
             (ELISA) test that screens each HACCP sample for the presence of
             Salmonella. The test identifies samples that are presumptively
             positive for Salmonella. The remaining samples are not tested further
             and are reported as negative. The samples that are presumptively
             positive will be tested using traditional laboratory procedures.

             In addition to the collection of samples to be tested for pathogens and
             toxins, FSIS conducts the National Residue Program (NRP) for
             domestic products. The NRP is a multi-component analytical testing
             program for residues in domestic and imported meat, poultry, and
             egg products. The NRP provides a variety of sampling plans to verify
             that slaughter establishments are fulfilling their responsibilities under
             HACCP for preventing violative residues. The range of chemical
             compounds considered for inclusion in the various NRP testing
             programs is comprehensive in scope. It includes approved and
             unapproved pharmaceutical drugs and pesticides known or suspected
             to be present in food animals in the U.S. and in countries exporting
             products to the U.S. It also includes any other xenobiotic or naturally
             occurring compounds that may appear in meat, poultry, and egg
             products and that may pose a potential human health hazard.

             FSIS uses several information systems to schedule the collection of
             samples for laboratory testing. The Performance Based Inspection
             System (PBIS) is used for scheduling regulatory inspection activities
             and reporting inspection findings. The Microbiological and Residue
             Computer Information System (MARCIS) is a consolidated database
             of analyses performed at the laboratories. In addition, for each
             sampling project, FSIS maintains a “sampling frame,” which is a listing
             of establishments that produce products designated for testing by the
             sampling projects.     The various divisions within OPHS provide
             information to the computer specialists regarding the numbers and
             types of products to sample and when. All of this information enables
             FSIS Headquarters to schedule the microbiology and residue
             samples. PBIS schedules the food chemistry samples.

             A unified sampling form, FSIS Form 10,210-3, is used by inspectors
             for all directed sampling projects (microbiological, chemical, and
             residue) with the exception of the PR/HACCP Salmonella sampling

Section II, Page 4                                     USDA/OIG-A/24601-0001-Ch
           program. The sampling projects and the unified form establish a
           uniform system for sample collection and transmittal of samples to
           laboratories. The use of the new form and system will facilitate the
           eventual electronic transfer of sampling requests and the tracking of
           samples in the laboratories. When the form is sent to inspectors,
           certain blocks are pre-preprinted with information specific to the
           sample to be collected. Sample collectors are required to complete
           Part II of the form and send it with the sample to the specified
           laboratory. If for any reason samples are not collected, sample
           collectors are to complete blocks 29-33 of Part II and send the form
           to the specified laboratory.

           The International Organization for Standardization (ISO) Standard
           17025 (which replaced ISO Guide 25) details the most
           comprehensive set of requirements for testing and calibration
           laboratories.    The FSIS Field Laboratories are not currently
           accredited by the ISO, and FSIS officials stated that few if any
           government food-testing laboratories in the United States possess
           such accreditation. However, FSIS has underway an initiative whose
           goal is to achieve accreditation under ISO Standard 17025.

           ISO standards require that laboratories ensure the quality of results
           provided to clients by implementing checks, such as participation in
           proficiency testing. FSIS uses proficiency testing to monitor the
           quality and accuracy of analytical results from its laboratories. This
           testing provides an essential quality management tool that avoids bias
           and ensures accurate and reliable data. On a quarterly or semiannual
           basis, each FSIS field laboratory receives a series of proficiency
           check samples for analysis. Once the check samples have been
           tested, the results are reported to the QAB, which grades the
           laboratory’s performance and forwards the graded results to FSIS
           Headquarters. After a review of the results, Headquarters forwards
           the results to the laboratory. It is the responsibility of Headquarters
           to ensure that the laboratory takes any necessary corrective actions.

           ISO also requires that laboratories arrange for reviews of their
           activities at appropriate intervals to verify that operations continue to
           comply with the requirements of the quality system. FSIS guidelines
           require that QAB perform onsite reviews of each laboratory at least
           twice a year. These reviews are to cover all critical procedures and
           functions that are part of the daily routine of the laboratory.

           The laboratories use the Microbiology Laboratory Guidebook (MLG)
           for the microbiological analysis of meat, poultry, and egg products
           that fall under the jurisdiction of USDA. It contains methods that the

USDA/OIG-A/24601-0001-Ch                                         Section II, Page 5
             FSIS laboratories are to use for the isolation and identification of
             pathogens including Salmonella, E.coli O157:H7, Campylobacter
             jejuni/coli, Listeria monocytogenes, Clostridium perfringens, and
             Staphylococcal enterotoxins in meat, poultry, and egg products. In
             addition, it contains methods for the detection and identification of
             extraneous materials in these foods.

             The Analytical Chemistry Laboratory Guidebook—Food Chemistry is
             the reference book of regulatory methods for the analysis of meat
             and poultry products.

             The FSIS laboratories are currently moving toward accreditation
             under ISO Standard 17025. This is a recognition of laboratory
             competence, and requires that each laboratory have a quality system
             in place for critical materials, organization and management, reviews
             for compliance with quality systems, personnel education and training,
             calibration of critical equipment and materials, test methods, and
             records.    FSIS has estimated that the ISO Standard 17025
             accreditation process will take 1 to 1-1/2 years. We believe that
             FSIS needs to accomplish this as expeditiously as possible.

                                        The overall audit objective was to
           OBJECTIVES                   determine whether all meat and poultry
                                        products were subject to testing, and if
                                        FSIS’ quality assurance over laboratory
            activities ensured that field service and accredited laboratories
            maintained sample integrity through proper handling and security, and
            conducted tests in a timely and accurate manner. Specifically, we
            determined whether: (1) FSIS Headquarters effectively scheduled
            samples to be collected, and effectively administered their quality
            assurance program; and (2) the field service laboratories used
            prescribed methods and procedures for tests, performed tests in a
            timely manner, properly documented all tests, and properly
            maintained their equipment.



                                          The audit fieldwork was performed at the
              SCOPE                       FSIS National Office in Washington, DC;
                                          the three field service laboratories,
                                          located in Athens, Georgia; St. Louis,
             Missouri; and Alameda, California; the Quality Assurance Branch for
             Microbiology, located in Athens, Georgia; the Special Projects and
             Outbreak Support Laboratory, located in Athens, Georgia; and one
             FSIS district office located in Pickerington, Ohio. We also utilized

Section II, Page 6                                   USDA/OIG-A/24601-0001-Ch
           information collected at three meat and poultry establishments that
           were visited as part of the OIG Southeast Region’s audit of HACCP.
           We performed the fieldwork from May 1999 through December 1999.

           We selected statistical and judgmental samples of 190 food
           chemistry, microbiology, and residue laboratory tests out of about
           181,000 that were performed between January 1998 and April 1999
           for review.

           We also reviewed 4 of the 11 sampling frames in FSIS’ database for
           accuracy and completeness, and reviewed the MARCIS listings of
           sampling requests and associated responses for a 5-month period in
           1999.

           We conducted this audit in accordance with Generally Accepted
           Government Auditing Standards.

                                      At the National Office and the Quality
                                      Assurance Branch for Microbiology, we
       METHODOLOGY                    analyzed documents and conducted
                                      interviews with FSIS officials.    We
         reviewed FSIS policies and procedures regarding the types of tests
         being performed, the methods for selecting samples to be collected,
         and the quality assurance programs in place in the microbiology,
         residues, and food chemistry areas, to ensure the laboratories
         performed timely and accurate analyses of meat and poultry
         products.    We also reviewed the information provided by the
         Microbiological and Residue Computer Information System
         (MARCIS), which is used to track the processing of scheduled
         microbiological, residue, and food chemistry samples.

           At the Special Projects and Outbreak Support Laboratory, we
           conducted interviews and reviewed documentation of analyses
           performed.

           At the three field laboratories, we conducted interviews with
           laboratory directors, computer specialists, microbiologists and
           chemists-in-charge, quality control managers for microbiology and
           chemistry, analysts, and other staff, and reviewed supporting
           documentation. We also observed laboratory procedures in the
           areas of: (1) computer input of sample information; (2) sample
           receiving activities; (3) media preparation; and (4) microbiology, food
           chemistry, and residue testing procedures. For our samples of tests
           performed, we reviewed supporting documentation of the tests
           performed.

USDA/OIG-A/24601-0001-Ch                                       Section II, Page 7
             At the district office, we reviewed and analyzed documentation of the
             number of plants in the district and the types of products produced.

             In addition, in cooperation with another USDA agency, we contracted
             with a private, FSIS-accredited laboratory to send a total of 180
             unmarked check samples to the three field laboratories during
             November and December 1999, to verify the competence of the
             laboratories to detect the presence of Salmonella and E.coli 0157:H7
             in product samples.

             We also used the scientific expertise of this other USDA agency to
             evaluate the laboratory standards, policies, and procedures of FSIS.




Section II, Page 8                                  USDA/OIG-A/24601-0001-Ch
           FINDINGS AND RECOMMENDATIONS

                 CONTROLS OVER THE COLLECTION AND
 CHAPTER 1       TESTING OF PRODUCT SAMPLES NEED TO BE
                 IMPROVED

           FSIS’ Office of Public Health and Science (OPHS) selects the
           establishments from which products will be sampled each month. To
           identify its “universe” of meat and poultry establishments from which
           to select product samples for testing, FSIS maintains separate
           databases that list the establishments that could be selected under
           the various program areas. OPHS uses a computerized database to
           select establishments for product testing. This database contains
           separate listings of establishments, referred to as “sampling frames,”
           which categorize establishments by the type of product they produce.
            A separate sampling frame is maintained for 11 different pathogen
           and species-identification monitoring projects (see exhibit A)
           administered by the various FSIS Headquarters divisions.

           We found that FSIS could not ensure that all plants under inspection
           were available to be selected for product sampling. We found that
           the sampling frames contained in the agency’s database were not all
           inclusive; for instance, in our review of one large sampling frame, we
           found that although 1,106 establishments were listed, at minimum it
           should have listed 1,606 establishments, an understatement of
           31 percent. We also identified 97 establishments that produced
           cooked, ready-to-eat poultry products at one of FSIS’ 17 district
           offices; however, a review of 11 sampling frames which should have
           included all of these establishments disclosed that only 48 were
           listed. Even though FSIS regulations require the agency to test bacon
           products for the presence of nitrosamines, a known carcinogen, FSIS
           could not provide us with a listing of establishments which produce
           this product, or even the number of such establishments under FSIS
           inspection.

           FSIS also did not have controls to ensure that its inspectors obtained
           all the necessary product samples for testing by the laboratories. We
           found that FSIS inspectors did not respond to 24 percent of the
           requests for product samples sent out by OPHS between January
           and May 1999, either in the form of product samples sent or
           explanations as to why the samples could not be obtained. OPHS

USDA/OIG-A/24601-0001-Ch                                       Section II, Page 9
             officials were aware of the high nonresponse rate and oversampled to
             ensure that enough analyses were performed to monitor overall
             product processing; however, FSIS cannot assure that products from
             untested establishments are complying with meat and poultry
             inspection requirements.         In addition, inspectors at many
             establishments did not respond to sampling requests on a repeated
             basis. Of 1,395 establishments selected for product sampling under
             3 sampling frames between January and May 1999, inspectors at
             419 establishments (30 percent) failed to respond to 1 or more
             requests during this period, while inspectors at 197 establishments
             (14 percent) failed to respond to 1 or more requests in 3 or more
             months.

             FSIS needs to ensure that all inspected establishments are subject to
             being selected for product testing, and that all sampled
             establishments are in fact being tested. Laboratory testing for
             pathogens and residues is an integral part of the agency’s monitoring
             system to ensure that meat and poultry establishments are
             maintained in sanitary condition and that their products are free from
             harmful contaminants.


                                     FSIS did not identify, for inclusion in its
       FINDING NO. 1                 testing programs, all establishments
                                     producing processed products designated
 FSIS NEEDS TO ENSURE THAT           for laboratory analyses. This occurred
  ALL ESTABLISHMENTS ARE             because FSIS did not have controls to
SUBJECT TO PRODUCT TESTING           ensure that FSIS inspectors updated the
                                     agency’s establishment information on the
          required basis, or to periodically review the agency’s databases to
          determine whether they include all establishments subject to testing
          under each category.        As a result, FSIS is not including all
          establishments in its various testing programs for microbiology,
          residues, food chemistry, and species identification. We found, for
          instance, that the 1,106 establishments included under one large
          sampling frame we reviewed were understated by at least 31
          percent.

             FSIS maintains a “sampling frame” (a listing of establishments that
             produce products of a designated type) for testing under each of the
             sampling projects. To maintain a complete and accurate sampling
             frame for each project, FSIS requires its inspectors at meat and
             poultry establishments to submit updated establishment information




Section II, Page 10                                  USDA/OIG-A/24601-0001-Ch
                   twice a year to FSIS Headquarters.1 When sample requests are
                   made from establishments that do not produce the designated
                   product the inspector reports to the laboratory that the product is no
                   longer available. The laboratory then passes this information to FSIS
                   Headquarters to remove the establishment from the sampling frame.

                   FSIS currently has 11 sampling projects (see exhibit A) that test for
                   pathogens and species identification in processed products from meat
                   and poultry establishments.    The number of samples scheduled for
                   the projects ranged from 45 samples for project MT01 (E.coli
                   0157:H7 in Ready-to-Eat Meat Patties) to 768 samples for project
                   ME15 (Listeria and Salmonella in Small Diameter Cooked Products).


                   We evaluated whether the sampling frames for pathogen and species
                   identification testing included all establishments that produced the
                   products designated for each type of testing. We compared the
                   sampling frames for sampling projects that included the same
                   designated products to determine if each sampling frame listed the
                   same establishments. In addition, at one district office, we compared
                   the office’s listing of processing establishments under its jurisdiction to
                   the comparable sampling frames to determine if the sampling frames
                   were all-inclusive for this area. We found that the sampling frames
                   used by FSIS to identify establishments whose products should be
                   sampled for each type of test were both inaccurate and incomplete.
                   Details of the conditions noted were as follows:

                   •        The sampling frame for project MM14, Cooked Product
                            Species Testing, lists 1,106 establishments that produce
                            cooked, processed product. We compared this to project
                            ME22, Salmonella/Listeria in Cooked Poultry Products, whose
                            sampling frame listed 472 establishments which produced
                            cooked, processed poultry products. The sampling frame for
                            project MM14 was larger because it included all
                            establishments producing cooked, processed meat and poultry
                            products, whereas that of ME22 would include only those
                            establishments producing cooked and processed poultry
                            products. Thus, all establishments listed in the sampling frame
                            for project ME22 should also have been included in the
                            sampling frame for project MM14.



1
    FSIS Directive 10230.3 Rev. 2



USDA/OIG-A/24601-0001-Ch                                                 Section II, Page 11
                      However, we found that the sampling frame for project MM14
                      included 131 establishments producing cooked, processed
                      poultry products that were not included in the sampling frame
                      for project ME22. Conversely, the sampling frame for project
                      ME22 contained 234 establishments that were not included in
                      the sampling frame for project MM14.

              •       The sampling frame for project ME15, Salmonella/Listeria in
                      Small Diameter Cooked Products, included 745 establishments
                      that also should have been listed in the sampling frame for
                      project MM14, Species Identification Testing in Cooked Meat
                      and Poultry Products. The sampling frame for project MM14
                      did not include 231 of the establishments identified by project
                      ME15’s sampling frame.

             •        The        sampling      frame     for     project     ME23,
                      Salmonella/Listeria/Staphylococcus     Aureus    in   Salads,
                      identified 126 establishments that should also be included in
                      the sampling frame for project MM14. The sampling frame for
                      project MM14 did not include 61 establishments identified by
                      the sampling frame for ME23.

             Overall we found that, after adjusting for establishments listed under
             more than one of the sampling frames, MM14 should have included
             1,606 establishments instead of the 1,106 that were listed, an
             understatement of 500 (31 percent).

             To further evaluate the accuracy of the above sampling frames, we
             visited one of the 17 FSIS district offices. Although the establishment
             information on file at the district office did not always clearly identify
             the products processed by the establishments, we were able to
             identify 97 establishments that produced processed meat and poultry
             products that should have been included in the sampling frames for 11
             projects designed to test for pathogens in ready-to-eat products or to
             conduct species testing in cooked products. The sampling frames for
             the 10 projects identified only 48 of the 97 establishments.

             During the period of January 1, 1999, through May 31, 1999, FSIS
             records showed that 593 sample requests could not be obtained
             because the establishments did not produce the products. At
             52 establishments the inspectors discarded the sample requests for 3
             or more months because the establishments did not process the
             designated product samples. FSIS did not follow up with the
             inspectors to determine whether these establishments were in the
             wrong sampling frames.

Section II, Page 12                                    USDA/OIG-A/24601-0001-Ch
           We discussed the above issues with the OPHS official who is
           responsible for sending out the sampling requests, and the official
           stated that FSIS does not have procedures in place to ensure that the
           sampling frames are kept current. The official explained that FSIS
           makes semiannual requests for its inspectors to submit updated
           information on their establishments. This information is transmitted
           electronically to OPHS, which in turn updates the sampling frame
           information. However, no record is maintained to show when the
           information was last updated and FSIS is unable to identify
           establishments whose information is incorrect or out of date. In
           addition, FSIS information systems do not identify products
           processed by specific meat and poultry establishments. As a result,
           FSIS cannot conduct a data base analysis to determine if the
           sampling frames include all applicable establishments.

           We consider this issue to be a material internal control weakness,
           since it directly impacts the agency’s ability to collect and test product
           samples from FSIS-inspected meat and poultry establishments. As a
           result, we believe that this should be included in the agency’s annual
           management report under the Federal Manager’s Financial Integrity
           Act (FMFIA).

                                     Develop a management system to track
  RECOMMENDATION NO. 1               each     inspector’s compliance   with
                                     requirements for semiannual updates to
                                     the sampling frames. Follow up with
       establishment inspectors who do not respond to ensure that sampling
       information is up-to-date for all establishments.

           FSIS Response

           FSIS officials responded that they would develop an approach to
           follow up with inspectors. For Salmonella testing, FSIS developed
           the Pathogen Reduction Enforcement Program (PREP) that will
           schedule, track, and report test results. One of this program’s
           features will provide followup with inspectors that do not provide
           information needed to update sampling frame information. FSIS
           officials stated that this program will be fully implemented by
           September 2000. For ready-to-eat (RTE) products, the sampling
           frames will be based on information in the PBIS. For E.coli 0157:H7
           and residue testing, plans are underway to incorporate PBIS plant
           profile data as the source for updating sampling frame information.
           OIG Position


USDA/OIG-A/24601-0001-Ch                                        Section II, Page 13
             We accept FSIS’ management decision.


                                   Develop a database that identifies and
  RECOMMENDATION NO. 2             segments all establishments producing
                                   products designated for sampling under
                                   the various sampling projects. Use this
       information to maintain current listings within the sampling frames for
       the sampling projects.

             FSIS Response

             FSIS stated that it would enhance the PBIS establishment profile by
             December 2000, to include all product information needed for
             sampling programs and require inspection personnel to keep that
             information up to date.

             OIG Position

             We accept FSIS’ management decision.


                                         FSIS does not track the disposition of
        FINDING NO. 2                    requests for monitoring samples sent to
                                         FSIS inspectors at meat and poultry
   FSIS NEEDS TO TRACK THE               establishments, or follow up in cases
   DISPOSITION OF PRODUCT                where     inspectors      neither   provide
     SAMPLING REQUESTS                   requested samples nor report their
                                         reasons for not doing so. FSIS has the
           ability to track the receipt of these responses, but the agency does
           not have operating procedures to perform this monitoring. FSIS does
           not require its inspectors to keep records of the receipt and
           disposition of requests, thus limiting its ability to follow up at a later
           date to determine why required samples have not been provided.

             FSIS inspectors did not respond to approximately 24 percent of the
             requests for monitoring samples, which include all samples from
             establishments other than those obtained under HAACP. Officials of
             OPHS stated that they oversample to account for the large number of
             non-responses. However, the agency’s failure to obtain responses to
             all sampling requests could allow problems to go undetected at
             establishments whose products go untested for significant periods of
             time. As previously mentioned, our review of the sampling frames for
             ME15, MM11, and MT02 for the period of January 1 through May 31,
             1999, showed that of 1,395 establishments selected for product

Section II, Page 14                                   USDA/OIG-A/24601-0001-Ch
           testing, the FSIS inspectors at 419 (30 percent) failed to respond to
           one or more sampling requests during 2 or more months. Inspectors
           at 197 establishments (14 percent) did not respond to one or more of
           the sampling requests sent during 3 or more months.

           FSIS currently has 11 sampling projects under which the agency
           performs about 71,000 laboratory tests annually for pathogens (such
           as Salmonella, E.coli, and Listeria monocytogenes) and species
           identification (which verifies the type of meat in sampled products) in
           product samples obtained from meat and poultry establishments. In
           addition, FSIS has a separate testing program under which laboratory
           tests are performed on both raw and processed products to detect
           the presence of residues such as chemicals and antibiotics, and food
           chemistry analyses which test for fat, protein, salt, and moisture
           content.

           Between January 1 and May 31, 1999, FSIS sent out a total of
           16,830 microbiology and 12,760 residue sample requests to FSIS
           inspectors. OPHS officials explained that the numbers of requests
           sent out are based on the historical needs of the FSIS Headquarters
           divisions that maintain and operate the pathogen/species identification
           sampling projects, as well as the separate testing program for
           residues and food chemistry. OPHS determines the number and type
           of sampling requests to be sent out each month in order to meet the
           needs of the various testing programs. Establishments that produce
           the specified products are sampled through non-statistical means
           from the database of establishments under FSIS inspection. Sampling
           requests for the products are sent to the FSIS inspectors at these
           establishments using FSIS Form 10210-3. The FSIS inspector
           receiving the request is required to provide the specified product
           within a stated time period as shown on the sample request form.
           The form also specifies the FSIS field laboratory to which the sample
           is to be sent, and provides any other specialized instructions
           applicable to a particular sampling request.

           In cases where the type of sample being requested is not available at
           the establishment during the time period specified on the request
           form, establishment inspectors are required to report this fact to the
           designated laboratory so that this information can be entered into the
           data base system. Justifiable reasons for not obtaining the requested
           sample include cases where the establishment is not operating during
           the specified time period, or where the establishment no longer
           produces the specified product. In the latter case, the inspector
           reports the product as being “never available,” which notifies FSIS



USDA/OIG-A/24601-0001-Ch                                      Section II, Page 15
             that further samples of that type should not be requested from that
             establishment.

             Under current FSIS procedures, the results from these tests are to be
             reported to FSIS Headquarters by the laboratories, so that the
             various FSIS Headquarters divisions can make use of the test results.
              However, positive test results for harmful pathogens and residues
             are also to be reported to the establishment inspector and the
             applicable FSIS district office, so that followup action such as further
             testing or enforcement actions can be taken.

             We found that FSIS inspectors at meat and poultry establishments
             frequently do not respond to the sampling requests, either by
             providing the required samples or the reason the samples could not
             be collected. Our review of the FSIS data base for the period of
             January 1 through May 31, 1999, showed that 16,830 sampling
             requests were sent out by OPHS in support of sampling projects
             relating to microbiology testing. However, for 4,376 of these
             (26 percent), no responses were received from the FSIS
             establishment inspectors.       Similarly, we found that out of
             12,760 sample requests for products to be tested for residues or
             food chemistry during this same time period, 2,714 (21 percent)
             received no responses. In addition, we reviewed the residue and
             food chemistry sample requests for the period of June 1 through
             September 30, 1999, and found that of 11,176 requests sent,
             2,528 (23 percent) received no response. In total, FSIS inspectors
             failed to respond to 9,618 requests (24 percent).

             According to the OPHS official responsible for handling the requests,
             an inspector’s non-response to sampling requests does not generate
             any followup by FSIS, even if an inspector does not respond on a
             repeated basis. Although FSIS’ computer system has the ability to
             identify and track non-responses to sampling requests, FSIS has no
             operating procedures in place to do this or to follow up with
             inspectors to get the requested samples. This official further stated
             that based on past response rates OPHS oversamples by
             approximately 25 percent to ensure that the requesting divisions
             receive a sufficiently large number of completed laboratory analyses
             to meet their needs. According to the OPHS official we interviewed,
             none of the Headquarters divisions which receive and utilize these test
             results have expressed concerns that they are not receiving enough
             test results for their purposes.

             In conjunction with OIG’s ongoing audit of the HACCP program, we
             attempted to reconcile OPHS’ computerized records of samples

Section II, Page 16                                   USDA/OIG-A/24601-0001-Ch
            requested and received at three slaughtering establishments. We
            found, however, that this could not be accomplished because the
            inspectors kept no records of the sampling request forms they had
            received or of any samples they had sent to the laboratories.
            According to both the inspectors and to the OPHS official,
            establishment inspectors are not currently required to keep such
            documentation. The Assistant Deputy Administrator in charge of
            OPHS expressed his concerns about the lack of records in this area.

            OPHS, through its policy of oversampling, was able to provide a
            sufficient number of test results to the various users. However,
            serious problems with individual establishment sanitation or product
            contamination could exist at establishments whose inspectors do not
            respond to sample requests for microbiological and residue testing.

            FSIS needs to implement controls and procedures to ensure that
            establishment inspectors respond to its requests for samples. In
            addition, the agency needs to ensure the individual accountability of
            FSIS inspectors at meat and poultry establishments by requiring them
            to maintain documentation of sample requests they receive, as well
            as the inspector’s actions to either fulfill the requests or report the
            reason why this could not be accomplished.

            We consider this issue to be a material internal control weakness,
            since it directly impacts the agency’s ability to collect and test product
            samples from FSIS-inspected meat and poultry establishments. As a
            result, we believe that this should be included in the agency’s annual
            management report under the FMFIA.


                                     Institute procedures to monitor the
  RECOMMENDATION NO. 3               responses to sampling requests on a
                                     monthly basis, and identify instances
                                     where inspectors do not respond. Where
       inspectors do not respond to sampling requests, require the district
       offices to follow up with the establishment inspectors to determine the
       reason for their failure to provide the required responses. In addition,
       perform immediate followup on the 197 establishments that failed to
       respond to 3 or more requests.




            FSIS Response



USDA/OIG-A/24601-0001-Ch                                         Section II, Page 17
             FSIS officials agreed that a better process is required to monitor the
             responses to sampling requests on a monthly basis, and identify
             instances where inspectors do not respond. They stated that by
             September 2000 they will expand their reporting system to alert FSIS
             officials of inspectors not responding to ready-to-eat sample
             requests, similar to what is in place for Salmonella Performance
             Standard sampling. They also stated that they are working to
             enhance FSIS’ e-mail system by including a quarterly summary that
             will be mailed to circuit supervisors listing all plants for which
             scheduled samples were not provided to the laboratories.

             OIG Position

             We concur with FSIS’ efforts to enhance its reporting systems to
             identify inspectors who do not respond to requests for product
             samples. However, FSIS officials did not address the issue of the
             197 establishments that failed to respond to 3 or more requests. To
             reach management decision, they need to provide us with a response
             to address this item.


                                         Implement a system which allows FSIS to
  RECOMMENDATION NO. 4                   track the status of sample requests,
                                         including their receipt and disposition by
                                         inspectors     at   meat    and     poultry
             establishments.

             FSIS Response

             FSIS agreed with the recommendation and will modify PBIS to track
             the status and disposition of sample requests. FSIS will create an
             official form, the “sample log”, for inspection personnel to use in
             tracking sample collection and submittal, and will change FSIS
             Directive 10,230.5 to include instructions on maintaining the log by
             December 2000.

             OIG Position

             We accept FSIS’ management decision




Section II, Page 18                                  USDA/OIG-A/24601-0001-Ch
                                        FSIS’ agreement with its overnight courier
          FINDING NO. 3                 service did not always ensure next-day
                                        delivery of Salmonella samples to the
    AGREEMENT WITH OVERNIGHT            field laboratories in cases where samples
    COURIER DID NOT GUARANTEE           were sent on Fridays or on days
    TIMELY WEEKEND OR HOLIDAY           preceding holidays. FSIS field officials
        DELIVERIES TO FIELD             had not been previously aware that
           LABORATORIES                 samples were not being given next-day
                                        delivery in these cases, and believed that
             their agreement required this. However, between January 1, 1999,
             and December 31, 1999, the field laboratories discarded about 10
             percent of the samples mailed on Fridays because of delayed
             shipments.

                    FSIS directives2 state that carcass samples must be picked up by the
                    overnight courier the same calendar day the sample is collected.
                    Carcass samples must be analyzed the day after collection. If a
                    Salmonella sample is not shipped on the same day it is collected, or
                    if the sample is not received by the laboratory on the day after
                    collection, laboratory procedures require that the sample be
                    discarded without being tested.

                    As a part of our audit, we sent unmarked (“blind”) check samples to
                    the field laboratories to be tested for the presence of Salmonella.
                    However, the field laboratories discarded all of the check samples
                    sent on the first Friday of our testing period because they were not
                    delivered until the following Monday. The FSIS official responsible for
                    our shipping arrangements stated that this should not have occurred,
                    since their contract required next-day delivery even if this involved
                    samples being delivered on Saturdays and holidays.

                    FSIS officials provided us with information that showed, during
                    calendar year 1999, that its overnight courier made 6,599 Saturday
                    deliveries of HACCP Salmonella samples to the field laboratories.
                    They also reported that 664 samples scheduled for Saturday delivery
                    were discarded due to “shipping delays” by the courier. This
                    represents approximately 10 percent of the Saturday deliveries of
                    HACCP samples for calendar year 1999. Overall, FSIS inspectors
                    sent over 61,000 Salmonella samples to the laboratories during this
                    period.




2
    FSIS Directive 10,230.5 dated 2/4/98.


USDA/OIG-A/24601-0001-Ch                                               Section II, Page 19
             Under HACCP requirements, FSIS inspectors at meat and poultry
             establishments may be required to send product samples on
             successive days, including Fridays and days preceding holidays, to
             complete a sample series. However, according to an official at FSIS’
             Technical Service Center, this may not always be possible for a
             variety of reasons such as an establishment not operating on certain
             days. Therefore, we believe that FSIS Headquarters officials need to
             determine whether or not next-day delivery of samples sent on these
             days is necessary for the agency’s laboratory testing program. If so,
             then FSIS needs to renegotiate its agreement with the overnight
             courier to ensure that these samples will reach the laboratories in
             time to be tested. If the agency determines that an alternative
             method is available to test establishments production so that it is not
             necessary to send samples on these days, FSIS Headquarters should
             notify the laboratories and all inspectors at meat and poultry
             establishments to discontinue shipments of product samples on these
             days.

                                    Determine whether it is necessary for
  RECOMMENDATION NO. 5              FSIS inspectors to be able to ship
                                    product samples to the field laboratories
                                    on Fridays and on days preceding
       holidays. Renegotiate the existing agreement with the overnight
       courier to ensure next-day deliveries of such shipments, or inform the
       laboratories and all FSIS inspectors to discontinue shipments of
       product samples on these days if alternative methods are developed
       to test products that are produced on these days.

             FSIS Response

             FSIS officials stated that they have determined that it is necessary for
             inspectors to ship samples on Fridays and on days preceding
             holidays for Salmonella analysis. However, the agency disagrees
             that further negotiation of the contract is necessary, since the GSA
             contract with the overnight courier does require Saturday delivery of
             samples if these are properly labeled. FSIS officials stated that they
             have had Saturday delivery of HACCP samples since the initiation of
             the HACCP Salmonella Program on January 26, 1998.                    All
             laboratories receive and process samples via the overnight courier on
             Saturdays and selected holidays. They stated that FSIS has
             experienced occasional problems with Saturday deliveries in a few
             very remote locations. They also stated that OIG may have
             experienced difficulty shipping samples due to the lack of “Saturday
             Delivery” labels.


Section II, Page 20                                   USDA/OIG-A/24601-0001-Ch
           Regarding holiday deliveries, FSIS maintains close contact with the
           overnight courier to determine which holidays the courier is not
           operating. In situations where the courier does not deliver on a
           particular holiday, FSIS notifies the inspectors in all HACCP
           establishments so that samples are not sent. Finally, FSIS officials
           stated that the overnight courier recently initiated a new process that
           does not require the use of special labels for Saturday delivery. A
           new flyer is being distributed to all FSIS inspectors immediately.

           OIG Position

           As noted in our finding, approximately 10 percent of all planned
           Saturday deliveries of HACCP samples in calendar year 1999 had to
           be discarded due to shipping delays by the overnight courier. We do
           not believe that such numbers can be explained by “occasional
           problems with Saturday deliveries in a few very remote locations,” as
           stated in the agency’s response. If the agreement with the courier
           does in fact guarantee Saturday deliveries, as FSIS officials contend,
           then the number of delayed shipments experienced by the agency
           should be considered excessive. As stated earlier to FSIS officials,
           the boxes containing the OIG check samples had the “Saturday
           Delivery” labels affixed to them, as provided to us by FSIS personnel.

           The FSIS response also states that the new process being
           implemented by the overnight courier does not require the use of
           special labels for Saturday delivery. However, the new instructions
           being sent to the FSIS inspectors at meat and poultry establishments
           (Attachment 4 of the response) clearly show that Saturday delivery
           labels are still used. Based on this information, it is not clear that
           there has been any significant change to the existing process that
           caused over 650 HACCP samples to be discarded untested in 1999.

           Overall, we do not believe that FSIS has satisfactorily addressed this
           recommendation. To reach a management decision, FSIS needs to
           provide us with assurances that the overnight courier is guaranteeing
           that all HACCP samples mailed on Fridays or on days preceding
           holidays will be received the following day by the laboratories.

                                        FSIS’ program to test for the presence
        FINDING NO. 4                  of nitrosamines, a carcinogen that can
                                       occur in bacon products, did not ensure
     TESTING PROGRAM FOR               that all establishments producing such
  NITROSAMINES NEEDS TO BE             products were subject to testing.
           IMPROVED                    Although such testing is a regulatory
                                       requirement, FSIS’ information systems

USDA/OIG-A/24601-0001-Ch                                      Section II, Page 21
                    did not include a database or sampling frame that grouped these
                    establishments for sample selection. Because of this, FSIS could not
                    identify the establishments producing products that may contain
                    nitrosamines. During the 21-month period between November 1997,
                    and July 1999, FSIS only requested one product sample apiece from
                    60 establishments; by contrast, one FSIS District Office alone had 30
                    bacon-producing establishments under inspection.          Of the 60
                    requested samples only 34 were actually tested, all of which were
                    found to contain low levels of nitrosamines. Because of the relatively
                    small number of tests performed, and the agency’s inability to identify
                    the universe of such establishments from which to draw its samples,
                    we question whether the regulatory requirement for testing of
                    nitrosamines was met.

                    Nitrosamines can occur in any bacon product where nitrite is used to
                    cure the meat and can be formed when the bacon is fried. To ensure
                    that bacon products are safe for consumers, FSIS issued regulations 3
                    that require the collection of bacon samples for testing to determine
                    nitrosamine levels, with samples to be collected randomly throughout
                    a selected production lot. FSIS has determined the unacceptable
                    level of nitrosamines in any product to be anything over 15 parts per
                    billion. In any instance where such levels are identified in a tested
                    product sample, the agency is responsible for taking enforcement
                    action that could include the recall of contaminated product from the
                    marketplace.

                    Between November 12, 1997, and July 8, 1999, FSIS conducted only
                    limited testing of bacon products for the presence of nitrosamines.
                    During this period, FSIS scheduled sample selections from 60
                    establishments. However, in 23 instances no samples were sent from
                    the selected establishments either because the inspectors failed to
                    respond to the sampling requests or because they reported that the
                    product was unavailable for testing. In 3 instances where the samples
                    were provided, valid results could not be obtained because of
                    “laboratory errors;” however, each of the 34 samples for which tests
                    were successfully completed showed nitrosamine levels of between
                    3.01 and 14.77 parts per billion. None of these test results exceeded
                    the tolerance level of 15 parts per billion, and thus no followup action
                    by FSIS was required. However, these test results indicate that the
                    presence of nitrosamines in bacon products is a common occurrence.
                     After July 8, 1999, no further samples were requested for
                    nitrosamines testing.


3
    9 CFR 318.7(b)(2).



Section II, Page 22                                          USDA/OIG-A/24601-0001-Ch
           FSIS officials were unable to provide us with a listing of
           establishments that produce bacon products that would be subject to
           testing for nitrosamines, or even the total number of such
           establishments that are currently under FSIS inspection.            This
           information was not available because FSIS has not compiled a
           sampling frame or other listing of such establishments; nor could such
           information be readily obtained from FSIS’ databases because these
           do not include information on the type of products produced by each
           establishment. However, during our review at one FSIS District
           Office, we identified at least 30 establishments within the district that
           were producing bacon products. Of those, only 2 had been selected
           for nitrosamines testing during the period of our review.

           We interviewed FSIS officials from each unit that has responsibilities
           in the area of nitrosamines testing, including the Eastern Field
           Laboratory, and the Scientific Research Oversight Staff. None of the
           officials were able to state why greater emphasis had not been given
           to the agency’s nitrosamines testing program. The Director of
           Regulation Development and Analysis stated that the plan is to include
           nitrosamines testing as a part of HACCP and have the testing
           performed by the establishments. FSIS officials stated that the
           agency plans to publish a proposed rule covering this by March 31,
           2001.

           Unless all bacon-processing establishments under FSIS inspection
           are subject to nitrosamines testing, FSIS has limited assurance that
           bacon products marketed to consumers do not contain unsafe levels
           of this carcinogenic substance. Based on the results of the limited
           testing performed during the period of 1997 through 1999, we believe
           that FSIS needs to implement a better testing program.

                                  Ensure that all establishments producing
  RECOMMENDATION NO. 6            bacon products are subject to required
                                  testing for nitrosamines. Implement a
                                  comprehensive program of testing for this
       substance, under which all bacon-producing establishments would
       have product subject to periodic testing over a predetermined period
       of time.

           FSIS Response

           By March 3, 2001, FSIS intends to publish a rule to convert
           nitrosamine requirements provided by 9 CFR 318.7(b) to performance
           standards under the establishments’ HACCP procedures.          The
           performance standard is expected to address the nitrosamine levels

USDA/OIG-A/24601-0001-Ch                                       Section II, Page 23
             as well as the potential growth of Clostridium botulinum.      The
             proposed rule will require the establishments to control their
             production to produce safe products. FSIS will be expected to verify
             that the establishments are following the HACCP procedures, which
             may include product testing to verify nitrosamine levels.

             OIG Position

             We accept FSIS’ management decision.




Section II, Page 24                                 USDA/OIG-A/24601-0001-Ch
 CHAPTER 2        QUALITY ASSURANCE ACTIVITIES NEED TO BE
                  STRENGTHENED


           To ensure that the FSIS laboratories are meeting all applicable quality
           control standards as set forth by regulations, the Microbiology
           Division and the Chemistry and Toxicology Division have each
           established a Quality Assurance Branch to perform various monitoring
           tasks.     The Microbiology Division’s QAB is responsible for all
           laboratory operations which involve pathogen testing and species
           identification, while the Chemistry and Toxicology Division’s QAB
           administers testing programs for residues and food chemistry. Each
           QAB is responsible for making periodic onsite field visits to the
           laboratories, as well as sending check samples to the laboratories.
           The results of the laboratory analyses of these check samples are
           evaluated against pre-specified criteria by the QAB’s, and are used
           as a means of verifying the proficiency of the laboratories in
           performing analyses of official product samples from meat and poultry
           establishments.

           We found, however, that because of the way the check sampling
           programs had been implemented by both divisions, their results were
           not necessarily representative of the actual performance of the
           laboratories in the day-to-day testing of official product samples.
           Since the check sample sets were clearly marked to distinguish them
           from official samples, the laboratories were aware that they were
           being tested. We performed our own check sampling procedure,
           sending 60 unmarked (“blind”) check samples to each laboratory for
           Salmonella and E.coli testing. In each instance, the FSIS field
           laboratories correctly identified the presence of the pathogens in our
           check samples.

           Our audit noted, however, that the Microbiology QAB had not
           implemented adequate controls to ensure that all field visits were
           performed on the required schedule, or that the results of onsite visits
           and check samples were always communicated to the laboratories.
           The microbiology QAB did not ensure that laboratories responded to
           review reports as required. Without such controls, laboratories may
           remain unaware of deficiencies disclosed through the various QAB
           reviews. In addition, FSIS has no assurance that needed corrective
           actions have been taken by the laboratories to correct reported
           deficiencies. Further, the Microbiology Division had not implemented
           a formal training program for its analysts at the laboratories, or

USDA/OIG-A/24601-0001-Ch                                       Section II, Page 25
             required that any training provided to these analysts was documented
             as required under both ISO standards and the draft FSIS
             requirements sent to the field laboratories. Such a program needs to
             be implemented before it can obtain ISO accreditation.

             The Microbiology QAB also performs quality control assessments on
             the screening test kits that the laboratories use in order to perform
             the large number of Salmonella tests required under HAACP.
             However, FSIS procured over 55,000 test kits from one vendor even
             though QAB notified FSIS Headquarters that the test kits recorded
             “false negative” test results in almost 7 percent of the tests
             performed; this was more than twice the allowable rate of 3 percent
             under both the procurement contract and FSIS’ Microbiology
             Laboratory Guidelines. Based on the potential health risks to the
             public which excessive false negative test results could cause, we
             issued a management alert and FSIS is taking corrective actions.

             Finally, neither OPHS nor the QAB’s had implemented a quality
             assurance program for the Special Project and Outbreak Support
             Laboratory, whose functions include conducting investigations into
             outbreaks of foodborne illness.          Overall, we believe that
             improvements in these various quality assurance functions would
             greatly enhance the assurances available to FSIS management that
             the laboratories are performing accurate and supportable analyses.


                                      FSIS did not have adequate controls in
       FINDING NO. 5                  place to ensure that deviations identified
                                      at the field laboratories through
 BETTER FOLLOWUP IS NEEDED            proficiency check samples were timely
WHEN DEVIATIONS ARE FOUND IN reported to FSIS Headquarters and the
 LABORATORY CHECK SAMPLE              laboratories. In addition, FSIS did not
           RESULTS                    perform the necessary monitoring to
                                      ensure that the laboratories adequately
          addressed the problems or deviations noted. We attributed this in
          part, to the FSIS Microbiology Division and its Quality Assurance
          Branch, which did not adequately coordinate with one another to
          ensure that reports were timely issued and resolved. Consequently,
          the field laboratories are not always made aware of deficiencies or
          deviations disclosed through the proficiency testing process, and
          FSIS has reduced assurance that such deficiencies or deviations have
          been corrected.

             FSIS uses proficiency testing to monitor the quality and accuracy of
             analytical results from its laboratories. On a quarterly or semiannual

Section II, Page 26                                  USDA/OIG-A/24601-0001-Ch
           basis, each FSIS field laboratory receives a series of proficiency
           check samples for analysis. The check samples for microbiology are
           prepared under contract by a private laboratory, and are inoculated
           with specified quantities of pathogens such as Salmonella or E.coli
           0157:H7, or with antibiotic residues. The field laboratories are notified
           in advance of their arrival, and the check samples are clearly marked
           as such on the shipping containers. The receiving laboratory then
           tests each check sample for both the presence of the specified
           pathogen or antibiotics, and its quantity in the sample, as well as for
           species identification.

           Once the check samples have been analyzed by the field laboratory,
           the results are reported to the QAB. The QAB then evaluates the
           laboratory’s performance by comparing its test results to the
           inoculation records for each sample provided by the contracted
           laboratory, as well as to the results obtained by the other field
           laboratories. In any instance where the field laboratory fails to detect
           the presence of the inoculant in a sample, records a quantitative
           analysis that falls outside of set parameters, or incorrectly identifies
           the species of a sample, a finding must be reported so that the
           laboratory can identify and correct any laboratory-related problems
           which may have caused the deviation.

           The QAB forwards the graded results to the Microbiology Division in
           FSIS Headquarters, which has microbiology oversight responsibilities
           for the field laboratories. Once the Microbiology Division has
           reviewed the results, it informs the laboratory of its performance on
           the check sample analyses. In cases where deviations are noted, the
           Division also informs the laboratory of these and, when necessary,
           requests a written response detailing the corrective actions taken to
           correct the problems. It is the responsibility of the Microbiology
           Division to determine whether or not the corrective actions reported
           by the laboratory are sufficient to correct the noted problems.

           Our review disclosed that this process was not always followed.
           Between October 1997, and June 1999, the three field laboratories
           analyzed a total of 108 proficiency check sample sets involving a total
           of 1,968 analyses performed on 921 individual samples (each set
           consists of multiple individual check samples and if one sample is in
           error or falls outside of set parameters, QAB policy is to report a
           finding); however, the QAB forwarded the results for only 61 of these
           sets to the Microbiology Division. The results for the remaining
           47 sets were not reviewed by FSIS Headquarters nor sent to the
           laboratories. Of the 47 sets of results that were not forwarded by
           QAB, 16 identified some type of errors or deviations in the

USDA/OIG-A/24601-0001-Ch                                       Section II, Page 27
             laboratories’ analyses of the check samples that required followup. In
             most cases, only one of the samples in the set caused the finding.
             Because neither of the Microbiology Division nor the laboratories had
             received these reports, the deficiencies had remained unreported for
             periods of between 3 and 11 months at the time of our audit. QAB
             officials stated that they were not aware that the reports had not
             been provided to the Microbiology Division, and agreed with the need
             for better controls within QAB to ensure that the reports are timely
             forwarded.

             Of the 61 sets that were forwarded to the Microbiology Division and
             the laboratories, 20 disclosed some type of deviation which required
             followup with the laboratories. The Microbiology Division requested
             the laboratories to provide written responses in 16 of the 20 cases,
             but the laboratories only provided responses in 3 cases. FSIS did not
             follow up with the laboratories to obtain responses in the remaining 13
             instances.     Through interviews with FSIS Microbiology Division
             officials, we found that no one in the Division had been assigned the
             responsibility for monitoring the laboratories to ensure that they
             provided the required responses.

             FSIS Headquarters officials stated that they had not been aware of
             these problems, and the responsible official agreed that the
             procedures needed to be strengthened to prevent their recurrence.
             One official stated that this problem had occurred because the QAB
             was not involved in all areas of the check sample process, and noted
             that the division of responsibilities between the Microbiology Division
             and the QAB may have been responsible for lack of follow through in
             obtaining laboratory responses to requests for corrective action. An
             FSIS official stated that she planned to amend the check sample
             reporting process so that QAB will have full responsibility for ensuring
             that test results are communicated to the laboratories, and that
             laboratories provide appropriate responses to the check sample
             results.

             FSIS officials also pointed out that the 36 sample sets on which QAB
             noted deviations represented only 66 analyses out of
             1,968 performed (3.4 percent). Of these, they stated that only 14 of
             the analyses actually involved laboratory errors.


                                         Establish monitoring procedures to
  RECOMMENDATION NO. 7                   ensure that the results of proficiency
                                         check samples are reported to the
                                         laboratories in a timely manner, and that

Section II, Page 28                                   USDA/OIG-A/24601-0001-Ch
                    laboratories are required to provide written responses to ensure that
                    appropriate corrective action, such as training or increased
                    supervision, is taken.

                    FSIS Response

                    FSIS agreed that it can improve internal followup when deviations in
                    check sample results are noted.        The response stated that
                    procedures can be developed to assist in the review, evaluation, and
                    reporting of check sample results, and that additional mechanisms
                    could be developed to ensure that any necessary corrective actions
                    are implemented, recorded, and properly reported to the appropriate
                    officials. FSIS officials stated that they have drafted standard
                    operating procedures that strengthen these controls. The new
                    procedures should be completed by September 2000.

                    OIG Position

                    We accept FSIS’ management decision.


                                         The FSIS Microbiology Division, for a
          FINDING NO. 6                  period of approximately 4 years (May
                                         1995 – March 1999), did not conduct the
      QAB FIELD VISITS DID NOT           onsite field reviews required by FSIS
    COMPLY WITH REQUIREMENTS             procedures. These reviews are needed
                                         to assure FSIS management that the field
             laboratories operate as intended. When onsite visits were performed
             in 1995 and 1999, the results of the reviews either were not reported
             to the laboratories or were not reported until 8 to 14 months after the
             reviews were completed. Further, we found that for 5 of 6 reports
             that were issued, the laboratories did not provide the required
             responses detailing their corrective actions on the deficiencies noted.
               As a result, FSIS Headquarters lacked assurance that problems
             disclosed in reviews had been corrected.

                    The International Organization for Standardization (ISO) 4 requires
                    that laboratories shall arrange for review of their activities at
                    appropriate intervals to verify that their operations continue to comply
                    with the requirements of the quality system governing their
                    operations. Such reviews shall be carried out by trained and qualified
                    staff that are, wherever possible, independent of the activity to be

4
    International Organization for Standardization, Ref. No. ISO/IEC GUIDE 25: 1990 (E).



USDA/OIG-A/24601-0001-Ch                                                                   Section II, Page 29
                 audited. Where the review finding casts doubt on the correctness or
                 validity of the laboratory’s calibration or test results, the laboratory
                 shall take immediate corrective action and shall immediately notify, in
                 writing, any client whose work may have been affected. In addition,
                 the guidelines state that it is not enough to merely discover problems;
                 they must also be corrected. All audits and review findings and any
                 corrective action that arise from them shall be documented.

                 FSIS has not implemented laboratory review procedures other than to
                 prepare draft instructions dated June 4, 1993. The draft of these
                 procedures 5 requires onsite reviews to be conducted at least twice a
                 year at each field laboratory. The draft states that the reviews will
                 cover all critical procedures and functions that are part of the daily
                 routine of the microbiology laboratory. Also, a field review report
                 summarizing the findings will be prepared and sent to the field
                 laboratory. The report will require a laboratory response to show
                 corrective actions on the reported deficiencies. QAB assumed
                 responsibility for meeting these requirements when it was created in
                 September 1996; prior to this, the FSIS Microbiology Division had
                 direct responsibility.

                 FREQUENCY

                 Our review of the Microbiology Division’s and QAB’s onsite reviews
                 disclosed that the frequency of reviews and the reporting process did
                 not provide assurances to FSIS that the laboratories were providing
                 reliable test results that can be supported by a documented quality
                 control system. The following table summarizes the onsite reviews
                 conducted and the subsequent reporting process.




                 Table 1: Listing of Microbiology QAB Onsite Reviews
                                                                                          DATE
                                                                                      LABORATORY
                                             DATE OF           DATE REPORT           RESPONDED TO
                   LABORATORY                REVIEW            WAS ISSUED               REPORT
                      Eastern               March 1995           Not Issued           Not Applicable


5
  FSIS Quality Assurance Program Microbiology Division Science and Technology Program Guidelines, (Draft)
September 1992.



Section II, Page 30                                                USDA/OIG-A/24601-0001-Ch
               Midwest          March 1995       May 16, 1996        June 26, 1996
               Western        May-June 1995       Not Dated          No Response
               Midwest         August 1997       Sept. 3, 1997       No Response
               Western        September 1997    March 2, 1998        No Response
               Eastern           April 1999       Not Issued         Not Applicable
               Midwest          March1999       November 1999        No Response
               Western          March 1999      November 1999        No Response

           As shown in the preceding table, onsite reviews of laboratory
           operations were not made at regular intervals or at the semiannual
           cycle required by FSIS procedures. The 1997 reviews were limited
           to the Midwest laboratory’s antibiotic residue testing program and to
           the Western Laboratory’s egg testing activities, and thus did not meet
           the criteria for full onsite reviews. Therefore, comprehensive reviews
           of the laboratories’ operations were performed only in 1995 and
           1999, with almost a 4-year interval between them.

           REPORTING

           In addition, for the reviews performed, FSIS did not always issue
           reports or issue them on a timely basis. For the 1995 reviews, the
           Microbiology Division did not issue a report to the Eastern
           Laboratory, and issued its report to the Midwest Laboratory
           14 months after the review was conducted. For the Western
           Laboratory’s 1995 review, the Microbiology Division did not document
           the date on which the report was issued. QAB issued reports on two
           of the 1999 reviews over 7 months after the reviews were completed,
           and has not yet issued a report on the third review completed in April
           1999.

           FSIS officials pointed out that even though reports may not have
           always been issued, or timely issued, the laboratory personnel would
           still have been aware of any problems found in the field visits because
           QAB personnel always held exit conferences with laboratory
           personnel at the conclusion of each review. However, we found that
           documentation of an exit conference existed for only one of the seven
           reviews, and in this case the documentation did not state what was
           discussed. In addition, personnel at the Midwest Field Laboratory
           stated that no exit conference was held at the conclusion of the
           March 1999 review. Without proper documentation, there is no
           guarantee that laboratory personnel were made aware of any
           significant problems found during the review.

           RESPONSE



USDA/OIG-A/24601-0001-Ch                                         Section II, Page 31
             We also found that FSIS had not implemented controls to ensure that
             the laboratories responded with their proposed corrective actions
             taken or planned to resolve reported deficiencies.     Of the eight
             reviews conducted between 1995 and 1999, no reports were issued
             on two. For the remaining six reviews, only the two 1997 reports
             were issued within 6 months. The other reviews were issued 8 to 14
             months after the reviews were completed, during which time the
             laboratories had no opportunity to correct the problems noted. The
             laboratories provided a response to only one of the six issued
             reports, and no follow up was made with the laboratories to obtain
             responses. Thus, FSIS has no assurance that the laboratories ever
             took the necessary corrective actions.

             The Director of the QAB agreed that FSIS had not implemented
             controls to track the status of the reviews and ensure that reports are
             issued in a timely manner, or that the laboratories provide the
             required written responses. This was due, in part, to the fact that the
             memos transmitting the reports to the laboratories did not request
             them to respond to the reports’ recommendations. The 1993 draft
             procedures also did not provide timeframes for the review staff to
             issue the reports, or for the laboratories to provide responses.

             We concluded that the lack of field visits and of controls over the
             reporting process reduced the assurance that problems or
             deficiencies with field laboratory operations were being identified and
             corrected. Further, QAB’s lack of procedures to ensure that the
             reports of onsite visits are provided to the laboratories, or to routinely
             document exit discussions, could result in laboratories being unaware
             of all deficiencies disclosed by the reviews. Such problems could,
             therefore, remain uncorrected indefinitely.

                                   Develop and implement procedures that
  RECOMMENDATION NO. 8             schedule onsite laboratory reviews at
                                   regular intervals, establish guidelines for
                                   issuing     reports     within    specified
       timeframes, and require the laboratories to respond to the reports’
       recommendations. In addition, implement procedures for QAB to
       track the status of both draft and issued reports to ensure that they
       are processed and responded to in a timely manner.

             FSIS Response

             FSIS officials agreed with the recommendation and are in the process
             of instituting improvements to the management of reviews of the FSIS
             laboratories to include the areas of scheduling, auditing, reporting,

Section II, Page 32                                    USDA/OIG-A/24601-0001-Ch
            tracking, and followup on corrective actions. QAB scientists have
            been assigned specific tracking and followup responsibilities.
            Furthermore, to aid in program efficiency and management, QAB is
            developing standard operating procedures to help assure that
            reviews, responses, and corrective actions all occur in a timely,
            efficient, and acceptable manner. Each SOP will have a related
            flowchart to assist staff in meeting and following requirements. The
            following SOP’s are under development and are expected to be
            completed by October 2000: (1) Preparation, submission, and
            Tracking of Field Service Laboratory Audit Reports; and (2)
            Scheduling and Conducting of Field service and Other Agency
            Laboratory Audits.

            OIG Position

            We accept FSIS’ management decision.

                                      FSIS purchased Salmonella screening
       FINDING NO. 7                  test kits that did not comply with contract
                                      specifications, even though the QAB
   SALMONELLA SCREENING               reported the deficiencies to the
   TEST KITS DID NOT MEET             responsible officials prior to their
       SPECIFICATIONS                 procurement. According to FSIS officials,
                                      these      purchases     were    necessary
          because the inventories of screening test kits at the laboratories
          would not have lasted the 2 to 3-month period that it would have
          taken the supplier to prepare a new batch of the kits for retesting.

            FSIS entered into a contract on February 16, 1999, to purchase
            screening test kits for Salmonella. The screening test kits allow the
            laboratories to identify the potential presence of Salmonella in a
            sample more quickly than using traditional culture and biochemical
            methods.

            To ensure that the test kits meet the contract specifications, FSIS
            requires that each production lot be tested for sensitivity, specificity,
            false positive and negative rates, and efficiency. QAB performed
            quality control tests on the initial production lot, and the kits produced
            false positive readings at more than twice the 10 percent rate allowed
            by the contract. Although the high false positive rate could force the
            laboratories to perform many unnecessary culture and biochemical
            tests to confirm the presence of Salmonella in any official samples
            for which the test kits might produce inaccurate readings, FSIS went
            ahead with the procurement even after being notified of these results.
              Quality control tests also found problems in a subsequent production

USDA/OIG-A/24601-0001-Ch                                         Section II, Page 33
             lot. In addition, QAB tests on the second production lot supplied by
             the vendor disclosed that the test kits would produce false negative
             results (thus failing to identify Salmonella in a sample where it was
             actually present) at a rate of 6.9 percent, more than twice the
             3 percent allowed by the contract or the MLG. In all, FSIS purchased
             approximately 55,000 test kits from these two production lots.

             Although the specifications of FSIS’ contract with the vendor
             conformed to the requirements of the MLG with regard to the rate at
             which the test kits could produce false negative results, we noted that
             the contract allowed for a false positive rate of up to 10 percent while
             the MLG specified a rate of no more than 4 percent. FSIS officials
             stated that a higher false positive rate does not endanger the public
             health as would an excessive false positive rate, and they believed
             that the false positive rate allowed by the contract maintained the
             laboratories workload at a reasonable level.            Nevertheless, a
             reduction of this workload through more efficient test kits, which
             would eliminate the need to attempt confirmation of false positive test
             readings, would result in a more economical and efficient use of the
             laboratory analysts’ time. Therefore, if the MLG’s specified false
             positive rate of 4 percent is achievable, we believe that contract
             terms should be amended to reflect this. If FSIS determines that the
             rate given in the MLG is too low, then the MLG should be amended to
             reflect reasonable figures that can be used as the basis for future
             contracts.

             Because of the high rate of false negative results produced by QAB’s
             tests, and the possibility that this could cause Salmonella to go
             undetected in official samples screened using these test kits, we
             issued a management alert to FSIS on October 29, 1999. In the
             management alert, we recommended that FSIS: (1) Require the
             vendor to begin immediate preparation of a new production lot to
             replace the existing screening test kits from the two existing
             production lots, which could then be withdrawn from use at the field
             laboratories; (2) amend FSIS’ contract specifications for the purchase
             of these test kits to comply with MLG and AOAC standards; and (3)
             establish an inventory reorder point to ensure that orders for new test
             kits are placed early enough to allow FSIS sufficient time to verify that
             production lots meet requirements before the laboratories exhaust
             their existing stocks.

                                          Require the vendor to begin immediate
  RECOMMENDATION NO. 9                    preparation of a new production lot of
                                          Salmonella test kits, which meet the
                                          MLG and AOAC standards, so that the

Section II, Page 34                                    USDA/OIG-A/24601-0001-Ch
           use of the test kits from the two existing lots can be discontinued at
           the earliest possible time.

           FSIS Response

           FSIS agreed with this recommendation. On November 19, 1999, the
           agency stated that the vendor had agreed to begin immediate
           preparation of a new production lot of Salmonella test kits which
           meet the MLG and AOAC standards so that the use of test kits from
           the two existing lots could be discontinued at the earliest possible
           time. In the response to the official draft, FSIS officials stated that
           they had obtained new test kits.

           OIG Position

           We accept FSIS’ management decision.

                                        Amend FSIS contract specifications for
 RECOMMENDATION NO. 10                  Salmonella test kits to comply with the
                                        Microbiology Laboratory Guide.


           FSIS Response

           FSIS stated that experience and empirical evidence in using
           commercially available test kits supports the conclusion that the
           contact specifications should not be adjusted. They also stated that
           more stringent specifications could preclude the finding of an
           acceptable rapid screening test. However, the officials stated that
           the agency is exploring options for changing the MLG performance
           characteristics.

           OIG Position

           If FSIS officials believe that the current MLG specification for false
           positive readings is too stringent, and the specifications of the existing
           contract are more reasonable, then the MLG should be amended. To
           reach a management decision, FSIS needs to provide us with a time-
           phased plan for bringing the contract and MLG specifications into
           agreement.


                                        Establish an inventory reorder point to
 RECOMMENDATION NO. 11                  ensure that orders for new test kits are
                                        placed early enough to allow sufficient

USDA/OIG-A/24601-0001-Ch                                        Section II, Page 35
             time for FSIS to verify that production lots meet requirements, or if
             necessary to obtain new test kits before the laboratories exhaust their
             existing stocks.

             FSIS Response

             FSIS agreed with this recommendation and has established an
             inventory point to ensure that orders for new kits are placed early
             enough to allow sufficient time to verify that they meet requirements
             and before laboratories exhaust the existing supplies.

             OIG Position

             We accept FSIS’ management decision.

                                        FSIS needs to ensure that the three field
         FINDING NO. 8                  laboratories are providing adequate
                                        training to microbiology analysts and
     FSIS NEEDS TO IMPROVE              ensure that all training provided is
    TRAINING PROGRAMS FOR               adequately documented. Although the
    MICROBIOLOGY ANALYSTS               agency had drafted training procedures in
                                        August     1998     to    implement    the
            requirements of the ISO, these have remained in draft form. Further,
            because FSIS relied on the individual laboratories to implement the
            prescribed training programs, we found that ongoing training for the
            analysts was limited to informal on-the-job training. The laboratories
            did not document the training provided to the analysts as required, or
            management’s assessment of the analysts’ competence to perform
            various laboratory tests.

             The Association of Analytical Chemist (AOAC) guidelines for the
             accreditation of laboratories under the International Organization for
             Standardization/International Electrotechnical Commission (ISO/IEC)
             Guide 25, provides the following guidelines for laboratory training
             programs:



             •   All staff must be adequately trained;

             •   Objective measurements should be used to assess competence at
                 the completion of training, i.e. the use of proficiency samples;




Section II, Page 36                                      USDA/OIG-A/24601-0001-Ch
           •   Staff must only perform tests and supporting activities if they are
               recognized as competent to do so, or if they do so under
               appropriate supervision;

           •   The    continued   competence      of  the    staff  must     be
               monitored/appraised using appropriate means (such as proficiency
               samples); and

           •   The laboratory shall maintain records on the relevant
               qualifications, training, skills and experience of the technical staff.

           In August 1998, FSIS prepared a set of draft of procedures titled
           “Personnel Training and Evaluation”. This draft addressed the training
           guidelines provided by AOAC’s ISO/IEC Guide 25. We reviewed
           these procedures and determined that, if properly implemented, they
           would adequately address the ISO requirements. Although FSIS’
           field laboratories are not currently accredited, the agency has stated
           its commitment to obtaining such accreditation at the earliest possible
           time.

           The draft FSIS procedures further specify that one of the types of
           training that microbiology analysts should receive is “Professional
           Development Training.” Section 6.2 of the procedures define this
           type of training as including:

           •   On-the-job training;
           •   in-house seminars;
           •   programmed learning courses;
           •   short courses such as those sponsored by AOAC, the American
               Chemical Society, and other scientific organizations;
           •   specialized training by instrument manufacturers;
           •   attendance at workshops and scientific meetings;
           •   university and college courses;
           •   specialized training workshops, seminars, and manuals sponsored
               by Federal regulatory agencies such as EPA and FDA; and
           •   proficiency programs.

           Our reviews at the three field laboratories disclosed that analysts
           performing residue and food chemistry analyses had training plans on
           file, and that their training was documented on an annual basis.
           However, the microbiology sections at the three laboratories did not
           maintain documentation of training provided, or of any testing of their
           staffs’ competence to perform tests and related activities. Field
           laboratory officials stated that their training programs consisted of
           informal on-the-job training that is not documented.

USDA/OIG-A/24601-0001-Ch                                         Section II, Page 37
             The need for a formal training program was recognized by the
             Microbiology Division’s QAB in its 1997 review of the Midwest
             Laboratory’s Antibiotic Residue Section and in its 1999 reviews at the
             three field laboratories to identify changes needed for accreditation
             under ISO/IEC Guide – 25 standards. At the Midwest Laboratory the
             QAB review determined that the laboratory did not document the
             training of either new or experienced staff members. The Midwest
             Laboratory did not provide a written response to the QAB’s report
             because one was not requested. (See Finding No. 7.) The QAB’s
             1999 reviews of the accreditation issues at the field laboratories also
             concluded that the three laboratories needed a formal and
             documented training program.

             The Director of FSIS’ Microbiology Division, as well as officials at the
             field laboratories, stated that no documentation was available to show
             that the three field laboratories identified training needs for analysts,
             assessed the competence of staff members to perform tests,
             recorded the training of staff member, or recorded FSIS’ recognition
             of its technical staff’s qualifications to perform product testing. In
             addition, there was no indication that any Professional Development
             Training had been provided except for on-the-job training.
             Headquarters officials stated that they relied on the field laboratories
             to provide the training and to document the training provided to the
             staff.

                                    Establish a training program that will,
  RECOMMENDATION NO. 12             (1) identify   required     training   for
                                    microbiology staff members, (2) provide
                                    formal, structured training in addition to
        informal on-the-job training, (3) document the training provided to
        each staff member, (4) assess and document the competence of
        each staff member to perform tests and supporting activities, and
        (5) monitor the continued competence of each staff member to
        perform laboratory tests.


             FSIS Response

             FSIS officials agreed that further enhancement and documentation of
             the laboratory training programs for microbiologists are indicated.
             FSIS has drafted standard operating procedures and work
             instructions that address the items in the report’s narrative as well as
             the recommendation. FSIS is also developing more extensive
             checklists for on-the-job training and is implementing a periodic testing

Section II, Page 38                                    USDA/OIG-A/24601-0001-Ch
                   program for individual analysts to further demonstrate initial and
                   continued competency.

                   FSIS officials took issue with the report’s implications that FSIS does
                   not provide adequate training, both in-house, and for professional
                   development.       They stated that FSIS has always devoted
                   considerable time and effort into training analysts and consistently
                   provide proper supervisory oversight to ensure continued
                   competency.       Although FSIS did not have readily detailed
                   documentation of the specific training provided to each analyst at the
                   time of the audit, more detailed, employee-specific training records
                   were provided in March 2000.

                   OIG Position

                   AS noted in the finding, at the time of the audit the responsible
                   officials at each of the three field laboratories stated that their training
                   programs consisted of informal, on-the-job training that was not
                   documented. We reviewed the additional information sent in March
                   2000, which FSIS referenced in its response; although it did show
                   documentation that certain individuals attended a documented
                   training, it does not show that laboratory analysts overall were being
                   provided with sufficient training other than that given on the job.

                   However, we agreed with the corrective actions being taken by FSIS.
                   To reach management decision, FSIS needs to advise us when the
                   standard operating procedures, the new checklists, and the testing
                   programs will become effective.


                                      FSIS does not have a quality assurance
       FINDING NO. 9                  program in place to monitor the Special
                                      Project    and      Outbreak      Support
   NO QUALITY ASSURANCE               Laboratory’s     (SPOSL)      operations.
     PROGRAM HAS BEEN                 Neither FSIS Headquarters nor the
IMPLEMENTED FOR THE SPECIAL           Quality Assurance Branch (QAB) has
   PROJECT AND OUTBREAK               ever developed procedures in place to
        LABORATORY                    perform onsite reviews at this laboratory.
                                       FSIS officials agreed that it would be
          appropriate to conduct onsite reviews at SPOSL.

                   The International Organization for Standardization (ISO)6 states that a
                   laboratory shall arrange for audits of its activities at appropriate

6
    ISO/IEC Guide 25: 1990, Section 5.3.

USDA/OIG-A/24601-0001-Ch                                                  Section II, Page 39
             intervals to verify that its operations continue to comply with the
             requirements of the quality system.

             SPOSL is part of FSIS’ Office of Public Health and Science (OPHS).
             OPHS provides scientific focus, leadership, and expertise in
             addressing public health risks related to meat, poultry, and egg
             products. SPOSL works with a variety of foodborne pathogens of
             interest to FSIS in such areas as problem-solving, support of the
             FSIS Field Service Laboratories, and method adaptation and
             validation. Their primary function is to assist the various divisions in
             OPHS by providing laboratory support during case or outbreak
             investigations by the agency or by any State requesting assistance.
             Scientists in SPOSL are responsible for method validation and
             adaptation for use in the field service laboratories and other FSIS
             programs. These scientists also act as subject area experts for
             revising the Microbiology Laboratory Guidebook.

             The Headquarters Microbiology Division staff officer stated that onsite
             reviews of SPOSL are not being done because of the lack of
             available staff, time, and a system in place to do so. The Quality
             Assurance Branch Chief stated that it would be good for the agency
             to perform onsite reviews of SPOSL.

             Due to the important role that SPOSL plays in OPHS, we believe that
             they should be subject to the same regular onsite reviews as the field
             service laboratories.      This would provide FSIS managers with
             assurances as to whether SPOSL’s operations are acceptable or
             identify deficiencies that need to be addressed.


                                         Develop and implement a quality
  RECOMMENDATION NO. 13                  assurance program for the Special
                                         Project    and  Outbreak  Support
                                         Laboratory.

             FSIS Response

             FSIS agreed with this recommendation and has instituted a
             proficiency check sample program for the Special Project and
             Outbreak Support Laboratory (SPOSL). In addition, FSIS has
             scheduled SPOSL for a laboratory review by the last quarter of
             FY 2000.

             OIG Position



Section II, Page 40                                   USDA/OIG-A/24601-0001-Ch
           We accept FSIS’ management decision.




USDA/OIG-A/24601-0001-Ch                          Section II, Page 41
Section II, Page 42   USDA/OIG-A/24601-0001-Ch
                  BETTER CONTROLS OVER LABORATORY
 CHAPTER 3        DOCUMENTATION AND SUPERVISORY REVIEWS
                  ARE NEEDED


           In our onsite reviews at the three field laboratories, we concluded that
           overall they conducted their operations according to applicable FSIS
           standards. In addition, during 1999 FSIS began an initiative to have
           the field laboratories accredited by the Association of Analytical
           Chemists, and performed QAB reviews at each laboratory to assess
           their present degree of compliance with these standards.

           We found that laboratory personnel were following the guidelines
           approved by FSIS Headquarters, and in conjunction with outside
           technical consultants we determined that these guidelines would result
           in accurate analyses of official samples. Based on our observations,
           laboratory analysts were given adequate supervision, and based on
           our series of 60 blind” check samples sent to each field laboratory we
           determined that they were able to correctly identify the presence of
           Salmonella and E.coli bacteria.

           However, laboratory management needed to improve the
           laboratories’ documentation of their operations. Both FSIS and ISO
           standards require that for each sample analysis performed, detailed
           records be maintained of the procedures that were followed.
           However, only one of the three field laboratories was consistently
           requiring the necessary documentation to meet the standards. At the
           other two laboratories, 81 of the 124 analyses we reviewed were
           inadequately documented. In addition, none of the field laboratories
           were maintaining the required degree of documentation to
           demonstrate that the equipment used to perform analyses had been
           properly maintained, serviced, or calibrated at the required frequency.


                                       Two of the three FSIS field service
       FINDING NO. 10                  laboratories did not adequately document
                                       their sample analyses. This occurred
  BETTER DOCUMENTATION OF              because analysts did not always detail
TESTING PROCEDURES IS NEEDED           the work performed during testing
                                       procedures, and were not required to
                                       correct this by their supervisors in spite of
                                       documented supervisory reviews.            In



USDA/OIG-A/24601-0001-Ch                                       Section II, Page 43
                    addition, the quality control checklists used by two of the laboratories
                    did not list all of the items required to be documented, while the third
                    laboratory did not use a checklist at all.

                    The USDA/FSIS Microbiology Laboratory Guidebook (MLG),
                    3rd Edition/1998 requires that adequate documentation and
                    recordkeeping be employed for all analytical results, test controls,
                    quality assurance, and quality control procedures.7 It also states that
                    a rigorous quality assurance program must be in place to ensure that
                    there is documentation readily available to facilitate: traceability of
                    analytical results to the analyst performing the work, the methods and
                    equipment used; and the status of the equipment at the time it was
                    used. 8 In addition, the Association of Official Analytical Chemists
                    (AOAC) International’s Accreditation Criteria for Laboratories
                    Performing Food Microbiological Testing states that the laboratory
                    “shall retain on record all original observations, calculations, and
                    derived data…”9

                    We reviewed the quality control worksheets used at the Eastern and
                    Midwestern laboratories and found that, with some improvements,
                    they would include all critical areas of analyses if documented and
                    verified by a supervisor. FSIS should ensure that such worksheets
                    continue to be used by the Eastern and Midwestern Field
                    Laboratories, and are implemented by the Western Field Laboratory.
                    The quality control worksheets, with some additions, would satisfy all
                    the requirements of the MLG and the ISO. The worksheets are used
                    by the analysts to document, at every critical stage in each analysis,
                    the following:

                    •          batch number of the media used;
                    •          date and time that samples were put in and taken out of
                               incubators;
                    •          temperature of the incubators;
                    •          initials of the analyst performing each step; and
                    •          results of observations of negative and positive controls used.

                    The batch number of the media, in which microbiological cultures are
                    grown, is a critical item of documentation because it is used to trace
                    back to the procedure and methods used to prepare the media. The
                    information about the incubators used, including the identifying number
                    of the incubator used along with dates and times that samples went in
7
    General Considerations section, page iii.
8
    Volume 2, Section 36.91.
9
    Section 12.1.



Section II, Page 44                                             USDA/OIG-A/24601-0001-Ch
           and out, and the temperature at the time, is critical in any analysis.
           Also, the result of the observations of the negative and positive
           controls used is important to support that the sample results are
           accurate.

           The following items should be added to the quality control
           worksheets:

               •   batch number or serial number of the controls used;
               •   documentation of identifying numbers of the major equipment
                   used in analyses, such as the DIAS machine used, if the
                   laboratory has more than one, and the VITEK machine and
                   carousel used.

           A supervisory review should include verification that all information
           regarding the analysis has been documented, and that the
           documentation supports the work performed.

           As part of our audit at the field laboratories, we evaluated the testing
           procedures used by the laboratories and the timeliness of the testing
           process. We also evaluated the controls in place at the laboratories
           to ensure that testing was properly performed. We concluded, in
           conjunction with our technical consultants, that the laboratories were
           using proper procedures in performing their various testing programs;
           that adequate supervision was being provided to largely preclude the
           entry of false test results and that analyses were generally being
           performed on a timely basis; this included tests of raw product under
           HACCP, which must be initiated the day after the sample is collected,
           and tests of processed product which should be completed within 10
           days.

           We reviewed the three FSIS field laboratories’ supporting
           documentation for 190 official samples sent to the laboratories for
           analysis, of which 123 were microbiology/food chemistry analyses
           and 67 were residue analyses. The microbiology tests we reviewed
           included analyses for Salmonella, E.coli 0157:H7, Listeria, and
           campylobacter, as well as canned food tests, extraneous material
           tests, and species tests. The residue tests included analyses for both
           chemical and antibiotic residues.

           We determined that documentation for 81 of the 124 analyses we
           reviewed at 2 of the 3 laboratories was not complete. Our results
           were as follows:




USDA/OIG-A/24601-0001-Ch                                       Section II, Page 45
             •   At the Western Laboratory, the documentation for all 56 of the
                 analyses we reviewed did not clearly record incubation times and
                 temperatures, sample preparation for analysis, quality control
                 samples used, and/or critical control points such as temperatures
                 and weights.

             •   At the Midwestern Laboratory, 2 of the 68 analyses we reviewed
                 were not documented at all, while 11 others contained no
                 documentation of one or more critical control points such as
                 temperatures or weights. In another 12 instances, the required
                 incubation log had either not been prepared or was incomplete.
                 Overall, we found that 25 of the 68 analyses were not adequately
                 documented.

             Although we found that the sample result forms were consistently
             initialed by supervisory personnel, when required, to show that the
             work of the analysts had been reviewed, they did not ensure that the
             documentation was complete. Two of the laboratories (Eastern and
             Midwestern) used checklists that required documentation for the
             majority of the items needed to fulfill the MLG requirements and those
             which would, in the future, be required under ISO. However, they did
             not include certain items such as batch number or serial numbers of
             controls used, and identifying numbers of major equipment used.
             Further, the Western Laboratory did not use any form of checklist to
             prompt analysts as to the documentation necessary to support their
             analyses.

             As noted earlier in the report, the Microbiology Division’s QAB had not
             made complete onsite reviews at the laboratories for a period of
             approximately 4 years, between 1995 and 1999. Although the 1995
             reviews did not cite any problems with the documentation being kept
             by the laboratories, the March and April 1999 reviews (whose
             purpose was to determine whether the laboratories’ microbiology
             testing would comply with ISO-25 Guidelines’ accreditation
             requirements) did cite such problems. These reviews disclosed an
             overall lack of documentation of the entire system, specifically in the
             areas of: 1) Quality Manual; 2) methods; 3) procedures; and 4) work
             instructions.

             The Microbiologist in Charge and Supervisory Chemists at the
             Western Laboratory, and the Quality Control Manager for
             Microbiology at the Midwestern Laboratory agreed that more
             documentation was needed to support sample results. We did not
             find any deficiencies in the documentation on file at the Eastern Field
             Laboratory.

Section II, Page 46                                  USDA/OIG-A/24601-0001-Ch
           Thus, we believe that FSIS needs to implement procedures, such as
           a uniform checklist used by all three laboratories, and more stringent
           supervisory controls, to ensure that the necessary documentation is
           being prepared to support the analyses conducted by the field
           laboratories.


                                  Require the laboratories to implement a
 RECOMMENDATION NO. 14            quality assurance system that ensures
                                  adequate documentation of analytical
                                  results, including but not limited to, the
       methods used, and incubation times and temperatures. Require
       supervisory personnel at the laboratories to ensure, as part of their
       reviews, that all necessary documentation is being prepared on an
       ongoing basis.

           FSIS Response

           FSIS agreed and is taking steps to review and, when necessary,
           enhance the documentation and supervisory oversight of all
           components of the laboratory systems by January 2001. FSIS
           projects that the laboratories will apply for ISO accreditation by April
           2001, and anticipate becoming accredited by December 2001.

           OIG Position

           We accept FSIS’ management decision.

                                  The three FSIS field service laboratories
      FINDING NO. 11              did not adequately document the
                                  maintenance performed on major pieces
EQUIPMENT MAINTENANCE WAS         of laboratory equipment and instruments.
NOT ADEQUATELY DOCUMENTED          This occurred because laboratory
                                  personnel stated that they were unaware
                                  that documentation of the maintenance
         performed was necessary, and supervisors did not verify that it had
         been documented.

           The USDA/FSIS Microbiology Laboratory Guidebook, 3rd Edition/1998
           (MLG), General Considerations, states that all instrumentation should
           be subjected to continuous maintenance and appropriate quality
           control procedures to insure unquestionably correct performance
           during use in all methods. Section 36.372 of the MLG states that all
           equipment must be maintained according to the manufacturer’s
           instructions. It also states that all equipment dispensing a designated

USDA/OIG-A/24601-0001-Ch                                       Section II, Page 47
             volume of any testing material such as media or reagents must be
             calibrated at least daily. This is particularly important with automated
             analytical equipment, such as Enzyme-Linked Immunosorbent Assay
             (ELISA) filler/washers and plate fillers, in order to ensure the correct
             amount of reagent is being added at each step in the process. In
             addition, it states that a record log of all validations, repairs,
             servicing, replacement parts, performance deviations, and corrective
             actions taken must be maintained for 5 years before being discarded.


             Overall, we found that additional documentation of maintenance and
             calibration was needed for major instruments and pieces of
             equipment at the three field laboratories. Specifically:

              •   There were no maintenance logs for the Dynex Immunoassay
                  System (DIAS) machines at the Midwestern laboratory, and the
                  maintenance performed on the DIAS machine at the Eastern
                  laboratory was not done timely. The DIAS machine is an
                  automated analytical machine used to perform the ELISA
                  screening test in Salmonella analyses. It includes a reader,
                  incubator, filler, reagent dispenser, washer, and stackers. This
                  machine is calibrated automatically when it is turned on to ensure
                  that the correct amount of reagents is added at each step. Also,
                  quarterly, the temperatures should be validated, the bottles,
                  tubes, caps, and trays should be cleaned, the O-rings should be
                  lubricated, and the wash system checked and flushed as
                  needed.

              •   The Midwestern and Western laboratories did not perform any
                  periodic maintenance on the VITEK Reader/Incubator (VITEK)
                  machine, and at the Eastern laboratory, the maintenance
                  performed on the VITEK machine was not documented. The
                  VITEK machine is an automated analytical machine that performs
                  the important final step of biochemical confirmation in Salmonella
                  and E.coli analyses. The VITEK machines at the Midwestern
                  and Western laboratories were under a service contract and they
                  will call a service technician if the machine malfunctions.
                  However, the Midwestern laboratory did not maintain a log on
                  the type of service performed. Various items on the VITEK
                  machine should be maintained on a daily, weekly, or monthly
                  schedule. Its dispenser should be cleaned, flushed, calibrated,
                  and sterilized, the dilutent should be changed, the colorimeter
                  should be cleaned and calibrated, the filler/sealer should be
                  cleaned, the reader/incubator’s temperature should be validated,
                  and its trays, filters, and rubber wheels should be cleaned.


Section II, Page 48                                   USDA/OIG-A/24601-0001-Ch
            •   The Western laboratory did not always adhere to their
                maintenance schedule for its LECO FP-2000 Protein Analyzer
                machines. These machines are used for protein analysis in food
                chemistry samples. The ballast tank should be inspected after
                every 1,000 tests, and the combustion tubes and O-rings should
                be changed quarterly.

            •   The Eastern laboratory did not maintain a logbook or record of
                maintenance for the agar sterilizer. It also did not have a
                temperature read-out and recorder. This machine is used to
                keep media hot. Some media will solidify when it cools. The
                temperature of the media needs to be monitored. The accurate
                preparation of various media is an important first step in all
                analyses.

           A chemist at the Western Lab stated that some of the preventative
           maintenance may have been performed but not documented. The
           Quality Control Manager for Microbiology at the Eastern Lab stated
           that maintenance had been performed monthly as required, but not
           documented. The Microbiologist-in-Charge at the Midwestern Lab
           stated that he was not aware that logs of maintenance should be
           maintained.

           During March and April 1999, the QAB conducted reviews at the
           three laboratories to determine changes needed for the laboratories’
           microbiology testing to comply with ISO-25 Guidelines’ accreditation
           requirements. These reviews disclosed that at the three laboratories,
           there was an overall lack of documentation of the entire system,
           specifically in the areas of: 1) Quality Manual; 2) methods; 3)
           procedures; and 4) work instructions.


                                  Implement a quality assurance system to
 RECOMMENDATION NO. 15            ensure that adequate maintenance,
                                  servicing, and calibration is both
                                  performed and documented as required
       for each piece of equipment used in testing.

           FSIS Response

           FSIS agreed and is developing additional procedures, work
           instructions, and forms that will further and more completely
           document the ongoing maintenance, service, and calibration of testing
           equipment. This will be completed by December 2000.

           OIG Position

USDA/OIG-A/24601-0001-Ch                                     Section II, Page 49
             We accept FSIS’ management decision.




Section II, Page 50                                 USDA/OIG-A/24601-0001-Ch
 CHAPTER 4         TIGHTER CONTROLS ARE NEEDED OVER THE
                   ACCREDITED LABORATORY PROGRAM



                                      FSIS, because of staffing restrictions, did
      FINDING NO. 12                  not perform sufficient onsite monitoring to
                                      ensure that accredited, non-Federal
 BETTER CONTROLS OVER THE             laboratories that tested official samples
  ACCREDITED LABORATORY               met all of the criteria needed to maintain
     PROGRAM NEEDED                   accreditation status.     In addition, the
                                      agency terminated its program of split
         sampling in 1994, thus reducing its ability to monitor the accuracy of
         the accredited laboratories’ test results on an ongoing basis. Finally,
         we found that FSIS did not have sufficient controls in place to ensure
         that accurate laboratory identification numbers accompanied test
         results submitted by accredited laboratories. As a result, the agency
         has reduced assurance that accredited laboratories are meeting all
         applicable standards, or official samples are tested only by FSIS-
         accredited laboratories.

            A prior OIG audit (Report No. 24099-0006-At, dated June 1991) of
            this area reported that the Accredited Laboratory Program was not
            cost effective because many private laboratories sought FSIS
            accreditation even though they did not test official samples for the
            agency, while FSIS did not charge fees to the laboratories for this
            service. In addition, the report disclosed that based on the results of
            check samples and split samples, approximately 50 percent of the
            310 accredited laboratories did not meet FSIS’ performance
            standards.

            Since that time, FSIS has instituted an accreditation fee of
            $1,500 annually for each accredited laboratory. In addition, the
            results of check samples sent to the accredited laboratories
            demonstrate a marked improvement in the proficiency of these
            laboratories. However, we did find weaknesses in the agency’s
            oversight of the Accredited Laboratory Program that need to be
            addressed.

            FSIS regulations state that in order for a laboratory to maintain
            accreditation it must report weekly, to the FSIS Eastern laboratory,
            the analytical results of all moisture, protein, fat, and salt content of
            official samples. In addition, for the most recent 3 years, laboratories

USDA/OIG-A/24601-0001-Ch                                        Section II, Page 51
             must maintain records of samples that have been analyzed and
             documentation of the receipt, analysis, and disposition of official
             samples. According to the Director of Chemistry and Toxicology, it is
             the goal of the division to annually conduct onsite reviews at one-third
             of the accredited laboratories.

             During fiscal years 1998 and 1999 there were about 140 and
             126 non-Federal laboratories, respectively, accredited by FSIS.
             From January 1998 through August 1999, FSIS database records
             show that 46 accredited laboratories analyzed a total of 920 domestic
             and import official samples. This represented a significant decrease in
             the number of accredited laboratories since our last audit. However,
             our review disclosed that the CTD made annual onsite reviews at less
             than 1 percent (1 of 140) of the accredited laboratories in fiscal year
             1998; and only 5 of 126 (4 percent) of the laboratories were reviewed
             in fiscal year 1999. The QAB Chief stated that staffing restrictions
             had prevented CTD from making the required field visits. In addition,
             we found that the onsite reviews performed by CTD did not evaluate
             whether the laboratories were complying with the requirement that
             they maintain records of their analyses for 3 years after they are
             performed.

             One method that FSIS could use to supplement the field visits would
             be to reinstitute the use of split sampling, which was discontinued in
             1994. Under this system of monitoring, selected samples tested by
             the accredited laboratories would be “split” for testing by both the
             laboratory and FSIS. Since only a fraction of the currently-accredited
             laboratories are actually testing official samples for FSIS, more
             emphasis on both the field visits and split-sampling could be
             concentrated on these laboratories.

             Our review also disclosed inaccuracies in the recording of test results
             to the FSIS’ database of accredited laboratories. The Laboratory
             Sample Flow System (LSFS) database is designed to identify all
             laboratory activity by the assigned number that is provided by FSIS to
             each laboratory at the time of its accreditation. Although FSIS has
             procedures in place to verify the accuracy of at least eight accredited
             laboratory data entries whenever the LSFS database is updated, we
             determined this control does not ensure that only test results from
             FSIS-accredited laboratories are accepted because the system does
             not flag incorrect entries that were not selected as part of the quality
             control review.

             We found that four nonexistent laboratories were identified as having
             analyzed seven official samples. Although we determined that
             accredited laboratories performed the tests, the laboratories were

Section II, Page 52                                   USDA/OIG-A/24601-0001-Ch
            incorrectly identified because either the plant number of internal
            laboratory number was incorrectly entered in the computer database
            as the accredited laboratory number. At the time of our audit, the
            database records for the laboratories had been inaccurate for over a
            year and because FSIS has no procedures for flagging incorrect
            entries, such discrepancies could remain undiscovered indefinitely.

            Since laboratories are required to report official sample results
            weekly to the Eastern Laboratory, an accurate activity report could
            be a useful tool to ensure that only accredited laboratories are listed.
            However, the CTD management official we interviewed stated that his
            division does not use and has never requested this report.
            Consequently, he was unaware of whether or not the accredited
            laboratories had analyzed official samples.

            Without performing field visits to accredited laboratories, FSIS’
            Chemistry and Toxicology Division could not ensure that these
            laboratories continued to demonstrate the proficiency needed to
            maintain their accreditation. In addition, because the LSFS does not
            automatically flag incorrect entries to ensure that laboratories
            performing tests of official samples are on the agency’s accreditation
            list, FSIS has limited assurance that official samples are being tested
            only by accredited laboratories. Since non-accredited laboratories
            are not subject to interlaboratory check samples and other quality-
            control requirements required by FSIS, the agency thus has no
            assurance of the accuracy of test results obtained by these
            laboratories.

                                      Strengthen the agency’s monitoring of
 RECOMMENDATION NO. 16                accredited laboratories, particularly those
                                      which test official samples for FSIS,
                                      through more frequent onsite visits and/or
       split sampling of official product samples.

            FSIS Response

            FSIS officials stated that split sampling was, based on prior
            experience, an ineffective means to ensure the accuracy of test
            results. However, the agency agreed to initiate an agreement or
            contract to perform more frequent accredited laboratory onsite visits.
            FSIS will implement this action by February 2001.




USDA/OIG-A/24601-0001-Ch                                        Section II, Page 53
             OIG Position

             We accept FSIS’ management decision.


                                         Ensure that all test results on official
  RECOMMENDATION NO. 17                  samples are performed only by FSIS-
                                         accredited laboratories.

             FSIS Response

             FSIS responded that it agreed with the recommendation to ensure
             that only FSIS-accredited laboratories perform test results on official
             samples.     FSIS’ proposed corrective actions were as follows:
             (1) Issue 1-year certificates of accreditation to laboratories in good
             standing; (2) send letters for probation/revocation by overnight mail;
             (3) notify personnel in the Technical Service Center of laboratories
             whose accreditations have been placed on probation or revoked; and
             (4) publish an updated listing of accredited laboratories on a regular
             basis. In addition, FSIS will seek a more extensive review of the
             Accredited Laboratory Program during FY 2001.

             OIG Position

             Although we agree that the corrective actions proposed by FSIS will
             strengthen the Accredited Laboratory Program, they do not address
             the fact that results from a non-accredited laboratory could potentially
             be accepted because FSIS’ computer system does not verify the
             accreditation number of the submitting laboratory. To reach a
             management decision, FSIS needs to provide us with its plan to
             address this internal control weakness.




Section II, Page 54                                   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 55
Section II, Page 56   USDA/OIG-A/24601-0001-Ch
EXHIBIT A – FSIS SAMPLING PROJECTS




Sampling     Product Type       Purpose of Test         No. of Plants
 Project                                                 in Sample
 Number                                                    Frame
ME7         RTE – Jerky        Listeria & Salmonella               281
            RTE – Small
ME15*       Diameter Cooked
            Comminuted …       Listeria & Salmonella               745
            RTE – Large
ME16        Diameter Cooked
            Comminuted …       Listeria & Salmonella               537
ME22*       RTE – Cooked
            Poultry Products   Listeria & Salmonella               472
                               Listeria/ Salmonella/
ME23*     RTE – Meat and       Staphylococcus                      126
          Poultry Salads …     Aurous
MM9       RTE – Cooked Beef,
          Roast Beef, Cooked
          Corned Beef          Listeria & Salmonella               311
          RTE – Sliced
MM11      Ham/Luncheon Meat    Listeria & Salmonella              358
MM14*     RTE – Cooked Meat    Species Identification            1106
          and Poultry
MT01      RTE - Fully Cooked
          Meat Patties         E.coli O157:H7                      100
          RTE – Dry & Semi-    Staphylococcal,
MT02      Dry Fermented        E.coli O157:H7,
          Sausages             Salmonella, & Listeria              292
MT03/MT04 RAW – Ground or
          Comminuted Beef      E.coli O157:H7                    1,730

RTE = Ready-To-Eat
* Frames Reviewed




USDA/OIG-A/24601-0001-Ch                                 Section II, Page 57
EXHIBIT B – AUDITEE RESPONSE TO DRAFT REPORT




Section II, Page 58               USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 59
Section II, Page 60   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 61
Section II, Page 62   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 63
Section II, Page 64   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 65
Section II, Page 66   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 67
Section II, Page 68   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 69
Section II, Page 70   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 71
Section II, Page 72   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 73
Section II, Page 74   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 75
Section II, Page 76   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 77
Section II, Page 78   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 79
Section II, Page 80   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 81
Section II, Page 82   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 83
Section II, Page 84   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 85
Section II, Page 86   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 87
Section II, Page 88   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 89
Section II, Page 90   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 91
Section II, Page 92   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 93
Section II, Page 94   USDA/OIG-A/24601-0001-Ch
USDA/OIG-A/24601-0001-Ch   Section II, Page 95
Section II, Page 96   USDA/OIG-A/24601-0001-Ch
                                         ABBREVIATIONS


AOAC
 Association of Analytical Chemists ...................................................................................i

CTD
  Chemistry and Toxicology Division ............................................................................... iii

DIAS
  Dynex Immunuassay System............................................................................................45

ELISA
  Enzyme-Linked Immunuassary.......................................................................................... 4

HACCP
 Hazard Analysis And Critical Control Point System........................................................ 3

ISO
  International Organization For Standardization................................................................. 5

MLG
 Microbiology Laboratory Guidebook............................................................................... 5

NRP
 National Residue Program................................................................................................ 4

PBIS
  Performance Board Inspection System.............................................................................. 4

QAB
 Quality Assurance Branch............................................................................................... iii

SPOSL
  Special Project and Outbreak Support Laboratory..........................................................39




USDA/OIG-A/24601-0001-Ch                                                                        Section II, Page 97
                       GLOSSARY OF TERMS


Accredited Laboratory – A nonfederal analytical chemistry laboratory recognized
by FSIS as competent to analyze official meat and poultry samples for moisture,
protein, fat, and salt content, and/or certain classes of chemical residues.

Antibiotic Residue – The portion of antimicrobial drugs that remains in the tissues
of food animals, which can result in human illnesses.

Campylobacter – A pathogenic organism commonly found in poultry and other food
of animal origin, including pork and beef. Campylobacter infections generally cause
intestinal distress.

Check Sample – A food product sample, in the form that is commonly sent to the
field service laboratories for analysis, that has had a known amount of a pathogenic
organism or antibiotic or chemical residue added, for the purpose of evaluating the
accuracy of the service laboratory’s analyses. A check sample that is unmarked,
i.e. disguised as an official product sample, is referred to as a “blind” sample.

Chemical Residues – The portion of pesticides that remains in the tissues of food
animals, which can result in human illnesses.

E.coli O157:H7 – The strain of the pathogenic organism escherichia coli that
causes potentially serious illness, particularly for children and individuals with
weakened immune systems. It is found in ground beef, raw milk, and chicken.

Establishment – A federally inspected meat, poultry, or eggplant whose function is
to slaughter food animals and/or process food products.

Extraneous Material – Any object that is foreign to the food product in which it is
found.

Farm-to-Table – The continuum of animal preparation, beginning with animal
production and slaughter, continuing with processing and distribution, and ending
with the sale of food products to the consumer.

Field Service Laboratories – The three FSIS laboratories that provide analytical
services in the disciplines of chemistry, microbiology, and pathology, located in
Athens, GA; St. Louis, MO; and Alameda, CA.

Section II, Page 98                                   USDA/OIG-A/24601-0001-Ch
Food Chemistry – The program area that analyzes food products for moisture,
protein, fat, and salt content, as well as drug, pesticide, and other chemical
residues.

Foodborne Pathogens – A disease-causing microorganism that is carried or
transmitted to humans by food.

Hazard Analysis and Critical Control Points System (HACCP) – FSIS’ current
process for inspecting meat and poultry establishments, stressing the prevention of
contamination before it occurs. Under this system, establishments monitor their
own production to identify and remove the threat of contamination, with FSIS
providing oversight to ensure that establishments have implemented adequate
HACCP programs.

Inspector – An FSIS employee who is responsible for inspecting meat, poultry, and
egg products and operations in slaughter and processing establishments, for the
purpose of ensuring that these food products are safe for human consumption.

Listeria monocytogenes – A pathogenic organism usually found in vegetables,
milk, cheese, meat, and seafood.

Microbiological Testing – The isolation and identification of foodborne pathogenic
microorganisms such as, E.coli, Listeria, and Salmonella.

Nitrosamines – A carcinogenic chemical compound that is typically found in cured
and processed bacon products.

Official Product Samples – Portions of raw and ready-to-eat food products
collected by inspectors in Federally inspected establishments, and then sent to
FSIS laboratories for analysis.

Presumptively Positive – A product sample analyzed with an enzyme-linked
immunoassay screening test and found to likely contain a pathogenic organism.
These samples cannot be confirmed positive until traditional culture and biochemical
tests are performed.

Proficiency Testing – A program of activities that provides assurance that the
laboratory is competent to perform analyses of official samples.

Ready-to-Eat Products – Food products that have been prepared to the point
where they are ready for human consumption.

Salmonella – A pathogenic organism that is commonly found in poultry, eggs, beef,
and other foods of animal origin. Salmonella typically causes intestinal distress, but

USDA/OIG-A/24601-0001-Ch                                          Section II, Page 99
can be fatal to young children, the elderly, and persons with weakened immune
systems.

Sample Request – A request made by FSIS’ Office of Public Health and Science
for an FSIS inspector to collect a specific product in a specific establishment,
based on a specific sampling project.        The request is made on FSIS
Form 10,210-3.

Sampling Frame – A listing of establishments that produce products of a
designated type. The sampling frames are maintained on FSIS’ MARCIS
database.

Sampling Projects – Different microbiological test(s) to be performed on specific
types of products. Samples are collected from establishments that produce the
type of product of interest. For example, E.coli O157:H7 in Ready-to-Eat Meat
Patties is one sampling project.

Screening Test Kit – A commercially produced kit that contains enzyme-linked
immunosorbent assay (ELISA) tests that will initially screen a sample as
presumptively positive or negative. This test allows the laboratory to eliminate
many samples from the time-consuming traditional culture and biochemical tests
that are necessary to confirm the presence of a pathogenic organism.

Species Identification Testing – An analysis to determine the species of the
animal that is contained in the sample.

Xenobiotic – A chemical compound, such as a drug, pesticide, or carcinogen, that
is foreign to a living organism.




Section II, Page 100                                USDA/OIG-A/24601-0001-Ch
U.S. Department of Agriculture
 Office of Inspector General
     Food Safety Initiative
  Meat and Poultry Products


FOOD SAFETY AND INSPECTION SERVICE
  IMPORTED MEAT AND POULTRY
      INSPECTION PROCESS
            PHASE 1




                        Report No.
                        24099-3-Hy
                        June 2000
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250




DATE:         June 21, 2000

REPLY TO
ATTN OF:      24099-03-Hy

SUBJECT:      Imported Meat and Poultry Inspection Process

TO:           Thomas J. Billy
              Administrator
              Food Safety and Inspection Service

ATTN:         Margaret O’ K. Glavin
              Associate Administrator


This report presents the results of our audit of the Food Safety and Inspection Service’ s
oversight and controls to ensure that imported meat and poultry products entering
U.S. Markets are safe and wholesome. This review is part of the Office of Inspector
General’ s food safety initiative, which also included the implementation of the Hazard
Analysis and Critical Control Point System, District Enforcement Operations’ compliance
activities, and the agency’ s procedures established for testing meat and poultry products.
Your response to the official draft report, dated June 7, 2000, is included as exhibit A with
excerpts and the Office of Inspector General’ s position incorporated into the Findings and
Recommendations section of the report. Based on your response, management decisions
have been reached on all recommendations except Nos. 6, 14, 15, 16, 19, 26, 32, and 33.
 Please follow your agency’ s internal procedures in forwarding documentation for final
action to the Office of the Chief Financial Officer. Management decisions can be reached
once you have provided the additional information outlined in the report sections, OIG
Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and the timeframes for implementation
of the remaining recommendations. Please note that the regulation requires management
decisions to be reached on all recommendations within 6 months of report issuance.


/s/

ROGER C. VIADERO
Inspector General
                    EXECUTIVE SUMMARY
                FOOD SAFETY AND INSPECTION SERVICE
                   IMPORTED MEAT AND POULTRY
                       INSPECTION PROCESS
                             PHASE 1
                       AUDIT NO. 24099-03-Hy



                                   This report presents the results of the first
     RESULTS IN BRIEF              phase of our evaluation of controls to
                                   ensure that imported meat and poultry
                                   entering U.S. consumer channels is safe
        and wholesome. This review was part of the Office of Inspector
        General’s food safety initiative, which also included the
        implementation of Hazard Analysis and Critical Control Point System,
        District Enforcement Operations’ compliance activities, and the
        procedures established for U.S. Department of Agriculture laboratory
        testing.

           The Food Safety and Inspection Service (FSIS) fulfills its responsibility
           for ensuring that imported meat and poultry in the U.S. marketplace is
           safe and wholesome by (a) determining if foreign countries and their
           establishments have implemented food safety systems and inspection
           requirements equivalent to those in the United States, and
           (b) reinspecting imported meat and poultry products from these
           countries, on a spot-check basis, to verify the purity of the imports.

           FSIS administers its food imports safety program primarily through the
           Office of Field Operations, which reviews foreign countries’ inspection
           systems and reinspects imported meat and poultry products at ports
           of entry, and the Office of Policy, Program Development and
           Evaluation, which makes equivalence determinations of foreign
           country inspection systems. These review and reinspection activities
           form the basis of FSIS' determinations of whether a country's systems
           are equivalent to U.S. standards.

           Equivalency determinations are FSIS' way of applying the new
           requirements of the Pathogen Reduction Program and the Hazard
           Analysis and Critical Control Points (HACCP) Program to overseas
           operations. Our objective for this phase was to evaluate FSIS
           policies, procedures, and controls for implementing these programs in

USDA/OIG-A/24099-3-Hy                                            Section III, Page i
              a continuing effort to ensure that food safety systems in foreign
              countries are equivalent to those in the United States. As part of this
              objective, we assessed how effectively FSIS carried over its import
              inspection controls when it reorganized its operations in 1997.

              During Phase II and Phase III of our review, we will examine import
              reinspection activities at selected U.S. ports, and initial equivalence
              determinations for new countries.

              During a 1996 audit we performed of the import inspection program,
              we recommended that for purposes of reorganization, FSIS develop
              procedures to ensure that controls present under the pre-HACCP
              structure would carry over under the new structure. FSIS did not fulfill
              this recommendation. FSIS implemented its reorganization without
              developing a comprehensive, detailed plan to ensure that controls
              were maintained over import inspection operations. Detailed control
              processes and procedures for determining the equivalency or the
              continuing eligibility of foreign inspection programs to export meat and
              poultry products to the United States were not adequately developed,
              were not incorporated in formal agency procedures for distribution to
              responsible personnel, or were not functioning as required by
              regulation. Responsibilities were also not well defined, resulting in
              unclear lines of authority, minimal supervisory oversight, and training
              goals that had not been achieved. The absence of a strong internal
              control structure does not provide reasonable assurance that
              objectives of the import inspection program are being achieved.
              Nothing came to our attention during this audit, however, to indicate
              FSIS allowed unsafe products to enter U.S. commerce.

              We found that the absence of formal procedures affected all areas of
              the import inspection program: requirements for annual certifications
              and residue test plans have gone unenforced; the eligibility status of
              importers has not been kept current; and FSIS' equivalency
              determinations of foreign countries' food safety systems have been
              based on insufficient documented analysis and support.

              Annual certifications. Foreign governments are required to certify
              annually that each of the establishments in their country that export
              meat and poultry products to the United States continue to comply
              with U.S. standards. FSIS did not enforce this requirement and
              19 countries were allowed to continue to export to the United States,
              even though they had not certified their establishments as meeting
              U.S. standards during 1999.



Section III, Page ii                                       USDA/OIG-A/24099-3-Hy
           Residue test plans. Foreign inspection systems are also required to
           maintain residue control standards equivalent to U.S. standards in
           order to identify the use of such residues determined by the exporting
           country's meat inspection authorities or by FSIS as potential
           contaminants. As of April 29, 1999, 15 of 36 countries that were
           certified to ship meat and poultry products to the United States had
           not submitted their 1999 residue test plans.

           Eligibility status of importers. When FSIS or foreign inspectors
           declared an establishment ineligible to export product to the United
           States, FSIS did not always timely update its reinspection system with
           this information. As a result, seven establishments from four foreign
           countries shipped over 4 million pounds of meat and poultry products
           and presented them for reinspection although they were delisted by
           their foreign inspection systems. Documentation provided by FSIS did
           not conclusively prove that all products were produced prior to the
           delistment date. Also, we could not determine whether FSIS timely
           updated its reinspection system with critical laboratory results of
           microbiological tests. These tests are used to determine if a product
           should be allowed to enter the United States at ports of entry. They
           are also used, in part, as a basis to determine how products should be
           sampled at ports of entry and what microbiological tests should be
           performed. Nothing came to our attention during this audit, however,
           to indicate FSIS allowed unsafe products to enter U.S. commerce.

           Analysis of foreign food safety systems. FSIS cannot demonstrate
           that it judged the foreign food safety systems of current trading
           partners according to U.S. standards. At the time of our audit, FSIS
           had not yet determined equivalence for HACCP and Salmonella
           standards. Control procedures for equivalency determinations were
           not developed or adequately documented, technical subject-matter
           experts were not always involved in the process, and specific areas of
           foreign inspection systems have not yet been reviewed to verify that
           they are equivalent to U.S. standards. FSIS' country files did not
           contain sufficient evidence of FSIS' analysis of the information the
           country governments submitted to document their inspection systems.
           Moreover, FSIS granted equivalency status for six countries before it
           performed onsite equivalency verification reviews, and the onsite
           reviews that were performed were not adequately documented to
           support what was reviewed and what deficiencies were found. FSIS
           also lacked timeframes within which to make SSOP and E. coli
           equivalency determinations, and failed to meet the timeframes
           established for HACCP and Salmonella standards.



USDA/OIG-A/24099-3-Hy                                         Section III, Page iii
              We concluded that inadequate planning for the transition to the new
              organization structure, as well as inadequate management oversight
              of the operational changes to the import inspection processes,
              contributed to the breakdown in controls that were designed to ensure
              the safety and wholesomeness of imported products entering the
              United States.

              The weaknesses disclosed during this audit are material control
              weaknesses in FSIS' import inspection program. As such, they should
              be included in the agency's annual management control report
              required by the Federal Manager's Financial Integrity Act.

                                      We recommend that FSIS conduct an
  KEY RECOMMENDATIONS                 assessment of the current organizational
                                      structure, clarify roles and responsibilities,
                                      and establish a system of management
         and operating control objectives and processes to ensure the safety
         and wholesomeness of imported meat and poultry products. FSIS
         also needs to conduct independent internal control reviews,
         emphasizing those processes that changed in the reorganization,
         provide management control training, and report the conditions
         disclosed in this audit as material management control weaknesses in
         the import inspection process.

              We also recommend that FSIS develop and implement formal
              procedures, approved by FSIS management, for all aspects of its
              import inspection program, most specifically those related to (1)
              making equivalency determinations based on an evaluation of each
              foreign country's food safety regulatory system, as appropriate, (2) its
              enforcement of sanitary measures, and (3) entering country eligibility
              information into FSIS' reinspection system. We also recommend that
              FSIS enforce the regulatory requirements for countries to submit their
              residue test plans and test results and establishment certifications by
              foreign inspection systems.

              Concerning equivalency determinations, FSIS needs to establish a
              time-phased plan to complete each determination and ensure that
              technical subject-matter experts are involved, as appropriate, in
              determinations; the determinations are documented; and onsite
              verification reviews are conducted prior to granting equivalency status.
              For current trading partners, FSIS needs to develop and implement a
              policy for onsite verifications of changes in the requirements for
              foreign systems and ensure that onsite audits are conducted annually.



Section III, Page iv                                       USDA/OIG-A/24099-3-Hy
                                        FSIS     accepted  33   of    the    35
    AGENCY RESPONSE                     recommendations     in   the     report.
                                        However, FSIS does not believe the
                                        issues outlined in the audit report
        constitute a material management control weakness. FSIS also
        believes management oversight of import inspection operations is
        adequate. We have incorporated excerpts from FSIS’ response in the
        Findings and Recommendations section of this report, along with the
        position of the Office of the Inspector General (OIG). FSIS’ response,
        in its entirety, is attached as Exhibit A.

                                       OIG disagrees with FSIS’ position that the
        OIG POSITION                   findings in this report are not material
                                       management control weaknesses and
                                       that evidence of management oversight
          was adequate. Basic internal control activities such as documented
          policies, procedures, supervisory reviews and approvals, delegated
          responsibilities, and clear lines of authority were lacking in FSIS’
          operations. OIG will continue to report our conclusion that the findings
          in this report are material management control weaknesses and
          should be reported in FSIS’ internal control and management
          accountability reports.




USDA/OIG-A/24099-3-Hy                                          Section III, Page v
Section III, Page vi   USDA/OIG-A/24099-3-Hy
                                 TABLE OF CONTENTS

EXECUTIVE SUMMARY........................................................................................i
  RESULTS IN BRIEF ...........................................................................................i
  KEY RECOMMENDATIONS ............................................................................. iv
  AGENCY RESPONSE .......................................................................................v
  OIG POSITION..................................................................................................v
INTRODUCTION ................................................................................................. 1
  BACKGROUND .............................................................................................. 1
  OBJECTIVES................................................................................................... 5
  SCOPE ............................................................................................................ 5
  METHODOLOGY ............................................................................................. 6
FINDINGS AND RECOMMENDATIONS............................................................... 9
  CHAPTER 1 ..................................................................................................... 9
  FSIS MANAGEMENT CONTROLS OVER THE IMPORT INSPECTION
  PROGRAM NEED TO BE ENHANCED ............................................................. 9
  Finding No. 1................................................................................................. 10
  Recommendation No. 1.................................................................................. 14
  Recommendation No. 2.................................................................................. 15
  Recommendation No. 3.................................................................................. 15
  Finding No. 2.................................................................................................. 16
  Recommendation No. 4.................................................................................. 17
  Recommendation No. 5.................................................................................. 18
  Recommendation No. 6.................................................................................. 19
  Finding No. 3 ................................................................................................. 19
  Recommendation No. 7.................................................................................. 25
  Recommendation No. 8.................................................................................. 25
  Recommendation No. 9.................................................................................. 26
  Finding No. 4 ................................................................................................. 26


USDA/OIG-A/24099-3-Hy                                                                  Section III, Page vii
                                TABLE OF CONTENTS

 Recommendation No. 10 ................................................................................ 33
 Recommendation No. 11 ................................................................................ 34
 Recommendation No. 12 ................................................................................ 34
  CHAPTER 2.................................................................................................... 37
  THE REINSPECTION PROCESS DID NOT ENSURE THAT INELIGIBLE
  IMPORTERS WERE PROPERLY IDENTIFIED AND THAT RECOGNIZED
  PATHOGEN VIOLATIONS WERE RESPONDED TO PROMPTLY..................... 37
 Finding No. 5.................................................................................................. 38
 Recommendation No. 13 ................................................................................ 40
 Recommendation No. 14 ................................................................................ 41
 Finding No. 6.................................................................................................. 42
 Recommendation No. 15 ................................................................................ 45
 Recommendation No. 16 ................................................................................ 46
 Recommendation No. 17 ................................................................................ 46
 Recommendation No. 18 ................................................................................ 47
 Finding No. 7.................................................................................................. 48
 Recommendation No. 19 ................................................................................ 52
 Recommendation No. 20 ................................................................................ 53
 Recommendation No. 21 ................................................................................ 54
 Recommendation No. 22 ................................................................................ 54
 Finding No. 8.................................................................................................. 55
 Recommendation No. 23 ................................................................................ 56
 Recommendation No. 24 ................................................................................ 57
 Recommendation No. 25 ................................................................................ 57
 Recommendation No. 26 ................................................................................ 58




Section III, Page viii                                                      USDA/OIG-A/24099-3-Hy
                                 TABLE OF CONTENTS

  CHAPTER 3 .................................................................................................... 61
  FSIS DOCUMENTATION OF APPROVED FOREIGN FOOD SAFETY
  SYSTEMS NEEDS TO BE ENHANCED............................................................ 61
  Finding No. 9.................................................................................................. 62
  Recommendation No. 27 ................................................................................ 65
  Recommendation No. 28 ................................................................................ 66
  Finding No. 10 ................................................................................................ 66
  Recommendation No. 29 ................................................................................ 74
  Finding No. 11 ................................................................................................ 74
  Recommendation No. 30 ................................................................................ 75
  Finding No. 12 ................................................................................................ 76
  Recommendation No. 31 ................................................................................ 79
  Recommendation No. 32 ................................................................................ 79
  Recommendation No. 33 ................................................................................ 80
  Finding No. 13 ................................................................................................ 81
  Recommendation No. 34 ................................................................................ 84
  Finding No. 14 ................................................................................................ 84
  Recommendation No. 35 ................................................................................ 86
GENERAL COMMENTS..................................................................................... 87
  EXHIBIT A – FSIS RESPONSE TO THE DRAFT REPORT................................ 91
  EXHIBIT B – COUNTRIES ALLOWED TO CONTINUE EXPORTING TO
  THE UNITED STATES PRIOR TO IMPLEMENTATION OF HACCP................ 115
ABBREVIATIONS ............................................................................................ 116




USDA/OIG-A/24099-3-Hy                                                                 Section III, Page ix
                          INTRODUCTION

                                      The Federal Meat Inspection Act and the
       BACKGROUND                     Poultry Products Inspection Act require
                                      foreign countries that export meat and
                                      poultry to the United States to establish
         and maintain inspection systems that are equivalent to the U.S.
         inspection system. Meat and poultry imported into the United States
         must originate in countries and plants approved to export to the United
         States. FSIS is responsible for (1) reviewing and assessing foreign
         inspection systems and facilities that export meat and poultry to the
         United States to ensure that standards are equivalent to those in the
         United States, and (2) reinspecting imported meat and poultry
         products at ports of entry to ensure that only safe, wholesome,
         unadulterated, and properly labeled products enter U.S. commerce.

           Food safety equivalence evaluations are based upon provisions in the
           Agreement on the Application of Sanitary and Phytosanitary Measures
           (Agreement), which appears in the Final Act of the Uruguay Round of
           Multilateral Trade Negotiations, signed on April 15, 1994. The
           Agreement became effective in January 1995 concurrently with
           establishment of the World Trade Organization, which superseded the
           General Agreement on Tariffs and Trade (GATT), as the umbrella
           organization for international trade. Article 4.1 of the Agreement
           requires each member to accept as equivalent the food regulatory
           system of another country if the exporting member objectively
           demonstrates to the importing member that its measures achieve the
           importing member's appropriate level of sanitary protection.
           Regulations governing FSIS operations are codified in 9 Code of
           Federal Regulations (CFR) Chapter III, Parts 300, 416, and 417.

           Under FSIS' pathogen reduction/Hazard Analysis and Critical Control
           Point (HACCP) regulatory proposal published in February 1995,
           HACCP programs would be required in meat and poultry plants, along
           with interim targets for pathogen reduction in slaughter establishments
           and microbial testing to meet those targets. In fiscal year (FY) 1996,
           the Final Rule was published on the pathogen reduction system and
           the HACCP system. Under these systems, a country's status as
           having controls and performance standards "equivalent" to those in
           the United States is determined in four areas.



USDA/OIG-A/24099-03-Hy                                        Section III, Page 1
                 HACCP. All plants must develop, adopt, and implement a HACCP
                 plan for each of their processes. Under HACCP, plants identify
                 critical control points during their processes where hazards such as
                 microbial contamination can occur, establish controls to prevent or
                 reduce those hazards, and maintain records documenting that
                 controls are working as intended.

                Mandatory Generic Escherichia coli (E. coli) testing in slaughter
                plants. All meat and poultry slaughter plants are required to
                conduct microbial testing of carcasses for generic E. coli as an
                indicator of the adequacy of the plant's control over fecal
                contamination.

                Pathogen reduction performance standards for Salmonella.
                Slaughter plants and plants producing raw ground products are
                required to ensure that their Salmonella contamination rate is
                below the current national baseline incidence.

                Sanitation Standards Operation Procedures (SSOP). As of the
                beginning of 1997, all plants were required to implement
                plant-specific operating procedures for sanitation to ensure they
                were meeting their responsibility to keep their facilities and
                equipment clean.

             Prior to FSIS' reorganization, FSIS focused on individual plants and
             evaluated whether foreign food regulatory systems were "at least
             equal to" the U.S. system. The principle underlying FSIS' current
             import inspection activities is the "systems approach," which focuses
             on a country's overall inspection system rather than on individual
             plants. The systems approach includes an evaluation of the
             inspection system of each country seeking to export or already
             approved to export to the United States to ensure it has inspection
             controls equivalent to those of the United States. FSIS does not
             suspend trade with exporting countries while this process is underway.

             Because the eligibility of countries to export meat or poultry to the
             United States was initially evaluated on a case-by-case basis through
             analysis of applications followed by onsite audits, all "at least equal to"
             countries that were eligible for export of meat and poultry to the United
             States were allowed to continue to export to the United States until
             their inspection systems could be determined "equivalent" under the
             pathogen reduction/HACCP standards. A total of 37 countries were
             approved under the "equal to" system. The burden for demonstrating
             equivalence rests with the exporting country and the importing country


Section III, Page 2                                         USDA/OIG-A/24099-3-Hy
           is free to set any level of protection it deems appropriate to control or
           eliminate a food safety hazard.

           Before a foreign country can initially export meat or poultry to the
           United States, it must apply for a determination of equivalency.
           Applications must contain enough technical and scientific evidence for
           FSIS to determine that the country's sanitary measures, oversight,
           and enforcement are equivalent to the U.S. system. This evaluation is
           to consist of a document review and an onsite equivalency verification
           review. The initial equivalence determination for a new trading partner
           is subject to notice and comment rule making when the country is
           listed in the Code of Federal Regulations as eligible to export to the
           United States.

           A document review is an evaluation of laws, regulations, directives,
           and other written material used by the foreign country to operate its
           inspection program. FSIS will evaluate the country's inspection
           system in five risk areas which include controls over animal diseases,
           sanitation, residue, processing and slaughter, and enforcement. If the
           document review finds the country's system satisfactory, FSIS will
           conduct an onsite equivalency verification review to evaluate the
           foreign country's oversight program and practices, and to determine
           whether system controls are operating as represented to FSIS.

           After a country is determined to have an equivalent system and is
           eligible to export to the United States, FSIS will rely on the country to
           carry out daily inspections. However, FSIS will monitor the country's
           activities. Besides randomly sampling meat and poultry products for
           reinspection as they enter the United States, FSIS will conduct onsite
           reviews of the country's inspection systems to ensure that its
           procedures and standards remain equivalent. Reviewers will visit
           certified plants and focus on the five areas of risk. These reviews
           should generally be conducted annually, but their frequency depends
           on the country's performance history and on the results of product
           reinspections at the ports of entry. A total of 30 onsite reviews were
           conducted in exporting countries in 1997, and a total of 24 in 1998.
           Based on information provided to us during the field work phase, 13
           onsite reviews had been conducted in 1999.

           The reinspection of imported meat and poultry products at U.S. ports
           of entry provides FSIS with a means of assessing the effectiveness of
           a foreign government's inspection system while ensuring that only
           safe, wholesome, unadulterated, and properly labeled products enter
           U.S. commerce. Reinspection is directed by FSIS' Automated Import


USDA/OIG-A/24099-3-Hy                                           Section III, Page 3
             Information System, which stores reinspection results from all ports of
             entry for each country and plant. A description of each lot arriving at
             any of the approximately 150 official U.S. import inspection
             establishments is entered into the Automated Import Information
             System. Lots are reinspected for transportation damage, labeling,
             proper certification, general condition, and accurate count. The
             Automated Import Information System may, for example, generate
             residue and microbiological laboratory test assignments based on the
             compliance histories of the plants, countries, and products being
             presented for reinspection. Products that pass reinspection are
             allowed to enter U.S. commerce; products that do not pass are
             stamped "U.S. Refused Entry" and must be exported, destroyed, or
             converted to animal food.

             FSIS administers its imported meat and poultry inspection program
             primarily through the Office of Policy, Program Development and
             Evaluation, which reviews food safety requirements imposed by
             foreign governments, and the Office of Field Operations, which
             inspects overseas plants and imported meat and poultry products.
             These review and inspection activities form the basis of FSIS'
             determinations of whether a country's inspection systems are
             equivalent to U.S. standards.

             Within the Office of Policy, Program Development and Evaluation, the
             International Policy Division is responsible for providing leadership in
             international policy development for all programs, regulations, and
             activities for the agency. Within this division, the Equivalence and
             Planning Branch is responsible for formulating policies for determining
             a foreign country's eligibility to export meat and poultry products to the
             United States.

             During 1998, the United States imported about 3 billion pounds of
             meat products and about 53 million pounds of poultry products. The
             volume of imports from Australia, Canada, New Zealand, Argentina,
             and Denmark totaled approximately 2.8 billion pounds during 1998.
             About 21 percent of the products presented to FSIS for reinspection
             were subjected to further examinations including laboratory analysis,
             product examination, and condition of containers. Approximately
             1.6 percent of these reinspected products were rejected for
             contamination, processing defects, unsound condition, violative net
             weight, pathological or labeling defects, missing shipping marks,
             composition/standard, Animal and Plant Health Inspection
             Service/Veterinary Services requirements, residues, container
             condition, transportation, or miscellaneous reasons.


Section III, Page 4                                        USDA/OIG-A/24099-3-Hy
           For 1999, about 3.3 billion pounds of meat and poultry products were
           shipped by foreign countries to the United States and presented for
           FSIS reinspection. The countries which shipped the greatest amount
           of meat and poultry products in 1999 were: Canada (1.6 billion
           pounds), Australia (735 million pounds), New Zealand (461 million
           pounds), followed by Denmark (119 million pounds), Brazil       (106
           million pounds), Argentina (103 million pounds), and Uruguay, (51
           million pounds). These seven countries accounted for nearly       97
           percent of the total meat and poultry products shipped by foreign
           countries to the United States during 1999. Fresh red meat
           represented over 85 percent of the total amount – nearly 13 percent
           was processed product, and the remainder was fresh poultry.

           With the advent of HACCP and the pathogen reduction program, FSIS
           began implementing a comprehensive reorganization of the agency to
           streamline its operations and increase the efficient use of its
           resources. By 1997, FSIS substantially completed this reorganization.
           The new field structure unified four separate functions to carry out all
           inspection and compliance activities, 46 regional and area offices
           were reduced to 18 district offices, and a Technical Service Center
           was opened in Omaha, Nebraska, to provide inspection expertise for
           the onsite reviews and the port-of-entry reinspection process.

                                    The purpose of our review was to
        OBJECTIVES                  evaluate FSIS' policies and procedures to
                                    ensure that foreign countries and their
                                    establishments       have      adequately
         implemented food safety systems and inspection requirements
         equivalent to U.S. requirements. Our secondary objective was to
         determine whether controls that existed over the inspection process
         before FSIS reorganized had been maintained after reorganization.

                                        To      evaluate    FSIS'     policies  and
             SCOPE                      procedures over the food imports safety
                                        program, we focused on operations and
                                        statistical information for 1997, 1998, and
           1999 through July 1999. However, we reviewed prior years'
           operations as deemed necessary. During the next phases of our audit,
           we will continue our evaluation of the reinspection process, and the
           initial equivalence determination process.

           We performed work at FSIS' Headquarters in Washington, D.C., and
           the Technical Service Center in Omaha, Nebraska. Staff at FSIS'
           Headquarters are responsible for (a) developing international policy


USDA/OIG-A/24099-3-Hy                                          Section III, Page 5
             for all programs, regulations, and activities, (b) formulating
             equivalency determination policies, (c) determining a foreign country's
             eligibility for importation of meat and poultry products into U.S.
             markets, (d) managing a program of regulatory oversight and
             inspection to ensure that meat and poultry products are safe,
             wholesome, and properly labeled, and (e) maintaining FSIS' computer
             data base which assigns reinspection levels for meat and poultry
             products imported from those countries and establishments eligible to
             export products to the United States. We reviewed the files for
             37 countries who applied for equivalency determinations to determine
             whether equivalency determinations were adequately documented
             and whether procedures were in place to ensure regulatory
             requirements were met. As of April 15, 1999, 28 countries had been
             approved as equivalent for SSOP and E. coli testing procedures.
             During the course of our fieldwork, equivalency determinations
             (documentation reviews) were in process for HACCP and Salmonella
             standards; therefore, we did not comment on these areas in this
             report. We will review these areas in a future audit.

             Staff at the Technical Service Center are responsible for (a) providing
             technical assistance, guidance, and advice for inspection personnel
             and the industry, (b) conducting foreign reviews, including the
             development of systems, methods, and procedures for conducting
             these reviews, and (c) entering laboratory test failure results into the
             FSIS computer data base. The review system is intended to assure
             consumers that foreign countries seeking eligibility to export meat and
             poultry products to the United States, or those already determined
             eligible to do so, have an inspection system equivalent to U.S.
             requirements.

             Our work was initiated in October 1998 and was conducted in
             accordance with generally accepted Government auditing standards.

                                       To accomplish our objectives, we
         METHODOLOGY                   discussed current operations with FSIS
                                       officials and staff and reviewed supporting
                                       documentation. At FSIS Headquarters,
           we concentrated on the responsibilities of the Office of Policy
           Program, Development and Evaluation; the Office of Field Operations;
           and the Office of Management Internal Control Staff. Our review
           included analysis of records and other documents and discussions to
           determine if agency responsibilities are being carried out as intended
           by regulation.



Section III, Page 6                                       USDA/OIG-A/24099-3-Hy
           At the Office of Field Operations' Field Automation and Information
           Management Division, we familiarized ourselves with FSIS' computer
           data base, the Automated Import Information System. We obtained a
           basic understanding of how information is entered into the Automated
           Import Information System relating to foreign country and
           establishment certifications and laboratory test results, and we
           obtained the Automated Import Information System computer
           printouts of products presented for FSIS reinspection by foreign
           countries.

           At the Technical Service Center, we acquired a basic understanding
           of the evolving responsibilities regarding the reinspection process,
           particularly those related to laboratory test results. We also obtained
           information about the role of the Technical Service Center foreign
           review staff in conducting audits to ensure that the inspection systems
           of foreign countries comply with equivalency requirements.

           At FSIS' Headquarters offices, we reviewed documentation and
           performed analysis of files for all 37 countries that applied for
           participation in the import program under the HACCP and pathogen
           reduction standards.      We also evaluated procedures used to
           determine whether country inspection systems were equivalent to
           those in the United States. We reviewed and analyzed procedures
           used by FSIS to implement the requirements of the Federal Managers
           Financial Integrity Act.       These documents included yearend
           management control reports and FSIS directives for management
           controls.




USDA/OIG-A/24099-3-Hy                                         Section III, Page 7
Section III, Page 8   USDA/OIG-A/24099-3-Hy
         FINDINGS AND RECOMMENDATIONS

                 FSIS MANAGEMENT CONTROLS OVER THE
 CHAPTER 1       IMPORT INSPECTION PROGRAM NEED TO BE
                 ENHANCED

           Office of Management and Budget (OMB) Circular No. A-123,
           Management Accountability and Control, dated June 1995, states that
           agency managers shall incorporate management controls in the
           strategies, plans, guidance and procedures that govern their programs
           and operations. However, we found that when FSIS reorganized,
           management controls and written operational procedures were
           inadequate to assure that controls over the import inspection program
           were maintained under the new organizational structure. Our review
           disclosed: a lack of management controls over key import inspection
           functions; inadequate documentation to support the equivalence
           determination process; non-compliance with existing controls; a lack
           of documentation to ensure that ongoing monitoring and supervision
           occurred; and processes that did not reflect operating procedures as
           outlined in functional statements and documents provided to the
           Office of Inspector General (OIG) and the general public. In addition,
           all personnel have not received adequate training for the tasks
           assigned. FSIS implemented the reorganization prior to developing a
           comprehensive, detailed plan to ensure the effectiveness of controls
           over all aspects of the import inspection process. In the absence of
           sufficient management controls, there is reduced assurance that the
           goals and objectives of the import inspection program are being
           fulfilled.




USDA/OIG-A/24099-3-Hy                                         Section III, Page 9
                                               The U.S. General Accounting Office’s
              FINDING NO. 1                    Standards for Internal Control in the
                                               Federal Government,1 dated November
             COMPREHENSIVE                     1999, states that internal controls should
             REORGANIZATION                    provide reasonable assurance that the
          IMPLEMENTATION PLAN                  objectives of the agency are being
           WAS NOT DEVELOPED                   achieved.     We found that program
                                               controls have not been established or are
                                               inadequate to assure that the import
                 inspection program is operating as intended. Although FSIS had
                 originally planned to reorganize over a 3-year period, a decision was
                 made to make the transition to the new structure within 1 year. As a
                 result, the transition was made without FSIS ensuring adequate
                 controls were in place and functioning. The separation of functions
                 that resulted from the reorganization requires considerable
                 coordination between staffs which, in key areas, has either not
                 occurred, or not effectively occurred. In addition, a planned retraining
                 program for FSIS personnel has not been fully implemented.

                    As a result of our requests for documentation to support FSIS'
                    transition to its current organizational structure, we were provided with
                    a history of planning proposals that were never carried out, and a
                    "Top-to-Bottom Review" that was self-described as a brainstorming
                    project. This internal FSIS review recognized the need to establish
                    and maintain a strong internal control structure within FSIS.

                    In February 1995, FSIS published a proposed rule, Pathogen
                    Reduction; Hazard Analysis and Critical Control Point (HACCP)
                    Systems, which outlined its strategy to change inspection to a more
                    scientific, industry performance-based system that would better
                    protect the public health. In conjunction with the proposed rule, the
                    FSIS Administrator announced that the Agency would look at itself
                    from "top to bottom" and define an organizational structure compatible
                    with the goals and strategies of the pathogen reduction/HACCP
                    regulation.

                    FSIS prepared a report, entitled "Top-to-Bottom Review," dated
                    August 1995, which outlined FSIS' regulatory roles and proposed an
                    organizational structure. The review recommended that FSIS appoint
                    an implementation team to develop a reorganization plan, assess the
1
    These standards were updated in 1999 because of revisions to OMB Circular A-123 and other laws that have
    prompted a renewed focus on internal control (The Government Performance and Results Act of 1993, the
    Federal Financial Management Improvement Act of 1996). The federal standards also recognize internal
    control guidance developed by the Committee of Sponsoring Organization of the Treadway Commission
    (COSO) ).


Section III, Page 10                                                       USDA/OIG-A/24099-3-Hy
           organization on an ongoing basis, and identify complementary
           measures that would enhance organizational effectiveness. During
           our audit, we determined that many of the recommendations included
           in the "Top-to-Bottom Review" were not implemented by FSIS. We
           could not obtain information explaining why they were not.

           In 1996, the U.S. Department of Agriculture (USDA) Secretary
           announced a comprehensive reorganization of FSIS designed to
           prepare for implementation of HACCP.            An April 16, 1997,
           memorandum from the Director, Import Inspection Division, to the
           Deputy Administrator, Office of Field Operations, outlined a plan to
           provide assurance that the import inspection functions were properly
           controlled during the transition to the new organizational structure.
           The memorandum also recognized the OIG concerns about the
           change in management of the import inspection function and called for
           an assessment to be conducted after reorganization to determine
           what actions would be needed to properly control the reinspection of
           imported products for the long term. However, many of the activities
           outlined in this plan were never accomplished, and, again, we could
           not obtain information explaining why they were not.

           According to an FSIS official involved in the transition, it was important
           that all facets of the transition connect before the reorganization was
           officially implemented. One important facet involved inspector
           retraining. Former Import Field Office Supervisors were converted to
           Import Coordinators and were to assist District Managers and Circuit
           Supervisors as they gained import inspection expertise. It was
           important that domestic inspectors receive import inspection training
           because domestic and import inspections have notable differences.
           For example, if the hindquarter of a carcass contains E. coli-causing
           fecal traces or some other defect, the domestic inspector can allow
           the affected portion to be removed. However, the import inspector
           would be required to reject the entire shipment.

           According to the proposed transition plan, the reorganization was to
           be completed over a 3-year period ending September 1998.
           However, before it was assured that all of the components of
           the transition were in place, including inspector retraining, an
           October 23, 1997, memorandum from the Deputy Administrator, Field
           Operations, stated that all supervisory responsibilities for import
           inspection activities and personnel were to be transferred to Circuit
           Supervisors on October 12, 1997. USDA's 1999 Budget Explanatory
           Notes for Committee on Appropriations states, "although the original
           plan was to implement the reorganization by FY 1999, a determination


USDA/OIG-A/24099-3-Hy                                          Section III, Page 11
             was made to move forward and complete the reorganization as
             quickly as practical." As a result, the reorganization went into effect
             before the transition plan was fully implemented.

             Prior to 1985, FSIS operated under an organizational structure similar
             to the one currently in place. According to an FSIS official, FSIS
             internal reviews of this structure, as well as reviews by the OIG and
             the U.S. General Accounting Office, concluded that controls could be
             more effective. Between 1985 and 1996, the responsibility for
             carrying out the requirements of Federal meat and poultry inspection
             laws for imported products was unified within one office, FSIS'
             International Programs, under a single deputy administrator. FSIS
             consolidated its import inspection program and achieved a structure
             that contributed to the efficiency of the program. The import
             inspection function was separate from all other functions, and the unit
             responsible for it had both line and policy-making authority. An OIG
             audit performed to evaluate this organizational structure (Audit
             No. 38002-4-Hy, dated March 1989) concluded that controls over the
             import inspection process had improved since a prior (1987) audit.

             An OIG audit, Audit No. 24099-01-Hy, conducted in 1996,
             recommended that as FSIS' reorganization was implemented, existing
             controls over the import meat and poultry inspection process be
             maintained. In response, FSIS indicated that the Director, Import
             Inspection Division, would ensure that accountability was in place for
             imported product and that inspection expertise was maintained. The
             response also stated that a comprehensive and detailed plan of action
             would be developed to maintain an effective import function. Based
             on our discussions with responsible FSIS officials, we found the plan
             was never developed.

             In reorganizing, FSIS separated import inspection responsibilities
             between the Offices of Management; Field Operations; Public Health
             and Science; and Policy, Program Development and Evaluation.
             Under the reorganization plan, FSIS unified some functions,
             separated others, and reduced its office network from 46 field offices
             to 17 district offices. FSIS also established a Technical Service
             Center, located in Nebraska. Although this new field structure unified
             formerly separate functions to carry out inspection and compliance
             activities, it had the effect of fragmenting import inspection activities
             and increased the need for a strong internal control structure to
             ensure effective operations. The chart on the opposite page depicts
             the primary part of FSIS' reorganized structure that affects the import
             inspection program.


Section III, Page 12                                      USDA/OIG-A/24099-3-Hy
Figure 1: FSIS Organizational Structure Related to the Import Inspection Process

                                                    Office of the Administrator




 Office of              Office of                     Office of                                  Office of Policy,
 Public Health         Management                     Field Operations                      Program Development and
 and Science                                                                                        Evaluation


  Epidemiology         Internal Control
                             Staff                                                                  International
     & Risk
                                                                                                   and Domestic
  Assessment                                                    Field Automation
                                                                                                        Policy
    Division                                                     and Information
                                                               Management Division
                                                                                                    International
  Emergency                                                                                        Policy Division
  Response
   Division
                       District                                  Technical
                                            District                                 Equivalence        Import/Export
                     Enforcement                                  Service
                                          Inspection                                     and            Policy Branch
  Microbiology        Operations                                  Center
                                          Operations                                  Planning
    Division                                                                           Branch


                                          District Offices
  Chemistry &                                   (17)
   Toxicology
    Division


    Field
   Service
    Labs
     (3)

                 We found that as a result of the reorganization, the import inspection
                 process is scattered among different entities and the operations are
                 diffused among a number of districts. The separation of functions has
                 required greater coordination between staffs, and has resulted in the
                 need for retraining inspectors and the Technical Service Center
                 foreign inspection system reviewers.       However, FSIS has not
                 developed adequate policies and procedures to facilitate this
                 coordination, and training requirements have not been fully achieved.

                 OMB Circular A-123 requires managers to ensure that appropriate
                 authority, responsibility, and accountability are defined and delegated
                 to accomplish the mission of the organization, and that an appropriate
                 organizational structure is established to effectively carry out program
                 responsibilities. While we recognize there are transition difficulties in
                 any reorganization effort, FSIS recognized the need, but did not take
                 action, to ensure that its foreign inspection process control systems

USDA/OIG-A/24099-3-Hy                                                                    Section III, Page 13
             are adequately developed, documented, and communicated to its
             staff. We conclude the findings in this report have occurred because
             FSIS did not adequately plan for the transition to the new
             organizational structure. In addition, there has been inadequate
             management oversight of the operational changes to the import
             inspection processes. As a result, a breakdown in controls that were
             designed to ensure the safety and wholesomeness of imported
             products entering the United States has occurred. Nothing came to
             our attention during this audit, however, that indicated FSIS allowed
             unsafe meat and poultry products to enter the United States.

             According to FSIS officials, the audit failed to acknowledge the
             oversight in place that is responsible for managing change to import
             policies and procedures. However, the audit report does recognize
             the roles and responsibilities of these management officials. The audit
             disclosed weaknesses in FSIS’ management control structure at
             various levels of the import inspection function after FSIS’
             reorganization. These controls include clearly defined roles and
             responsibilities, documented management reviews and approvals,
             directives/operating manuals, properly managed and maintained
             documentation, and a positive and supportive management attitude
             toward internal control. Controls over the reinspection process at U.S.
             ports of entry will be evaluated during Phase II of this audit.

                                    Conduct an in-depth assessment of the
  RECOMMENDATION NO. 1              current organizational structure to
                                    establish a system of control objectives
                                    and processes to ensure that the goals of
        import inspection process are achieved.

             Agency Response

             FSIS agrees with this recommendation. FSIS will assess the current
             organizational structure and identify import inspection controls,
             objectives and processes. The assessment will be completed by
             May 2001.

             OIG Position

             We accept FSIS’ management decision.




Section III, Page 14                                     USDA/OIG-A/24099-3-Hy
                                      Require increased management oversight
  RECOMMENDATION NO. 2                and approval of changes to import
                                      inspection operations and procedures.

           Agency Response

           FSIS believes that management oversight and approval of changes
           to import inspection operations and procedures is adequate.
           Inspection of imported meat and poultry product is controlled through
           a multi-tiered supervisory and management oversight structure.

           FSIS will prepare a summary of the management oversight functions
           and procedures. These procedures will outline FSIS’ efforts to
           strengthen management controls for all import operations. The
           consolidated written procedures will be developed by March 2001.

           OIG Position

           We accept FSIS’ management decision.

                                      Provide management control training to
  RECOMMENDATION NO. 3                agency managers.


           Agency Response

           FSIS agrees with this recommendation. FSIS believes in continuous
           education and refresher training for its managers in a number of
           areas. FSIS will make arrangements for its Imported Meat and
           Poultry Inspection managers at Headquarters, District Offices, and
           the Technical Service Center to receive additional training on
           management controls. The agency will arrange for training similar to
           the Management Accountability and Control (OMB Circular A-123)
           course offered by the Government Audit Training Institute at the
           Graduate School, USDA by December 1, 2000. FSIS will explore
           including a training module on management controls in its
           Management Leadership and Development Program, which will be
           available to all agency managers.


           OIG Position

           We accept FSIS’ management decision.


USDA/OIG-A/24099-3-Hy                                       Section III, Page 15
                                       FSIS has not conducted independent
        FINDING NO. 2                  internal control reviews of the import
                                       inspection program. According to the
    INDEPENDENT INTERNAL               Director, Internal Control Staff, few
      CONTROL REVIEWS                  resources were assigned to the staff;
  HAVE NOT BEEN CONDUCTED              consequently, FSIS relied on each branch
                                       and program area to review its own
                                       activities and determine if vulnerabilities
           in operations exist. In the absence of independent internal control
           reviews, FSIS management has reduced assurance that adequate
           controls are in place, and functioning, over the import inspection
           program. These reviews are critical since FSIS has dispersed the
           responsibilities for the import inspection program among various
           operational units.

             The Federal Manager's Financial Integrity Act requires each agency to
             evaluate the adequacy of its management controls. The correction of
             material weaknesses is to be considered in the agency's strategic
             planning, annual performance planning, and reporting processes.

             As part of FSIS' reorganization, the Internal Control Staff was
             established and placed within the Office of Management. The Internal
             Control Staff is responsible for assisting management in carrying
             out its management control responsibilities specified in OMB
             Circular A-123 and FSIS Directive 1090.1, "Management Controls."
             To fulfill these responsibilities, the staff is empowered to
             independently and objectively assess the effectiveness of the
             agency's internal control systems, provide deputy administrators and
             program managers with assessments of its effectiveness, and monitor
             correction of any identified material weakness.

             We found that the Internal Control Staff has not conducted
             independent assessments of import inspection activities to ensure that
             programs are managed effectively and comply with applicable laws
             and regulations. Each program office within FSIS has conducted its
             own assessment or evaluation of its programs to ensure compliance
             with management accountability and controls. The program offices
             responsible for the import inspection program have consistently found
             no areas of vulnerability during their own reviews, and the Internal
             Control Staff has not validated these findings.

             Standards for Internal Control in the Federal Government states, in
             part, that qualified and continuous supervision should be provided to
             ensure that internal control objectives are achieved. In addition, the


Section III, Page 16                                    USDA/OIG-A/24099-3-Hy
           "Top-to-Bottom Review" stated that FSIS' new organizational structure
           should have resulted in an improved supervisory span of control.
           However, we were unable to identify documented evidence of
           supervisory review or oversight over district office functions, the
           Technical Service Center, and the Equivalence and Planning Branch.
           According to an Office of Field Operations management official, if staff
           members are doing what they are supposed to do, then they do not
           need oversight. The Office of Field Operations has not conducted any
           reviews of the Technical Service Center and district office activity and
           assumed that personnel were doing a good job based on positive
           comments from industry and foreign governments.

           The Director of the Internal Control Staff agreed that independent
           reviews are necessary, but noted that insufficient staff precluded his
           office from performing the reviews. He also noted that during the
           reorganization, the Internal Control Staff was assigned eight staff
           members and that this has proven insufficient to complete the
           activities mandated by FSIS Directive 1090.1.

           We found, however, that some of the activities mandated by FSIS
           Directive 1090.1 are no longer required by OMB Circular A-123. FSIS'
           requirements are based on a 1986 version of the OMB circular, which
           has been superseded by a 1995 revision. The circular no longer
           requires agencies to segment themselves into assessable units,
           perform risk assessments of these units, rate the units, develop a
           5-year management control plan, and conduct evaluations of units
           rated high or medium risk. It now provides a framework for integrating
           management control assessments with other work performed by
           agency managers, auditors and evaluators. In addition, the circular
           allows agencies to determine the appropriate level of documentation
           needed to support their annual assurance statements to Congress.
           FSIS did not incorporate any of these changes in its directive on
           management controls.

           We were advised that the Internal Control Staff is in the process of
           re-engineering its internal control process. According to an FSIS
           official, a program management plan is being developed which will
           address procedures that will be used for assessing the controls and
           monitoring activities for programs within FSIS.

                                       Revise FSIS Directive 1090.1 to
  RECOMMENDATION NO. 4                 incorporate the provisions of OMB
                                       Circular A-123, Revised, "Management
                                       Accountability and Control," dated


USDA/OIG-A/24099-3-Hy                                         Section III, Page 17
             June 21, 1995, and to document specific program control objectives
             and the review procedures that will provide management reasonable
             assurance on the effectiveness of controls.

             Agency Response

             FSIS agrees with this recommendation.              FSIS has updated
             its Directive 1090.1 to incorporate the provisions of OMB
             Circular A-123, Revised, Management Accountability and Control,”
             dated June 21, 1995. The draft directive outlines a process for
             establishing program control objectives and procedures that will
             provide management reasonable assurance on the effectiveness of
             controls. The draft document has been reviewed internally and is
             currently being reviewed by the National Joint Council, an employee
             union. We expect the directive to be finalized by October 1, 2000.

             OIG Position

             We accept FSIS’ management decision.

                                    Require the FSIS Internal Control Staff to
  RECOMMENDATION NO. 5              conduct       periodic      independent
                                    assessments of FSIS' programs and
                                    operations, emphasizing those processes
        that changed in the reorganization.

             Agency Response

             FSIS agrees with the intent of this recommendation. FSIS will
             establish selection criteria for conducting periodic independent
             assessment of FSIS’ programs and organizations as appropriate. The
             Executive Steering Committee for Management Controls will identify
             and prioritize for independent assessment selected processes that
             changed during the 1997 reorganization that should be reviewed. It
             should be noted that FSIS already requires the Internal Control Staff
             (ICS), to conduct independent assessments of FSIS’ programs and
             operations. However, FSIS will direct the ICS, through guidance
             provided by the FSIS Executive Steering Committee on Management
             Controls, to conduct independent assessments of selected processes
             that changed during the 1997 reorganization. A memorandum of
             instruction to the ICS will be issued by September 1, 2000, from the
             Executive Steering Committee on Management Controls to address
             this recommendation.



Section III, Page 18                                    USDA/OIG-A/24099-3-Hy
           OIG Position

           We accept FSIS’ management decision.

                                        Report the conditions disclosed in this
  RECOMMENDATION NO. 6                  audit as material management control
                                        weaknesses in the import inspection
                                        process.

           Agency Response

           FSIS strongly disagrees with the OIG recommendation that the issues
           outlined in this audit report constitute a material management control
           weakness. They acknowledge the need to strengthen management
           controls and procedures, but they do not believe that the findings of
           this audit represent a reportable material management control
           weakness. Although FSIS agrees with most of the suggested
           management controls improvements in this audit, they do not believe
           they constitute a reportable material weakness of the import
           inspection process. FSIS will address opportunities for strengthening
           the management controls identified in this audit report and report them
           in accordance with the Agency’s assessment of OMB Circular A-123
           requirements.

           OIG Position

           OIG disagrees with FSIS’ position that the findings in this report are
           not material control weaknesses. Basic control activities, such as
           documented policies, procedures, supervisory reviews and approvals,
           delegated responsibilities, and clear lines of authority were lacking in
           FSIS’ operations. In the absence of the in-depth assessment of
           controls agreed to in response to Recommendation No. 1, FSIS
           should report the findings in this audit as material control weaknesses
           in the import inspection operations.


                                        Key features of the "Top-to-Bottom
        FINDING NO. 3                   Review" proposed organizational model
                                        included highly integrated organizational
    COORDINATION AMONG                  components. We found, however, that
   RESPONSIBLE PERSONNEL                there was a lack of effective coordination
   HAS NOT BEEN EFFECTIVE               between the Office of Policy, Program
                                        Development and Evaluation and the
                                        Office of Field Operations and clear


USDA/OIG-A/24099-3-Hy                                         Section III, Page 19
                     separation of specific foreign system review (audit) tasks related to the
                     equivalency determination process. This occurred, in part, due to
                     unclear lines of authority and training goals that had not been
                     achieved. As a result, there is reduced assurance that controls over
                     the import inspection program have been maintained.

                     a. Roles and Responsibilities Overlap and are not Clearly Defined

                         The "Top-to-Bottom Review" report stated, in part, that although
                         the current organizational structure2 may appear to be adequate,
                         the roles and responsibilities set out in agency functional
                         statements have eroded over time. It also made reference to a
                         duplication of effort and confusion about relative roles and
                         responsibilities between specific staffs. We found this situation has
                         occurred between the Technical Service Center and the
                         Equivalence and Planning Branch staffs. In the absence of
                         proactive management over the Technical Service Center and the
                         Equivalence and Planning Branch, the two units created a working
                         relationship, with the Equivalence and Planning Branch assuming
                         a greater role in the equivalency verification process than specified
                         in its functional statement.

                         According to a paper prepared by FSIS entitled Importing Meat and
                         Poultry to the United States, a country must apply for a
                         determination of equivalency before initially exporting meat or
                         poultry to the United States. A two step evaluation consisting of a
                         document review and an onsite equivalency verification review is
                         conducted to determine that the country’s sanitary measures,
                         oversight, and enforcement are equivalent to the U.S. system. The
                         Equivalence and Planning Branch maintains control over the
                         document review process and the Technical Service Center
                         reviewers conduct the onsite equivalency verification reviews.
                         These reviews and inspection activities form the basis of FSIS’
                         determinations of whether a country’s inspection systems are
                         equivalent to the United States.

                         The Standards for Internal Controls in the Federal Government
                         states that key duties and responsibilities need to be divided or
                         segregated among different people to reduce the risk of error.
                         Agency functional statements assign the Technical Service Center
                         responsibility for: interacting on a regular basis with other staffs to
                         stay abreast of current issues, trends, and problems encountered,
                         and integrating this information into onsite reviews of country
2
    The organizational structure in place prior to the 1997 reorganization.


Section III, Page 20                                                          USDA/OIG-A/24099-3-Hy
                      inspection systems;      designing operating systems, methods,
                      guidelines, and processes for reviewing foreign, state, and
                      domestic programs and conducting targeted program reviews of
                      these operations; and, reviewing foreign programs to ensure
                      compliance with equivalency requirements. Agency functional
                      statements assign the Equivalence and Planning Branch
                      responsibility for developing methods of review for foreign
                      inspection systems and specifies that the Equivalence and
                      Planning Branch is to maintain liaison with the Technical Service
                      Center. However, we found that the Equivalence and Planning
                      Branch does not routinely provide Technical Service Center
                      reviewers with documentation provided by foreign countries to
                      support their inspection programs prior to the Technical Service
                      Center’s onsite equivalency reviews. According to FSIS officials,
                      copies of all incoming documents from foreign countries that export
                      to the United States are routinely sent to the Director of the
                      Technical Service Center Review Staff. However, we did not
                      identify this type of documentation during our review of files
                      maintained at the Technical Service Center. FSIS provided an
                      April 13, 2000, document which stated, “Although EPB does not
                      have written procedures for transmitting information to the TSC, the
                      review staff now routinely reviews all documents received by IPD
                      concerning the audit countries.”

                      The Equivalence and Planning Branch has assumed a greater role
                      in the foreign equivalence review process than outlined in
                      functional statements and written documents prepared by FSIS.
                      This expanded role includes reviewing and editing the foreign
                      equivalency review (audit 3) reports. However, the functional
                      statements appear to provide for a separation of duties between
                      the documentation review and the onsite verification review and
                      subsequent audit report.

                      According to an FSIS paper entitled, “FSIS Process For Evaluating
                      The Equivalence of Foreign Meat And Poultry Food Regulatory
                      Systems,” dated March 1999, equivalence decisions based on
                      foreign food regulatory system documentation of specific sanitary
                      measures are subsequently verified by onsite audits. However, our
                      reviews of country files maintained at the Technical Service Center
                      disclosed limited information on the Equivalence and Planning
                      Branch document reviews of foreign food regulatory systems that
                      need to be verified as part of the onsite reviews. The Equivalence

3
    While FSIS refers to these equivalency reviews as audits, they are not conducted in accordance with
    Government Auditing Standards.


USDA/OIG-A/24099-3-Hy                                                         Section III, Page 21
                and Planning Branch instituted a pre-audit telephone conference
                with the Technical Service Center reviewers to review information
                compiled by Equivalence and Planning Branch program analysts
                concerning prior audit issues, establishments known to have
                problems, port-of-entry violations, consumer complaints, and other
                matters. Equivalence and Planning Branch program analysts
                obtain this information from the Import/Export Policy Branch, the
                Automated Import Information System, country files, and other
                resources and divisions throughout the agency. The Technical
                Service Center reviewers are to use this information as a basis for
                planning their foreign equivalency reviews.                 However,
                documentation provided by the foreign country was not forwarded
                to the Technical Center Reviewers in order to ensure that all
                information submitted by the foreign country is verified during the
                onsite review. According to FSIS officials, the Technical Service
                Center reviewers can request that all documentation in the
                International Policy Division country file be sent to them.

                Agency functional statements state that the Technical Service
                Center provides feedback on the results of its foreign inspection
                reviews to agency managers and the Equivalence and Planning
                Branch. The Technical Service Center review staff prepares a draft
                audit report and sends it to the Equivalence and Planning Branch
                for review. According to Equivalence and Planning Branch
                officials, the Technical Service Center reviewers are not to make
                recommendations because they do not determine equivalency.
                Recommendations for corrective actions are made by the
                Equivalence and Planning Branch, with input from the Technical
                Service Center. The Equivalence and Planning Branch staff
                reviews the draft reports and makes changes, primarily
                grammatical but sometimes substantive. In some reports we
                reviewed, the Equivalence and Planning Branch inserted
                recommendations and conclusions concerning system failures and
                corrective actions taken by foreign country officials. According to
                the Director of the Technical Service Center review staff, the
                Equivalence and Planning Branch is involved in the report review
                process due to a lack of staff, namely an Assistant Director of the
                review staff. He added that the reviewers are not obligated to
                make substantive changes, but will discuss them with the
                Equivalence and Planning Branch and reach an agreement. If the
                changes are substantive, the Equivalence and Planning Branch
                may request to see the report after revisions have been made.




Section III, Page 22                                     USDA/OIG-A/24099-3-Hy
             In response to our concerns over the Equivalence and Planning
             Branch’s role in the report process, FSIS officials provided an
             April 3, 2000, document which stated that the purpose of the
             Equivalence and Planning Branch review of the report is to ensure
             that all relevant information that the reviewer collected is presented
             in the report.        While reviewing the report for substantive
             information, editorial comments are made for the purpose of
             clarifying the findings. Reviewers are not asked to change the
             facts. Rather, they may be asked to clarify facts so that the
             International Policy Division, in making equivalence determinations,
             can use the report.

             The Equivalence and Planning Branch also maintains control over
             the audit resolution process. The Equivalence and Planning
             Branch staff sends letters to the foreign countries and receives
             their corrective action plans. Although the Equivalence and
             Planning Branch should share this information with the Technical
             Service Center as part of the resolution process, we found that the
             Technical Service Center staff was not always kept informed of
             agreements reached. For example, the Equivalence and Planning
             Branch granted a country flexibility in species testing, but the
             Technical Service Center reviewers were not told this prior to the
             onsite equivalency review.

             The Equivalence and Planning Branch program analysts are to use
             information from the Technical Service Center audit reports to
             make equivalency determinations. Based on functional statements
             which require the Technical Service Center to provide feedback on
             the results of foreign inspection reviews to agency managers, the
             Technical Service Center audits should represent independent
             research upon which the Equivalence and Planning Branch can
             base its conclusions of equivalency or non-equivalency. However,
             FSIS officials believe that the issue of independence is off base,
             and that by organizational design the two units work closely on
             audits.

             The position of FSIS officials is that the OIG audit should focus on
             outcome, not how FSIS has decided to manage this function. FSIS
             views the roles and working relationship between the Technical
             Service Center and the Equivalence and Planning Branch as very
             positive and harmonious, and added that the Director of the
             Techncial Service Center Review Staff and the Chief of the
             Equivalence Branch are in daily contact regarding equivalence
             determinations.


USDA/OIG-A/24099-3-Hy                                         Section III, Page 23
                The Equivalence and Planning Branch must also coordinate with
                the Office of Field Operations’ Field Automation and Information
                Management Division to ensure that information about delisted
                establishments is updated in FSIS' database, the Automated Import
                Information System. We found that the Equivalence and Planning
                Branch has not always properly coordinated with the Field
                Automation and Information Management Division and that some
                information in the Automated Import Information System on delisted
                establishments is inaccurate and not timely updated (see Finding
                Nos. 6 and 7).

                This audit has raised a number of concerns regarding the
                coordination among several units within FSIS and identified
                examples of breakdowns in several processes. At the time we
                visited the Technical Service Center, the country files contained
                limited information received by the Equivalence and Planning
                Branch from foreign inspection systems.               Also, undated
                administrative processing procedures developed by the
                Equivalence and Planning Branch did not include the Technical
                Service Center for distribution of incoming documents from foreign
                inspection systems.          Our discussions with staff from the
                Equivalence and Planning Branch, and the Field Automation and
                Information Management Division disclosed confusion as to roles
                and responsibilities. FSIS needs to revisit its functional statements
                and develop procedures to clearly define the roles and
                responsibilities of the staffs involved.

             b. Training Plan Not Fully Implemented

                Standards for Internal Controls in Federal Government requires
                management to ensure that skill needs are continually assessed
                and that the organization is able to obtain a workforce that has the
                required skills that match those necessary to achieve organizational
                goals. According to recommendations outlined in the "Top-to-
                Bottom Review," FSIS personnel must be at least as
                knowledgeable as the regulated industry. Therefore, training was
                critical. Even though FSIS assigned new duties to personnel under
                its reorganized structure, it did not fully implement a training
                program to ensure that employees were proficient in those duties.

                Under the current organizational structure, inspectors who formerly
                performed only domestic inspections may be required to perform
                import inspections. Also, import inspectors may be supervised by
                circuit supervisors who are only knowledgeable of domestic


Section III, Page 24                                      USDA/OIG-A/24099-3-Hy
              inspections. Former import supervisors now serve as "import
              coordinators" to provide guidance to import reinspection activities in
              the district to which they are assigned. As previously discussed, an
              Import District Transition Plan was developed to ensure that district
              office personnel, circuit supervisors, and domestic inspectors were
              trained in import inspection activities during the transition to the new
              structure. However, FSIS officials were unable to provide adequate
              documentation that all personnel were trained in areas related to
              their current job responsibilities.

                                      Review the roles and responsibilities of
   RECOMMENDATION NO. 7               personnel involved in the equivalence
                                      determination process, the onsite review
                                      process, and the input of data to update
        the Automated Import Information System, and define more
        specifically the authority and responsibilities of those units.

            Agency Response

            FSIS agrees to review the roles and responsibilities of personnel
            involved in the equivalence determination process, the onsite review
            process, and the input of data to update the Automated Import
            Information System (AIIS).

            By October 1, 2000, FSIS will review and revise as necessary the
            functional statements of the International Policy Division (IPD) where
            joint and separate functional responsibilities exist in onsite
            equivalence audits, audit reports, and follow-up on equivalence issues
            raised during onsite audits.

            OIG Position

            We accept FSIS’ management decision.


                                    Prior to the onsite review, ensure that the
  RECOMMENDATION NO. 8              Technical Service Center reviewers are
                                    provided with all information necessary to
                                    verify data provided by foreign countries
        for equivalence determinations.




USDA/OIG-A/24099-3-Hy                                           Section III, Page 25
             Agency Response

             FSIS agrees to develop formal procedures that will continue to ensure
             that the TSC is provided all information necessary for the reviewers to
             verify data provided by foreign countries during equivalence
             determinations. The procedures will be completed in December 2000.

             OIG Position

             We accept FSIS’ management decision.

                                         Provide training to all inspectors
  RECOMMENDATION NO. 9                   responsible for conducting inspections of
                                         imported products.

             Agency Response

             FSIS is currently developing updated import training for field
             inspectors who conduct import inspection activities. Training is
             scheduled to begin in FY 2001. This training plan is projected to
             include on-the-job training, pre-classroom CD-ROM’s that cover basic
             import inspection procedures, and a formal training session at various
             U.S. ports of entry.       The training plan will be completed in
             December 2000.

             OIG Position

             We accept FSIS’ management decision.

                                        Processes       and     procedures     for
         FINDING NO. 4                  determining     equivalency    were    not
                                        detailed enough to ensure that all aspects
  WRITTEN PROCEDURES WERE               of a country’s regulatory system would be
   NOT ADEQUATE TO ENSURE               reviewed in accordance with applicable
       COMPLIANCE WITH                  regulations. We also found that agency
  REGULATORY REQUIREMENTS               procedures were not always functioning
      OR TO DOCUMENT THE                as represented in documents provided
   PROCESS FOR DETERMINING              during our review (see Chapters 2 and 3).
     COUNTRY EQUIVALENCY                 We obtained documents (some of which
                                        were undated or in draft form), which
                                        outlined procedures for performing
            specific tasks related to the Equivalence and Planning Branch
            operations. Based on our review of these documents and discussions
            with FSIS officials, we determined that several of these procedures


Section III, Page 26                                     USDA/OIG-A/24099-3-Hy
           were developed or revised on an "as-needed" basis without being
           subject to any formal review or approval process. In addition, no
           reviews were performed to determine the adequacy of the procedures.
           For example, procedures for reviewing documents submitted for
           equivalency determinations were revised during the course of our
           audit as a result of questions we raised about the process.

           The "Top-to-Bottom Review" prepared for the pending reorganization
           recognized that "FSIS lacks a clearly defined and consistent approach
           to regulation development and is in need of a revamped process for
           carrying out this critical function. FSIS has developed regulations in a
           piecemeal fashion and issued policy memos or directives to avoid
           rulemaking. Not only does this approach result in implementation
           problems, but there is the risk of legal challenges when the agency
           publishes policy without rulemaking and tries to enforce a requirement
           that is not in the regulations." The "Top-to-Bottom Review" report
           recommended that a clearly established regulatory agenda process
           be created which would rely on subject-matter experts for input about
           substantive issues throughout the regulation development process.
           We were provided with an April 13, 2000, paper prepared by FSIS
           entitled: The Management Review of Equivalence Process, which
           outlined management’s involvement in the equivalence review
           process; however, there was no documented evidence to support that
           these activities occurred.

           a. Guidelines for Determining Equivalency Were Not Adequate

              According to OMB Circular No. A-123, management controls
              include the methods and procedures adopted by management to
              ensure that its goals are met. Although FSIS developed basic
              guidelines for determining the equivalency status of a country's
              food inspection system, those guidelines were not detailed enough
              to ensure that required aspects of a country's regulatory system
              would be reviewed. To determine equivalency, Equivalence and
              Planning Branch program analysts must review the foreign
              government's performance standards and determine if those
              standards include implementation of a HACCP and pathogen
              reduction program, which includes SSOP, Salmonella testing,
              and E. coli testing. To assist the program analysts in making these
              determinations, procedures consisting only of a one-page
              document for each type of review were prepared. The guidelines
              described each process in very general language, and did not
              adequately address the processes needed to ensure compliance
              with federal requirements. For example, the guideline for E. coli


USDA/OIG-A/24099-3-Hy                                         Section III, Page 27
                        did not include an evaluation to determine whether the foreign
                        inspection system programs maintained a process for ensuring
                        that establishments prepare criteria for evaluating test results. The
                        guidelines for HACCP did not include procedures for evaluating
                        foreign inspection systems’ process for ensuring that
                        establishments validate the adequacy of HACCP plans at least
                        annually and whenever changes occur that could affect the plan.

                    b. FSIS Lacks Procedures for Terminating a Foreign Country From
                       Participating in the Import Inspection Program

                        FSIS actions were inconsistent when the agency handled
                        countries that failed to timely submit required documents for
                        equivalency determinations, or that had not implemented food
                        regulatory systems as outlined in documents submitted for
                        equivalency determinations. Regulations 4 outline conditions under
                        which a foreign establishment's eligibility to import product to the
                        United States may be terminated. However, FSIS has not
                        developed written procedures for enforcing this regulation. There
                        are no procedures for suspending the eligibility of exporting
                        countries that do not provide sufficient documentation to support
                        their continued compliance with U.S. equivalency standards, or are
                        found to be in noncompliance based on the results of an onsite
                        equivalency review.

                        An April 3, 2000, response prepared by FSIS to our draft report
                        stated, in part, that it is not feasible to develop written procedures
                        for terminating the eligibility of foreign establishments or an entire
                        country’s ability to export. Each situation presents itself with
                        different factual patterns. Therefore, written procedures would
                        have to be so general and vague, as to serve no useful purpose
                        given that these situations require case by case assessment.
                        However, it is our position that in the absence of written guidelines,
                        FSIS can not be assured that each country is given due process
                        and equal treatment.

                        According to FSIS' undated document on importing meat and
                        poultry, if a country does not continue to operate an inspection
                        system equivalent to the U.S. system, it is removed from the list
                        of countries eligible to export to the United States. Loss of
                        eligibility can also occur when FSIS is unable to get necessary
                        information about a country's inspection system. Another undated
                        document entitled, "Pathogen Reduction/HACCP Equivalence
4
    Title 9 CFR, Part 327.2, dated January 1, 1998.


Section III, Page 28                                              USDA/OIG-A/24099-3-Hy
             Determinations," states, "three circumstances could, however,
             result in trade suspension. One is where an emergency sanitary
             measure is not implemented to address a hazard that is so severe
             that no product can enter the marketplace from a foreign
             establishment until the control is in place. The second is where an
             exporting country does not provide satisfactory documentary
             evidence of an equivalent sanitary measure. The third is where a
             system audit reveals that an exporting country is not implementing
             a sanitary measure in the manner that FSIS initially determined to
             be equivalent."

             Based on our concerns over the equivalency determination
             process, the Equivalence and Planning Branch prepared a
             document which stated, in part, that, "in some cases, where a
             country failed to respond to requests for information, a draft cable
             was prepared which showed the country that FSIS would be
             forced to begin regulatory proceedings, in the form of an official
             action, to remove the country from the list of countries eligible to
             export to the United States." It also stated, "the process of
             initiating an official action against the importation of product from a
             particular country involves an extensive preparation and
             presentation of information to brief top executives within FSIS and
             USDA. Local Foreign Agricultural Service officials, agricultural
             attaches, U.S. Trade Representative officials, and the State
             Department are notified of the content of the cable or letter
             because of potentially serious U.S. trade considerations and
             political implications."

             During our review of files maintained for each country eligible to
             export meat and poultry products to the United States, we noted
             that one country was immediately suspended from participation in
             the import inspection program when violations were found, while
             others with apparently similar violations continued under
             equivalency status without any formal deadline for corrective
             action. We noted this particularly in the cases of Country A and
             Country B.

             Country A was suspended from participation in the import
             inspection program because it had not responded to FSIS' request
             for additional information for both SSOP implementation and
             E. coli testing. The Technical Service Center annual onsite
             equivalency reviews also revealed numerous deficiencies in the
             slaughter operations of three slaughter establishments in that
             country. These deficiencies included feces, hair, paint, dirt, and


USDA/OIG-A/24099-3-Hy                                         Section III, Page 29
                  other contaminants on the carcasses waiting to be deboned or
                  placed in coolers. A fourth establishment showed evidence of past
                  serious unsanitary conditions in its canning operation. None of the
                  four establishments implemented an E. coli testing program.

                  While the conditions in Country A plants may indeed merit
                  suspension, we noted that FSIS found several deficiencies in
                  Country B, but did not suspend that country.              An FSIS
                  Microbiology Division document review disclosed that Country B
                  was not complying with HACCP and pathogen reduction
                  requirements. The review noted that Country B was not taking an
                  appropriate sample size, did not use appropriate sampling
                  techniques, and did not implement a formal Salmonella
                  performance standard testing program. Like Country A, Country B
                  had submitted insufficient data on its implementation of SSOP and
                  E. coli testing, but in the case of Country B, FSIS continuously
                  asked for additional information without imposing a deadline for its
                  receipt. Those attempts continued for over a year while the
                  country continued to export products into the United States. On
                  one occasion, 7 months elapsed between the time FSIS requested
                  information (February 1997) and the time Country B responded
                  (September 1997). The data submitted was still incomplete.

                  FSIS and Country B reached an agreement that Country B would
                  modify its program in relation to test site and test area, and as a
                  result of this agreement, in November 1998, FSIS notified
                  Country B that its E. coli testing was compatible with legislative
                  requirements of equivalency.        However, in contrast to the
                  agreement, the onsite verification review conducted in March 1999
                  revealed numerous variances or deficiencies in Country B's testing
                  programs that did not support documentation previously submitted
                  to the Equivalence and Planning Branch. The onsite equivalency
                  review found inadequate monitoring of SSOP and HACCP
                  implementation, deviations or deficiencies in the Salmonella
                  testing programs and in carcass sampling techniques, and
                  imported meat products were not tested or included in the national
                  residue monitoring program.

             c.   Procedures Used for Approving Alternative Inspection Methods
                  Were Not Established

                  FSIS did not establish procedures for evaluating and documenting
                  the assessment of alternative food safety inspection methods.
                  Prior to 1995 when the United States implemented provisions of


Section III, Page 30                                       USDA/OIG-A/24099-3-Hy
             the GATT Treaty, including the Sanitary Phytosanitary Agreement,
             all countries, which exported meat and poultry to the United
             States, were required to have inspection systems equal to the U.S.
             system. Subsequent to GATT, Congress changed the inspection
             laws to accept alternative, but equivalent inspection standards and
             procedures.

             FSIS' process for evaluating different sanitary measures requires
             the exporting and importing countries to cooperate in a series of
             steps that meet mutual international obligations. The steps that
             countries choose depend on circumstances and trading
             experience between the two nations. Where sanitary measures
             differ, the food safety objective may need to be further explained
             by the importing country.

             We identified four countries (Country C, Country E, Country D, and
             Country B) that requested to use alternative E. coli testing
             methods. Initially, FSIS determined that the four countries'
             alternative E. coli testing methods were not equivalent.
             Consequently, Country C decided to implement the same method
             used in the United States; however, the other three countries
             continued to seek approval for their alternative methods. During
             our evaluation of FSIS' process for reviewing these alternative
             systems, we could not determine what procedures FSIS used to
             approve an alternative method. Without a procedure in place,
             there is reduced assurance that FSIS' evaluations of alternative
             methods will be consistent and in accordance with U.S. standards.

             An FSIS official in the Microbiology Division stated in a letter
             dated May 13, 1998, that during the review of Country D’s
             submission of its microbiological testing program, there was no
             policy [alternative methods] in place for E. coli testing. Therefore,
             the microbiologist prepared a list of differences between the
             microbiological testing program in Country D and the generic
             E. coli testing program outlined in the pathogen reduction/HACCP
             final rule.      On April 12, 2000, we were provided with
             documentation which outlined FSIS’ Proposal For Equivalency
             Study, dated January 11, 1999, and a March 7, 2000, letter from
             FSIS to Country D’s Chief Veterinary Officer concerning the
             equivalency of its Enterobacteriaceae testing program. However,
             these documents were not included as part of the country file
             during the time of our field work, and do not represent a policy for
             evaluating alternative methods for E. coli testing.



USDA/OIG-A/24099-3-Hy                                        Section III, Page 31
                 According to documentation provided to FSIS from Country E in
                 1997, Country E implemented the provisions of the final rule for
                 E. coli testing at cattle slaughter facilities but limited its program for
                 Salmonella testing on swine. It also used different sampling
                 techniques and analytical methods. In a May 22, 1997, cable,
                 FSIS asked Country E to provide scientific documentation that
                 demonstrated the equivalency of these alternative techniques.
                 Based on the onsite equivalency review, conducted between
                 November 14, 1997, and December 18, 1997, the audit report for
                 Country E, dated March 3, 1998, disclosed that sampling
                 procedures, randomization, and analytical methods did not
                 conform to U.S. requirements. In addition, pre-operational and
                 operational SSOP's and inspection controls were not effective in
                 most establishments reviewed.

                 A telefax from Country E to FSIS, dated March 27, 1998, included
                 the raw data on the results of a study comparing the U.S. sponge
                 technique for E. coli testing with Country E’s gauze-tampon
                 technique. We did not find documentation to show the analysis of
                 this information. On April 12, 2000, we were provided with a
                 written summary of an August 25, 1998, teleconference between
                 FSIS and Country E’s meat inspection officials to discuss
                 deficiencies found during the 1997 onsite audit, and to address
                 specific equivalence issues regarding Country E’s E. coli testing
                 program. The summary stated, in part, that International Policy
                 and Development (IDP) presented a draft cable that determined
                 Country E’s E. coli testing program to be equivalent, provided they
                 use statistical process control techniques to evaluate test results
                 when using a method of sample collection other than the excision
                 method. IDP asked the inspection officials to respond to the draft
                 conditional cable by early next week (i.e., by September 1, 1998).
                 In addition, the Country E officials agreed to address variances in
                 their E. coli contamination controls.

                 We were also provided with a copy of a September 3, 1998, letter
                 from FSIS to Country E’s Veterinary and Food Administration that
                 summarized prior discussions concerning deficiencies noted
                 during the 1997 audit, and corrective actions taken by Country E.
                 The letter included a statement that Country E officials agreed to
                 address variances in their E. coli testing program regarding
                 random sampling procedures, process control charting, and E. coli
                 contamination controls, and a suggestion to reconvene to confirm
                 upcoming corrective actions regarding issues not fully resolved.
                 However, we were not provided with documentation to support a


Section III, Page 32                                         USDA/OIG-A/24099-3-Hy
              subsequent meeting between FSIS and Country E officials to
              confirm corrective actions regarding issues not fully resolved.
              Also, a December 9, 1998, cable from FSIS to Country E stated
              that its E. coli testing program is "equivalent" based on its
              agreement to use statistical process control techniques to evaluate
              test results when using the gauze-tampon method of sample
              collection. However, we were unable to obtain documentation of
              information provided by Country E officials, and confirmation of
              agreements reached, or a subsequent analysis conducted by the
              Microbiology division to determine the equivalence of Country E’s
              gauze-tampon technique to the U.S. sponge technique for E. coli
              testing.

              Country B’s file contained correspondence between FSIS and
              Country B from December 1996 to February 1999 pertaining to
              Country B's alternative proposal for conducting E. coli testing. This
              alternative E. coli testing system was found "equivalent" by FSIS
              as documented in a November 12, 1998, cable to Country B.
              Even though we were provided with documents dated from
              October 1997 to June 1998 to support subject-matter experts’
              reviews of Country B’s submissions, the process for determining
              equivalency did not provide adequate documentation to conclude
              that Country B’s alternative E. coli testing system was equivalent.

              Detailed operational procedures are needed to ensure that
              equivalency determinations are made in accordance with
              regulations and that the critical areas in the five risk areas are
              addressed satisfactorily with respect to standards, activities,
              resources, and enforcement. During the course of our review, the
              Assistant Deputy Administrator, Office of Policy, Program
              Development and Evaluation, held meetings with the Equivalence
              and Planning Branch staff in order to conduct a comprehensive
              analysis of the documentation review process, along with a review
              of equivalency determinations previously rendered for specific
              countries. If this process continues, we view this as a positive
              step in improving the adequacy and accountability of the
              Equivalence and Planning Branch's equivalency determination
              process.

                                   With the help of technical subject-matter
 RECOMMENDATION NO. 10             experts,    develop    and    implement
                                   comprehensive guidelines as a means of
                                   ensuring propriety and consistency in
       decisions involving equivalency determinations.


USDA/OIG-A/24099-3-Hy                                         Section III, Page 33
             Agency Response

             FSIS agrees to develop comprehensive written guidelines for
             equivalence determinations by January 2001. FSIS had developed
             general guidelines to ensure that the foreign governments had
             addressed all the components of the PR/HACCP requirements.
             These guidelines were not the only documents used to review foreign
             country submissions.

             OIG Position

             We accept FSIS’ management decision.

                                 Develop written criteria and procedures
 RECOMMENDATION NO. 11           for suspending the eligibility of exporting
                                 countries that do not provide sufficient
                                 documentation to support their continuing
       compliance with U.S. equivalency standards or are found to be in
       noncompliance based on the results of an onsite equivalency review.

             Agency Response

             FSIS agrees with this recommendation. FSIS regulations, 9 CFR
             327.2, delineate criteria for both initially determining the eligibility of a
             foreign country to import products into the United States and for
             withdrawing a foreign country’s eligibility to import. FSIS will
             consolidate this requirement into formal procedures and guidelines by
             March 2001.

             OIG Position

             We accept FSIS’ management decision.

                                Develop written procedures which ensure
 RECOMMENDATION NO. 12          comprehensive evaluations of foreign
                                countries' alternative import inspection
                                methods, and require the analysis of
       these systems be documented, as well as the decisions reached.

             Agency Response

             FSIS agrees with this recommendation. Consolidated written
             procedures will be developed by March 2001 to document


Section III, Page 34                                         USDA/OIG-A/24099-3-Hy
           equivalence decisions regarding alternative import inspection
           methods. Effective July 1, 2000, new equivalence decision files will
           document: 1) All FSIS correspondence with foreign countries; 2) All
           foreign country submissions (translated and in the originating
           language); 3) Summary IPD reviews of submissions; 4) Summary of
           all meetings and teleconferences with foreign officials; 5) Summary
           of all reviews by subject-matter experts; 6) Documentation of
           equivalence criteria; 7) Summary of all FSIS management formal
           reviews and approvals; and 8) Decision memorandum of the
           equivalence determinations.

           OIG Position

           We accept FSIS’ management decision.




USDA/OIG-A/24099-3-Hy                                      Section III, Page 35
Section III, Page 36   USDA/OIG-A/24099-3-Hy
                 THE REINSPECTION PROCESS DID NOT ENSURE
                 THAT INELIGIBLE IMPORTERS WERE
 CHAPTER 2       PROPERLY IDENTIFIED AND THAT RECOGNIZED
                 PATHOGEN VIOLATIONS WERE RESPONDED TO
                 PROMPTLY

           FSIS did not adequately control its resources to ensure that foreign
           countries importing meat and poultry products to the United States
           were eligible to do so. Residue test plans and eligibility certifications
           for foreign establishments were not always obtained and analyzed;
           those that were obtained were not posted to the Automated Import
           Information System in a timely manner. The Automated Import
           Information System also did not timely reflect the results of laboratory
           analyses performed during reinspections. Under these conditions,
           FSIS could not ensure that information concerning foreign imports
           was accurate and was available to the appropriate officials for action
           in a timely manner. For example, 7 establishments from 4 foreign
           countries shipped 4,625,363 pounds of meat and poultry products and
           presented them for reinspection even though the establishments were
           delisted (i.e., removed from the list of approved importers). This
           included 625,582 pounds of frozen cooked beef from an
           establishment that was barred from sending products because of
           Listeria violations. Discrepancies in documentation and summary
           information provided by FSIS raises questions about the conclusion of
           FSIS officials that the shipments were certified by foreign
           governments before the establishments were delisted. Deficiencies in
           FSIS' certification and delistment activities occurred largely as a result
           of unclear or nonexistent procedures (see Finding No. 1). FSIS
           officials stated that foreign countries are not required to provide
           information about the dates that products are produced. Therefore,
           we were unable to determine if foreign establishments produced
           products that were presented for reinspection during their delistment
           period. Nothing came to our attention during this audit, however, to
           indicate that FSIS allowed unsafe product to enter the United States.

           Under FSIS' reinspection process, imported meat and poultry products
           from countries with equivalent status are allowed into the United
           States with sample testing at ports of entry. The test results are
           posted in the Automated Import Information System. In addition, the
           Automated Import Information System should include delistment
           information as a result of onsite equivalency reviews, as well as
           establishments certified/decertified by foreign countries as meeting
           U.S. inspection program standards.         These elements form a

USDA/OIG-A/24099-3-Hy                                          Section III, Page 37
                    compliance history and the basis for assigning future inspection levels
                    for products shipped to the United States from these establishments.

                    Foreign countries and establishments that have a history of
                    noncompliance are delisted.        The Office of Policy, Program
                    Development and Evaluation is primarily responsible for ensuring that
                    the foreign countries provide information about delistment and for
                    promptly forwarding that information to the Field Automation and
                    Information Management Division for timely updating of the
                    Automated Import Information System. The Automated Import
                    Information System is FSIS' primary means of ensuring that products
                    from delisted establishments are refused entry.

                                            FSIS has no clear process for entering
           FINDING NO. 5                    the results of laboratory tests into the
                                            Automated Import Information System.
     INCONSISTENT REPORTING OF              The Import Inspectors Manual (manual)
      LABORATORY RESULTS WAS                does not provide adequate guidance on
    INEFFICIENT AND POTENTIALLY             who   is responsible for entering the
            ERROR-PRONE                     information. In practice, the manner in
                                            which the results are processed and the
                                            persons responsible for processing those
              results vary with the type of test conducted. We also found that
              despite the importance of the laboratory results, neither the Technical
              Service Center nor the Field Automation and Information Management
              Division officials have established a supervisory review system for
              ensuring that the results are promptly and accurately entered into the
              Automated Import Information System. This lack of consistency could
              jeopardize the integrity of the Automated Import Information System
              data base and its ability to make appropriate reinspection
              assignments.

                    Regulations 5 state that the computerized Automated Import
                    Information System shall be consulted for reinspection instructions.
                    The Automated Import Information System will assign reinspection
                    levels and procedures based on established sampling plans and
                    established product and plant history.

                    When a shipment is ready to be reinspected by FSIS, the Automated
                    Import Information System will generate an inspection assignment
                    based solely on the compliance history of the establishment and the
                    foreign country for the specific product. The Automated Import
                    Information System records the results of the inspection, and can
5
    Title 9 CFR, Part 327.6 (a) (3), dated January 1, 1998.


Section III, Page 38                                            USDA/OIG-A/24099-3-Hy
           generate reports based upon the results.              The inspection
           assignments could include the following laboratory testing programs:
           residue, microbiological (Staphylococcal aureus enterotoxin,
           Salmonella, Escherichia coli, and Listeria), abnormal containers, food
           chemical, etc.

           Instructions for entering laboratory test results into the Automated
           Import Information System are outlined in the laboratory sampling
           section of the manual, dated September 30, 1998. We found that
           procedures outlined in the manual do not reflect what is actually
           occurring. For example, the manual indicates that import coordinators
           are responsible for entering the positive (failure) results of various
           microbiological tests. In reality, these results are entered by Technical
           Service Center staff officers, who explained that they assumed this
           responsibility after the manual was issued. They further explained that
           the manual had not been revised to reflect these procedural changes
           because of plans to convert the manual to an FSIS Directive.
           Although Technical Service Center officials claimed that the
           Automated Import Information System is promptly updated to record
           laboratory test results, copies of the failure notices are not maintained
           at the Technical Service Center to document the reasons for, and the
           timeliness of their actions. Furthermore, Technical Service Center
           management has not instituted a system for ensuring that Technical
           Service Center staff are timely and accurately entering the test results
           into the Automated Import Information System.

           The manual also states that the Field Automation and Information
           Management Division is responsible for entering both positive and
           negative residue test results into the Automated Import Information
           System. We learned that, in this case, the results take a circuitous
           route before they reach the Field Automation and Information
           Management Division. Positive results are conveyed to the Technical
           Service Center for referral to the Field Automation and Information
           Management Division and entry into the Automated Import Information
           System, while negative results are entered by the laboratories into the
           Microbiological and Residue Computer Information System. Because
           the Microbiological and Residue Computer Information System does
           not interface with the Automated Import Information System, the Field
           Automation and Information Management Division needs to download
           the results from the       Microbiological and Residue Computer
           Information System into the Automated Import Information System.
           The timeliness of processing both negative and positive results is
           critical. The Automated Import Information System should reflect the
           most current information because inspection assignments are being


USDA/OIG-A/24099-3-Hy                                          Section III, Page 39
             made for subsequent reinspections. Nevertheless, Field Automation
             and Information Management Division officials have not established a
             supervisory review system to ensure that all procedures are
             completed and that entries are made in a timely and accurate manner.

             We concluded that the current system with its numerous processes for
             entering the various types of laboratory results (such as
             microbiological and residue test results) into the Automated Import
             Information System is prone to error and should be streamlined.

             During our review, we learned that inspectors are responsible for
             selecting the appropriate samples and performing the tests assigned
             by the Automated Import Information System for products shipped
             from foreign establishments. The inspectors are also responsible for
             entering results for some test programs along with other types of data
             relating to the inspection process into the Automated Import
             Information System.       Circuit supervisors have the immediate
             supervisory responsibility for assuring that these tasks are performed
             in a correct and timely manner.

             We will visit inspection houses during the next audit phase to
             determine if the circuit supervisors and the inspectors are fulfilling
             these responsibilities.

                                         Streamline the process and establish
 RECOMMENDATION NO. 13                   procedures that would allow expeditious
                                         entry of laboratory test results into the
                                         Automated Import Information System.

             Agency Response

             FSIS agrees that additional documentation would assist in clarifying
             the current system to both Agency personnel as well as outside
             auditors. FSIS is reevaluating the current system as part of
             the redesign of the AIIS and will improve the documentation by
             December 2000 to outline the procedures for entering laboratory
             results into the AIIS system.

             As an interim measure, in March 2000, the Field Automation
             Information Management (FAIM) Division instituted non-automated
             procedures to streamline the entry of residue and microbial results.
             As of March, FAIM receives faxes from the TSC of laboratory
             Form 9770-2 for all positive residue results. The FAIM Division then
             documents directly on the laboratory form both the date it was


Section III, Page 40                                    USDA/OIG-A/24099-3-Hy
            received (via fax) and the date/time the lab results were entered into
            AIIS. Entries into the AIIS are made the same day they are received.
            Also, an internal verification process will be established to monitor the
            data being entered into the AIIS.

            Also, FSIS is working to replace the AIIS. The new system, eventually
            sharing Sybase SQL tables with the Microbiological and Residue
            Computer Information System (MARCIS) and other agency systems
            will ensure real time accuracy of both negative and positive results of
            residue tests and microbiological tests. The FAIM Division began
            work on the new AIIS application in March 2000, with a test pilot
            planned for the first quarter of 2001. We expect the system to be fully
            operational by December 2001.

            OIG Position

            We accept FSIS’ management decision.

                                      Require the Office of Field Operations to
 RECOMMENDATION NO. 14                work with the Technical Service Center
                                      and the Field Automation and Information
                                      Management      Division    to   develop
       management controls and a supervisory review process to ensure that
       all laboratory test results are promptly and accurately entered into the
       Automated Import Information System. Management controls must
       include requirements for maintaining records of when failure
       notifications are received and when the entries are made into the
       Automated Import Information System.

            Agency Response

            FSIS agrees with this recommedation. The FAIM Division is focusing
            on incorporating the required management controls in the
            replacement AIIS, which should be completed by December 2001.
            The new import computer system will document when laboratory
            failure results are received and incorporated into the system data
            tables. In the interim, FSIS has established a manual tracking
            process that documents when notification of failures is received and
            when the entries are made into the AIIS. Entries are made within
            24 hours of receipt of the positive laboratory results. Negative
            resultsare obtained via a weekly download from MARCIS and entered
            that same day into the AIIS.




USDA/OIG-A/24099-3-Hy                                           Section III, Page 41
                    FSIS believes that the management controls and supervisory review
                    process can be enhanced to ensure that all laboratory results are
                    promptly and accurately entered into the AIIS. Management controls
                    currently include requirements for maintaining records that indicate
                    when failure notifications are received, and when the entries are made
                    into the AIIS.

                    OIG Position

                    To reach management decision, FSIS needs to provide a target
                    completion date as to when the management controls and
                    supervisory review process will be documented in agency
                    procedures.


                                               Foreign governments are required to
             FINDING NO. 6                     certify annually that each of the
                                               establishments in their countries that
       FSIS DID NOT ENSURE THAT                export meat and poultry to the United
         ESTABLISHMENTS MET                    States continue to comply with the food
        ANNUAL CERTIFICATION                   safety systems under which they were
             REQUIREMENTS                      granted equivalent status. The FSIS
                                               Administrator may terminate the eligibility
                                               of any foreign establishment if a current
                certification of that establishment is not obtained 6. We found that
                FSIS management did not ensure that the annual certification
                requirement was fulfilled. Also, FSIS is not ensuring that certification
                information is posted in the Automated Import Information System so
                that inspection officials are aware of each establishment's status. We
                further found that, as of April 29, 1999, FSIS had not received the
                1999 annual certifications from establishments in 19 foreign countries
                which shipped about 2.3 billion pounds of product to the United States
                during 1999; or the 1998 annual certifications from establishments in
                4 foreign countries which accounted for 1.4 billion of the 3 billion
                pounds of product shipped to the United States during 1998. Allowing
                countries to delay their certifications reduces the control to prevent
                products from uncertified establishments from entering the United
                States. In addition, the Secretary's annual report to Congress,
                "Foreign Countries and Plants Certified to Export Meat and Poultry to
                the United States," may not be accurate. This report is to be
                submitted to the Committee on Agriculture of the House of
                Representatives and the Committee on Agriculture and Forestry of the
                Senate no later than March 1 of each year.

6
    Title 9 CFR, Part 327.2 (a) (3), dated January 1, 1998.


Section III, Page 42                                           USDA/OIG-A/24099-3-Hy
                    Regulations 7 state that only those establishments that are certified by
                    a responsible official of the foreign meat inspection system as fully
                    meeting U.S. requirements are eligible to have their products imported
                    into the United States. Certifications are to be renewed annually.

                    The Automated Import Information System must be annually updated
                    to reflect activity during the previous year that would affect current
                    inspection assignments. We were advised that FSIS assigned
                    January 1 of each year as the due date for foreign certifications.
                    However, documentation to affirm this date could not be provided. At
                    the beginning of 1998 and 1999, the foreign governments should have
                    provided FSIS with comprehensive lists of establishments certified to
                    ship meat and poultry products to the United States for those years.
                    According to functional statements, the Assistant Deputy Administrator
                    for International and Domestic Policy, through the Equivalence and
                    Planning Branch, is responsible for reviewing certification information
                    and forwarding it to the Field Automation and Information
                    Management Division for entry into the Automated Import Information
                    System. The Equivalence and Planning Branch is also responsible for
                    making delistment decisions and forwarding this information for entry
                    into the Automated Import Information System. We found that the
                    January 1 deadline became merely a target date that few countries
                    observed. The annual certifications were sent to FSIS at any time
                    during the year, and were not necessarily addressed to the same
                    FSIS official each time.

                    Reporting methods were inconsistent because FSIS had not
                    established procedures to ensure that critical information, including
                    the certification and delistment of foreign establishments, was
                    distributed to the appropriate staff members and promptly posted in
                    the Automated Import Information System. Staff members within the
                    Equivalence and Planning Branch and the Field Automation and
                    Information Management Division were unclear regarding the proper
                    processing of the certifications. We were told that lapses began
                    occurring after the reorganization, when related functions were
                    parceled out to separate entities within FSIS and older procedures
                    were abandoned.

                    We reviewed the Field Automation and Information Management
                    Division's lists of annual certification information. The "Annual
                    Certification of Plants for 1998" report shows that as of April 29, 1999,
                    4 of the 36 foreign countries (eligible to ship meat and poultry products
                    to the United States) had not submitted their comprehensive annual
7
    Title 9 CFR, Part 327.2 (a) (3), dated January 1, 1998.


USDA/OIG-A/24099-3-Hy                                                   Section III, Page 43
             certification listings that had been due in January 1998. According to
             the Field Automation and Information Management Division officials,
             the status of a foreign country or establishment in the Automated
             Import Information System cannot be changed without first receiving
             authorization from the Equivalence and Planning Branch. The Field
             Automation and Information Management Division raised concerns
             that it could not update the Automated Import Information System or
             the Secretary's report to Congress because the comprehensive
             annual certification information was not provided. An Equivalence and
             Planning Branch official contacted the Field Automation and
             Information Management Division and confirmed that four countries
             had not provided 1998 certifications, but advised the Field Automation
             and Information Management Division to "go with the same
             establishments" certified for 1997. These four countries exported
             1.4 billion pounds of meat and poultry products to the United States
             during 1998.

             The Field Automation and Information Management Division's "Annual
             Certification of Plants for 1999" shows that as of April 29, 1999, only
             17 of the 36 foreign countries submitted their comprehensive annual
             certification lists for 1999. The Automated Import Information System
             also continued to show that hundreds of foreign establishments from
             the 19 remaining countries remained eligible to ship products to the
             United States even though they had not been certified for 1999.

             FSIS officials stated that a country’s certification of its establishments
             never expires unless the nation removes itself from trade or unless
             the United States chooses to do so as a safety measure. FSIS
             requires that a foreign meat inspection certificate accompany each
             consignment. Each certificate, for each shipment, indicates that the
             exporting plant is certified by the foreign meat inspection system,
             and that the product complies with FSIS requirements. FSIS officials
             stated that the annual certification requirement is an “unnecessary
             redundancy.”

             Regulations currently require an annual certification of its
             establishments by the foreign meat inspection authority, as well as
             inspection certificates to accompany each shipment. OIG views these
             requirements as compensating controls since prior audits and
             investigations have identified weaknesses in controls over inspection
             certificates (both foreign and domestic) and concerns regarding their
             validity.




Section III, Page 44                                       USDA/OIG-A/24099-3-Hy
                                   Officially notify all countries importing
 RECOMMENDATION NO. 15             meat and poultry into the United States
                                   that annual certifications are due no later
                                   than the established date and that
       establishments that are not certified by this date may be delisted.
       Incorporate this requirement in regulations.

            Agency Response

            FSIS agrees that meat and poultry products exported to the United
            States must be produced in properly certified foreign establishments.
            To ensure that this occurs, the FAIM Division has established a web
            site with search capabilities that allows import inspectors to obtain the
            status (certification, delistment, relistment) of foreign establishments.

            FSIS agrees to continue to notify all countries that certifications of
            establishments must be renewed annually, and if establishments are
            not certified annually they may be delisted. However, FSIS does not
            agree with the OIG’s assertion that allowing countries to delay their
            certifications “reduces the control to prevent products from uncertified
            establishments from entering the United States”.

            Annual certification lists are often obsolete soon after they arrive
            because importing countries add and delete certified establishments
            throughout the year. Furthermore, an additional method exists to
            verify that the imported product was produced in an establishment
            certified for export to the United States. This method is set forth in
            9 CFR 327.4, “Imported products, foreign certificates required.” A
            foreign meat inspection certificate must accompany each consignment
            of fresh meat, fresh meat byproducts, or meat food products. All such
            consignments (or lots) offered for entry into the United States from any
            foreign country must be reinspected by an FSIS import inspector
            before they are allowed into this country. An authorized foreign
            government official signs the certification accompanying each lot.

            FSIS believes that these certificates provide ample evidence that the
            product they accompany was produced in a foreign-certified
            establishment. By September 2001, FSIS will publish a proposed
            revision of Part 327, Imported Products, to eliminate the annual
            certification requirement.




USDA/OIG-A/24099-3-Hy                                           Section III, Page 45
             OIG Position

             We agree with FSIS’ response to notify all countries that certifications
             of establishments must be renewed annually, and if establishments
             are not certified annually, they may be delisted. However, we
             disagree that FSIS should eliminate their compensating control of
             requiring annual certifications from a responsible official of the foreign
             inspection systems. To reach management decision, FSIS needs to
             provide a target date as to when countries will be notified of the
             annual certification requirement. Also, if the annual certification
             requirement is discontinued, FSIS needs to develop compensating
             controls to ensure the validity of the foreign inspection certificate
             accompanying each shipment of product to the United States.

                                          Establish a followup process to obtain the
 RECOMMENDATION NO. 16                    annual certification lists from the countries
                                          which have not submitted them.

             Agency Response

             FSIS has established a follow-up process to obtain annual certification
             lists from countries that have not submitted them. This process is
             subject to change after the proposed revisions (see response to
             Recommendation 15) in Part 327 are implemented.

             Annual certification lists are sent from foreign countries to the IPD. In
             July 1999, effective for calendar year 2000, the FAIM Division
             established a procedure to notify IPD of every country for which FAIM
             has not received an annual certification of establishments. Starting in
             February 2000, and continuing on a monthly basis, the FAIM Division
             has notified the IPD of outstanding certification lists.

             OIG Position

             To reach management decision, FSIS needs to provide a target date
             for developing a follow-up process to include actions to be taken by
             the IPD when notified of outstanding certification lists.

                              Immediately conduct a reconciliation
 RECOMMENDATION NO. 17        between     establishment certification
                              information    maintained  by       the
                              Equivalence and Planning Branch and
       the Automated Import Information System to ensure that the
       Automated Import Information System includes only those


Section III, Page 46                                       USDA/OIG-A/24099-3-Hy
           establishments certified by their foreign governments to ship products
           to the United States.

           Agency Response

           FSIS agrees with the recommendation. Following the onsite portion of
           the OIG audit, the FAIM Division established a program of quarterly
           crosschecks of foreign government certification documents against
           the establishment listings contained in the AIIS. In addition, effective
           April 1999, the FAIM Division began sending to the IPD a weekly
           report listing all certified and decertified establishments maintained in
           the AIIS. IDP will begin reconciliation of the FAIM reported data and
           their internal records by December 2000.

           OIG Position

           We accept FSIS’ management decision.

                                        Establish time requirements and a
 RECOMMENDATION NO. 18                  management     control process      for
                                        reviewing and processing certification
                                        information in the Automated Import
           Information System.

           Agency Response

           FSIS agrees with this recommendation. The FAIM Division maintains
           an internal AIIS Import Manual of procedures document that will be
           updated by December 2000, to address time requirements and
           management control processes.        Supervisory oversight will be
           established whereby all changes to the AIIS status of establishments
           will be forwarded to the Branch Chief of the FAIM Applications
           Systems Development Branch for review.


           OIG Position

           We accept FSIS’ management decision.




USDA/OIG-A/24099-3-Hy                                         Section III, Page 47
                                         Neither the Office of Policy, Program
         FINDING NO. 7                   Development and Evaluation nor the
                                         Office of Field Operations had formulated
    FSIS DID NOT ESTABLISH A             supervisory review procedures to ensure
     SYSTEM FOR TRACKING                 that all delistment, relistment, and related
          DELISTMENTS                    information was processed for accurate
                                         and timely entry into the Automated
                                         Import Information System. Technical
            Service Center officials were not timely informing the Office of Policy,
            Program Development and Evaluation about foreign establishments
            that were delisted prior to, or because of, their onsite reviews.
            Furthermore, after the reorganization, FSIS abandoned a system for
            tracking delistments and did not replace it. We found that in the
            absence of a tracking system, establishment delistments were not
            timely entered in the Automated Import Information System. As a
            result, these delisted establishments incorrectly remained eligible to
            present meat and poultry products for entry to the United States. We
            found seven establishments from four countries shipped about
            4.6 million pounds of meat and poultry products and presented them
            for reinspection even though the establishments were delisted. Based
            on documentation provided by FSIS, we were unable to determine
            whether product was produced prior to the delistment period. Nothing
            came to our attention during this audit, however, to indicate that FSIS
            allowed unsafe product to enter the United States.

             During our review of the Technical Service Center equivalency review
             (audit) reports, we noted that delistment information resulting from
             these reviews was not being timely provided to the Field Automation
             and Information Management Division for entry into the Automated
             Import Information System. In one case, the Technical Service Center
             reviewers learned that a foreign establishment had been slaughtering
             more than one species of animal in the same slaughterhouse and
             delisted the slaughterhouse in October 1998. However, the Field
             Automation and Information Management Division was not informed
             of this fact. As of May 4, 1999, the establishment remained certified in
             the Automated Import Information System even though the foreign
             country's February 25, 1999, annual certification list to the
             Equivalence and Planning Branch excluded the establishment. As of
             May 6, 1999, no product from this establishment had been presented
             for reinspection at U.S. ports.

             In another case, the Technical Service Center reviewers learned that
             a foreign government delisted an establishment prior to their
             March 1999 onsite review. As of May 4, 1999, the Field Automation


Section III, Page 48                                      USDA/OIG-A/24099-3-Hy
           and Information Management Division had not been informed about
           the delistment so the Automated Import Information System was not
           updated to reflect the establishment's delisted status.

           This lack of internal controls raises questions about the integrity of the
           data in the Automated Import Information System. For example, on
           December 29, 1998, the Office of Policy, Program Development and
           Evaluation received notifications from a foreign country’s Bureau of
           Animal Industry to withdraw approval (delist) two establishments in
           their country. However, the Office of Policy, Program Development
           and Evaluation did not provide this information to the Field Automation
           and Information Management Division for input to the Automated
           Import Information System until February 8, 1999. According to
           handwritten notes on the notification maintained by the Field
           Automation and Information Management Division, the delistment was
           entered into the Automated Import Information System on the day that
           it was received, February 8, 1999. However, an Automated Import
           Information System report dated April 28, 1999, shows that the
           establishments were not delisted. From January 25, 1999 to
           February 23, 1999, 355,104 pounds of meat products were presented
           for reinspection from these two foreign establishments.              Field
           Automation and Information Management Division personnel could
           not explain why the two establishments had not been delisted in the
           Automated Import Information System. However, because of our
           inquiries about the situation, the Automated Import Information
           System files for these two establishments were opened and these
           establishments were delisted. Field Automation and Information
           Management Division personnel made this adjustment without
           approval by a management official.

           We reviewed delistment information for 19 establishments from
           8 foreign countries. We compared this information to an Automated
           Import Information System printout of delisted establishments dated
           May 6, 1999, and to an Automated Import Information System printout
           of products presented for FSIS reinspection during the time these
           establishments should have been delisted. We found that in no
           instance was the information promptly provided to the Field
           Automation and Information Management Division to update the
           Automated Import Information System with the delistment status of the
           establishments. For example, the printout dated May 6, 1999,
           indicated that three establishments remained eligible to ship products
           to the United States even though one of the establishments was
           officially delisted in February 1999 and the other two in April 1999.



USDA/OIG-A/24099-3-Hy                                          Section III, Page 49
             Most importantly, seven establishments from four countries shipped
             over 4.6 million pounds of meat and poultry products and presented
             them for reinspection even though the establishments were delisted.
             This included:

             §   625,582 pounds of frozen cooked beef from one establishment
                 that was delisted because Listeria was found in previous
                 shipments of its frozen cooked beef;

             §   over 1 million pounds of meat products from an establishment that
                 shipped 20 shipments over a 5-month period after its delistment
                 date (December 24, 1998). [Note: we were able to determine that
                 two of the shipments, representing about 95,000 pounds of meat
                 products, were produced prior to the delistment date and were
                 eligible for FSIS reinspection; however, because FSIS maintains
                 limited information, we could not verify other shipments]; and

             §   664,272 pounds of beef by a delisted establishment that had been
                 cited for sanitation problems, Listeria violations, and the presence
                 of metal fragments in previous shipments of its beef products.
                 [Note: the limited information being maintained by FSIS shows that
                 55,409 pounds were produced prior to the establishment's
                 delistment and were eligible for FSIS reinspection.]

             FSIS officials provided documentation to support their conclusion that
             although the establishments were delisted, 4.9 million pounds of their
             products were eligible for FSIS reinspection because the shipments
             were certified by their foreign governments prior to the establishments’
             delistment periods. However, during our review of the documentation
             provided by FSIS, we found discrepancies significant enough to raise
             questions about the conclusion reached by FSIS officials. For
             example:

             §   the 4.9 million pounds reported by FSIS erroneously included
                 shipments that were presented for FSIS reinspection prior to the
                 delistment period and improperly included categories of products
                 that were eligible for shipment to the United States. (Note: The
                 4.6 million pounds reported by OIG included only those products
                 presented for FSIS reinspection while the foreign establishments
                 should have been delisted).

             §   shipments reported by FSIS as being sent to the United States
                 prior to the delistment period actually were sent during the
                 delistment period.


Section III, Page 50                                      USDA/OIG-A/24099-3-Hy
           §   at least 20 of the documents provided by FSIS could not be
               matched with specific shipment information, thus limiting our ability
               to verify the FSIS documentation and summary information.

           §   FSIS used incorrect beginning delistment dates for three
               establishments.

           §   FSIS did not have documentation for at least 16 shipments and did
               not indicate what action will be taken to determine if the shipments
               were certified by the foreign governments prior to the time that the
               products were presented for FSIS reinspection.

           According to FSIS, if the documentation has a date which coincides
           with the delistment period, the FSIS inspectors should have contacted
           FSIS headquarters or their respective district offices to verify eligibility
           of the shipments. The verification process should have also included
           contacting the foreign governments for clarification as to when the
           shipments were produced. However, FSIS noted in a summary of the
           documentation provided to OIG during April 2000, that the foreign
           governments will now be contacted to verify when these shipments
           were produced. Most of the products were shipped to the United
           States from December 1998 to June 1999. Thus, the verification is
           not occurring until 10 to 16 months have lapsed since these products
           were presented for FSIS reinspection. During our review of the
           documentation, we noted that at least 25 of these shipments had
           already been stamped “U.S. Inspected & Passed.”

           In March 1999, an official in FSIS' International Policy Division began
           noticing that delistments were not being adequately tracked. The
           official learned that a foreign establishment had not been delisted
           despite deficiencies in its slaughter operations and post mortem
           inspections, and despite failures in E. coli and Salmonella tests of its
           products. These deficiencies were noted by Technical Service Center
           staff during an onsite review of the establishment, but they were not
           communicated to the Equivalence and Planning Branch until about a
           month later. The Equivalence and Planning Branch waited another
           week before informing the Field Automation and Information
           Management Division of the deficiencies and requesting that the
           establishment be delisted in the Automated Import Information
           System.

           Even after FSIS management became aware of the delays in the flow
           of delistment information, corrective action was not initiated until


USDA/OIG-A/24099-3-Hy                                            Section III, Page 51
             2 months later, when we began reviewing the process. During our
             audit, the Equivalence and Planning Branch Chief instructed a
             management assistant to develop written procedures outlining how
             certification documentation should flow to the Field Automation and
             Information Management Division for entry into the Automated Import
             Information System, with weekly verifications between the Field
             Automation and Information Management Division and the
             Equivalence and Planning Branch. Such a procedure, however, does
             not seem to be efficient because the Automated Import Information
             System is incapable of printing a summary report of entries for a
             particular period. The Field Automation and Information Management
             Division program analyst informed us that they must download data
             about each separate establishment to present proof that the entries
             were made.

             Field Automation and Information Management Division officials
             informed us that a document control numbering system existed prior
             to FSIS' reorganization. A control number log system was used to
             record and track all critical documents, particularly those relevant to
             the eligibility of a country or foreign establishment. Under this system,
             the Equivalence and Planning Branch would prepare a letter
             transmitting certification and delistment documents bearing the control
             number. After the Field Automation and Information Management
             Division received the information and made the entries into the
             Automated Import Information System, the transmittal letter would be
             signed by a Field Automation and Information Management Division
             official and a copy would be returned to the Equivalence and Planning
             Branch as evidence that the Automated Import Information System
             was updated. The Field Automation and Information Management
             Division staff suggested that the Equivalence and Planning Branch
             reinstate the document numbering system abandoned during
             reorganization.

             We concluded that FSIS management needs to become more actively
             involved in maintaining the integrity of certification and delistment
             information in the Automated Import Information System. Specifically,
             the Office of Policy, Program Development and Evaluation needs to
             establish procedures for sending certification and delistment
             information to the Field Automation and Information Management
             Division and monitor those procedures to ensure compliance.

                                          Take immediate action to ensure that the
 RECOMMENDATION NO. 19                    Technical Service Center, the Field
                                          Automation and Information Management


Section III, Page 52                                      USDA/OIG-A/24099-3-Hy
           Division, and the Equivalence and Planning Branch coordinate efforts
           to verify that all delisted establishments have been timely entered into
           the Automated Import Information System.

           Agency Response

           FSIS agrees with this recommendation. FSIS will improve its system
           to verify that all delisted establishments are timely and properly
           entered into the AIIS. FSIS will establish, by October 1, 2000, a team
           comprised of OFO and OPPDE personnel, responsible for examining
           every aspect of the issue of ensuring that only product from approved
           and eligible establishments gains entry into the United States.

           In FY 2000, the FAIM Division expanded its Intranet Web Site with a
           posting of all delisted foreign establishments. This information is
           available to the TSC, IPD, and all field inspectors. The web site is
           updated when FAIM receives information from the IPD.

           OIG Position

           To reach management decision, FSIS needs to provide a target date
           for completing its review.

                                  Establish a management control process
 RECOMMENDATION NO. 20            to ensure that the Technical Service
                                  Center Director promptly forwards to the
                                  Office of Policy, Program Development
       and Evaluation information about foreign establishments that were
       delisted prior to, or because of, Technical Service Center foreign
       reviews.

           Agency Response

           FSIS has established a management control process to address this
           recommendation.        Information      regarding    foreign    country
           establishments that are delisted prior to TSC reviews is received
           either by fax or electronic mail from the foreign country government or
           through the Foreign Agricultural Service. This information is shared
           by all of the stakeholders, and discussed at the pre-audit conference
           held between the TSC and the IPD.

           Foreign country establishments are also delisted based upon results
           of onsite reviews by the TSC reviewers. Reviewers are instructed to
           report this information, by phone, to the Review Staff Director or Chief


USDA/OIG-A/24099-3-Hy                                         Section III, Page 53
             of the International Review Branch as soon as possible, but no later
             than the day following the onsite review. This information is detailed
             in an electronic mail message that is sent immediately to the Chief of
             the Equivalency and Planning Branch, IPD and also to the Director of
             the Import/Export, Program Analysis, IRM Staff at the TSC. A paper
             copy of the electronic mail message is placed in the foreign country
             file at the TSC.

             Both types of delistments are discussed at the post-audit exit
             conference held between the TSC and the IPD. The reviewer
             discusses the reasons given by the foreign country officials for
             delistment of any establishments prior to the review, and also
             discusses, in-depth, the reasons for any establishment delistment
             based upon the onsite review.

             OIG Position

             We accept FSIS’ management decision.

                                    Establish a management control process
 RECOMMENDATION NO. 21              to ensure that delistment information is
                                    (a) reviewed and signed by a designated
                                    official to the Field Automation and
       Information Management Division, via a dated control number, and (b)
       processed and verified in the Automated Import Information System.

             Agency Response

             Pursuant to this report, the FAIM Division implemented in May 2000, a
             management control process whereby the Branch Chief, Application
             Development and Support Branch, FAIM Division will be notified via
             e-mail of all incoming delistments received from IPD. Notification will
             include the date delistments are received, the date the information
             was entered into the AIIS, and a printout of all establishments as they
             appear in the AIIS. This procedure will be complete by October 2000.

             OIG Position

             We accept FSIS’ management decision.

                                         Modify the Automated Import Information
 RECOMMENDATION NO. 22                   System to produce daily process control
                                         reports to enable verification of input.



Section III, Page 54                                     USDA/OIG-A/24099-3-Hy
            Agency Response

            FSIS agrees with this recommendation. The FAIM Division has begun
            replacing the AIIS that was first deployed in the 1970s. Available
            resources will be better used in continuing development of the
            replacement AIIS, rather than making the recommended changes to
            the current AIIS.        The new system will incorporate this
            recommendation in its design. The intent of this recommendation will
            be met when the new computer system is completed by December
            2001.

            OIG Position

            We accept FSIS’ management decision.

                                        We found that for 1998, 33 of 36
       FINDING NO. 8                    countries that were certified to ship meat
                                        and poultry products to the United States
  RESIDUE TEST PLANS WERE               submitted residue test plans. However,
     NOT REVIEWED FOR                   13 of 36 countries did not submit the
      COMPLIANCE WITH                   corresponding test plan results to FSIS.
       U.S. STANDARDS                   Also, as of April 29, 1999, 15 of the
                                        36 certified countries did not submit
                                        their 1999 test plans. We could find no
          evidence that FSIS followed up with countries to obtain either their
          residue plans or test plan results. The residue test plans received
          were not reviewed by the Equivalence and Planning Branch, and the
          test results were not provided to the Technical Service Center for
          verification and followup during onsite reviews. Also, notes of entrance
          conference discussions between the Equivalence and Planning
          Branch and Technical Service Center staffs for 7 of the 12 foreign
          inspection system reviews conducted during the first 3 months of 1999
          showed that residue test plans were discussed for only 2 of the
          7 countries.

            Foreign countries that ship products to the United States are required
            to have residue control standards equivalent to those of the United
            States. These standards include (a) random sampling of animals
            at slaughter, (b) approved testing methods, (c) testing of appropriate
            target tissues, and (d) testing for compounds identified as potential
            contaminants of meat exported to the United States.

            Each foreign country is required to submit annually a residue test plan,
            which identifies the drugs and chemical residues that will be its


USDA/OIG-A/24099-3-Hy                                          Section III, Page 55
                     monitoring focus during the year. Foreign countries are also required
                     to provide the results of tests performed during the previous year.
                     FSIS should be using this information to monitor how well the
                     countries and their establishments are adhering to their residue test
                     plans. Furthermore, the Technical Service Center's foreign review
                     staff should be using residue test plans and results as they prepare for
                     their foreign onsite equivalency reviews.

                     Regulations 8 state that the foreign inspection system must maintain a
                     program to ensure that equivalency requirements are being met. The
                     program as implemented must provide for "random sampling of
                     internal organs and fat of carcasses at the point of slaughter and the
                     testing of such organs and fat, for such residues having been
                     identified by the exporting country's meat inspection authorities or by
                     [FSIS] as potential contaminants, in accordance with sampling and
                     analytical techniques approved by the Administrator."

                     Although a number of countries submitted residue test plans and
                     results, nothing much was done with the information, according to one
                     FSIS official, because it was not made part of a data base. The
                     official added that comparisons were not made to determine if the
                     countries actually performed the tests outlined in their plans for the
                     previous year. In this regard, we also noted that two of the 1998
                     residue test plans and one of the residue test plan results submitted
                     by three foreign countries had not yet been translated into the English
                     language for review by FSIS officials.

                     On May 7, 1999, the Office of Policy, Program Development and
                     Evaluation sent a questionnaire to the foreign countries to update
                     residue information originally provided during their pre-HACCP initial
                     eligibility determinations. An official advised that because this
                     questionnaire is comprehensive, the countries are still preparing their
                     responses.

                                                           Establish procedures to ensure that all
     RECOMMENDATION NO. 23                                 residue documents submitted by foreign
                                                           countries are received, reviewed, and
                                                           analyzed based on requirements outlined
                     in regulations.

                     Agency Response

                     See Recommendation No. 25.
8
    Title 9 CFR, Part 327.2 (a) (2) (iv), dated January 1, 1998.


Section III, Page 56                                                     USDA/OIG-A/24099-3-Hy
           OIG Position

           We accept FSIS’ management decision.


                                       Obtain the residue test plans not
 RECOMMENDATION NO. 24                 submitted since 1998 to determine if the
                                       foreign countries have residue control
                                       standards equivalent to the United States.

           Agency Response

           See Recommendation No. 25.


           OIG Position

           We accept FSIS’ management decision.


                                       Obtain and analyze the residue test plan
 RECOMMENDATION NO. 25                 results not submitted since 1998 to
                                       determine the adequacy of foreign
                                       countries' adherence to their residue test
           plans.

           Agency Response to Recommendation Nos. 23, 24 and 25

           FSIS agrees with the recommendations. FSIS agrees that it needs to
           strengthen its review of foreign country test plans. An interagency
           team was created on June 1, 2000, and expects to complete its initial
           review by December 2000. The team is responsible for the receipt,
           review, and analysis of all foreign country residue submissions. The
           team is comprised of representatives of OPPDE, OFO, and OPHS.
           The team will review the submissions based on U.S. regulations to
           determine if the information is adequate, if the documents indicate the
           countries meet U.S. requirements, and if additional information is
           needed.

           The test plans and results are only a part of the basis for assessing a
           foreign country’s residue program. FSIS onsite audits include reviews
           of the country’s laboratory testing capability and FSIS annually
           collects more than 8,000 statistically selected samples at the port of


USDA/OIG-A/24099-3-Hy                                        Section III, Page 57
             entry for laboratory analysis. Consequently, FSIS questions the need
             for collecting past residue plans and results because much more
             comprehensive information has been requested from every country
             through a lengthy questionnaire, which negates the value of the earlier
             submissions.

             Responses to the questionnaire will provide this information along with
             other information such as production practices, veterinary drug usage,
             agricultural chemicals and incidence of environmental contaminants
             and pesticides, basis for the residue plan, and actual implementation
             and operation of the program. By December 2000, FSIS will have a
             more complete and current assessment of the country’s controls. If,
             upon reviewing the responses, FSIS determines that required
             information is missing, it will be requested from the country. FSIS
             believes that focusing on in-depth reviews is a more productive use of
             its resources.

             OIG Position

             We accept FSIS’ management decision.

                                     Develop procedures to ensure that (a) a
 RECOMMENDATION NO. 26               review of residues identified by the
                                     exporting country's meat inspection
                                     authorities or by FSIS as potential
       contaminants are included as part of the Technical Service Center
       onsite equivalency reviews, and (b) appropriate action is taken in
       those instances where the plans are inadequate, the results vary from
       the plans, or violations are detected.

             Agency Response

             The IPD will provide the Director of the Review Staff at the TSC with
             a summary of the information in residue questionnaires submitted by
             countries eligible to export to the United States. The Review Staff will
             be part of the team that will review the submissions. The Review Staff
             and the IPD will use this information, along with port-of-entry results
             and information from past audits, to plan upcoming reviews.

             This year, FSIS is initiating in-depth reviews of residue programs in a
             number of countries exporting to the United States. These reviews
             will make a comprehensive evaluation of the effectiveness of the
             country’s controls over drugs and chemicals that could contaminate
             meat and poultry. This will include a review of documents, an
             assessment of whether the country is testing for the appropriate

Section III, Page 58                                      USDA/OIG-A/24099-3-Hy
           compounds, whether the plan is implemented as designed, laboratory
           capability, and enforcement. The reviews are expected to be
           completed by June 2001.

           OIG Position

           Management decision can be reached when FSIS provides a targeted
           completion date for developing, documenting, and implementing
           residue review procedures.




USDA/OIG-A/24099-3-Hy                                     Section III, Page 59
Section III, Page 60   USDA/OIG-A/24099-3-Hy
                             FSIS DOCUMENTATION OF APPROVED FOREIGN
    CHAPTER 3                FOOD SAFETY SYSTEMS NEEDS TO BE
                             ENHANCED

                    FSIS cannot demonstrate compliance with regulatory requirements for
                    determining foreign countries as having equivalent inspection systems
                    and, thus, eligible to export meat and poultry products to the United
                    States. The involvement of technical subject-matter experts in the
                    process for determining equivalency was not always documented and
                    process control procedures were not developed and/or adequately
                    documented. In some cases, FSIS' timeframes within which to make
                    equivalency determinations were inconsistent; in other cases, FSIS
                    did not meet the timeframes it established.

                    We also found that FSIS' documentation reviews and foreign
                    equivalency review (audit) reports did not always provide a sound
                    basis for equivalency determinations.

                    §    The Equivalence and Planning Branch's analysis of foreign
                         countries' import inspection systems was poorly documented,
                         offering inadequate support that the Equivalence and Planning
                         Branch reviewed all of the information submitted by foreign
                         countries for equivalency determinations.

                    §    Data needed to track equivalency determinations was incomplete.

                    §    FSIS reports for equivalency verification audits did not contain
                         evidence that all equivalency requirements had been fully
                         addressed. FSIS analysts made equivalency decisions in cases
                         where audit reports provided insufficient details of the tests made,
                         and where onsite equivalency verification audits had not been
                         conducted.

                    Regulations 9 require that the determination of the acceptability of
                    foreign countries to import meat and poultry products to the United
                    States include an evaluation that the foreign country inspection
                    program is equivalent to U.S. standards. To be equivalent, the
                    inspection system must require (1) a process similar to HACCP,
                    (2) mandatory E. coli testing, (3) pathogen reduction standards for
                    Salmonella and other pathogens, and (4) operating procedures for
                    sanitation, referred to as SSOP. The foreign inspection system must

9
    Title 9 CFR, Part 327 (a) (2), dated January 1, 1998.


USDA/OIG-A/24099-3-Hy                                                   Section III, Page 61
                     have a program that is adequately staffed by qualified inspectors, that
                     is controlled by the national government, and that is provided with
                     adequate administrative and technical support. It also needs to
                     demonstrate that it maintains a program of inspection, sanitation and
                     quality species verification. 10

                                           Contrary to documents provided by FSIS
           FINDING NO. 9                   to support their equivalency determination
                                           process, technical experts are not always
             TECHNICAL                     made a part of determining whether a
          SUBJECT-MATTER                   country's food safety regulatory system is
      EXPERTS DID NOT ALWAYS               equivalent to the U.S. system. Also, when
     PARTICIPATE IN EQUIVALENCY            they were involved, their participation was
          DETERMINATIONS                   not always adequately documented (see
                                           Finding No. 10). According to FSIS
                                           officials, all equivalence determinations,
              where a country proposes to adopt alternative sanitary measures, are
              made after review and consultation with agency subject-matter
              experts. If the foreign country adopted the identical E. coli testing
              approach, there was no need for the Microbiology Division to review
              those documents. However, we believe FSIS’ equivalence
              determinations could be subject to adverse publicity if evidence does
              not exist that appropriate technical experts participated in the review
              and approval process for all determinations that foreign country
              inspection systems are equivalent to U.S. standards.

                     The determination of whether a foreign country's import inspection
                     system is equivalent to U.S. standards involves the review of highly
                     technical documentation. According to an FSIS paper entitled, "FSIS
                     Process for Evaluating the Equivalence of Foreign Meat and Poultry
                     Food Regulatory Systems," dated March 1999, FSIS developed a
                     process to conduct equivalence evaluations of foreign food regulatory
                     systems or of individual sanitary measures that vary from U.S.
                     requirements.     These evaluations employ evolving international
                     concepts of the linkage between a sanitary measure designed to
                     protect life or health, and the appropriate level of protection it is
                     intended to achieve. Stressing the degree to which sanitary measures
                     require a technical knowledge of food hazard controls, FSIS
                     procedures state that "FSIS experts [should] review the country's
                     program to assure that approved analytical methods are used, that
                     foreign officials are knowledgeable about the use of chemical
                     compounds in their country, and that the country tests for those
                     compounds with potential for getting into the U.S. food supply."
10
     Title 9 CFR, Part 327.2 (a) (2) (i), dated January 1, 1998.


Section III, Page 62                                               USDA/OIG-A/24099-3-Hy
           FSIS provided us various documents which purportedly documented
           their procedures for determining equivalency. An undated paper
           entitled "Importing Meat and Poultry to the United States," states, that
           for initial equivalence determinations, "FSIS technical experts evaluate
           information to assure that critical areas in the five risk areas
           (contamination, disease, processing, residues, and compliance and
           economic fraud) are addressed satisfactorily with respect to
           standards, activities, resources, and enforcement. This review is
           conducted by a multi-disciplinary team composed, typically of a
           veterinarian, chemist, microbiologist, statistician, compliance officer,
           and food technologist." However, we found that this multi-disciplinary
           team was not always used during equivalency determinations.

           The Standards for Internal Control in the Federal Government states
           that management should ensure that skill needs are continually
           assessed and that the organization is able to obtain a workforce that
           has the required skills that match those necessary to achieve
           organizational goals. We question whether the Equivalence and
           Planning Branch, collectively, has the technical expertise to make
           equivalency determinations, in the absence of technical subject-matter
           experts. According to FSIS, the Equivalence and Planning Branch’s
           function is not to do technical reviews of equivalence issues, but to
           facilitate the equivalence determinations with Agency technical
           experts. However, if a country chose to adopt, in its entirety, the FSIS
           requirements, then equivalence determinations were made by the
           Branch.

           The Equivalence and Planning Branch's operating procedures for
           determining equivalence were developed by the Equivalence and
           Planning Branch Chief and are outlined in an undated document
           entitled "Procedures for Review of Documents Submitted for
           Equivalence Determination." These procedures state that the Chief,
           Equivalence and Planning Branch, determines whether the document
           review should be undertaken by the Equivalence and Planning
           Branch, or if a special review team is needed. Based on discussions
           with the Equivalence and Planning Branch Chief, we found that this
           special review team consists of the Equivalence and Planning Branch
           program analysts. The procedures also state that, if necessary,
           portions of the documents are provided to subject-matter experts for
           additional review. Comments from these experts are reviewed and
           considered during the equivalence meetings. According to the
           Equivalence and Planning Branch Chief, assistance from FSIS



USDA/OIG-A/24099-3-Hy                                         Section III, Page 63
             microbiologists, chemists, or other experts is requested if a country
             wants to use an alternative system.

             Once documents are reviewed and additional information is requested
             and received, team reviews are conducted only for what the
             Equivalence and Planning Branch Chief regards as complex cases.
             In response to questions that we raised concerning the Equivalence
             and Planning Branch's internal procedures, the Equivalence and
             Planning Branch Chief wrote in a July 16, 1999, memo that, "if the
             equivalence determination is complex or particularly difficult, a team
             review will be initiated. If the issue is reasonably simple to address, a
             team review may not be initiated.... I have the discretion to make a
             decision as to whether I have a team review a document, I review the
             document, or I assign someone else to review a document."

             According to our discussions with Equivalence and Planning Branch
             staff, Equivalence and Planning Branch's determination of equivalency
             is based on a roundtable discussion by the program analysts after
             they review the documents submitted by the foreign countries under
             consideration. In many instances, along with the branch chief, the
             program analysts reviewed documents related to a foreign country's
             inspection system without the involvement of a technical subject-
             matter expert. Based on our review, we found correspondence from
             technical subject-matter experts in only 19 of 37 foreign country files
             reviewed.

             According to FSIS officials, FSIS employs a multi-disciplinary team for
             initial equivalence determinations, but not for ongoing equivalence
             decisions about specific measures adopted by countries that have
             already been found to have equivalent systems. FSIS officials also
             stated that “…each E. coli equivalence determination of any sanitary
             measure that differed from FSIS requirements was fully vetted and
             reviewed by… five levels of management.” FSIS officials
             acknowledged that this review process, however, was not
             documented.

             FSIS officials disagree with OIG concerns regarding the qualification
             of the Equivalence and Planning Branch staff to make equivalence
             decisions, and stated that the positions in this Branch have not been
             classified as having a specific educational degree requirement; the
             staff collectively possess the knowledge, skills, and ability necessary
             for their position.




Section III, Page 64                                      USDA/OIG-A/24099-3-Hy
            FSIS recognized the importance of, and the technical expertise
            needed in, making sound equivalence determinations. An undated
            document prepared by the Equivalence and Planning Branch entitled
            "Pathogen Reduction/HACCP Equivalence Determinations," states
            that, "FSIS' process for evaluating the equivalency of foreign meat and
            poultry food regulatory systems is both pathfinding and precedence
            setting. No other food regulatory system in the world, to our
            knowledge, is actively engaged in applying the concepts of
            equivalence to the degree and extent as is FSIS. The matter of
            exactly how an importing country judges, and determines equivalence
            is controversial. The world is watching how FSIS carries out its
            equivalence process." On April 14, 2000, FSIS provided copies of
            e-mails, memos, and other correspondence to show subject-matter
            experts’ participation in reviews of E. coli testing programs. These
            documents, however, were not maintained in the country files. FSIS
            needs to implement procedures to ensure that technical subject-
            matter experts are involved in equivalency determinations, as
            appropriate, and that their equivalency determinations are adequately
            documented.

                                     Develop procedures that require the
 RECOMMENDATION NO. 27               participation of technical subject-matter
                                     experts, as appropriate, in equivalency
                                     determinations, and document the
       experts' participation, analyses, and conclusions.

            Agency Response

            FSIS agrees to develop formal procedures by October 2000, for
            participation of technical subject-matter experts, as appropriate, in
            equivalence determinations. FSIS will apply this approach, in making
            equivalence determinations, where a foreign country proposes to
            adopt requirements that are different from FSIS requirements. When
            a country proposes to adopt an identical requirement, then it is not
            necessary to involve subject-matter experts in those determinations.
            This is often the case during FSIS’ evaluation of foreign country
            documents submitted in response to the HACCP/pathogen reduction
            regulation.

            OIG Position

            We accept FSIS’ management decision.




USDA/OIG-A/24099-3-Hy                                         Section III, Page 65
                            Document and implement a system of
 RECOMMENDATION NO. 28      internal controls to ensure the adequacy
                            and support for foreign equivalency
                            determinations. This should include a
       formal review and approval process for the equivalence
       determinations made.

             Agency Response

             FSIS agrees with this recommendation. FSIS will formalize its
             procedures and documentation of equivalence decisions.            By
             December 2000, FSIS will complete the implementation of an internal
             controls system for foreign equivalency determinations. Effective
             July 1, 2000, new equivalence decision files will document: 1) All
             FSIS correspondence with foreign countries; 2) All foreign country
             submissions (translated and in the originating language); 3) Summary
             IPD reviews of submissions; 4) Summary of all meetings and
             teleconferences with foreign officials; 5) Summary of all reviews by
             subject-matter experts; 6) Documentation of equivalence criteria;
             7) Summary of all FSIS management formal reviews and approvals;
             and 8) Decision memorandum of the equivalence determinations.

             OIG Position

             We accept FSIS’ management decision.

                                      The Standards for Internal Control in the
        FINDING NO. 10                Federal Government states that internal
                                      controls and all transactions and other
         EQUIVALENCE                  significant events need to be clearly
  DETERMINATIONS WERE NOT             documented, and documentation should
    ALWAYS SUPPORTED BY               be readily available for examination. As
     FILE DOCUMENTATION               part of the "Top-to-Bottom Review" for the
                                      pending reorganization, FSIS identified
                                      the increased need for clear and concise
           documentation, along with the ability to explain the results of various
           tests and findings. We found that the Equivalence and Planning
           Branch's files containing the results of documentation reviews of
           foreign inspection systems did not always include adequate
           documentation to support equivalence determinations for SSOP's and
           E. coli testing. (FSIS was in the process of determining the
           equivalence of foreign systems for HACCP and Salmonella testing
           during our field work. Therefore, we were not able to evaluate the


Section III, Page 66                                    USDA/OIG-A/24099-3-Hy
           support for equivalence determinations for these areas.) In all
           instances, the Equivalence and Planning Branch did not document
           how it determined that a country's SSOP and E. coli testing
           requirements were equivalent to U.S. standards, while in some
           instances, the files did not contain the information the Equivalence
           and Planning Branch would have needed to make a determination.
           Procedures had not been developed to ensure that this type of
           documentation was prepared and maintained to support equivalency
           determinations. In one case, the Equivalence and Planning Branch
           conferred "provisional equivalency" on a country even though
           available documentation, including an onsite equivalence verification
           review, suggested the country's alternative system was not equivalent.

           In August 1996, the Equivalence and Planning Branch sent foreign
           countries a copy of the requirements for pathogen reduction and
           HACCP, along with an implementation schedule. In October of that
           year, the Equivalence and Planning Branch provided additional
           information on the new requirements and requested information on
           country plans to implement the SSOP and E. coli testing
           requirements.    Foreign countries wishing to be approved for
           equivalency status were requested to submit responses to
           questionnaires and documentation to support that the requirements of
           HACCP and pathogen reduction have been met. Countries were also
           requested to provide copies of all statutes, regulations, directives,
           circulars, manuals, and other written instructions that implement the
           HACCP and SSOP requirements, and Salmonella and E. coli testing
           program requirements. In addition, the country governments' plans for
           meeting these requirements by adopting the same or an equivalent
           set of sanitary measures were also required. Countries were to
           submit their SSOP and E. coli testing plans no later than
           December 31, 1996.

           We evaluated the Equivalence and Planning Branch's process and
           procedures for making equivalence determinations and reviewed the
           country files for the 37 countries that applied for eligibility to import to
           the United States under the new standards. Documents in the files
           included the countries' submission of their SSOP and E. coli testing
           programs, telegrams sent by the Equivalence and Planning Branch to
           the countries, Equivalence and Planning Branch minutes of their
           review of countries' submissions, microbiology laboratory results, and
           other internal correspondence.




USDA/OIG-A/24099-3-Hy                                            Section III, Page 67
             a. Equivalence Analysis Was Not Adequately Documented

                 Documentation was not always sufficient to show how the
                 Equivalence and Planning Branch determined the equivalency of
                 the 37 countries reviewed for SSOP and E. coli testing. According
                 to the Equivalence and Planning Branch Chief, information
                 provided by the foreign countries was copied and distributed to
                 members of the Equivalence and Planning Branch review team for
                 an evaluation of each country's inspection system. After each
                 evaluation, the team arrived at a consensus on each issue of
                 equivalence, which was summarized in minutes of its discussions
                 of foreign country submissions. However, based on our review of
                 these summaries, they are very broad and do not describe what
                 information was reviewed, the events that occurred, or the results
                 of the Equivalence and Planning Branch's analysis which led to the
                 equivalency conclusion.

                 The following represent examples of instances in which we were
                 unable to determine the process used by FSIS to evaluate the
                 adequacy of foreign countries' food inspection systems.

                 Country F.       The file on Country F contained insufficient
                 documentation to explain how the Equivalence and Planning
                 Branch determined the adequacy of Country F’s E. coli testing
                 program. There was no evidence in the file to show that Country F
                 had responded to all of FSIS' requests for documentation.
                 Summaries of Equivalence and Planning Branch's discussions on
                 what Country F had submitted were prepared for January,
                 February, and July 1997. The July summary stated that the SSOP
                 information was sufficient, but the summary showed no analysis
                 that resulted in this conclusion. The summary also stated that the
                 Equivalence and Planning Branch would wait for the Microbiology
                 Division to review Country F’s E. coli sampling submissions, but
                 there were no follow-up summaries on this issue.

                 An onsite equivalency review of Country F’s inspection system
                 was conducted from November 20 through December 10, 1997.
                 The review report concluded that Country F’s inspection system
                 did not have effective controls in place to consistently prevent,
                 detect, control, and correct product adulteration. The one
                 slaughterhouse did not have E. coli testing procedures in place.

                 In April 1998, the Microbiology Division completed its analysis of
                 Country F’s E. coli testing procedures. The results stated that


Section III, Page 68                                     USDA/OIG-A/24099-3-Hy
             Country F needed to revise information it provided about its
             sampling techniques. The file shows no additional information
             between April and August 1998, when an Equivalence and
             Planning Branch memorandum was sent to the FSIS Administrator
             stating that Country F had implemented an equivalent E. coli
             testing program. As of the completion of our field work, a
             subsequent onsite equivalency review had not been conducted to
             verify the equivalency of the E. coli testing program.

             Country D.      An August 1998 Office of Policy, Program
             Development and Evaluation memorandum stated that
             Country D’s E. coli system was not equivalent, but as of
             April 15, 1999, Country D is shown as "provisionally equivalent."
             However, we were unable to identify information in Country D’s file
             that would support this determination. A comparison study
             between the E. coli-based system of the United States and the
             Enterobacteriaceae-based system of Country D was not
             completed, and issues related to the collection of indicator
             organisms had not been resolved as of the completion of our field
             work.

             An onsite review performed at the end of 1997 identified significant
             operational and systems deficiencies pertaining to in-plant
             inspection system controls and E. coli testing requirements. It is
             unclear, however, whether Country D’s use of an alternative
             system of E. coli testing was reviewed. The report stated, "E. coli
             testing was not performed in any establishments that slaughtered
             swine and bovine." However, Technical Service Center reviewers
             asked managers in Country D the same series of questions asked
             in the United States to determine if U.S. requirements are being
             met.

             Even though FSIS maintained concerns over Country D’s E. coli
             testing, an onsite equivalency review was not conducted in 1998.
             The Microbiology Division's January 28, 1998, review of
             information submitted by Country D concluded that none of the
             documents pertained to generic E. coli testing, and that the
             bacteriological testing procedures submitted were not equivalent to
             the generic E. coli testing program required under HACCP and
             pathogen reduction. As stated in FSIS' April 21, 1998, telegram to
             Country D requesting additional information, "Country D’s testing
             program      establishes     Aerobic    Colony       Counts     and
             Enterobacteriaceae Colony Counts as the indicator organisms for
             validating and verifying the process control of fecal contamination.


USDA/OIG-A/24099-3-Hy                                       Section III, Page 69
                 The pathogen reduction/HACCP final rule establishes generic
                 E. coli as the indicator organism." Also, a May 13, 1998,
                 memorandum from a Microbiology Division staff member to the
                 Equivalence and Planning Branch states, "The pathogen
                 reduction/HACCP final rule specifies that generic E. coli is the
                 most effective measure of process control for fecal contamination.
                 Since we do not yet have a policy statement on generic E. coli
                 testing, I have simply prepared a list of differences, between the
                 generic E. coli testing outlined in pathogen reduction/HACCP and
                 Country D’s system."

                 Even though the Microbiology Division had determined that the
                 alternative sampling method that Country D wanted to adopt was
                 not equivalent to generic E. coli as the indicator organism, a
                 September 10, 1998, letter from Country D’s government to FSIS'
                 stated, "I am pleased that you agree to Country D’s proposal to
                 use Aerobic Plate Counts and Enterobacteriaceae bacterial counts
                 as test indicators." Subsequent to this, Country D sent the
                 Equivalence and Planning Branch an equivalence assessment
                 plan (for alternative E. coli testing) dated September 30, 1998.
                 The Microbiology Division's October 7, 1998, assessment of this
                 plan stated that parts of the draft submission were unclear and
                 confusing, and suggested improvements to the plan. Of note was
                 the choice of a different indicator organism, indicating that
                 Country D would need to provide a comparative study between
                 the United States’ E. coli testing program and Country D’s
                 Enterobacteriaceae testing program. In response to FSIS' request
                 for clarification and additional information to be added to
                 Country D’s plan, Country D resubmitted the same information that
                 was previously found lacking by the Microbiology Division, and
                 dated it October 27, 1998.

                 Country D drafted a November 5, 1998, "Experimental Plan" in
                 order to conduct a comparative study analysis between Aerobic
                 Plate Counts Enterobacteriaceae and generic E. coli testing and
                 the differences in the size of the surface areas sampled. However,
                 a November 9, 1998, memorandum from the microbiologist
                 reviewing the "Experimental Plan" stated that it should be
                 resubmitted with a more detailed protocol because it was
                 unclear as to exactly what the researchers would be doing in
                 each part of the study. The memorandum also stated that
                 FSIS hoped to resolve the issues in an upcoming meeting in
                 January 1999.



Section III, Page 70                                     USDA/OIG-A/24099-3-Hy
             As a result of the January 12 and 13, 1999, conference with
             Country D officials in Washington, DC, a "Proposal for Equivalency
             Study" was adopted. The study was to be completed by May 1;
             however, the Technical Service Center onsite equivalency review
             performed from January 25 to February 26, 1999, concluded that
             Country D had not fully implemented pathogen reduction and
             HACCP requirements. Therefore, at the time of the onsite review,
             Country D was not in compliance with the pathogen
             reduction/HACCP requirements for generic E. coli testing.

             To respond to our questions concerning missing documentation,
             the Equivalence and Planning Branch Chief prepared a
             chronology, dated July 14, 1999, which outlined events related to
             Country D’s equivalency determination.        According to the
             chronology, on December 3, 1998, FSIS advised Country D that
             testing for Enterobacteriaceae was equivalent to E. coli testing
             provided that they initiate a study comparing the two
             testing programs in those areas where they differed.          On
             December 15, 1998, a document listing two of the remaining
             issues outstanding from the documentation and outlining the
             comments raised by the Microbiology Division and the Equivalence
             and Planning     Branch were faxed to Country D for comment.
             Subsequently, a December 21, 1998, letter was sent to the
             Equivalence and Planning Branch thanking FSIS for accepting
             Enterobacteriaceae testing.

             The chronology noted that most of the document review
             deficiencies were resolved between FSIS and Country D officials
             at the January 12-13, 1999, meeting. On March 10, 1999, a
             meeting with Country D officials was initiated to address the
             remaining document review issues and each finding as a result of
             the Technical Service Center onsite review. On April 21, 1999, a
             letter was faxed by Country D, which satisfactorily addressed
             the document review issues. On June 1, 1999, the Microbiology
             Division provided a favorable evaluation of the results of
             Country D’s research comparing E. coli testing to
             Enterobacteriaceae testing.

             None of the additional information included in the July 1999
             chronology prepared by the Equivalence and Planning Branch was
             documented in the country file for Country D.

             Country G. A Technical Service Center onsite equivalency review
             completed in June 1998 found that Country G (1) was not


USDA/OIG-A/24099-3-Hy                                      Section III, Page 71
                 performing species verification testing, (2) had not developed
                 actions to take if establishments failed to implement pathogen
                 reduction and HACCP requirements, (3) did not follow U.S.
                 standards in sampling for E. coli, and (4) did not monitor for
                 Listeria and Salmonella in ready-to-eat products. We noted that
                 the approval date for the 1998 onsite review report was
                 March 9, 1999, 9 months after it was completed and 4 months
                 after the FSIS cable confirming Country G’s equivalency status.
                 The review report recommended that Country G outline the
                 procedures it planned to implement to correct the deficiencies
                 noted in the report.

                 Country G’s E. coli testing program was determined equivalent
                 based on a November 1998 cable from FSIS to the Agriculture
                 Counselor for Warsaw that stated that Country G has agreed to
                 use an equivalent, internationally recognized method to analyze
                 E. coli. We were unable to locate documentation in the country file
                 to support this agreement. However, on April 14, 2000, FSIS
                 provided documentation of an October 6, 1998, cable from
                 Country G to FSIS which stated that Country G Veterinary Officials
                 confirmed that they would be able to comply with the conditions
                 required by FSIS for E. coli testing by October 8, 1999.

                 The November 1998 cable also stated that FSIS was unsure if
                 Country G took the required 12 months to complete its baseline
                 study to establish performance criteria for E. coli testing, and noted
                 that unless Country G met the baseline study qualification, FSIS
                 would assume (emphasis added) it was using the statistical
                 process control techniques it had agreed to implement. Based on
                 the inadequacy of information to clarify FSIS' uncertainties about
                 Country G’s performance criteria and corrective actions taken to
                 address the deficiencies found in the 1998 onsite review, we
                 question FSIS' equivalency determination.

                 According to the July 14, 1999, chronology for Country G prepared
                 by the Equivalence and Planning Branch in response to our
                 questions, the May/June 1999 onsite equivalency review of
                 Country G found that statistical process control techniques for
                 E. coli testing were implemented in all but one establishment.
                 However, we continue to have concerns over the Equivalence and
                 Planning Branch's equivalency determination process since
                 Country G was determined to be equivalent in November 1998,
                 which was prior to the results of the May/June 1999 onsite review.



Section III, Page 72                                       USDA/OIG-A/24099-3-Hy
           b. The Equivalence and Planning Branch Did Not Adequately Track
              the Data Involved in Equivalence Determinations

              The Standards for Internal Control in the Federal Government
              states, in part, that control activities include the creation and
              maintenance of related records which provide evidence of
              execution of activities, as well as appropriate documentation. As
              part of our review, we requested the Equivalence and Planning
              Branch to provide all documentation related to equivalence
              determinations for each country approved to export meat and
              poultry products to the United States. We were informed that all
              information would be included in documentation review files
              maintained for each foreign country. However, we found that the
              Equivalence and Planning Branch documentation review files did
              not include all information pertaining to equivalence for each
              country. During our evaluation of the countries’ files, we identified
              information for 17 countries that was missing from the files. The
              type of information that could not be located included Microbiology
              Division analysis results and telegrams sent to countries regarding
              their SSOP's and E. coli testing.

              Of those 17 countries where there was insufficient data in the
              country file, 15 were approved as having an SSOP and E. coli
              testing program equivalent to U.S. requirements.

              For example, based on a March 13, 1998, cable from FSIS to the
              chief meat and/or poultry inspection official for Country H,
              information dated February 2, 1997, April 1997, June 19, 1997,
              and July 15, 18, 19, and 21, 1997, regarding the implementation
              of E. coli testing was submitted by Country H. However, our
              review of the country file for Country H did not identify any of these
              documents in the files. In addition, the file for Country I contained
              a September 10, 1997, response to an August 4, 1997, request
              from FSIS concerning their implementation of SSOP and E. coli.
              However, the file did not include FSIS’ August 4, 1997, request for
              information in order to determine the adequacy of Country I’s
              response.

           We conclude that FSIS needs to strengthen internal controls relating
           to its documentation of the processes used and analyses made in
           reaching equivalence determinations.




USDA/OIG-A/24099-3-Hy                                         Section III, Page 73
                                  Develop a management control process
 RECOMMENDATION NO. 29            and procedures to ensure equivalence
                                  decisions are adequately documented.
                                  The procedures should require that files
       contain supporting evidence, including detailed analysis of information
       received and reviewed, resolution of issues raised during the review
       process, and conclusions reached.

             Agency Response

             FSIS agrees with this recommendation. FSIS agrees that equivalence
             decisions should be adequately documented and that the files must
             be complete. Therefore, FSIS will institute the same measures
             described in response to Recommendation 28.

             The examples that OIG cites to demonstrate their concern with the
             equivalence determination process is misplaced and erroneously
             concludes that the equivalence process was incomplete. The process
             was complete, but not all of the documents were in the country files at
             the time of the audit.

             OIG Position

             We accept FSIS’ management decision.

                                        At the time of our audit (July 1999), FSIS
        FINDING NO. 11                  had not completed reviews to determine
                                        the equivalency status for foreign
         EQUIVALENCE                    countries that continue to export meat
     DETERMINATIONS WERE                and poultry products into the United
     NOT MADE IN A TIMELY               States under HACCP and pathogen
            MANNER                      reduction standards.       FSIS did not
                                        establish timeframes for completing
                                        reviews of E. coli and SSOP submissions
           from foreign countries, and it did not meet the timeframes it
           established for completing reviews of Salmonella and HACCP
           submissions. These reviews are critical in determining the adequacy
           of foreign country food safety systems.

             During the implementation of HACCP and pathogen reduction
             requirements for imported meat and poultry, establishments in the
             37 countries that had been approved for importing these products into
             the United States under the pre-HACCP system were allowed to
             continue their importations pending the Equivalence and Planning


Section III, Page 74                                     USDA/OIG-A/24099-3-Hy
                     Branch's approval of their governments' food safety systems and its
                     determination that those systems are equivalent to U.S. standards.
                     According to regulations,11 establishments with 500 or more
                     employees were required to have an equivalent system in place by
                     January 1998, and establishments with between 10 and 500
                     employees were required to have a system in place by January 1999.
                     (Establishments with fewer than 10 employees had until January 2000
                     to implement a system.) An FSIS official stated that a decision was
                     made to review country SSOP and E. coli testing programs before
                     reviewing HACCP and Salmonella because the SSOP and E. coli
                     requirements were to be in effect as of January 27, 1997.

                     The Equivalence and Planning Branch is responsible for ensuring that
                     eligible countries implement both systems by the established dates.
                     However, a formal plan for completing the equivalency determinations
                     for SSOP and E. coli testing was never established. The Equivalence
                     and Planning Branch prepared a plan to complete the HACCP and
                     Salmonella equivalency determinations and notify all 14 countries by
                     June 30, 1999. However, as of July 1999, the documents were still
                     under review by Equivalence and Planning Branch officials.

                                                          Establish a time-phased plan to expedite
     RECOMMENDATION NO. 30                                the process for determining equivalency.


                     Agency Response

                     FSIS agrees with this recommendation. FSIS will implement time-
                     phased plans for future equivalence determinations, effective
                     October 1, 2000.

                     OIG Position

                     We accept FSIS’ management decision.




11
     Title 9 CFR, Part 304 et al., dated July 25, 1996.



USDA/OIG-A/24099-3-Hy                                                         Section III, Page 75
                                          The Equivalence and Planning Branch
          FINDING NO. 12                  made HACCP and pathogen reduction
                                          equivalency determinations for current
            EQUIVALENCY                   trading partners in cases where Technical
     DETERMINATIONS WERE MADE             Service Center reviewers had not
     WITHOUT ONSITE REVIEWS FOR           performed onsite equivalency verification
     CURRENT TRADING PARTNERS             reviews. Regulations 12 state, in part, that
                                          maintenance of eligibility of a country for
                                          importation of products into the United
              States depends on the results of periodic reviews of the foreign meat
              inspection system in operation by a representative of the Department.
              According to documentation provided by FSIS, these periodic reviews
              are generally repeated annually. In addition, each equivalency
              decision should be based, in part, on an onsite verification review.
              However, we found that for current trading partners, onsite reviews of
              foreign food regulatory systems were not being conducted on an
              annual basis. FSIS did not place a high enough priority on the
              reviews to prevent budgetary constraints from restricting overseas
              travel. In addition, we found that six countries were approved
              equivalent for SSOP and E. coli without onsite reviews to verify the
              country inspection program was operating as represented by
              documentation submitted to FSIS.

                    In response to our concerns over the equivalence determination
                    process, FSIS prepared a document which stated, in part, that OIG
                    has incorrectly interpreted that audit (onsite review) findings have an
                    impact on document review equivalence decisions, and that the timing
                    of an audit must impact on the equivalence decision. In addition, an
                    April 3, 2000, document prepared by FSIS, in response to our draft
                    report, states that the regulations do not require that an onsite review
                    must be made before equivalence determinations regarding new FSIS
                    requirements that must be implemented by current trading partners to
                    maintain equivalence. However, without the onsite equivalency
                    verification review, there is no validation that the foreign country's food
                    regulatory system is operating as represented to FSIS.

                    The Equivalence and Planning Branch made equivalency decisions
                    for current trading partners after completing their documentation
                    reviews, but without the results of onsite verification reviews. In these
                    cases, the Technical Service Center had not conducted onsite reviews
                    to validate the equivalency of the foreign country's food regulatory
                    system. In 1997 and 1998, 37 countries were subject to review, but
                    only 30 onsite reviews were conducted in 1997 and 24 in 1998. A
12
      Title 9 CFR, Part 327 (a) (2), dated January 1, 1998.


Section III, Page 76                                               USDA/OIG-A/24099-3-Hy
           Technical Service Center management official stated that reviews
           were postponed because of a 40-percent cut in the International
           Review Staff's budget. However, FSIS had not developed a
           contingency plan for cases where a country had not received an
           onsite review as part of the equivalency determination process, or as
           part of the maintenance of eligibility requirement.

           Documents prepared by the Equivalence and Planning Branch for
           determining equivalency state that the onsite review is conducted after
           the Equivalence and Planning Branch completes its documentation
           review. However, for six countries, the Equivalence and Planning
           Branch granted equivalency status for SSOP and E. coli testing
           programs prior to an onsite review. The Equivalence and Planning
           Branch's documents for determining equivalence also state that
           before a final equivalency determination is made, another onsite audit
           is completed, and the findings and subsequent documents are
           thoroughly reviewed.        We found that for five countries, the
           Equivalence and Planning Branch granted equivalency status after
           completion of the documentation review, but before the onsite
           verification. Country B was granted equivalency in November 1998
           and was not subject to an onsite verification review in either 1997 or
           1998. A March 1999 onsite review of this country’s inspection system
           identified variances in their testing programs.




USDA/OIG-A/24099-3-Hy                                        Section III, Page 77
Table 1: Foreign Countries Determined "Equivalent" Prior to an Onsite Review

               Type of                           Date            Date of
              Approval         Date of       Documentation       Onsite
  Country    Per Foreign      Approval          Review           Audit          Comments
              Country                         Completed
                Cable


                                                                           No audit conducted in
    B        Equivalent    Nov. 12, 1998   Nov. 12, 1998       None        1997 or 1998.

                                                                           No audit conducted in
                                                                           1998. Cable stated
                                                                           equivalent for E. coli.
    E        Equivalent    Dec. 9, 1998    Dec. 9, 1998        Dec. 1997

                                                                           No audit conducted
                           E.coli                                          after documentation
                           Nov. 13, 1998                                   review. Cable stated
                           SSOP                                            equivalent for E. coli.
    G        Equivalent    Feb. 20, 1998   Nov. 13, 1998       June 1998

                                                                           No audit conducted
             Fully                                                         after documentation
     J       Equivalent    Dec. 2, 1998    June 23, 1998       Apr. 1998   review.

                                                                           No audit conducted
             Fully                                                         after documentation
    K        Equivalent    Dec. 9, 1998    Sept. 4, 1998       June 1998   review.

                                                                           No audit conducted
             Fully                                                         after documentation
    L        Equivalent    Dec. 2, 1998    June 11, 1998       Mar. 1998   review.



             Country E received an onsite review as early as 12 months before the
             documentation review was completed. Countries G, J, K, and L
             received onsite reviews as early as 2 to 5 months before the
             documentation reviews were completed. FSIS has not established
             any procedures that would allow use of the results of onsite reviews
             that had been performed prior to the completion of the documentation
             review. Specific areas reviewed during the onsite review may not be
             sufficient to verify information submitted by foreign countries for use in
             determining equivalency with U.S. requirements.




Section III, Page 78                                         USDA/OIG-A/24099-3-Hy
                                       Ensure that onsite audits for current
 RECOMMENDATION NO. 31                 trading partners are conducted at least
                                       annually.

           Agency Response

           FSIS agrees with this recommendation.       This issue will be
           incorporated into the FSIS procedures for import inspections by
           December 2000.

           OIG Position

           We accept FSIS’ management decision.


                                       For current trading partners, develop and
 RECOMMENDATION NO. 32                 implement a policy for onsite verifications
                                       of changes in the requirements for
                                       foreign inspection systems.

           Agency Response

           FSIS agrees with this recommendation. The equivalence process
           begins with a document review, to determine if the foreign country’s
           written submission documents how its sanitary measures meet the
           United States’ appropriate level of protection. This evaluation is then
           verified by an onsite audit to confirm that the foreign country has in
           fact implemented its sanitary measures, as described in its written
           submission.

           However, the finding for this recommendation reflects a
           misinterpretation of 9 CFR 327.2. The misinterpretation is evidenced
           by a statement: “We found that the food regulatory systems of six
           countries were determined “equivalent” by the Equivalence and
           Planning Branch without verification by an onsite review.”

           This statement is incorrect. The six countries (cited later in a table)
           have food regulatory systems that were found fully equivalent to the
           U.S. system many years ago.          Each of these countries has
           undergone initial equivalence evaluations to include an extensive
           onsite audit and are listed as equivalent at 9 CFR 327.2(b)
           Additionally, each of these countries has been audited onsite many
           times since their food regulatory systems were initially found
           equivalent.


USDA/OIG-A/24099-3-Hy                                        Section III, Page 79
             When an eligible country proposes an alternative sanitary measure
             to FSIS for an equivalence decision, FSIS conducts a full document
             analysis of only that component of the foreign food regulatory system
             that is affected by the change. A final determination of equivalence
             for a proposed sanitary measure is verified by onsite audit. Trade
             continues in the interim. Three circumstances could result in an
             interruption of trade. One, where an emergency sanitary measure is
             implemented by FSIS to address a hazard that is so severe that no
             product can enter the marketplace from a foreign establishment until
             the control is in place. Two, where an exporting country does not
             provide satisfactory documentary evidence of an equivalent sanitary
             measure. Three, where a system audit reveals that an exporting
             country is not implementing a public health sanitary measure in the
             manner that FSIS initially determined to be equivalent. None of
             these three conditions applied during FSIS evaluations of
             PR/HACCP alternative sanitary measures proposed by foreign
             countries.

             OIG Position

             To reach management decision, FSIS needs to provide a target date
             for the development and implementation of a policy for onsite
             verifications of changes in the requirements for foreign inspection
             systems.

                              Clarify the regulations regarding FSIS’
RECOMMENDATION NO. 33         procedures for determining equivalence
                              for current trading partners, taking into
                              consideration major changes such as
       HACCP and pathogen reduction requirements.
             Agency Response

             FSIS has been properly applying its regulations regarding equivalence
             determinations. In the future, FSIS will take into consideration major
             changes, such as PR/HACCP, as it documents its procedures for
             determining whether equivalence is maintained for current trading
             partners, as referenced in our response to Recommendation No. 12.

             OIG Position

             To reach management decision FSIS needs to provide a target date
             for the development and implementation of a policy for onsite
             verifications of changes in the requirements for foreign inspection
             systems.

Section III, Page 80                                    USDA/OIG-A/24099-3-Hy
                                       Technical     Service      Center  onsite
       FINDING NO. 13                  equivalency   verification  review (audit)
                                       reports and their supporting notes do not
     ONSITE EQUIVALENCY                provide documented evidence that U.S.
    VERIFICATION REVIEWS               equivalent inspection requirements were
      NEED TO BE BETTER                verified as functioning. In addition, we
         DOCUMENTED                    found inconsistency in the information
                                       included in the audit reports and
                                       supporting review notes. Reporting and
          evidence standards had not been established to support the adequacy
          of the onsite reviews and subsequent equivalency determinations.
          Although FSIS refers to their onsite verification reviews as audits,
          these reviews are not conducted and/or reported in accordance with
          Generally Accepted Government Auditing Standards. FSIS does not
          maintain sufficient, competent evidence to support the scope of the
          verification work or the conclusion that foreign systems were
          equivalent to U.S. inspection standards.

           Documentation provided by FSIS on April 3, 2000, states, in part, that
           “The annual ongoing equivalence onsite reviews are not required to
           cover all aspects of a country’s inspection system on each visit. Prior
           to becoming eligible to export to the United States, all countries had
           previously been subjected to an onsite team audit by Agency experts.
           These annual audits focus primarily on new FSIS inspection
           requirements and sampling of inspection requirements on other risk
           areas on a case by case basis.”

           We reviewed audit reports for 31 countries and determined that none
           of the reports or supporting review notes included sufficient
           information to be used as a basis for making equivalency
           determinations. Many of the reports and supporting review notes
           lacked sufficient information about deficiencies identified during the
           review. Therefore, there is a risk that equivalency determinations are
           not supported and that adequate followup on corrective actions will not
           occur during subsequent reviews.

           The Technical Service Center staff is responsible for conducting
           onsite equivalency reviews to verify whether a country's food safety
           regulatory inspection system meets U.S. standards. The review
           seeks evidence that the exporting country has instituted sanitary
           measures that will provide the same level of protection for American
           consumers that is ensured by the domestic system.



USDA/OIG-A/24099-3-Hy                                        Section III, Page 81
                    The audit reports are provided to the Equivalence and Planning
                    Branch and, according to FSIS procedures, are used as a basis for
                    making equivalency decisions. However, according to subsequent
                    documentation provided by FSIS, the audit reports are not the only
                    basis for making equivalence determinations. Prior to the equivalency
                    decision, the Equivalence and Planning Branch staff members review
                    the reports to determine if the country's system of oversight and
                    compliance, as represented in their laws, regulations, and other
                    documentation, is in place and functioning. Regulations 13 require that
                    FSIS review country documentation to ensure that foreign inspection
                    programs meet U.S. requirements. Those requirements identify an
                    "equivalent" system as a national food safety program that meets U.S.
                    standards with regard to organization and staffing, supervision of
                    employees, qualification of inspectors, enforcement authority, and
                    national sanitation and residue standards. Regulations further identify
                    an "equivalent" inspection program as one that provides periodic
                    inspections, random sampling, and written reports.

                    We reviewed audit reports performed of establishments in foreign
                    countries during 1997 and 1998 and found that none of the reports
                    specifically addressed U.S. equivalent elements relating to HACCP
                    and pathogen reduction requirements, as outlined in Federal
                    regulations. We could not determine if required elements were
                    reviewed by the Technical Service Center staff. For example, the
                    reports for Country H, Country N, and Country O make no reference
                    to inspector qualifications and supervision. The reports for Country H,
                    Country N, and Country O also make no reference to any review of
                    the enforcement authority the national governments claimed to have
                    over meat and poultry establishments. The reports for Country A,
                    Country P, Country Q, Country R, Country G, Country S, Country T,
                    Country U, Country V, and Country J include a general statement that
                    a visit was made with foreign national inspection officials to discuss
                    their oversight program and practices. However, neither the reports or
                    supporting review notes provide sufficient information to document
                    that U.S. requirements relating to organizational structure, staffing,
                    and qualifications of inspectors were validated.

                    According to FSIS officials, the organizational structure, staffing, and
                    qualifications of inspectors had not changed since the prior audit, and
                    reviewers had verified this through discussions with the country
                    inspection officials during the entrance conference.



13
     Title 9 CFR, Part 327.2, dated January 1, 1998.


Section III, Page 82                                             USDA/OIG-A/24099-3-Hy
           For Country P, we noted the report stated that residue control and
           processed product control were adequate at the sites visited.
           However, neither the report nor supporting review notes gave details
           concerning what was reviewed. The report for Country R stated that
           controls over laboratory reviews, disease, residue, and compliance
           fraud were in place but provided no information about the
           methodology used to arrive at this conclusion. The reports for Country
           A and Country E both noted that deficiencies were present at several
           establishments visited, but did not include the specific establishments
           where the deficiencies were disclosed.

           In some cases, the sufficiency of the review work performed could not
           be determined due, in part, to lack of adequate documentation of the
           work performed and any deficiencies disclosed. For example, as part
           of the 1997 audit report for Country P, the Technical Service Center
           reviewer offered no details of what was reviewed under residue
           control, compliance/economic fraud control, and processed product
           control. In addition, Country P’s national residue laboratory was not
           reviewed because according to the reviewer's notes, it had been
           reviewed the previous year. However, based on our analysis of the
           1996 report for Country P, we could not conclude that the national
           residue laboratory had been reviewed. For residue, the report stated
           only that “sampling and analysis is done per a residue national
           program, complying with USDA requirements.” No other
           documentation was provided to substantiate a review of the national
           residue laboratory. According to FSIS officials, the Agency followed
           up its 1998 onsite review with a review of one national residue control
           laboratory that was found satisfactory.

           We also noted in the audit report for Country P that no formal exit
           meeting was held with Country P’s meat inspection officials. The exit
           meeting section of the report stated, "the Head of the Meat Hygiene
           Unit accompanied the reviewer and was aware of findings and review
           results." However, the report did not identify any findings, so we were
           unable to determine the nature of the findings and review results of
           which the Head of the Meat Hygiene Unit was made aware.

           Based on our discussions with Technical Service Center staff, we
           concluded that the reviewers possess the competence and expertise
           needed to conduct onsite equivalency reviews of foreign food
           regulatory systems. Guidelines need to be developed to provide both
           reporting and evidence standards to support the adequacy of the
           onsite reviews and the resulting equivalency determinations. Based



USDA/OIG-A/24099-3-Hy                                        Section III, Page 83
             on discussions with TSC officials on April 6, 2000, a new reporting
             format has been developed to improve the reporting process.

                                   Ensure that reporting and evidence
 RECOMMENDATION NO. 34             standards developed for equivalency
                                   verification  reviews    provide    for
                                   appropriate documentation of all areas
       required to be reviewed by regulation.

             Agency Response

             According to 9 CFR 327.2 (a) (2) (iii) “Maintenance of eligibility of a
             country for importation of products into the United States depends on
             the results of periodic reviews of the foreign meat inspection
             system…” The regulatory requirement of periodic reviews does not
             mandate that each review encompass all aspects of a country’s
             inspection system.

             Nevertheless, FSIS is committed to ensuring that these reviews are
             consistent and thoroughly documented. At the time of the OIG audit,
             FSIS was in the process of developing an enhanced uniform audit
             format that addressed the following five risk areas: 1) animal disease
             controls; 2) sanitation controls; 3) enforcement controls; 4) slaughter
             and processing controls; and 5) residue controls. These five risk
             areas cover all of the FSIS regulatory requirements for countries that
             export to the United States. Subsequent to the OIG audit, the audit
             format was finalized.


             The new audit format has been implemented for all FSIS audits
             conducted in fiscal year 2000. Also, audit planning has been
             enhanced to ensure that onsite audits cover all relevant areas.

             OIG Position

             We accept FSIS’ management decision.




Section III, Page 84                                     USDA/OIG-A/24099-3-Hy
                                        We found that equivalency review reports
       FINDING NO. 14                   were not issued in a timely manner. For
                                        almost half the reports that bore a date
     EQUIVALENCY REVIEW                 and were released for onsite reviews
      REPORTS WERE NOT                  performed in 1997 and 1998, the elapsed
      ISSUED IN A TIMELY                time between the completion of the
           MANNER                       fieldwork and the issuance of the report
                                        was 4 months or longer.

           We conducted a comparison between the completion date for a
           foreign country's onsite review and the date of the final audit report for
           that country and noted that a substantial length of time had elapsed
           between these dates. As noted in Finding No. 3, the draft report is
           forwarded from the Technical Service Center to the Equivalence and
           Planning Branch for review and comment prior to issuance. In 1997
           and 1998, 37 foreign countries were subject to review as part of the
           HACCP and pathogen reduction requirements. In 1997, 30 onsite
           reviews were conducted by the Technical Service Center reviewers,
           but only 24 audit reports were issued. Reports were not issued for
           Country H, Country N, Country M, Country W, Country X, and
           Country Y. In 1998, 24 onsite reviews were conducted, but only
           17 reports were approved as final. As of July 1999, four reports were
           still in draft. These draft reports are for Country H (onsite review
           conducted in November 1998), for Country M (onsite review
           conducted in October 1998), and for Country Z and Country AB (both
           onsite reviews conducted in April 1998). Reports had not been issued
           for Country I, Country P, and Country Y as of the end of our field work.

           Of the 41 final reports that were issued in 1997 and 1998, seven
           reports were undated. Of the remaining 34 reports that included a
           date, we found delays ranging up to 15 months between the date
           the onsite review was completed and the date the final report was
           issued. Of these reports, 15, or 44 percent, were completed 4 to
           15 months after the onsite review.

           According to an April 3, 2000, document prepared by FSIS, the
           major reason that these reviews were not released within a shorter
           timeframe was that the Director of the Review Staff had to perform
           the functions of three positions: the Director of the Review Staff, the
           Branch Chief for Domestic Review, and the Branch Chief for
           International Review which precluded him from focusing only on the
           reports. In addition the document stated that the length of time for
           audit reports to be finalized does not preclude the agency from
           taking action on findings, and that depending on the seriousness of


USDA/OIG-A/24099-3-Hy                                          Section III, Page 85
             the finding, the Equivalence and Planning Branch initiates immediate
             action prior to the completion of the audit report.


 RECOMMENDATION NO. 35

             Develop procedures for timely completing reports documenting
             reviews of foreign inspection systems.

             Agency Response

             FSIS agrees with this recommendation. Formal procedures will be
             completed by December 2000. In 2000, new foreign country
             reporting requirements were instituted. Draft foreign country reports
             are due from the reviewers within 10 working days of their return to
             the office. Exceptions to the 10-day rule must be requested in writing,
             with justification, through the Branch Chief of the International Review
             Branch or Director of the Review Staff. Similar timeframes are in
             effect throughout the process, creating a timeline that has the report
             completed and in “Draft Final” form to be sent to the foreign country
             government officials for comment within 60 days from the date of the
             exit conference with the foreign officials. This 60-day commitment is
             also detailed in the cable that each reviewer sends to the foreign
             country prior to each audit. Because of language differences, and
             necessary time for response, the foreign countries are allowed
             60 days to submit their response to the report. The foreign country
             response is then added to the report as an attachment, and the report
             is finalized.

             OIG Position

             We accept FSIS’ management decision.




Section III, Page 86                                      USDA/OIG-A/24099-3-Hy
                       GENERAL COMMENTS

We noted that as part of the pre-audit process, FSIS transmits a copy of its audit
plan to the foreign country at least 30 days before implementation. The plan
identifies each establishment that the Technical Service Center reviewers will visit
during the onsite review. A document entitled FSIS Process for Evaluating the
Equivalence of Foreign Meat and Poultry Food Regulatory Systems, dated March
1999, states, "the audit protocol is sufficiently detailed to inform the exporting
country of the audit objectives, scope, and criteria, who they will be visiting, what
they wish to see, where they wish to go, and when they wish to do so." We found
that in one instance, a foreign country delisted an establishment that was known by
the government to be in noncompliance with U.S. inspection requirements after
receipt of the audit plan but prior to initiation of the onsite review. Therefore,
another establishment was selected since delisted establishments are not reviewed.
Having advance knowledge of the establishments selected for review may have
been the reason that the foreign government delisted the establishment. We were
provided with a copy of a letter sent to all countries concerning FSIS’ delistment
policy. However, in order to validate the true condition of a foreign country's food
regulatory inspection system during its onsite equivalency verification reviews. FSIS
should reconsider the benefits of providing advance notice to the foreign countries
of the establishments to be reviewed.




USDA/OIG-A/24099-3-Hy                                           Section III, Page 87
Section III, Page 88   USDA/OIG-A/24099-3-Hy
EXHIBIT A – FSIS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24099-03-Hy                  Section III, Page 91
Section III, Page 92   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 93
Section III, Page 94   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 95
Section III, Page 96   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 97
Section III, Page 98   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 99
Section III, Page 100   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 101
Section III, Page 102   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 103
Section III, Page 104   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 105
Section III, Page 106   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 107
Section III, Page 108   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 109
Section III, Page 110   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 111
Section III, Page 112   USDA/OIG-A/24099-03-Hy
USDA/OIG-A/24099-03-Hy   Section III, Page 113
Section III, Page 114   USDA/OIG-A/24099-03-Hy
     EXHIBIT B – COUNTRIES ALLOWED TO CONTINUE
     EXPORTING TO THE UNITED STATES PRIOR TO
     IMPLEMENTATION OF HACCP.
           Argentina                                   Iceland
           Australia                                   Israel
           Austria                                     Italy
           Belgium                                     Japan
           Brazil                                      Mexico
           Canada                               Netherlands
           Costa Rica                                  New Zealand
           Croatia                                     Nicaragua
           Czech Republic                              Northern Ireland
           Denmark                                     Poland
           Dominican Republic                   Republic of Ireland
           Finland                                     Romania
           France                               Slovenia
           Germany                                     Spain
           Guatemala                                   Sweden
           Honduras                                    Switzerland
           Hong Kong                                   United Kingdom
           Hungary                                     Uruguay


   NOTE:   Paraguay was delisted as an eligible exporter of meat products to the United
           States as of September 5, 1997.




USDA/OIG-A/24099-03-Hy                                         Section III, Page 115
Section III, Page 116   USDA/OIG-A/24099-03-Hy
                           ABBREVIATIONS

      E. coli       - Escherichia coli

      FSIS          - Food Safety and Inspection Service

      FY            - Fiscal Year

      GATT          - General Agreement on Tariffs and Trade

      HACCP         - Hazard Analysis and Critical Control Point

      OIG           - Office of Inspector General

      OMB           - Office of Management and Budget

      SSOP          - Sanitation Standards Operation Procedures

      USDA          - U.S. Department of Agriculture




Section III, Page 117                                      USDA/OIG-A/24099-03-Hy
U.S. Department of Agriculture
 Office of Inspector General
     Food Safety Initiative
  Meat and Poultry Products



FOOD SAFETY AND INSPECTION SERVICE
     DISTRICT ENFORCEMENT
          OPERATIONS
     COMPLIANCE ACTIVITIES




                        Report No.
                        24601-4-At
                        June 2000
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250




DATE:         June 21, 2000

REPLY TO
ATTN OF:      24601-4-At

SUBJECT:      District Enforcement Operations Compliance Activities

TO:           Thomas J. Billy
              Administrator
              Food Safety and Inspection Service

ATTN:         Margaret O’ K. Glavin
              Associate Administrator

This report presents the results of our audit of the Food Safety and Inspection Service’ s
compliance review program. This review is part of the Office of Inspector General’ s food
safety initiative, which also included the implementation of the Hazard Analysis Critical
Control Point System, imported meat and poultry inspection process, and the agency’ s
procedures established for testing meat and poultry products. Your June 6, 2000,
response to the official draft report is included as exhibit I with excerpts and the Office of
Inspector General’ s position incorporated into the Findings and Recommendations
section of the report. Based on your response, management decisions have been
reached on Recommendations Nos. 1, 4, 5, 6 and 7. Please follow your agency’ s internal
procedures in forwarding documentation for final action to the Office of the Chief Financial
Officer.

Management decisions have not yet been reached on Recommendations Nos. 2, 3, and 8.
Management decisions can be reached once you have provided the additional information
outlined in the report sections, OIG Position.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, and the timeframes for implementation
of the remaining recommendations. Please note that the regulation requires management
decisions to be reached on all recommendations within 6 months of report issuance.


/s/
ROGER C. VIADERO
Inspector General
                             EXECUTIVE SUMMARY

                          FOOD SAFETY INSPECTION SERVICE
                         DISTRICT ENFORCEMENT OPERATONS
                               COMPLIANCE ACTIVITIES

                               AUDIT REPORT NO. 24601-4-AT


                                             This report represents the results of our
           RESULTS IN BRIEF                  audit of the Food Safety and Inspection
                                             Service (FSIS) District Enforcement
                                             Operations (DEO) compliance activities1.
              This review was part of the Office of Inspector General’s (OIG) food
              safety initiative, which also included the implementation of the Hazard
              Analysis and Critical Control Point (HACCP) system, the controls over
              imported meats, and the procedures established for laboratory
              testing of meat and poultry products. The objective of the audit was
              to determine whether FSIS’ policies, procedures, and controls were
              adequate to provide an effective compliance review program to
              detect and prevent food safety violations and to ensure industry
              compliance with the provisions of meat and poultry inspection laws
              and regulations.

                 9 Code of Federal Regulations, Part 300, gives FSIS the
                 responsibility of ensuring that meat and poultry entering consumer
                 channels is wholesome. To meet the responsibility, FSIS performs
                 compliance reviews of non-federally inspected firms, such as
                 warehouses, processors, distributors, transporters, and retailers.
                 Compliance reviews are initiated for a variety of reason. For
                 example, FSIS may initiate a compliance review to respond to a
                 consumer complaint, to carry out its random reviews of firms, or to
                 followup its reviews of previous violators. Violators of meat and
                 poultry inspection laws can be cited, imposed with administrative
                 sanctions, or even prosecuted for criminal actions.

                 Several systemic deficiencies are having an impact on FSIS’ ability to
                 meet its compliance obligations. Most importantly, FSIS needs to
                 enhance its existing plan to ensure compliance reviews are sufficient
                 to detect and prevent major food safety violations and ensure industry

1
 The audit scope was limited to FSIS compliance and enforcement activities at non-federally inspected firms.
We did not assess compliance with HACCP by federally inspected establishments and FSIS’ administrative
enforcement actions such as fitness determinations and consent and plea agreements.

USDA/OIG-A/24601-4-At                                                               Section IV, Page i
              compliance with the provisions of meat and poultry inspection laws
              and regulations.

              v FSIS’ compliance reviews were not systematic and did not have
                review steps for 13 of the 14 types of firms the agency is
                responsible for overseeing. FSIS’ plan should, at a minimum,
                define the universe of high-risk firms it is required to review within
                each district’s jurisdiction and the scope of the reviews (what
                areas to inspect, records review to perform, etc,). FSIS’ plan
                should also emphasize the targeting of resources to heavy
                populated areas, and those areas that are geographically large.
                For example, FSIS’ data shows for the Albany, New York, district,
                that the majority of violations occur in the New York City
                metropolitan area. However, the majority of FSIS random reviews
                are conducted in the Albany, New York area, where far fewer
                violations occur. We found that under the agency’s existing plan,
                compliance officers did not know the number of firms subject to a
                compliance review in their districts, did not review the same
                processes at similar firms, or in several instances, did not
                document cases for minor violations of the meat and poultry
                inspection laws.

              v FSIS does not have timeframes and procedures for monitoring
                and tracking the progress and completion of violation cases at the
                headquarters, district, and field office levels. The timeliness of
                processing case reviews was at the discretion of headquarters,
                district, and field offices. The average number of days cases have
                remained open indicates that FSIS’ existing plan could be
                enhanced, if the agency sets goals and tracks the time it takes to
                process violation cases.

              FSIS also needs to remove systemic weaknesses in three other
              areas to improve the effectiveness of its investigations of consumer
              complaints and food safety violations.

              v FSIS does not have an effective system to provide reliable
                information regarding the number, status, and disposition of all
                consumer complaints received by their offices.     Other than
                consumer complaints received through the U.S. Department of
                Agriculture’s meat and poultry hotline, FSIS could not readily
                identify all consumer complaints that had been received
                nationwide.

              v FSIS’ enforcement actions taken against 197 (11 percent) of
                1,873 firms did not deter them from committing additional

Section IV, Page ii                                        USDA/OIG-A/24601-4-At
                violations. Several firms were cited as many as 4 times for the
                same violation within a 24-month period. Currently, FSIS does not
                have the authority to impose monetary fines for violations.
                Consequently, FSIS’ enforcement actions consisted of a letter of
                warning or similar letter for these cases. Several compliance
                officers we spoke with stated that the agency should have the
                authority to fine firms to deter further violations. We support FSIS’
                ongoing efforts to seek authority to impose monetary fines on
                firms that violate the meat and poultry inspection laws.

            v DEO determined that over half of the cases received from the
              districts did not require referral for prosecution. District offices
              refer standard cases to DEO headquarters for possible
              prosecution action by the U.S. attorney, through the Office of the
              General Counsel (OGC). We found that DEO headquarters
              determined 27 of the 41 cases (66 percent) referred from
              October 1, 1997, through February 28, 1999, did not require
              referral for prosecution. DEO officials stated that the cases did
              not have prosecutable merit or some assistant district managers
              for enforcement (ADME) and supervisory compliance officers did
              not have enough training or supervisory experience to properly
              prepare and submit violation cases. As a result, enforcement
              actions against these violators were delayed.

            During our audit fieldwork, we also detected a potential conflict of
            interest between a compliance officer and a firm that he was
            responsible for conducting compliance reviews. FSIS took immediate
            action and reassigned the compliance officer to other duties. The
            issue is currently under investigation.

                                       We recommend that FSIS further refine
    KEY RECOMMENDATIONS                its plan to incorporate prescribed
                                       procedures for conducting compliance
                                       reviews at 13 of the 14 types of firms it is
          required to oversee (FSIS currently has review steps only for
          warehouses). FSIS’ plan should also define the universe of high-risk
          firms requiring review and determine the review steps to be
          performed at each type of firm. FSIS’ plan needs to emphasize the
          targeting of resources to those areas that are geographically large
          and heavily populated, as well as to firms that are considered high
          risk. FSIS’ plan could be further enhanced by establishing timeframes
          and procedures for monitoring and tracking the progress and
          completion of violation cases. FSIS should ensure that all ADME's
          and supervisory compliance officers receive training to adequately
          prepare and submit violation cases for prosecution.

USDA/OIG-A/24601-4-At                                            Section IV, Page iii
             We recommend that FSIS develop an effective system to monitor the
             receipt and processing of all consumer complaints. We are also
             recommending that FSIS continue to seek authority to fine firms that
             violate the meat and poultry inspection laws.

                                        In its response to the draft report, dated
        AGENCY RESPONSE                 June 6, 2000, FSIS stated that for the
                                        past several years, it has placed strong
                                        emphasis on developing and applying
           appropriate enforcement support for the HACCP system and
           pathogen reduction regulations * * *.             Nevertheless, FSIS
           acknowledged that this additional emphasis has required it to delay
           certain needed improvements in traditional compliance activities.
           FSIS stated that the report comes at an excellent time as it considers
           ways to strengthen its coverage of distribution channels and to assure
           timely and appropriate actions in response to violations that put
           consumers at risk. FSIS also stated that implementation will be
           contingent on available resources.

             FSIS' response to the official draft report is included as exhibit I of the
             audit report.

                                           We agree with FSIS’ response to the
           OIG POSITION                    report. Based on FSIS’ response, we
                                           achieved management decision on five of
                                           the report’s eight recommendations.




Section IV, Page iv                                         USDA/OIG-A/24601-4-At
                                           TABLE OF CONTENTS


EXECUTIVE SUMMARY .......................................................................................... i
   RESULTS IN BRIEF............................................................................................. i
   KEY RECOMMENDATIONS............................................................................... iii
   AGENCY RESPONSE........................................................................................ iv
   OIG POSITION.................................................................................................. iv
INTRODUCTION .................................................................................................... 1
   BACKGROUND.................................................................................................. 1
   OBJECTIVES..................................................................................................... 4
   SCOPE .............................................................................................................. 5
   METHODOLOGY ............................................................................................... 7
FINDINGS AND RECOMMENDATIONS................................................................... 9
   CHAPTER 1 ....................................................................................................... 9
   EFFECTIVENESS OF PLANNED COMPLIANCE REVIEWS AND RANDOM
   REVIEWS COULD BE ENHANCED ..................................................................... 9
   FINDING NO. 1................................................................................................. 10
   RECOMMENDATION NO. 1.............................................................................. 16
   RECOMMENDATION NO. 2.............................................................................. 17
   FINDING NO. 2................................................................................................. 17
   RECOMMENDATION NO. 3.............................................................................. 22
   FINDING NO. 3................................................................................................. 23
   RECOMMENDATION NO. 4.............................................................................. 26
   CHAPTER 2 ..................................................................................................... 27
   FSIS DID NOT HAVE AN EFFECTIVE SYSTEM TO MONITOR CONSUMER
   COMPLAINTS.................................................................................................. 27
   FINDING NO. 4................................................................................................. 27




USDA/OIG-A/24601-4-At                                                                           Section IV, Page v
                                           TABLE OF CONTENTS



   RECOMMENDATION NO. 5.............................................................................. 30
   RECOMMENDATION NO. 6.............................................................................. 31
   CHAPTER 3 ..................................................................................................... 33
   FSIS’ ENFORCEMENT ACTIONS TO DETER REPEAT VIOLATORS
   OF MEAT AND POULTRY INSPECTION LAWS COULD BE IMPROVED
   BY USE OF CIVIL PENALTIES.......................................................................... 33
   FINDING NO. 5................................................................................................. 33
   RECOMMENDATION NO. 7.............................................................................. 41
   CHAPTER 4 ..................................................................................................... 43
   DEO DETERMINED THAT MOST CASES REFERRED BY DISTRICTS WERE
   NOT PROSECUTABLE..................................................................................... 43
   FINDING NO. 6................................................................................................. 43
   RECOMMENDATION NO. 8.............................................................................. 45
   EXHIBIT A – DISTRICT OFFICES VISITED/LIST OF OTHER FSIS OFFICES ...... 49
   EXHIBIT B – PCP AND RANDOM REVIEW FIRMS VISITED............................... 53
   EXHIBIT C – COMPLIANCE ACTIVITY REVIEWED FROM OCTOBER 1,
   1997 THROUGH FEBRUARY 28, 1999.............................................................. 56
   EXHIBIT D – TYPES OF FIRMS........................................................................ 57
   EXHIBIT E – PROCESSING TIMEFRAMES FOR CLOSED VIOLATION
   CASES............................................................................................................. 58
   EXHIBIT F – PROCESSING TIMEFRAMES FOR OPEN VIOLATION CASES
   AS OF SEPTEMBER 30, 1999 .......................................................................... 60
   EXHIBIT G – VIOLATIONS DISCLOSED DURING OIG VISITS........................... 63
   EXHIBIT H – VIOLATION CASES RECEIVED FROM DISTRICT OFFICES
   THAT WERE NOT REFERRED FOR PROSECUTION........................................ 65
   EXHIBIT I – FSIS RESPONSE TO DRAFT REPORT .......................................... 67
ABBREVIATIONS................................................................................................. 75




Section IV, Page vi                                                                   USDA/OIG-A/24601-4-At
                          INTRODUCTION

                                        The Food Safety and Inspection
        BACKGROUND                      Service’s (FSIS) mission is to ensure
                                        that the Nation’s commercial supply of
                                        meat, poultry, and egg products are safe,
          wholesome, and properly labeled and packaged as required by the
          Federal Meat Inspection Act (FMIA), the Poultry Products Inspection
          Act (PPIA), and the Egg Products Inspection Act. Throughout this
          report, we will refer to the cited Acts as meat and poultry inspection
          laws. FSIS’ District Enforcement Operations (DEO) plays a key role
          in carrying out this mission.

           The DEO compliance Investigative Protocols (formerly                  the
           compliance officer’s manual and training guidelines) states that

               DEO policies, procedures, and traditions date from May 1966,
               when meat law investigators and poultry regulatory officers
               were merged into one staff. The formation of a central
               compliance unit was stimulated after a series of scandals
               among non-federally inspected firms received widespread
               publicity. These scandals involved insanitary conditions in
               meat and poultry slaughter and processing facilities, and
               adulteration of meat and poultry products.           The U.S.
               Department of Agriculture (USDA) recognized the need for
               regular and continuing surveillance of the meat and poultry
               industry outside of federally inspected plants. The compliance
               and evaluation staff, as it was known then, was established to
               meet this need by extending regulatory functions carried out in
               inspected plants by food inspectors to compliance officers in
               the meat and poultry allied industries. Non-federally inspected
               firms, such as warehouses, processors, distributors,
               transporters, retailers, and other businesses that handled
               meat and poultry products for human consumption and/or
               animal food, became the working environment of the
               compliance officer.

           In 1995, FSIS restructured its headquarters and field operations to
           focus its resources on Hazard Analysis and Critical Control Point
           (HACCP) system verification tasks, and increase microbial sampling
           and oversight of the transportation, storage, and retail stages of the
           food system. In order to help ensure the successful implementation
           of HACCP, FSIS changed its field operations structure in 1997. This

USDA/OIG-A/24601-4-At                                         Section IV, Page 1
                 restructuring resulted in the formation of 18 district offices from
                 5 area offices in 1997 1. Also, FSIS had 179 compliance officers on
                 board at the time of our review. (See exhibit A for a listing of the
                 district offices and locations.) FSIS officials stated that the new FSIS
                 organization integrates inspection monitoring resources and
                 regulatory enforcement resources into a unified district structure and
                 assigns a new role to compliance officers. Specifically, FSIS uses
                 the training and expertise of compliance officers to assist in-plant
                 inspectors in documenting HACCP failures and to ensure
                 appropriate due process when enforcement actions are needed.

                 DEO, headquartered in Washington, D.C., plans and administers an
                 enforcement and compliance program, which is an integral part of
                 FSIS’ overall farm-to-table safety strategy. DEO’s organizational
                 function statement states that DEO “provides guidance and direction
                 to the 17 district offices relating to the monitoring of businesses
                 engaged in distribution of food products; manages and oversees
                 criminal investigations and case development; and takes appropriate
                 administrative, civil, and criminal sanctions on cases referred from
                 the field.” The district offices conduct compliance reviews to monitor
                 businesses engaged in production, and distribution of food products.
                 The district manager oversees the entire district operations;
                 however, the assistant district manager for enforcement (ADME)
                 directs all compliance reviews.

                 According to DEO’s compliance Investigative Protocols, DEO,
                 through its headquarters, district, and field offices, uses five major
                 approaches to carry out the compliance function. DEO:

                 v Conducts Planned Compliance Program (PCP) reviews to
                   prevent and detect violations in the distribution chain of meat and
                   poultry products.

                 v Conducts random examination of products at various stages of
                   the distribution chain.

                 v Documents meat and poultry inspection law violations and
                   recommends criminal, civil, and administrative sanctions.

                 v Establishes cooperative programs with other Federal, State, and
                   local authorities for product control throughout the distribution
                   chain, and


1
   FSIS currently has 17 district offices due to the July 1999 closure of the Boston, Massachusetts, district
office.

Section IV, Page 2                                                          USDA/OIG-A/24601-4-At
                v Identifies program deficiencies that could result in the distribution
                  of adulterated or misbranded products.

                DEO’s compliance Investigative Protocols state that “either a
                standard (significance 1) or streamline (significance 2 or 3) case can
                be developed against firms that may be in violation of the meat and
                poultry inspection laws. A significance 1 case requires very detailed,
                highly structured formal reports of violations that indicate critical
                impact involving likely harm to consumers, either physical or
                financial. Examples may include (1) gross negligence in handling,
                storage or distribution of meat and poultry products that cause
                contamination or rodent infestation, (2) adulterated product found in
                human       food    channels,    (3)    species      misrepresentation,
                (4) misbranding that would likely bring substantial monetary gain,
                (5) violator(s) engaged in criminal conspiracy, scheme or evasion,
                (6) record of past violations by the firm or principle officer(s)
                suggesting the need for legal action, (7) sale of meat or poultry from
                animals slaughtered without inspections, (8) retail sale of meat or
                poultry in excess of the firm’s dollar limitation, 2 and (9) violations
                involving HACCP failures.”

                “Significance 2 cases are those that indicate a definite violation of
                the meat and poultry inspection laws, but no serious threat to the
                consumer. These are violations where it is unlikely that the product
                would be harmful and there is no serious economic fraud. These
                cases are generally closed with a letter of warning. Examples might
                include (1) transactions involving either non-federally inspected or
                improperly labeled product, (2) small amount of product involved,
                and (3) improper handling of inedible product resulting in opportunity
                for diversion into human food channels.”

                “Significance 3 cases are minor impact cases involving no obvious
                threat to the consumer and only a minor or technical violation of
                meat and poultry inspection laws. In most cases, placing the firm in
                the PCP is sufficient for a first-time occurrence. Examples might
                include (1) reuse of meat or poultry containers bearing the official
                marks of inspection, when there seems to be no intent to
                misrepresent meat or poultry product as inspected and passed,
                (2) inedible meat and poultry product improperly labeled or
                inadequately denatured found in non-human food channels, and
                (3) incidents involving products not consumed by most Americans
                and not apt to be diverted into processed human food products.”

2
  In order to remain exempt from Federal inspection, a retail stores’ annual amount of meat and poultry
product sales to non-household consumers must not exceed a dollar limit established by the FSIS
administrator.

USDA/OIG-A/24601-4-At                                                          Section IV, Page 3
             Detected violations of the meat and poultry inspection laws can
             result in detentions, seizures, letters of warning, letters of
             information, criminal or civil prosecutions, and injunctions.      If
             evidence is found that, an individual or business has engaged in
             violations of the meat and poultry inspection laws, FSIS through the
             Office of the General Counsel (OGC) and/or OIG can refer the case
             to the appropriate U.S. attorney to pursue criminal or civil
             prosecution, seizures, and injunctions.

             From January 1, 1998, through December 31, 1999, FSIS’ quarterly
             compliance activity reports show that the agency detained over
             37 million pounds of meat and poultry products from 1,748 incidents
             of noncompliance with meat and poultry inspection laws. FSIS’ data
             shows that 27.5 million pounds (68 percent) of meat and poultry
             products were related to 731 incidents at 5 district offices. In
             addition, FSIS issued 4,693 letters of warnings, obtained 64 criminal
             actions, had 2 injunctions (currently 29 firms are under injunctions),
             and obtained 4 seizures for violations of the meat and poultry
             inspection laws.

             FSIS also maintains the USDA meat and poultry hotline to which
             consumers may report their concerns regarding meat and poultry
             products. These concerns can involve the unwholesomeness of
             products, or the discovery of product tampering. FSIS’ Office of
             Public Health and Science (OPHS), reviews consumer complaints
             regarding health and safety matters received through the USDA
             meat and poultry hotline and refers specific complaints to DEO for
             their review. Also, specific consumer complaints received through
             OIG’s fraud hotline are referred to DEO. In addition, consumer
             complaints concerning meat and poultry products are received and
             reviewed by the district offices.

             FSIS has a memorandum of agreement with OIG-Investigations.
             This agreement requires FSIS to refer cases meeting specific criteria
             to OIG-Investigations for their investigative determination.

                                       The objective of the audit was to
          OBJECTIVES                   determine whether FSIS’ policies,
                                       procedures, and controls were adequate
                                       to provide an effective compliance
           review program overseeing non-federally inspected firms for the
           purpose of detecting and preventing food safety violations and
           ensuring industry compliance with the provisions of meat and poultry
           inspection laws and regulations.



Section IV, Page 4                                       USDA/OIG-A/24601-4-At
                                       The fieldwork was performed at DEO
            SCOPE                      headquarters in Washington, D.C., at
                                       five judgmentally selected district offices
                                       (Alameda, California; Albany, New York;
           Atlanta, Georgia; Jackson, Mississippi; and Pickerington, Ohio) and
           at five judgmentally selected field offices, one in each of the five
           selected districts (Diamond Bar, California; Jamaica, New York;
           Fort Lauderdale, Florida; Knoxville, Tennessee; and Lexington,
           Kentucky). (See exhibit A.)

           We selected the Alameda, Albany, and Atlanta district offices and the
           Diamond Bar, Jamaica, and Fort Lauderdale field offices based on
           the high level of compliance activities during fiscal year (FY) 1998.
           The Jackson and Pickerington district offices and Knoxville and
           Lexington field offices were selected based on the low level of
           compliance activities and possible staffing-level problems.

           We also visited 90 firms (retailers, custom slaughter facilities,
           warehouses, distributors, etc.) that handle meat and poultry products
           in the 5 selected districts. Fifty-five of the 90 firms were in the PCP.
           These firms were selected because of prior violation(s), repeat
           violations, or the nature of their business.             The remaining
           35 firms were randomly selected and visited. (See exhibit B.)

           The initial fieldwork began in July 1998. In March 1999, the scope of
           the audit was increased from three district offices to five district
           offices. Also, we increased our review and analysis of agency data
           from 2 months to about 2 years. The fieldwork was completed in
           December 1999, and covered compliance activities from October 1,
           1997, through February 28, 1999. We extended our review period
           through September 30, 1999, to review enforcement actions
           pertaining to repeat violators of the meat and poultry inspection laws
           and processing timeframes for standard cases.

           The audit was performed in accordance with generally accepted
           government auditing standards. The auditors examined, on a
           judgmental sample basis, evidence supporting FSIS’ compliance
           activities. (See exhibit C.)

           We assessed (1) the adequacy of action taken in conducting,
           documenting, and resolving standard and streamline cases,
           performing PCP and random reviews, and investigating consumer
           complaints and (2) the maintenance and reliability of recordkeeping
           systems for violation cases and consumer complaints.



USDA/OIG-A/24601-4-At                                          Section IV, Page 5
             v We judgmentally selected 111 of 656 standard and streamline
               cases for review at the 5 district offices visited. We primarily
               selected violations cases for firms that were repeat violators.

             v We also selected 41 of 102 standard cases at DEO headquarters
               that were referred from district offices for further action. The
               41 violation cases were closed or referred to OGC for possible
               prosecution actions as of February 28, 1999.

             v For our analysis of processing timeframes for violation cases, we
               reviewed all 116 standard cases (35 closed and 81 open) at DEO
               headquarters that were referred from district offices for possible
               prosecution action as of September 30, 1999. We relied on
               violation case information obtained from DEO’s headquarters
               database.     However, a cursory review of this information
               disclosed instances of conflicting data or missing dates. We
               obtained missing data from the case files in those instances.

             v We judgmentally selected 5 compliance officers from each district
               office visited (25 in total) and reviewed the 2,085 random reviews
               they conducted over a 6-month period. Selection was based on
               the number of random reviews conducted. At each district, we
               selected some compliance officers who conducted a high number
               of random reviews and some compliance officers who conducted
               a low number of reviews.

             v We also judgmentally selected and reviewed the status of
               57 firms that were on the PCP for the 5 district offices. Our
               selection process placed emphasis on firms with a history of prior
               violations or firms, which, based on the nature of their business
               operations, may lead to violations, such as custom slaughter
               facilities.

             v We identified 858 consumer complaints received by the 5 district
               offices we visited. We did not identify the total number of
               consumer complaints because the five district offices lacked a
               system to document the initial receipt of complaints. We also
               assessed whether all 74 consumer complaints referred by OPHS
               to DEO were assigned to compliance officers and reviewed, as
               appropriate.

             See exhibit C for FSIS’ compliance activity from October 1, 1997,
             through February 28, 1998.




Section IV, Page 6                                      USDA/OIG-A/24601-4-At
                                      To accomplish our audit objectives, we:
       METHODOLOGY

           v Reviewed meat and poultry inspection laws, regulations, policies,
             and procedures;

           v Analyzed the process and supporting documentation for violation
             case reviews, PCP, random reviews, and consumer complaints;

           v Analyzed FSIS’ tracking systems for violation cases and
             consumer complaints;

           v Interviewed FSIS and OGC officials;

           v Obtained and reviewed information regarding DEO’s
             organizational structure, including training and experience of
             compliance staff;

           v Joined compliance officers on their compliance reviews of non-
             federally inspected firms; and

           v Observed and photographed potential violations committed by
             non-federally inspected firms while accompanying compliance
             officers on their compliance reviews.




USDA/OIG-A/24601-4-At                                       Section IV, Page 7
Section IV, Page 8   USDA/OIG-A/24601-4-At
         FINDINGS AND RECOMMENDATIONS

                 EFFECTIVENESS OF PLANNED COMPLIANCE
 CHAPTER 1       REVIEWS AND RANDOM REVIEWS COULD BE
                 ENHANCED

           FSIS’ compliance activities could be enhanced with refinements to
           the existing plan. DEO’s compliance Investigative Protocols, which
           serve as the agency’s plan for conducting compliance reviews and
           preparing violation cases, do not include all the key elements of an
           effective and systematic approach. Of the 14 types of firms FSIS
           has identified as subject to its compliance oversight (see exhibit D),
           FSIS has review steps for only 1—warehouses. Also, compliance
           officers:

           v were not aware of the number of high-risk firms subject to review,

           v did not adequately document compliance reviews and identify the
             scope of work performed,

           v did not follow the same processes at each firm visited, did not
             document minor violations, and in many instances did not
             indicate they reviewed any processes at all,

           v did not plan reviews taking into account the population or
             geographic size of the areas needing review or the risk posed by
             the types of operations in the areas, and

           v did not have timeframes and procedures for monitoring violation
             cases.

           We concluded that FSIS’ plan should identify the number of high-risk
           firms within each district’s jurisdiction, define the scope of
           compliance reviews (what areas to inspect, what record reviews to
           perform, etc.), and establish timeframes and procedures for violation
           cases. The plan should also emphasize the targeting of compliance
           resources to heavily populated areas, those areas that are
           geographically large, and those firms that historically have been
           shown to pose a high-risk to consumer health and safety.



USDA/OIG-A/24601-4-At                                         Section IV, Page 9
                                           FSIS has not identified all high risk firms
       FINDING NO. 1                       within each FSIS district's jurisdiction
                                           that may be subject to a compliance
                                           review, or defined the scope of the
 DEO NEEDS TO IDENTIFY ALL
                                           review to be performed at each type of
 HIGH RISK FIRMS AND BETTER
                                           firm (what areas to inspect, record
   DEFINE THE SCOPE OF ITS
                                           reviews to perform, etc.). No instructions
           REVIEWS
                                           require compliance officers to identify all
                                           firms or provide systematic review
                                           coverage of firms selected for review.
          Several DEO officials stated that more defined instructions would
          restrict their flexibility for conducting these reviews. However, under
          existing review plans, compliance officers risk letting some firms go
          uninspected while providing inadequate coverage of some firms
          visited.

             FSIS conducts both planned compliance program (PCP) reviews, as
             well as random reviews of firms to detect and prevent violations of
             meat and poultry inspection laws. PCP reviews are planned reviews
             conducted of firms that previously violated meat and poultry
             inspection laws, or lend themselves to possible violations. Random
             reviews are generally carried out through unannounced visits to
             firms. A typical compliance review may include, but is not limited to,
             review coverage of areas such as product inventory, product
             handling, pest management, housekeeping, and record retention.
             FSIS has identified 14 types of firms that process or handle meat
             and poultry products for which it has compliance oversight
             responsibility. (See exhibit D.)

             In reviewing the universe of firms subject to FSIS compliance
             reviews, we determined that districts were not aware of all firms
             within their jurisdictions. FSIS Directive 8100.1, Rev. 1, dated April
             2, 1993, provides that the purpose of the PCP review is to obtain and
             maintain current data on handlers of meat and poultry products.
             However, compliance officers for the five districts reviewed were not
             aware of the number of high-risk firms in their districts that were
             subject to compliance reviews. Consequently, it is possible that not
             all high-risk firms are being reviewed. (Our review also determined
             that not all high-risk firms known to FSIS were being reviewed. See
             Finding No. 2).

             State and local agencies (such as business licensing offices) could
             serve as reliable sources to obtain universe information regarding
             firms that handle meat and poultry products.

Section IV, Page 10                                        USDA/OIG-A/24601-4-At
           We reviewed 2,085 random reviews and 57 PCP reviews performed
           by compliance officers in 5 district offices, and we joined compliance
           officers on 55 PCP reviews and 35 random reviews of meat and
           poultry firms. For the compliance reviews already performed,
           supporting documentation was insufficient and did not identify the
           scope of the reviews. We also noted some inconsistencies in the
           coverage provided by the compliance officers we joined on the
           compliance reviews.

           During our review, we found the following.

           a. Review Steps Were Not Documented

              FSIS has not implemented operating procedures to establish
              documentation requirements for random reviews. Compliance
              officers typically documented their random reviews by notating
              “NNC” on their daily activity reports, which signified “no
              noncompliance” if no violation was identified. If a violation was
              identified, the compliance officer documented a brief description
              of the violation(s). However, from this documentation, we were
              unable to determine the scope and methodology used to conduct
              the reviews. For example:

              In the Pickerington, Ohio, district office, we found that compliance
              officers often documented only the name of the firm and a contact
              person to serve as the record of the random review if no
              deficiency was identified. One compliance officer we reviewed
              performed a total of 219 random reviews during the period of
              September 1, 1998, through February 28, 1999. The compliance
              officer documented only “NNC” and the name of the firm and the
              contact person for 181 of the 219 random reviews he conducted
              which had no deficiencies.

              In the Albany, New York, field office, we reviewed 1,022 random
              reviews conducted by two compliance officers from September 1,
              1998, through February 28, 1999. We were unable to identify the
              review steps performed by the two compliance officers, including
              meat and/or poultry inventory observations and record reviews.
              The compliance officers did not document whether assessments
              of controls relative to product storage and handling, pest
              management, and housekeeping were made.                  Without
              documentation of the reviews, there was no record that key
              components of the reviews were performed.



USDA/OIG-A/24601-4-At                                        Section IV, Page 11
                Of the 57 PCP’s we reviewed, the majority of firms had at least
                one previous violation. Although the PCP reviews generally
                contained more documentation than the random reviews, the
                compliance officers seemed to focus only on the issue(s) relative
                to the previous violation(s) committed by the firms.
                Consequently, we could not determine the extent of the reviews,
                even when violations were identified.

                DEO’s compliance Investigative Protocols for random reviews
                need improvement by requiring compliance officers to perform
                specific review steps at firms. Although a detailed report may not
                be necessary when no violations are identified, the use of a
                checklist to document that sufficient review steps are performed,
                along with a compliance officer certification, would better assure
                that an adequate review was conducted.

            b. Inconsistencies In Review Coverage

                Scope of compliance reviews needs to be better defined.
                Compliance officers did not always review the same processes at
                similar firms, did not document streamline cases for minor
                violations and in many cases, did not indicate that they reviewed
                any processes at all. Although FSIS does have review steps for
                conducting compliance reviews of warehouses, it has not
                developed similar review steps for the other 13 types of firms
                subject to review.

                We noted some inconsistencies in review coverage by several
                compliance officers we joined on the 55 PCP reviews and the
                35 random reviews.

                The following table summarizes the number of visits made in
                each of the five field offices visited.

           Table 1: Number of Compliance Reviews Attended by OIG

                 District               Field         Number of        Number of
                  Office               Office        PCP reviews     Random Reviews
            Alameda, CA        Diamond Bar, CA                  11                 6
            Albany, NY         Jamaica, NY                      14                 5
            Atlanta, GA        Fort Lauderdale, FL              10                 7
            Jackson, MS        Knoxville, TN                     9                 8
            Pickerington, OH   Lexington, KY                    11                 9
                                                                55                35

                For example, during our visits to meat and poultry firms in the
                Fort Lauderdale, Florida, area, the compliance officer examined

Section IV, Page 12                                       USDA/OIG-A/24601-4-At
              (1) storage areas (e.g., coolers/freezers, shelves), (2) processing
              areas, and (3) records for meat and poultry products at each firm.

              However, during our visits to two firms located in the Lexington,
              Kentucky, area, the compliance officer did not examine meat and
              poultry products stored in the coolers/freezers. Both firms were
              in the PCP due to previous violations for preparing and selling
              non-federally inspected meat products. During a subsequent visit
              to one of the firms, the compliance officer noted that the firm was
              preparing and selling a meat-based chili that had not been
              inspected. Because of these previous violations, we concluded
              that the compliance officer should have at least examined the
              products in the coolers/freezers. The two compliance officers
              had comparable years of experience.

              Also, during our visits we found that compliance officers did not
              follow FSIS’ policy to document streamline cases for minor
              violations of the meat and poultry inspection laws. For example,
              on June 30, 1999, we joined a compliance officer from the
              Diamond Bar, California, field office on a compliance review of a
              food distributor. The compliance officer found four packages of
              unlabeled meat products in a storage cooler. The products were
              stored with other meat products that were being offered for sale.
              The owner stated that the unlabeled products were not for sale
              and he intended to return them to the supplier. The owner then
              voluntarily destroyed the four packages of unlabeled meat
              products in our presence. However, the compliance officer did
              not document a streamline case for this violation. DEO’s
              compliance Investigative Protocols stipulate that a streamline
              case (significance 2) should be documented for transactions
              involving either non-federally inspected or improperly labeled
              products. FSIS previously issued a LOW to this firm on March
              11, 1999, for reuse of containers bearing the official marks of
              meat and poultry inspection, without removing or defacing the
              marks in question.

              FSIS officials stated that the compliance officer handled this
              situation in accordance with its policy because the compliance
              officer did not find evidence that adulterated or misbranded
              product was prepared, transported, or offered for sale. However,
              we concluded that the compliance officer should have
              documented a streamline case because of this firm’s history of
              violations and the fact that unlabeled product was stored among
              other products being offered for sale.



USDA/OIG-A/24601-4-At                                       Section IV, Page 13
                In addition, the compliance officer recommended that the firm
                remain in risk category 2. Risk category 2 criteria includes
                (1) violation(s) of the meat and poultry inspection laws by the firm
                within the past 12 months, (2) indications that the firm has placed
                unsound meat, meat food products, poultry, or poultry products
                into human food channels within the past 12 months, or (3) past
                operations of the firm demonstrate that they constitute a constant
                or intermittent risk in regard to 1 and 2 above.

                We joined another compliance officer assigned to the same field
                office on a compliance review of a processor/retailer on June 29,
                1999. The compliance officer observed 29 pounds of beef
                products that were dark in color and had evidence of slime. The
                meat products were located in a cooler/freezer along with other
                meat products that the firm was planning to process. The owner,
                in the presence of the compliance officer and OIG auditors,
                voluntarily denatured the products. However, the compliance
                officer did not document a streamline case for this violation.
                DEO’s compliance Investigative Protocols stipulate that a
                streamline case (significance 2) should be documented for
                improper handling of inedible product resulting in opportunity for
                diversion into human food channels.

                FSIS officials stated that the product was not in the retail display
                area and no evidence of preparation, transportation, or sale of the
                product was found. Also, FSIS officials stated that the product
                was properly controlled and the compliance officer notified the
                county health department that had primary jurisdiction over
                sanitation and product handling for this retail exempt firm. We
                concluded that a streamline case should have been documented
                for this violation because the firm could have processed the meat
                for its retail business if the compliance officer had not disclosed
                the violation. Also, the county health department was contacted
                regarding the poor sanitation problems, not the improper handling
                of the 29 pounds of inedible meat product.

                In another example, we joined a compliance officer assigned to
                the Lexington field office on a PCP review of a meat and poultry
                distributor on June 24, 1999. At this firm, we observed the reuse
                of boxes (re-boxing broken bulk) bearing the official marks of
                inspection for shipment of meat and poultry products to retail
                stores. This was a violation of meat and poultry inspection laws.
                The compliance officer discussed the defacement of the empty
                boxes with the firm’s management. However, the compliance
                officer recommended that the firm be placed on inactive PCP

Section IV, Page 14                                       USDA/OIG-A/24601-4-At
              status (this would cease reviews) even though an official of the
              firm admitted to the violation.

              FSIS officials stated that the compliance officer handled this
              situation correctly and in accordance with its policy. However,
              two different compliance officers from the same district developed
              two streamline cases on two separate occasions against another
              firm for reusing shipping boxes that bore the official marks of
              inspection. FSIS officials also stated that the compliance officer
              did not observe used boxes bearing the inspection legend being
              used to pack un-inspected meat products.

              According to 9 Code of Federal Regulations, Chapter III, Part
              317.10, paragraph (a) states that no official inspection legend or
              other official mark which has been previously used shall be used
              again for the identification of any product, except as provided for
              in paragraph (b) of this section. Paragraph (b) states that all
              stencils, marks, labels, or other labeling on previously used
              containers, whether relating to any product or otherwise, shall be
              removed or obliterated before such containers are used for any
              product, unless such labeling correctly indicates the product to be
              packed therein and such containers are refilled under the
              supervision of a program employee. This regulation is applicable
              to inspected products.

              According to DEO’s compliance Investigative Protocols for
              significance 3 cases a streamline case should have been
              documented for the “reuse of meat or poultry containers bearing
              the official mark of inspection, when there seems to be no intent
              to misrepresent meat or poultry products as inspected and
              passed.” In addition, an ADME from another district office
              advised us that it would be improper for a firm to reuse boxes
              without defacing the official marks of inspection even if the meat
              or poultry product was federally inspected. We concluded that
              this firm should have been cited for the violation.

              We also found that several compliance officers made
              questionable determinations regarding what constitutes a random
              review. For example, we joined a Fort Lauderdale, Florida,
              based compliance officer on a compliance review of a laundry
              equipment business. The compliance officer counted this visit on
              his daily activity report as a random review. FSIS officials stated
              that the compliance officer was following up on a firm that had a
              history of non-compliance due to activity observed at the address.
              FSIS officials also stated that this type of visit is within their broad

USDA/OIG-A/24601-4-At                                           Section IV, Page 15
                definition of a random review. We concluded that this visit should
                not had been counted as a random review for the following
                reasons (1) the compliance officer did not perform a review, he
                only conversed with the owner and (2) the firm did not handle
                meat or poultry products (the compliance officer noted on his
                daily activity report that this location was formerly occupied by a
                firm that handled meat and poultry products).

            Further, in May 1999, our review of a compliance officer’s daily
            activity report from the Albany, New York, district revealed that he
            counted, as a random review, a visit to a retail firm (sandwich shop)
            even though the owner did not allow him to review the firm. FSIS
            officials advised that the compliance officer, who had been refused
            entry into the sandwich shop on September 4, 1998, took credit for
            the review in error.

            A DEO official stated that DEO’s compliance Investigative Protocols
            provide the necessary guidelines for the effective and consistent
            execution of prescribed enforcement activities. We found that DEO’s
            compliance Investigative Protocols describe how to document
            internal FSIS forms upon conducting a compliance review, but they
            do not provide sufficient instruction for compliance officers to identify
            all high-risk firms in their jurisdictions or what storage and product
            areas to examine, which records to review, etc.

            We concluded that FSIS should enhance its existing plan by
            improving its systematic approach to its compliance reviews. The
            plan should be enhanced to (1) define the universe (number) of high-
            risk firms subject to compliance reviews in each district and
            (2) standardize the scope of reviews to identify what should be
            reviewed, record reviews to perform, etc.

                                         Enhance FSIS’ existing plan by
  RECOMMENDATION NO. 1                   improving the process to identify and
                                         review high-risk firms that handle meat
                                         and poultry products.

            FSIS Response

            FSIS agrees with the recommendation to enhance its existing plan
            by improving the process to identify and review high-risk firms. FSIS
            stated that it would proceed with these enhancements to its plan and
            prioritize its efforts consistent with available resources. A revised
            plan will be completed by October 2000.



Section IV, Page 16                                       USDA/OIG-A/24601-4-At
            OIG Position

            We accept FSIS’ management decision for this recommendation.

                                   Enhance and refine FSIS’ existing plan
  RECOMMENDATION NO. 2             by incorporating prescribed review steps
                                   for conducting compliance reviews for
                                   each of the 14 types of firms the agency
        oversees (FSIS has review steps for warehouses). The plan should
        also include a review checklist along with a compliance officer’s
        certification statement that the appropriate review steps were
        performed.

            FSIS Response

            FSIS agrees with the recommendation to work towards standardizing
            the scope of compliance reviews while preserving adequate flexibility
            to allow compliance officers to utilize their professional judgment and
            technical expertise to act on issues that are unusual or unique. FSIS
            stated that it will develop better methods to standardize compliance
            reviews, such as enhancing its Investigative Protocols by including
            detail descriptions of critical areas to review for high-risk business
            types. FSIS also stated that it will establish a review policy to assure
            that personnel follows all critical procedures. FSIS further stated that
            this process will be completed by December 2002.

            OIG Position

            We agree with FSIS' proposed action.              However, to reach
            management decision, FSIS needs to amend its December 2002
            completion date to comply with Departmental Regulation (DR) 1720-
            1, which requires final action within 1 year of management decision.

                                       DEO does not target its resources to
      FINDING NO. 2                    provide appropriate coverage of major
                                       metropolitan and geographical areas and
                                       high-risk firms. No procedures require
DEO NEEDS TO BETTER TARGET
                                       DEO to plan its reviews according to
      ITS RESOURCES
                                       such a strategy, even though the recent
                                       restructuring of FSIS, which centralized
                                       many of its compliance officers away
         from locations that need greater coverage, requires targeting to
         ensure the appropriate reviews are performed. In the absence of
         targeted coverage, those areas and firms with a greater frequency of
         violations are receiving a lesser frequency of reviews. In the State of

USDA/OIG-A/24601-4-At                                          Section IV, Page 17
            New York, for example, violations were found during only 2 percent
            of the 1,167 random reviews performed upstate, while in New York
            City itself, violations were found during 25 percent of the 89 random
            reviews performed there.

            Once DEO establishes an accurate universe of high-risk firms (see
            Finding No. 1), it should emphasize that districts need to target their
            resources to ensure coverage is provided proportionately throughout
            major metropolitan and geographical areas, and that reviews of
            areas and firms are commensurate with the risks they have
            historically posed to consumers’ health and safety.

            FSIS officials stated that it needs additional funding and resources to
            fill critical vacancies in major metropolitan and geographical areas.
            FSIS officials advised that its employment ceiling for compliance
            officers is 179. However, based on a DEO assessment, they need
            245 compliance officers to fulfill their compliance function. FSIS
            officials also stated that it should continue to enhance its assessment
            of allocating and adjusting available staffing resources in response to
            changing levels of activity.

            FSIS officials estimate there are 1 million firms that handle meat and
            poultry products. In addition, FSIS officials advised that with the
            implementation of HACCP, the role of the compliance officer has
            expanded; specifically, to assist in-plant inspectors in documenting
            HACCP failures and to ensure appropriate due process when
            enforcement actions are needed. FSIS officials also advised that
            compliance officers are used to investigate foodborne illness
            outbreaks and to monitor judicial decrees and orders.

            a.   FSIS’ Compliance Review Coverage May Not Be Sufficient In
                 Certain Major Metropolitan and Geographical Areas

                 FSIS needs to assess its review coverage in certain major
                 metropolitan and geographical areas.            In 1997, FSIS
                 reorganized from 5 area offices to 18 district offices (there are
                 currently 17 district offices) nationwide. (See exhibit A.) FSIS
                 officials stated that the agency is now more geographically
                 flexible with the establishment of the district office structure.
                 However, we found that FSIS needs to assess its coverage in
                 certain major geographical areas.

                 For instance, the Pickerington, Ohio, district had seven
                 compliance officers and compliance oversight responsibility over
                 the States of Ohio, Kentucky, and West Virginia. However, the

Section IV, Page 18                                      USDA/OIG-A/24601-4-At
              Pickerington district had compliance officers based in Ohio and
              Kentucky, but not in West Virginia. As a result, West Virginia
              received the least compliance review coverage. Compliance
              officers performed 587 random reviews between September 1,
              1998, and February 28, 1999, of which 486 reviews were in Ohio
              and 87 reviews were in Kentucky. However, only 14 random
              reviews were performed in West Virginia within this same
              6-month period. Ten of the 14 random reviews occurred over a
              2-day span, September 29 and 30, 1998.

              We also found that only nine firms in West Virginia were
              undergoing PCP reviews. (Ohio had 134 firms and Kentucky
              had 36 undergoing PCP reviews.) During 1998, West Virginia
              had a reported foodborne illness at an elementary school. The
              ADME acknowledged that there was a need for better
              compliance coverage in West Virginia.             He stated that
              compliance officers go there only for mission-critical purposes.

              Also, a compliance officer from the Pickerington, Ohio, field
              office stated that it takes 6 hours to commute one way to some
              parts of West Virginia. The 6-hour commute may be significant
              because it could require overnight lodging. ADME’s from the five
              district offices all expressed concerns regarding the availability of
              travel funds for compliance activities.

              Likewise, the Jackson, Mississippi, district, which had six
              compliance officers and compliance oversight responsibility over
              the States of Mississippi, Tennessee, and Alabama, provided
              minimal compliance coverage in the Memphis, Tennessee, area
              (the heaviest populated city in the district).        The nearest
              compliance officer to Memphis was located approximately
              3 hours away in Nashville, Tennessee. There were no random
              reviews performed in Memphis between September 1, 1998, and
              February 28, 1999. The area compliance case report showed
              only one violation case in Memphis. The violation case had a
              case date of April 1997, which was prior to the reorganization
              from the area offices to district offices. Also, at the time of our
              review, there was only one compliance officer responsible for
              covering the entire State of Mississippi. Only two compliance
              officers were responsible for the entire State of Alabama. The
              three compliance officers combined conducted only 35 random
              reviews between September 1, 1998, and February 28, 1999.

              The Atlanta, Georgia, district had 17 compliance officers and
              compliance oversight responsibility over the States of Georgia

USDA/OIG-A/24601-4-At                                        Section IV, Page 19
                and Florida, the Commonwealth of Puerto Rico, and the
                Virgin Islands. We found that the three compliance officers were
                primarily responsible for reviewing north and central Georgia,
                including metropolitan Atlanta, performed only three random
                reviews between September 1, 1998, and February 28, 1999.
                Forty-two violation cases were identified in Georgia between
                October 1, 1997, and September 30, 1999. Twenty-two of those
                (52 percent), occurred in metropolitan Atlanta.

                In addition, we found that the two compliance officers in the
                Tallahassee, Florida, field office, who are responsible for
                northern Florida and South Georgia, performed only two random
                reviews in South Georgia between September 1, 1998, and
                February 28, 1999. Also, the two compliance officers did not
                perform any random reviews in Valdosta, Georgia; Panama City,
                Florida; and Pensacola, Florida during the same period.

            b. Review Coverage Needs To Be Targeted At High-Risk Areas

                We found that FSIS’ overall plan or strategy to target high-risk
                areas needs improvement. For example, the New York City area
                has a high concentration of custom exempt slaughtering
                facilities.

                Historic data shows that for the Albany, New York, district, the
                majority of the standard and streamline cases were disclosed in
                the New York City metropolitan area. In comparison, the Albany,
                New York, area had far fewer violations. However, compliance
                officers assigned to the Albany, New York, field office performed
                1,260 random reviews between September 1, 1998, and
                February 28, 1999, while compliance officers assigned to the
                New York City metropolitan area (Jamaica, New York and
                Bogota, New Jersey) performed only 162 random reviews.

                In addition, our analyses of compliance reviews conducted by
                five compliance officers assigned to the Albany, New York,
                district showed that three of the five compliance officers from the
                Albany, New York, field office performed 1,167 random reviews
                and identified violations at 20 firms (2-percent). In contrast, two
                compliance officers from the Jamaica, New York, field office
                performed 89 random reviews and identified violations at
                22 firms (25-percent). This data indicates that FSIS may have a
                greater need for compliance activity in the New York City
                metropolitan areas as opposed to the Albany, New York, area
                where violations appear to be less prevalent.

Section IV, Page 20                                      USDA/OIG-A/24601-4-At
                     c. Review Coverage Also Needs To Be Targeted To High-Risk
                        Firms

                          We found that FSIS may need to target their compliance reviews
                          at high-risk firms. We found that transporters, warehouses, and
                          processors could be considered as high-risk firms.          We
                                                         3
                          characterize a high-risk firm as one that (1) handles large
                          volumes of meat and poultry products that may be one or two
                          distribution levels from the household consumer and/or
                          (2) exposes large groups of consumers to meat and poultry
                          products when the consumers may have factors (age, health,
                          limited options, etc.) that make them more susceptible to
                          foodborne illness and/or injury.

                          We reviewed 2,085 random reviews in the 5 district offices
                          conducted by 25 compliance officers between September 1,
                          1998, and February 28, 1999. Fewer random reviews were
                          performed at transporters, warehouses, and processors. We
                          concluded that FSIS should assess the need for increased
                          coverage of these types of firms. The following table provides
                          the number of reviews performed at these types of firms.

               Table 2: FSIS’ Least Reviewed Firms
                                 NUMBER OF
                DISTRICT         COMPLIANCE
                OFFICE           REVIEWS              PROCESSORS          TRANSPORTERS          WAREHOUSES
                Alameda                    188                15                     3                   5
                Albany                   1,256                12                    34                  10
                Atlanta                     76                 2                     0                   3
                Jackson                    156                 6                     0                   3
                Pickerington               409                 8                     1                   3
                TOTAL                    2,085                43                    38                  24

                          We also found that firms such as schools, senior citizen and
                          childcare centers and homes, hospitals, correctional institutions,
                          and military bases may be considered as high-risk because of the
                          nature of their operations. These firms serve meat and poultry
                          products to large numbers of people on a daily basis. We found
                          that only a few of these types of firms were in the PCP. The table
                          on the following page shows the number of these types of firms
                          that had active status in the PCP at the time of our fieldwork.




3
    Our definition for high-risk firms was solely based on our observations during the audit.

USDA/OIG-A/24601-4-At                                                                   Section IV, Page 21
Table 3: FSIS’ Least Reviewed Firms that Serve Food Directly to Consumers
                   UNIVERSE                   CHILD/ADULT
                   OF PCP                     CARE CENTERS/                                      CORRECTIONAL              MILITARY
DISTRICT           FIRMS 1/           SCHOOLS HOMES                           HOSPITALS          INSTITUTIONS              BASES
Alameda                     496             2             0                           3                        1                   1
Albany                   1,072              3             9                          10                       12                   5
Atlanta                     510             2             0                           1                        7                  10
Jackson                     231             1             0                           4                        3                   5
Pickerington                179             0             0                           3                        3                   0
Total                    2,488              8             9                          21                       26                  21
1/
     This information was obtained during the audit fieldwork for the respective district offices between March 1999, and August 1999.


                          A review of violation cases and consumer complaints disclosed
                          that adulterated products had reached firms such as schools,
                          senior citizen and childcare centers and homes, correctional
                          institutions, and military bases. For example, a firm prepared and
                          sold more than 2 million pounds of adulterated and/or
                          unwholesome products that reached 34 states, including schools
                          located in Mississippi and West Virginia. The products caused
                          injury/illness to some consumers, and as a result, were recalled.
                          Another firm prepared and sold adulterated, off-condition (putrid),
                          and/or noncompliance products to a school district in Florida, a
                          correctional institution in Texas, and a military base in Puerto Rico.
                          More of these types of firms should be on the PCP because of the
                          large number of people they serve meat and poultry products on a
                          daily basis, along with the age factors and health concerns of the
                          elderly and children.

                    We concluded that FSIS needs to emphasize the targeting of reviews
                    to large metropolitan and geographical areas and firms that pose a
                    high-risk to consumer health and safety. We are recommending that
                    FSIS enhance their existing plan to emphasize these risks.

                                                             Enhance FSIS’ existing plan to
     RECOMMENDATION NO. 3                                    emphasize the targeting of resources to
                                                             large metropolitan and geographical
                                                             areas and to high-risk firms with a history
                    of violations.

                    FSIS Response

                    FSIS agrees that there is a need to improve systems for allocating
                    resources more effectively. FSIS stated that its improved system will
                    include factors such as geographical size, administrative workload,
                    level of State and local cooperation, population density, case
                    documentation, and complexity/density of federally-inspected
                    establishments. FSIS stated that successful implementation of this

Section IV, Page 22                                                                 USDA/OIG-A/24601-4-At
             system will assure that the most critical locations are adequately
             staffed. FSIS expects to complete this activity by December 2002.

             OIG Position

             We agree with FSIS’ proposed action.         However, to reach
             management decision, FSIS needs to amend its December 2002
             completion date to comply with DR 1720-1, which requires final
             action within 1 year of management decision.

                                       DEO’s         compliance       Investigative
       FINDING NO. 3                   Protocols   does  not have  timeframes  and
                                       procedures for monitoring and tracking
                                       the progress and completion of violation
   DEO NEEDS TO ESTABLISH
                                       cases at its headquarters, district, and
 TIMEFRAMES FOR PROCESSING
                                       field office levels. FSIS officials stated
        CASE REVIEWS
                                       that     prescribed    timeframes      could
                                       interfere with the quality of the
                                       processing;      consequently,     it    left
          timeliness of processing to the discretion of each level involved. We
          found that FSIS could enhance its existing plan with procedures for
          monitoring and tracking the timeframes for processing violation
          cases. In the absence of established timeframes, cases may
          encounter lengthy delays. In one 2-year-old case in which putrid
          meat was delivered to a child care center, a letter of warning to the
          meal caterer was drafted and forwarded to headquarters for review,
          but as of the date of our audit, it has not been issued.

             Each district office maintained a database for standard and
             streamline cases. The district offices forwarded these cases to DEO
             headquarters when their involvement was warranted (review of
             prosecution case, etc.). Headquarters maintains a database for
             cases forwarded to them by the district offices.

             Between October 1, 1997, and September 30, 1999, DEO
             headquarters’ “Evaluation and Enforcement Division Case Tracking
             System” showed 116 violation cases that were forwarded to them by
             the district offices for possible prosecution or other enforcement
             actions. DEO headquarters took the following enforcement actions
             on these cases (1) referrals for prosecution, (2) letters of warnings or
             similar letters, and (3) referral to the States for sanctions. For
             several cases, no action was taken.

             Of the 116 prosecution cases forwarded to DEO headquarters,
             35 were closed and 81 were still open as of September 30, 1999. To

USDA/OIG-A/24601-4-At                                           Section IV, Page 23
            process the 35 closed cases, headquarters and the district offices
            took an average of 249 days. The cases were closed with either a
            letter of warning or similar letter issued to the firm, referral to the
            appropriate State for administrative action, or no action at all. These
            cases remained in the districts an average of 121 days before being
            submitted to DEO headquarters, which took an average of an
            additional 127 days to complete the case reviews and take
            enforcement actions. (See exhibit E.)

            The remaining 81 cases that were still open, had been open an
            average of 395 days through September 30, 1999. These cases
            were in various stages of being reviewed by DEO headquarters staff.
            The cases had been in the districts an average of 182 days before
            being submitted to DEO headquarters, where they averaged
            213 days in open status. (See exhibit F.)

            FSIS officials stated that it would be inappropriate to prescribe
            timeframes for each phase since quality and completeness are
            dependent on adequate time. We found that the number of days
            these cases have remained open indicate that FSIS’ existing plan
            could be enhanced if they set goals and track the time it takes to
            process the cases. We identified two serious instances where
            inadequate monitoring resulted in lengthy delays in completing the
            cases.

            v On February 10,1998, the executive director of a childcare center
              in West Palm Beach, Florida, made a consumer complaint
              (referred to DEO through a USDA official from Washington, D.C.)
              that meals were received from a catering company to serve about
              71 children contained “off condition” (putrid) meat products. This
              catering company also had contracts to provide meals to four
              senior citizen centers. The same day the childcare center
              received the putrid meals, 50 individuals became ill after
              consuming meals provided by the same caterer at the 4 senior
              citizen centers.

                FSIS initiated a case review on February 13, 1998. A compliance
                officer observed putrid meat products received from the same
                catering company on a subsequent visit to the childcare center.
                Additionally, the Florida Department of Health was notified and
                reported that laboratory results were inconclusive and did not
                explain the outbreak, but it did say that the outbreak was
                consistent with Bacillus cereus food poisoning. In June 1998, the
                Atlanta, Georgia, district office drafted a letter of warning
                addressed to the firm. However, the letter was never issued.

Section IV, Page 24                                      USDA/OIG-A/24601-4-At
              According to FSIS officials, since the letter addresses alleged
              violations that pertain to a catering company which could qualify
              for an exemption e.g., as a retail store or restaurant under the
              FMIA, PPIA, and applicable regulations, it was sent to DEO for
              review. As of January 11, 2000, almost 2 years later, no action
              has been taken regarding this case.

              The lack of action is especially serious because the owners of the
              catering company also owned a federally inspected plant, an in-
              house catering facility, and five other satellite catering facilities.
              These satellite catering facilities had also contracted with the
              Florida Department of Health, Child Care Food Service Program,
              Meals on Wheels, and other government-sponsored feeding
              programs to provide meals.          An official from the catering
              company commented that they feed over 5,000 people per day at
              40 centers.

              FSIS officials advised that their investigation did not document a
              health or safety violation of USDA statues and the pathogen in
              question is not likely to be related to a FSIS source. Further,
              FSIS officials stated that their concern for the health and safety of
              consumers was brought to the attention of the catering company
              during the investigation and by telephone conversations with the
              Atlanta, Georgia, district office. In addition, FSIS stated that the
              Florida Department of Health’s April 16, 1998, report pertaining to
              the illnesses of the 50 individuals was provided to the catering
              company. Further, FSIS officials stated that their report did not
              support any enforcement action.

           v In another instance, a school district was the source of a
             complaint, referred to FSIS that reported a federally inspected
             plant delivered them “beef patties” that had a “strong, rancid odor,
             along with shrinkage, moisture, and fat.” The beef patties,
             approximately 31,000 pounds, were supposed to be of a single
             ingredient product, but were also found to contain other
             undeclared ingredients, such as chicken and soy. The product
             was returned to the plant between September and December
             1997. The plant extended credit memos to the school district as
             resolution for the incident.

              Approximately one year later, in November 1998, this same plant
              prepared, sold, and transported to the U.S. Department of Justice
              700 pounds of beef cubed steaks that were soured. We were
              told by the compliance officer that the 700 pounds of products
              were destroyed under his supervision. Less than 5 months later,

USDA/OIG-A/24601-4-At                                         Section IV, Page 25
                (in March 1999, under a U.S. Department of Defense contract)
                the plant filled a top sirloin butt steak order with beef round
                knuckle steak. A USDA Agricultural Marketing Service official
                reported that the beef knuckle steak commanded a significantly
                lower price in the market. As of January 11, 2000, FSIS was still
                processing this case. FSIS officials stated that the actions taken
                to date are monitoring product disposition and investigations as to
                why the product emitted a strong, rancid and sour odor or was
                misbranded.

            We concluded that FSIS needs to establish procedures to monitor
            and track the timeframes for processing and completion of violation
            cases.

                                    Define     effective  and     meaningful
  RECOMMENDATION NO. 4              timeframe guidelines for monitoring and
                                    tracking the progress and completion of
                                    violation cases. Establish procedures for
        tracking those timeframes such as investigative time, documentation
        time, supervisory review time, headquarters review time, etc.

            FSIS Response

            FSIS agrees that much benefit would be derived from monitoring and
            tracking process timeliness associated with the investigation and
            review of violation cases. FSIS is reviewing a database system to
            track the process timeliness of violation cases from predication to
            referral to the U.S. attorney. FSIS stated that its new system will be
            fully operational prior to FY 2001.

            OIG Position

            We accept FSIS’ management decision for this recommendation.




Section IV, Page 26                                      USDA/OIG-A/24601-4-At
                  FSIS DID NOT HAVE AN EFFECTIVE SYSTEM TO
CHAPTER 2
                  MONITOR CONSUMER COMPLAINTS

                                          FSIS did not have an effective system to
        FINDING NO. 4                     monitor consumer complaints. FSIS is
                                          responsible for reviewing consumer
                                          complaints received through the USDA
           meat and poultry hotline, the OIG fraud hotline, and directly to its
           headquarters, district, and field offices. However, DEO’s compliance
           Investigative Protocols for consumer complaints do not prescribe a
           method for monitoring. As a result, FSIS could not provide reliable
           information concerning the number, status, and disposition of all
           consumer complaints received by its offices. After an extensive
           record review, we identified 858 consumer complaints for the five
           district offices we visited. FSIS has no assurance that all consumer
           complaints were reviewed and appropriately resolved. Also, the
           5 district offices visited had no record of receipt or followup action on
           16 consumer complaints (22 percent of the 74 complaints) referred
           to them by OPHS that was received through the USDA meat and
           poultry hotline.

           Consumer complaints may involve the discovery of unwholesome
           meat and poultry products, or they may disclose incidents of product
           tampering.     DEO’s compliance Investigative Protocols provide
           guidance on where to forward specific types of consumer complaints
           for followup and completion of supporting documents, but they do not
           address monitoring by headquarters, district, or field offices. Further,
           these offices were not required to maintain a log or other record of
           consumer complaints received. Also, the district and field offices
           were not required to keep DEO headquarters or some designated
           centralized location informed of all consumer complaints received
           and the results of reviews conducted.

           Consumers may report their concerns regarding meat and poultry
           products in several ways (1) over the USDA meat and poultry
           hotline, (2) over the OIG fraud hotline, or (3) directly to DEO
           headquarters, districts, or field offices. Agencies such as the Food
           and Drug Administration and local health departments also are
           sources for reporting complaints that are forwarded to FSIS.

           For consumer complaints received through the USDA meat and
           poultry hotline, OPHS is responsible for forwarding certain
           complaints to DEO for review. Consumer complaints received
           through the USDA meat and poultry hotline involving foreign objects

USDA/OIG-A/24601-4-At                                          Section IV, Page 27
                should be referred to DEO. Consumer complaints involving product
                tampering should be referred to OIG for review.               Consumer
                complaints made directly to the OIG fraud hotline are reviewed by
                OIG-Investigations and either investigated (e.g., product tampering)
                or referred to FSIS for handling. District and field offices also initiate
                reviews of those consumer complaints made directly to them.

                DEO did not have an effective system in place to monitor consumer
                complaints received by district and field offices. With the exception
                of those consumer complaints referred to DEO by OPHS that came
                through the USDA meat and poultry hotline and those complaints
                referred by OIG received through the fraud hotline 4, DEO could not
                readily identify all consumer complaints received.            A DEO
                headquarters official informed us that consumer complaints received
                directly by his office are referred to the applicable district or field
                office for handling. However, headquarters did not maintain a
                system to record the initial receipt of consumer complaints and thus
                did not have the means to monitor all consumer complaints

                We encountered similar problems at the district and field offices
                visited. The district offices forwarded consumer complaints received
                to the applicable field offices for followup without documenting
                receipt of the complaint. None of the five district offices reviewed
                had a system to document the initial receipt of a consumer
                complaint or to track complaints once received. Although the
                Albany, New York; Jackson, Mississippi; and Pickerington, Ohio,
                district offices each maintained a log of consumer complaints
                received, their logs were not kept up to date. Consumer complaints
                were routinely documented after followup action by the field offices
                had been completed and submitted to the district. Also, entries for
                data fields on the logs--such as the date received, status, and
                disposition--were missing.

                In order to determine the number of consumer complaints received
                by the five district offices for the purpose of constructing a universe,
                we either relied on numbers provided by the offices, including the
                logs, or conducted a search of district offices’ files to locate and
                identify each case record (i.e., consumer complaint information
                sheet). According to the DEO’s compliance Investigative Protocols,
                the consumer complaint information sheet is completed following a
                visit to the consumer to discuss the complaint and to examine the
                product involved.


4
  FSIS’ OPHS provided us with a listing of USDA meat and poultry hotline complaints. OIG fraud hotline
complaints were provided by OIG–Investigations.

Section IV, Page 28                                                    USDA/OIG-A/24601-4-At
           The following table shows the number of consumer complaints that
           we identified as received by the five district offices during our audit
           period (October 1997-February 1999).

           Table 4: Number of Consumer Complaints for the Five District Offices
           Visited
                     DISTRICT OFFICE            NO. OF CONSUMER COMPLAINTS
            Alameda                                            204
            Albany                                             143
            Atlanta                                            236
            Jackson                                            132
            Pickerington                                       143
             Total                                             858

           We found that these numbers were not reliable because, although in
           many cases, they support complaints where there was a record of
           followup action, they do not support the initial receipt of all
           complaints, including instances where no followup action took place.

           Likewise, the five field offices reviewed did not have a formal system
           to document the initial receipt of a consumer complaint or a tracking
           mechanism. Compliance officers from the five field offices informed
           us that they were responsible for initiating followup on consumer
           complaints received directly by them, including those from DEO
           headquarters, but that they were not required to document receipt of
           the complaints or report the results of the followup action to the
           district offices for all complaints (e.g., unfounded complaint).

           DEO headquarters officials stated they did not need a tracking
           system because they assumed the field offices were tracking
           consumer complaints. The officials stated that they had been relying
           on “on-the-job training” instead of written guidelines or procedures to
           ensure that consumer complaints were properly received and
           reviewed. However, they conceded that written procedures might be
           appropriate to ensure the integrity of the resolution of consumer
           complaints. They noted that the reorganization contributed to
           procedures not being developed.

           In addition, we noted that OPHS referred 74 consumer complaints to
           DEO that were received through the USDA meat and poultry hotline
           from October 1, 1997, through February 28, 1999, for the 5 selected
           district offices. Our review disclosed that 4 of the 5 district offices
           had no record of receipt for 16 of the 74 (22 percent) consumer
           complaints, as shown on the table on the next page.



USDA/OIG-A/24601-4-At                                        Section IV, Page 29
            Table 5: Number of Consumer Complaints with No Record of Receipt
                                       NO. OF CONSUMER
                                     COMPLAINTS REFERRED         NO RECORD OF
                DISTRICT OFFICE             BY OPHS                 RECEIPT
             Alameda                           18                      3
             Albany                            11                      2
             Atlanta                           13                      5
             Jackson                            9                      0
             Pickerington                      23                      6
              TOTAL                            74                     16

            Consumer complaints were not followed up on because DEO did not
            have an effective system to document and monitor consumer
            complaints received by its offices. OPHS officials stated that once a
            complaint (foreign objects) is referred to DEO, all responsibility for
            the complaint is assumed by DEO.            There was no further
            involvement by OPHS to ensure that DEO received, reviewed, and
            appropriately resolved the complaints.

            Without a tracking system to monitor consumer complaints, FSIS is
            not able to readily provide the number or status of consumer
            complaints or ensure consumer complaints are investigated and,
            when warranted, conditions corrected.

            FSIS is currently piloting a consumer complaint database in its
            Philadelphia, Pennsylvania, district office. FSIS officials stated that
            the database will monitor receipt and follow up action on all
            consumer complaints received at both the headquarters and district
            levels. FSIS is also developing written procedures and guidelines for
            the consumer complaint system prior to its September 1, 2000,
            expected nationwide implementation date.

                                      Develop a system, including written
  RECOMMENDATION NO. 5                procedures, to monitor receipt and
                                      followup action on all consumer
                                      complaints        received at  DEO
        headquarters, district, and field office levels.

            Agency Response

            FSIS agrees with this recommendation that an improved system
            should be developed to monitor receipt and followup action on all
            consumer complaints. FSIS also agrees that written procedures are
            needed to monitor the receipt of, and followup action on consumer
            complaints. FSIS stated that it plans to centralize this function under
            one unit that will monitor receipt and disposition of consumer
            complaints. Until then, FSIS stated that it is implementing an interim

Section IV, Page 30                                      USDA/OIG-A/24601-4-At
           monitoring system for the receipt and follow up of consumer
           complaints from district field staff or those referred to DEO
           headquarters. FSIS further stated that it intends to have the newly
           reconstituted and reorganized system implemented by March 2001.

           OIG Position

           We accept FSIS’ management decision for this recommendation.

                                      Review the 16 consumer complaints
  RECOMMENDATION NO. 6                previously omitted from review, and
                                      perform followup action to satisfactorily
                                      resolve them.

           Agency Response

           FSIS agrees with this recommendation and is in the process of
           reviewing the 16 consumer complaints to determine if they have
           been resolved and perform any followup action, if needed. FSIS
           stated that it will complete the review and followup by October 2000.

           OIG Position

           We accept FSIS’ management decision for this recommendation.




USDA/OIG-A/24601-4-At                                       Section IV, Page 31
Section IV, Page 32   USDA/OIG-A/24601-4-At
                  FSIS’ ENFORCEMENT ACTIONS TO DETER
                  REPEAT VIOLATORS OF MEAT AND POULTRY
 CHAPTER 3
                  INSPECTION LAWS COULD BE IMPROVED BY
                  USE OF CIVIL PENALTIES

                                          FSIS’ enforcement actions taken against
        FINDING NO. 5                     197 (11 percent) of 1,873 firms were not
                                          effective to deter them from committing
                                          additional violations of meat and poultry
           inspection laws. Within 24 months of the initial violation, several
           firms were cited again by FSIS for as many as 4 additional violations
           of meat and poultry inspection laws. In each instance, where final
           enforcement action had been taken, FSIS issued a letter of warning
           or similar letter for the violation. We found that FSIS does not have
           sufficient enforcement actions available to it to deter these firms from
           committing additional violations. Specifically, FSIS could make
           effective use of civil penalties for repeat violations that do not lend
           themselves to criminal prosecution.

           FSIS can issue letters of warning to firms for both streamline and
           standard cases for violations of the meat and poultry inspection laws.
           The letters of warning typically advise firms of their expectancy to
           “voluntarily compliance” with the meat and poultry inspection laws.
           These letters also inform firms that FSIS could seek legal actions for
           continuous violations. From January 1, 1998, through September
           30, 1999, FSIS issued 4,131 letters of warning to violators.

           A DEO headquarters official stated that a letter of warning may be
           sent to a firm for a first-time violation of meat and poultry inspection
           laws if there were no public health risks involved (streamline case).
           However, recommendations for prosecution can be made for first
           time or repeat violations depending on the nature of the offense,
           severity of the violation and the extent to which the evidence
           supports intent or gross negligence. The official also stated that in
           some cases, multiple letters of warning may be sent if the cases
           involve different offenses, if violations are over a period of time, or
           chronic noncompliance that typically would not rise to the level of
           criminal prosecution. In these cases, FSIS may develop adequate
           documentation to seek a Federal injunction, exercise some limited
           administrative authorities, or refer the matter to State or local health
           authorities. In addition, FSIS has supported statutory change to
           authorize civil penalties for cases that do not rise to the level of
           warranting criminal prosecution.

USDA/OIG-A/24601-4-At                                         Section IV, Page 33
             The area compliance case records (listing of violation cases) for the
             5 districts reviewed, showed that FSIS cited 1,873 firms for violating
             meat and poultry inspection laws between October 1, 1997, and
             September 30, 1999. Our review disclosed that 197 (11 percent) of
             these firms had a second violation case during this same period.
             Thirty-nine of these firms, primarily in the Albany, New York, district
             (mostly in the New York City area), had from 3 to 5 violation cases
             during the 2-year period. The number of firms with violations is
             shown in the table below (Note: more than one firm can be included
             in the same violation case.)

       Table 6: Violations from October 1, 1997, through September 30, 1999, for
       Five District Offices
                         NUMBER      NUMBER OF        NUMBER OF FIRMS
                           OF        FIRMS WITH         WITH TWO OR
                        VIOLATION    VIOLATION        MORE VIOLATION
          DISTRICT        CASES         CASES              CASES           PERCENT
         Alameda               330              434                 39          9%
         Albany                747              854                110         13%
         Atlanta               302              412                 31          8%
         Jackson                94               93                 10         11%
         Pickerington           78               80                  7          9%
             Totals          1,551            1,873                197         11%

             One Atlantic City, New Jersey, firm (the Albany, New York, district)
             was cited by FSIS in five separate violation cases between October
             9, 1997, and September 9, 1999. The firm’s violations involved the
             offering for sale and the sale of misbranded meat and poultry
             products in four of the five instances. The fifth instance pertained to
             the sale of non-federally inspected meat products. FSIS issued a
             letter of warning to the firm as final enforcement action for each of
             the violation cases.

             Also, in the Albany district, we identified one other firm that had
             5 violation cases and 6 firms that had 4 violation cases against them
             within the 24 months.          The violations committed included
             (1) intimidation and assault against FSIS’ compliance officers,
             (2) sale of non-federally inspected products, (3) failure to identify
             custom slaughter product as “Not for Sale,” (4) failure to maintain
             custom exempt records, (5) offering for sale misbranded meat and
             poultry products, and (6) failure to maintain and operate facility in a
             sanitary manner.      FSIS issued a letter of warning as final
             enforcement action for each of these violation cases.

             During our fieldwork, we joined compliance officers in visiting
             55 firms that were cited by FSIS for previous violations of the meat
             and poultry inspection laws during FY’s 1998 and 1999. Nine of

Section IV, Page 34                                       USDA/OIG-A/24601-4-At
            these firms had two or more violation cases within this timeframe.
            During our visits, additional violations were disclosed at 2 of the
            9 (22 percent). In total, 8 of the 55 firms we visited had additional
            violations (14.5 percent). (See exhibit G.) The two firms that were
            cited for their fourth or fifth violation during our audit period (Business
            No. 1 and Business No. 2) were custom slaughter facilities located in
            Jamaica, New York.

            During our May 20, 1999, visit to Business No. 1, we observed
            unidentifiable products and insanitary conditions as follows.

            There were no supporting records for the ownership of 29 pounds of
            lamb.


       Figure 1: 29 pounds of lamb with no record of ownership




USDA/OIG-A/24601-4-At                                            Section IV, Page 35
            Blood, meat scraps, and other debris were on the processing table,
            band saws, and floors from the previous day.


            Figure 2: Processing table covered with debris




Section IV, Page 36                                     USDA/OIG-A/24601-4-At
  Figure 3: Band saw with debris




      Figure 4: Floor showing dirt and cuttings




USDA/OIG-A/24601-4-At                             Section IV, Page 37
            Also, unlabeled meats were found at the firm. Business No. 1 had
            four violation cases between November 10, 1997, and July 13, 1999.
            The firm received another letter of warning from FSIS for these
            violations. FSIS acknowledged that this firm was a repeat violator
            but believes that the violations disclosed were not something they
            would refer for criminal prosecution. FSIS noted that additional
            reviews conducted during our audit period do not reveal any
            irregularities at this firm.

            During our May 21, 1999, visit to Business No. 2, we observed
            insanitary conditions and adulterated products on hand as follows.

            A goat head lay in a cardboard box on top of a rusty steel wool pad.
            The goat head was adulterated with rust, rusty steel wire, and hair. It
            also had been sold to a customer.


Figure 5: Goat head covered with rust, steel wire, and hair




Section IV, Page 38                                       USDA/OIG-A/24601-4-At
             Goat intestines were placed in a bowl that sat on the floor of the kill
             room. The floor had blood and other debris on it.

Figure 6: Goat Intestines exposed to debris on the kill room floor




             We also observed rodent droppings on (1) a rusty band saw,
             (2) plastic bags used for packaging meats for customers, and
             (3) floors of the kill and processing rooms.

             The firm’s history included six violation cases from August 1995 to
             May 21, 1999. Two of the violation cases, dated November 24,
             1997, and January 25, 1999, were still open, even though the firm
             twice violated a November 27, 1996, stipulation and consent
             agreement that allowed the firm to operate despite the previous
             violations committed. Business No. 2 was issued another letter of
             warning for the violations disclosed during the May 21, 1999, visit.

             FSIS officials stated that it would not recommend criminal
             prosecution based on the adulteration of one 5-pound goat heat.
             FSIS officials also informed us that on February 7, 2000, they issued
             the firm a Notice of Summary Termination of Custom Eligibility and
             on or about February 9, 2000, the custom exempt operations at this

USDA/OIG-A/24601-4-At                                          Section IV, Page 39
                  firm were terminated. However, a subsequent compliance review at
                  this firm on March 15, 2000, found that the firm had continued its
                  custom slaughter operations. The compliance officer observed and
                  detained a whole dress lamb (90 pounds) in the firm processing
                  room. The animal had apparently been slaughtered. In a signed
                  statement on March 16, 2000, the owner claimed that he did not
                  believe the Notice of Summary Termination of Custom Eligibility
                  dated February 7, 2000, still applied. The owner stated that he
                  discarded the detained lamb and thus violated the detention. The
                  owner further denied slaughtering any other animals and could not
                  account for three lambs and one goat that were missing. FSIS is
                  currently processing a violation case.

                  The two cases we illustrated above serve as good examples for why
                  we support FSIS in their efforts to obtain authority to fine firms for
                  violations of meat and poultry inspection laws, that do not warrant
                  criminal prosecution. The following represents the firms visited and
                  the number of violations observed during the audit. (See Exhibit G.)

Table 7: Number of Firms Visited and Number of Violations Observed
                                   FIRMS               VIOLATION                                 VIOLATION
                                   VISITED             CASES                 FIRMS               CASES
FIELD                              WITH TWO            ESTABLISHED           VISITED             ESTABLISHED
OFFICE             FIRMS           OR MORE             AS RESULT             WITH ONE            AS RESULT
LOCATION           VISITED         VIOLATIONS          OF VISITS             VIOLATION           OF VISITS
Diamond Bar,                111/                   2                    0                    8                   4
CA
Jamaica, NY                14 2/                   4                    2                    6                   2
Fort                       10                      2                    0                    8                   0
Lauderdale, FL
Knoxville, TN               9                      1                    0                    8                   0
Lexington, KY              11                      0                    0                   11                   0
     Totals                55                      9                    2                   41                   6
1/
   One firm was visited because of the nature of its business (rendering plant).
2/
  Four firms were visited because of the nature of their businesses (distributor, transporter, wholesaler, and
custom exempt slaughtering facility).


                  Since 1997, bills have been introduced in Congress to give the
                  Secretary the authority to assess monetary penalties against firms
                  that violate meat and poultry inspection laws. None of the bills have
                  become law.

                  ADME’s and supervisory compliance officers from the Alameda,
                  Albany, and Jackson district offices stated that the agency should
                  have the authority to fine firms or individuals that violate meat and
                  poultry inspection laws. A DEO headquarters official commented

Section IV, Page 40                                                           USDA/OIG-A/24601-4-At
           that fines for violations could have a negative economic impact
           against firms but, if implemented, fines should be severe enough to
           deter further violations.

           We concluded that FSIS should continue to seek the authority to
           assess monetary penalties against firms that commit repeat
           violations of meat and poultry inspection laws. Additionally, FSIS
           should be more aggressive in utilizing the authorities it currently has,
           including seizures, injunctions, withdrawal of custom exempt status,
           and prosecutions, against repeat violators of the meat and poultry
           inspection laws.

                                        Continue to seek the authority to assess
  RECOMMENDATION NO. 7                  civil monetary penalties against firms
                                        that commit violations of meat and
                                        poultry inspection laws.

           Agency Response

           FSIS agrees with this recommendation that civil penalties would be
           an effective supplement to its current criminal and administrative
           authorities. FSIS stated that civil penalties, while having somewhat
           limited application, would provide it with an additional tool to deter
           violations of USDA laws and would be particularly effective in
           preventing minor violations of law and address situations where
           criminal prosecution or other action is not appropriate. FSIS stated
           that it will continue to work with Congress, industry, and the public to
           obtain this additional authority.

           OIG Position

           We accept FSIS’ management decision for this recommendation.




USDA/OIG-A/24601-4-At                                         Section IV, Page 41
Section IV, Page 42   USDA/OIG-A/24601-4-At
                   DEO DETERMINED THAT MOST CASES
 CHAPTER 4         REFERRED BY DISTRICTS WERE NOT
                   RPOSECUTABLE

                                     DEO determined that over half of the
        FINDING NO. 6                cases received from district offices did
                                     not require referral for prosecution.
                                     District offices refer standard cases to
           DEO headquarters for possible prosecution action by the U.S.
           attorney, through OGC.        We found that DEO headquarters
           determined 27 of the 41 cases (66 percent) referred from October 1,
           1997, through February 28, 1999, did not require referral for
           prosecution. DEO officials stated that the cases did not have
           prosecutable merit or some ADME’s and supervisory compliance
           officers did not have enough training or supervisory experience to
           properly prepare and submit violation cases.          As a result,
           enforcement actions against these violators were delayed.

           DEO’s compliance Investigative Protocols provides for establishing
           standard cases for violations involving likely harm to consumers,
           either physical or financial. These cases are forwarded to DEO
           headquarters for their review and for possible referral to OGC so the
           appropriate civil, administrative, or criminal actions can be taken.

           Between October 1, 1997, and February 28, 1999, 41 standard
           cases were developed by compliance officers in the FSIS’ district
           and field offices and submitted to DEO headquarters for review and
           possible referral to OGC for further action. Our review disclosed that
           DEO headquarters determined 27 of the 41 (66 percent) cases
           received from the districts did not require referral.               DEO
           headquarters officials stated the cases did not have prosecutable
           merit or were not fully developed by compliance officers. According
           to the officials (1) 21 of the cases did not have sufficient evidence for
           prosecution, (2) 3 cases were not fully developed by the compliance
           officers, (3) the firms for 2 cases were no longer in business, and
           (4) 1 firm had been previously prosecuted by the state for the same
           violation. (See exhibit H for more details.) Instead, the agency
           issued letters of warning to 24 of the firms and took no action for the
           remaining 3 firms.

           In one example of a case not being fully developed, the Beltsville,
           Maryland, district office prepared a Report of Apparent Violation,
           dated December 9, 1998, that reported a federally inspected plant
           sold and transported via interstate commerce approximately
USDA/OIG-A/24601-4-At                                         Section IV, Page 43
            479,470 pounds of adulterated and misbranded pork bacon ends
            and pieces from Virginia to a food processing company in Kansas.
            The shipments were contaminated with various foreign materials
            such as metal, cardboard, paper, and rubber. The compliance
            officer became aware of the adulteration during a random review visit
            to the Virginia plant. He examined the plant’s records and found
            several credit memos and nonconformance reports that showed the
            plant may have been aware of these possible violations.

            The responsible ADME referred the case to DEO headquarters for
            prosecution.      However, headquarters officials stated that the
            documentary evidence was not sufficient to prove that the plant
            knowingly sold adulterated and misbranded products and the
            products did not appear to have been tampered with. The officials
            stated that the case was not prosecutable because the compliance
            officer had not proven criminal intent on the part of the Virginia plant.
            The ADME responded by obtaining additional information. However,
            headquarters officials decided that the additional information did not
            enhance the case. The ADME and headquarters officials agreed to
            issue a letter of warning as final enforcement action.

            In another example where a case was not fully developed, the
            Springdale, Arkansas, district office prepared a Report of Apparent
            Violation, dated October 13, 1997, that reported a firm sold and
            transported approximately 1,150 pounds of adulterated and
            misbranded frozen pork ribs into commerce from Minnesota to
            Louisiana. The 39 boxes of ribs had no labeling or marks of
            inspections, were “slimy,” and had a “soured putrid” odor. The
            product was detained and destroyed on May 6, 1997.

            On June 5, 1998, (235 days following the date of the Report of
            Apparent Violation) DEO headquarters made a decision to close the
            case with a letter of warning. A headquarters official stated that the
            evidence was inconclusive based on the following.

            v The product was repacked at a federally inspected plant after
              being resorted.

            v The product was sold sight unseen.

            v The firm never acknowledged knowing there was a problem with
              the product.

            The DEO headquarters official stated that the compliance review
            was not sufficiently documented to show the firm had knowledge of

Section IV, Page 44                                       USDA/OIG-A/24601-4-At
           the product being adulterated and misbranded. The ADME agreed
           with the headquarters decision on the case and questioned why the
           compliance officer and the supervisor compliance officer thought the
           case was prosecutable. FSIS issued a letter of warning to the firm.

           Another DEO headquarters official stated that many of the cases
           sent to headquarters for review were not fully developed. He said
           that some compliance officers, supervisors, and ADME’s were not
           experienced or trained to properly develop standard violation cases.
           The official further stated that when DEO reorganized from 5 area
           offices to 18 district offices, DEO did not have enough supervisory
           experience in the field to properly prepare and submit standard
           violation cases. He said that several ADME’s had little or no
           experience in preparing standard violation cases.

                                  Reinforce       existing     compliance
  RECOMMENDATION NO. 8            Investigative Protocols  for  developing
                                  standard violation cases.         Provide
                                  training where needed to ensure that all
        ADME’s and supervisory compliance officers are able to properly
        oversee reviews and case preparation for appropriate sanctions and
        determinations.

           Agency Response

           FSIS agrees with the recommendation and stated that it has already
           taken steps to reinforce existing protocols, procedures, and assure
           appropriate training of DEO personnel. FSIS stated that it has
           developed orientation and training protocols for newly hired
           compliance officers and supervisory personnel. FSIS also stated
           that it is currently recruiting to address the 58 percent vacancy rate
           for the supervisory compliance officer position, which is needed to
           provide proper supervision of reviews and case preparation. FSIS
           further stated it is the agency’s priority to fill these positions as soon
           as possible.

           OIG Position

           We agree with FSIS’ proposed action.            However, to reach
           management decision, FSIS needs to provide us with its newly
           developed orientation and training protocols for new hires. Also,
           FSIS needs to provide its plan for recruiting compliance officers and
           the estimated timeframe for when these position will be filled.




USDA/OIG-A/24601-4-At                                          Section IV, Page 45
EXHIBIT A – DISTRICT OFFICES VISITED
                                                                                                    1/
                                                                                          NO. OF
             DISTRICT                  OVERSIGHT                   FIELD                 COMPLIANCE
              OFFICE               RESPONSIBILITY                 OFFICE                 OFFICERS
      1 Alameda, CA              California                Alameda, CA                       6
                                                           Diamond Bar, CA                   5
                                                           Fresno, CA                        2
                                                           Sacramento, CA                    2
                                                           San Diego, CA                     1
         District Total                                                                     16
      2 Albany, NY               New Jersey                Bogota, NJ                        3
                                                           Moorestown, NJ                    4
                                 New York                  Albany, NY                        5
                                                           Jamaica, NY                       6
                                                           Rochester, NY                     2
                                 Connecticut               Hartford, CT                        3
                                 Maine                     Augusta, ME                         1
                                 Massachusetts             Waltham, MA                         6
                                 New Hampshire
                                 Rhode Island
                                 Vermont

         District Total                                                                       30
      3 Atlanta, GA              Florida                   Fort Lauderdale, FL                4
                                                           Orlando, FL                        3
                                                           Tallahassee, FL                    2
                                 Georgia                   Atlanta, GA                        3
                                 Puerto Rico               Guaynabo, PR                       4
                                                           Ponce, PR                          1
                                 Virgin Islands
         District Total                                                                       17
1/
     According to “Meat and Poultry Inspection Directory,” dated July 1999.
Note: The Boston, MA district office was closed in July 1999 and its oversight responsibility was transferred
to the Atlanta, GA district office (Puerto Rico and the Virgin Islands) and the Albany, NY district office
(Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island and Vermont).




USDA/OIG-A/24601-4-At                                                                Section IV, Page 49
EXHIBIT A – DISTRICT OFFICES VISITED (CONT’)
                                                                                       NO. OF 1/
             DISTRICT                 OVERSIGHT                     FIELD             COMPLIANCE
              OFFICE                RESPONSIBILITY                 OFFICE              OFFICERS
      4 Jackson, MS              Alabama                   Gadsden, AL                     1
                                                           Montgomery, AL                  1
                                 Mississippi               Ridgeland, MS                   1
                                 Tennessee                 Knoxville, TN                   2
                                                           Nashville, TN                   1
         District Total                                                                    6
      5 Pickerington, OH         Kentucky                  Lexington, KY                   2
                                 Ohio                      Middleburg Heights,             2
                                                           OH
                                                           Pickerington, OH                3
                                 West Virginia
         District Total                                                                    7
         Total                                                                             76
1/
     According to “Meat and Poultry Inspection Directory,” dated July 1999.




     Section IV, Page 50                                                         USDA/OIG-A/24601-4-At
EXHIBIT A – LIST OF OTHER FSIS DISTRICT OFFICES
                                                                                            1/
                                                                                   NO. OF
             DISTRICT                 OVERSIGHT                     FIELD          COMPLIANCE
              OFFICE                RESPONSIBILITY                 OFFICE          OFFICERS
      6 Boulder, CO              Arizona                   Phoenix, AZ
                                 Colorado                  Boulder, CO                 6
                                 New Mexico                Albuquerque, NM             1
                                 Utah                      Salt Lake City, UT          2
         District Total                                                                9
      7 Lombard, IL              Illinois                  Lombard, IL                 5
                                                           Springfield, IL             3
                                 Indiana                   Indianapolis, IN            3
         District Total                                                                11
      8 Dallas, TX               Texas                     Dallas, TX                  4
                                                           Lubbock, TX                 2
                                                           Houston, TX                 2
                                                           San Antonio, TX             3
         District Total                                                                11
      9 Des Moines, IA           Iowa                      Des Moines, IA              3
                                 Nebraska                  Lincoln, NE                 3
         District Total                                                                6
     10 Greenbelt, MD            Delaware
                                 District of Columbia
                                 Maryland                  Baltimore, MD               2
                                                           Beltsville, MD              3
                                 Virginia                  Richmond, VA                2
         District Total                                                                7
     11 Lawrence, KS             Kansas                    Lawrence, KS                3
                                 Missouri                  Florissant, MO              1
                                                           Springfield, MO             1
         District Total                                                                5
     12 Madison, WI              Michigan                  Oak Park, MI                7
                                                           Grandville, MI              2
                                 Wisconsin                 Madison, WI                 3
         District Total                                                                12
1/
     According to “Meat and Poultry Inspection Directory,” dated July 1999.




USDA/OIG-A/24601-4-At                                                           Section IV, Page 51
EXHIBIT A – LIST OF OTHER FSIS DISTRICT OFFICES (CONT’)
                                                                                                1/
                                                                                       NO. OF
             DISTRICT                 OVERSIGHT                        FIELD           COMPLIANCE
              OFFICE               RESPONSIBILITY                     OFFICE           OFFICERS
     13 Minneapolis, MN          Minnesota                  S. St. Paul, MN                4
                                 Montana                    Billings, MT                   1
                                 North Dakota               Bismarck, ND                   1
                                 South Dakota               Sioux Falls, SD
                                 Wyoming
         District Total                                                                   6
     14 Philadelphia, PA         Pennsylvania               Philadelphia, PA              4
                                                            Pittsburgh, PA                4
                                                            Scranton, PA                  2
         District Total                                                                   10
     15 Raleigh, NC              North Carolina             Raleigh, NC                   2
                                 South Carolina             Columbia, SC                  3
         District Total                                                                   5
     16 Salem, OR                Alaska
                                 American Samoa
                                 Guam
                                 Hawaii                     Honolulu, HI                   2
                                 Idaho                      Boise, ID                      1
                                 Northern Mariana
                                 Islands
                                 Oregon                     Salem, OR                      3
                                 Washington                 Bothell, WA                    2
                                                            Spokane, WA                    2
         District Total                                                                    10
     17 Springdale, AR           Arkansas                   Little Rock, AR                3
                                                            Springdale, AR                 3
                                 Louisiana                  New Orleans, LA                4
                                 Oklahoma                   Oklahoma City, OK              1
         District Total                                                                    11
         FSIS Total                                                                       179
1/
     According to “Meat and Poultry Inspection Directory, “ dated July 1999.




     Section IV, Page 52                                                        USDA/OIG-A/24601-4-At
EXHIBIT B – PCP AND RANDOM REVIEW FIRMS VISITED
   DISTRICT         FIELD                                                          TYPE OF
    OFFICE         OFFICE               LOCATION              TYPE OF FIRM         REVIEW
Alameda, CA   Diamond Bar, CA.      Montebello, CA          Distributor            PCP
Alameda, CA   Diamond Bar, CA       Los Angeles, CA         Retailer               PCP
Alameda, CA   Diamond Bar, CA       Corona, CA              Custom Slaughter       PCP
Alameda, CA   Diamond Bar, CA       Los Angeles, CA         Retailer               PCP
Alameda, CA   Diamond Bar, CA       Riverside, CA           Warehouse              PCP
Alameda, CA   Diamond Bar, CA       Los Angeles, CA         Distributor            PCP
Alameda, CA   Diamond Bar, CA       Chino, CA               Processor              PCP
Alameda, CA   Diamond Bar, CA       Ontario, CA             Retailer               PCP
Alameda, CA   Diamond Bar, CA       Ontario, CA             4-D                    PCP
Alameda, CA   Diamond Bar, CA       Chino, CA               Distributor/Retailer   PCP
Alameda, CA   Diamond Bar, CA       Corona, CA              Custom Slaughter       PCP
Alameda, CA   Diamond Bar, CA       Bell Garden, CA         Distributor            Random
Alameda, CA   Diamond Bar, CA       N. Hollywood, CA        Distributor            Random
Alameda, CA   Diamond Bar, CA       Rancho Cucamonga,       Transporter            Random
                                    CA
Alameda, CA   Diamond Bar, CA       Chino, CA               Retailer               Random
Alameda, CA   Diamond Bar, CA       Ontario, CA             Distributor            Random
Alameda, CA   Diamond Bar, CA       Sun Valley, Ca          Retailer               Random
Albany, NY    Jamaica, NY           Jamaica, NY             Custom Slaughter       PCP
Albany, NY    Jamaica, NY           New York, NY            Distributor            PCP
Albany, NY    Jamaica, NY           Bronx, NY               Custom Slaughter       PCP
Albany, NY    Jamaica, NY           Avenel, NJ              Transporter            PCP
Albany, NY    Jamaica, NY           Jamaica, NY             Retailer               PCP
Albany, NY    Jamaica, NY           New York, NY            Distributor            PCP
Albany, NY    Jamaica, NY           Jamaica, NY             Retailer               PCP
Albany, NY    Jamaica, NY           Wappingers, NY          Distributor            PCP
Albany, NY    Jamaica, NY           Greenwich Village, NY   Retailer               PCP
Albany, NY    Jamaica, NY           Brooklyn, NY            Distributor            PCP
Albany, NY    Jamaica, NY           Richmond Hill, NY       Retailer               PCP
Albany, NY    Jamaica, NY           Jamaica, NY             Custom Slaughter       PCP
Albany, NY    Jamaica, NY           Ozone Park, NY          Abattoir               PCP
Albany, NY    Jamaica, NY           Jamaica, NY             Processor              PCP
Albany, NY    Jamaica, NY           New York, NY            Distributor            Random
Albany, NY    Jamaica, NY           New York, NY            Retailer               Random
Albany, NY    Jamaica, NY           New York, NY            Distributor            Random
Albany, NY    Jamaica, NY           Laurelton, NY           Retailer               Random
Albany, NY    Jamaica, NY           Jersey City, NJ         Distributor            Random
Atlanta, GA   Fort Lauderdale, FL   Miami Gardens, FL       Warehouse              PCP
Atlanta, GA   Fort Lauderdale, FL   North Miami Beach, FL   Broker/Salvage         PCP
Atlanta, GA   Fort Lauderdale, FL   Miami Lakes, FL         Retailer               PCP
Atlanta, GA   Fort Lauderdale, FL   Delray Beach, FL        Distributor            PCP




USDA/OIG-A/24601-4-At                                                      Section IV, Page 53
EXHIBIT B – PCP AND RANDOM REVIEW FIRMS VISITED (CONT.)

   DISTRICT              FIELD                                                            TYPE OF
    OFFICE              OFFICE               LOCATION            TYPE OF FIRM             REVIEW
Atlanta, GA        Fort Lauderdale, FL   Hollywood, FL         Distributor                PCP
Atlanta, GA        Fort Lauderdale, FL   Miami, FL             Distributor                PCP
Atlanta, GA        Fort Lauderdale, FL   Miami, FL             Retailer                   PCP
Atlanta, GA        Fort Lauderdale, FL   Hollywood, FL         Retailer                   PCP
Atlanta, GA        Fort Lauderdale, FL   Miami, FL             Retailer                   PCP
Atlanta, GA        Fort Lauderdale, FL   Miami, FL             Broker                     PCP
Atlanta, GA        Fort Lauderdale, FL   Fort Lauderdale, FL   Correctional Institution   Random
Atlanta, GA        Fort Lauderdale, FL   Fort Lauderdale, FL   Retailer                   Random
Atlanta, GA        Fort Lauderdale, FL   Fort Lauderdale, FL   Distributor                Random
Atlanta, GA        Fort Lauderdale, FL   Fort Lauderdale, FL   Retailer                   Random
Atlanta, GA        Fort Lauderdale, FL   Miami, FL             Processor/Distributor      Random
Atlanta, GA        Fort Lauderdale, FL   West Palm Beach, FL   Child Care Center          Random
Atlanta, GA        Fort Lauderdale, FL   Delray Beach, FL      Distributor                Random
Jackson, MS        Knoxville, TN         Chattanooga, TN       Distributor                PCP
Jackson, MS        Knoxville, TN         Alcoa, TN             Salvage                    PCP
Jackson, MS        Knoxville, TN         Knoxville, TN         Retailer                   PCP
Jackson, MS        Knoxville, TN         Clinton, TN           Retailer                   PCP
Jackson, MS        Knoxville, TN         Knoxville, TN         Retailer                   PCP
Jackson, MS        Knoxville, TN         Chattanooga, TN       Processor                  PCP
Jackson, MS        Knoxville, TN         Knoxville, TN         Warehouse                  PCP
Jackson, MS        Knoxville, TN         Knoxville, TN         Retailer                   PCP
Jackson, MS        Knoxville, TN         Knoxville, TN         Retailer                   PCP
Jackson, MS        Knoxville, TN         Chattanooga, TN       Warehouse                  Random
Jackson, MS        Knoxville, TN         Clinton, TN           Retailer                   Random
Jackson, MS        Knoxville, TN         Sevierville, TN       Medical Center             Random
Jackson, MS        Knoxville, TN         Chattanooga, TN       Mental Institution         Random
Jackson, MS        Knoxville, TN         Sevierville, TN       Retailer                   Random
Jackson, MS        Knoxville, TN         Alcoa, TN             Retailer                   Random
Jackson, MS        Knoxville, TN         Knoxville, TN         Public School              Random
Jackson, MS        Knoxville, TN         Clinton, TN           Retailer                   Random
Pickerington, OH   Lexington, KY         Louisville, KY        Retailer                   PCP
Pickerington, OH   Lexington, KY         Lexington, KY         Hospital                   PCP
Pickerington, OH   Lexington, KY         Walton, KY            Processor/Custom           PCP
                                                               Slaughter
Pickerington, OH   Lexington, KY         Shelbyville, KY       Retailer                   PCP
Pickerington, OH   Lexington, KY         Lancaster, KY         Retailer/Restaurant        PCP
Pickerington, OH   Lexington, KY         Mt. Sterling, KY      Warehouse                  PCP
Pickerington, OH   Lexington, KY         Shelbyville, KY       4-D                        PCP
Pickerington, OH   Lexington, KY         Bellevue, KY          Retailer                   PCP
Pickerington, OH   Lexington, KY         Louisville, KY        Distributor/ Retailer      PCP




 Section IV, Page 54                                                   USDA/OIG-A/24601-4-At
EXHIBIT B – PCP AND RANDOM REVIEW FIRMS VISITED (CONT.)

   DISTRICT              FIELD                                          TYPE OF
    OFFICE              OFFICE         LOCATION      TYPE OF FIRM       REVIEW
Pickerington, OH   Lexington, KY   Lancaster, KY    Custom Slaughter    PCP
Pickerington, OH   Lexington, KY   Louisville, KY   Restaurant          PCP
Pickerington, OH   Lexington, KY   Louisville, KY   Renderer            Random
Pickerington, OH   Lexington, KY   Covington, KY    Retailer            Random
Pickerington, OH   Lexington, KY   Lexington, TN    Retailer            Random
Pickerington, OH   Lexington, KY   Louisville, KY   Renderer            Random
Pickerington, OH   Lexington, KY   Covington, KY    Restaurant          Random
Pickerington, OH   Lexington, KY   Covington, KY    Retailer            Random
Pickerington, OH   Lexington, KY   Lexington, TN    Distributor         Random
Pickerington, OH   Lexington, KY   Louisville, KY   Renderer            Random
Pickerington, OH   Lexington, KY   Covington, KY    Retailer            Random




USDA/OIG-A/24601-4-At                                           Section IV, Page 55
EXHIBIT C – COMPLIANCE ACTIVITY REVIEWED FROM OCTOBER 1,
            1997 THROUGH FEBRUARY 28, 1999

                                               ACTIVITY
                               Violation                                 Random             Consumer
                                Cases                  PCP               Reviews            Complaints
ALAMEDA
District Total                    191                  1304                1150                  204
Reviewed by OIG                    20                   10                 188                   55
ALBANY
District Total                    262                  2528                5120                  143
Reviewed by OIG                    20                   10                 1256                  115
ATLANTA
District Total                    106                  1558                 581                  236
Reviewed by OIG                    22                   14                   76                  25
JACKSON
District Total                     54                  578                  732                  132
Reviewed by OIG                    28                  11                   156                  132
PICKERINGTON
District Total                     43                  303                  935                  143
Reviewed by OIG                    21                  12                   409                  17

                                TOTAL COMPLIANCE ACTIVITY
                               Violation                                 Random             Consumer
                                Cases                  PCP               Reviews            Complaints
Total for Eighteen
Districts                         2605                 9901                25122                1654
Total for Five Districts
Visited                           656                  6271                8518                  858
Total Reviewed by OIG
                                  111*                  57                 2085                  344
Percent Reviewed by
OIG                               17%                   1%                  24%                 40%

*We reviewed 111 violation cases at the 5 district offices visited. We also reviewed an additional closed 41
 violation cases at DEO headquarters for enforcement actions and 116 violation cases at DEO headquarters
 for processing timeframes.




 Section IV, Page 56                                                          USDA/OIG-A/24601-4-At
EXHIBIT D - TYPES OF FIRMS

BUSINESS CODE NO.       TYPE OF FIRM                  INCLUDES
         01             Processor                     Boner, Fabricator, Cannery,
                                                      Packer, Country Hams
          02            Distributor                   Peddler, Route, Sales
          03            Renderer
          04            Broker
          05            4-D (dead, dying, disabled,   Collector
                        or diseased)
          06            Retailer                      Farmers Market, Lease
                                                      Arrangements
          07            Transporter                   Trucker, Railroad, Airlines,
                                                      Ships
          08            Custom                        Locker Plant
          09            Restaurant                    Caterer, Commissary,
                                                      Central, Kitchen
          10            Abattoir
          11            Animal Food                   Mink Farm, Pet Food
                                                      Manufacturer
          12            Warehouse                     Freezer, Cold Storage
                                                      Warehouse
          13            Salvage
          14            Miscellaneous                 Consumer, Auction




USDA/OIG-A/24601-4-At                                         Section IV, Page 57
EXHIBIT E – PROCESSING TIMEFRAMES FOR CLOSED VIOLATION
            CASES
                                (B)           (B-A)         (C)                  (C-B)   (C-A)
           (A)                 DATE         ELAPSED        DATE           (D)  ELAPSED TOTAL
       PREDICATION           RECEIVED         DAYS         CASE        CLOSURE DAYS AT ELAPSED
NUMBER    DATE                DEO HQ         AT DO        CLOSED        ACTION  DEO-HQ   DAYS
1              27-May-98       24-Jun-98             28   06-Aug-98 OTH                     43          71
2              16-May-97      11-Feb-98            271     24-Jun-98 LOW                  133         404
3               03-Apr-98     10-Nov-98            221    15-Mar-99 LOW                   125         346
4               11-Jun-97     29-Oct-97            140    18-Nov-97 LOI                    20         160
5              03-Mar-97      11-Feb-98            345    05-Aug-98 NOA                   175         520
6              29-May-98      02-Sep-98             96    06-Apr-99 LOW                   216         312
7              06-Nov-97      27-Feb-98            113    06-Aug-98 LOW                   160         273
8               03-Jun-98      20-Oct-98           139     13-Jan-99 LOW                    85        224
9               06-Oct-98      26-Jan-99           112     06-Apr-99 LOW                    70        182
10             05-Feb-98      05-Mar-98             28    13-May-98    NOA                 69          97
11             14-Oct-97      20-Aug-98            310     29-Jan-99   STADM              162         472
12             26-Sep-97      28-Jan-98            124    28-May-98    LOW                120         244
13             11-Jun-98       31-Jul-98            50    07-Aug-98    LOW                  7          57
14             01-Oct-97      01-Oct-97              0     07-Oct-97   STINJ                6           6
15              29-Jul-98     11-Dec-98            135     19-Apr-99   LOW                129         264
16             10-Aug-98      29-Oct-98             80    05-May-99    LOW                188         268
17             24-Mar-98       24-Apr-98            31     22-Jul-98   LOW                 89         120
18             21-Sep-98      19-Oct-98             28    10-Dec-98    LOW                 52          80
19             03-Feb-98      13-Feb-98             10    12-May-98    NOA                 88          98
20             15-Dec-98      29-Jan-99             45     06-Apr-99   LOW                 67         112
21              20-Jul-98     17-Aug-98             28    30-Dec-98    LOW                135         163
22             16-Jun-98      15-Sep-98             91    25-Aug-99    LOW(2)             344         435
23             24-Feb-98      23-Jun-98            119    18-Aug-98    LOW                 56         175
24             07-Mar-98      23-Jun-98             77    29-Dec-98    NOA                189         266
25             12-Mar-98      23-Jun-98            103    10-Aug-98    LOW                 48         151
Key: LOW = Letter of Warning, LOI = Letter of Information, STADM = State Administrative Action
     STINJ = State Injunction, OTH = Other, NOA= No Action, DO=District Office, DEO-HQ=District Enforcement
     Operations - Headquarters




 Section IV, Page 58                                                      USDA/OIG-A/24601-4-At
EXHIBIT E – PROCESSING TIMEFRAMES FOR CLOSED VIOLATION
            CASES (CONT’)
                                   B              B-A            C                   C-B      C-A
            A                     DATE         ELAPSED         DATE           D    ELAPSED TOTAL
       PREDICATION              RECEIVED         DAYS          CASE        CLOSURE DAYS AT ELAPSED
NUMBER    DATE                   DEO HQ         AT DO         CLOSED        ACTION DEO-HQ    DAYS
26               10-Jun-98        31-Aug-98             82    29-Mar-99 LOW                     210           292
27               30-Sep-98        08-Feb-99            131     21-Jul-99 LOW                    163           294
28               17-Mar-98        16-Apr-98             30     24-Jul-98 NOA                     99           129
29               26-Jan-98        08-Apr-98             72 14-May-99 STADM                      401           473
30               25-Aug-97        03-Apr-98            221 14-Dec-98 LOW                        255           476
31               14-Dec-98        21-Jan-99             38    27-Jan-99 LOW                       6            44
32               06-Feb-98        25-Feb-98             19    20-Aug-98 LOW                     176           195
33                07-Apr-98       17-Sep-98            163 01-Dec-98 LOW                         75           238
34               05-May-98        29-Sep-98            147 02-Mar-99 LOW                        154           301
35                18-Apr-96       27-Dec-97            618 18-May-98 LOW                        142           760
Totals                                               4,245                                    4,457       8,702
Count                                                   35                                       35          35
Average                                                121                                      127         249
Days
Note: These violation cases were predication on or after October 1, 1997, and closed by September 30, 1999.




USDA/OIG-A/24601-4-At                                                               Section IV, Page 59
     EXHIBIT F – PROCESSING TIMEFRAMES FOR OPEN VIOLATION
                 CASES AS OF SEPTEMBER 30, 1999
                              (B)        (B-A)     (C)                  (C-B)      (C-A)
               (A)           DATE      ELAPSED    CASE                ELAPSED     TOTAL
           PREDICATION     RECEIVED      DAYS     OPEN                DAYS AT    ELAPSED
NUMBER        DATE          DEO HQ      AT DO     AS OF      STATUS   DEO-HQ       DAYS
1         30-Dec-98        05-Feb-99      37     30-Sep-99   DEO           237          274
2         01-Sep-98        12-Mar-99     192     24-Aug-99   OGC           165          357
3         21-Mar-97        24-Oct-97     217     31-Jul-99   USA           280          497
4         21-Mar-97        24-Oct-97     217     30-Sep-99   USA           280          497
5         03-Jul-97        02-Dec-97     152     30-Sep-99   USA           127          279
6         29-Aug-98        22-Dec-98     115     30-Sep-99   DEO           282          397
7         13-Aug-98        26-Jan-99     166     30-Sep-99   DEO           247          413
8         16-Jun-98        18-May-99     336     10-Aug-99   OGC            84          420
9         21-Jan-99        04-Aug-99     195     30-Sep-99   DEO            57          252
10        02-Sep-97        25-Aug-98     357     28-Jan-99   USA           156          513
11        09-Oct-98        24-Feb-99     138     30-Sep-99   DEO           218          356
12        19-Aug-98        02-Aug-99     348     30-Sep-99   DEO            59          407
13        02-Apr-98        22-Sep-98     173     30-Sep-99   DEO           373          546
14        02-Oct-98        22-Jan-99     112     30-Sep-99   DEO           251          363
15        16-Dec-98        24-Feb-99      70     30-Sep-99   DEO           218          288
16        28-Oct-98        23-Jul-99     268     30-Sep-99   DEO            69          337
17        10-Mar-99        27-Aug-99     170     30-Sep-99   DEO            34          204
18        07-May-98        16-Sep-99     497     30-Sep-99   DEO            14          511
19        08-Sep-98        30-Aug-99     356     30-Sep-99   DEO            31          387
20        24-Nov-97        29-Sep-98     309     05-Apr-99   OGC           188          497
21        18-May-99        18-May-99       0     30-Sep-99   DEO           135          135
22        21-Jul-98        30-Dec-98     162     29-Apr-99   USA           120          282
23        11-Aug-98        19-Nov-98     100     30-Sep-99   DEO           315          415
24        02-Apr-98        07-Aug-98     127     30-Sep-99   DEO           419          546
25        04-Aug-98        30-Oct-98      87     30-Mar-99   OGC           151          238
26        28-Jul-98        08-Jan-99     164     17-Sep-99   OGC           252          416
27        28-Jul-98        08-Jan-99     164     17-Sep-99   OGC           252          416
28        28-Jul-98        19-Nov-98     114     17-Sep-99   OGC           302          416
29        03-Nov-97        28-Apr-99     541     30-Sep-99   DEO           155          696
30        02-Oct-98        20-Jul-99     291     30-Sep-99   DEO            72          363
31        06-Jun-97        09-Oct-97     125     24-Nov-98   USA           411          536




     Section IV, Page 60                                        USDA/OIG-A/24601-4-At
     EXHIBIT F - PROCESSING TIMEFRAMES FOR OPEN VIOLATION
                 CASES AS OF SEPTEMBER 30, 1999 (CONT’)
                            (B)        (B-A)     (C)                    (C-B)       (C-A)
               (A)         DATE      ELAPSED    CASE                  ELAPSED      TOTAL
           PREDICATION   RECEIVED      DAYS     OPEN                  DAYS AT     ELAPSED
NUMBER        DATE        DEO HQ      AT DO     AS OF      STATUS     DEO-HQ        DAYS
32         21-Jul-98     13-Oct-98      84     30-Sep-99   DEO              352       436
33         16-Feb-99     26-May-99      99     30-Sep-99   DEO              127       226
34         05-Aug-97     27-Oct-97      83     30-Sep-99   DEO              703       786
35         28-May-97     09-Oct-97     134     30-Sep-99   DEO              721       855
36         16-Jul-98     30-Nov-98     137     30-Sep-99   DEO              304       441
37         25-Jun-98     10-Dec-98     168     30-Sep-99   DEO              294       462
38         02-Nov-98     13-Jul-99     253     30-Sep-99   DEO               79       332
39         15-Jul-98     21-Jan-99     190     30-Sep-99   DEO              252       442
40         18-Dec-98     13-Jan-99      26     30-Sep-99   DEO              260       286
41         20-Nov-98     19-Jan-99      60     30-Sep-99   DEO              254       314
42         01-Mar-99     12-Mar-99      11     30-Sep-99   DEO              202       213
43         08-Mar-99     15-Apr-99     38-     30-Sep-99   DEO              168       206
44         08-Jun-99     18-Jun-99      10     30-Sep-99   DEO              104       114
45         20-Aug-98     29-Oct-98      70     30-Sep-99   DEO              336       406
46         30-Sep-98     29-Oct-98      29     30-Sep-99   DEO              336       365
47         01-Dec-98     18-Feb-99      79     30-Sep-99   DEO              224       303
48         11-Mar-99     19-May-99      69     30-Sep-99   DEO              134       203
49         13-Mar-99     04-May-99      52     30-Sep-99   DEO              149       201
50         09-Jun-98     19-Jul-98      40     30-Sep-99   DEO              438       478
51         22-Apr-99     09-Jul-99      78     22-Jul-99   OGC               13        91
52         29-Apr-99     29-Jul-99      91     30-Sep-99   DEO               63       154
53         04-May-99     17-Aug-99     105     30-Sep-99   DEO               44       149
54         22-May-97     23-Jun-98     397     30-Sep-99   DEO              464       861
55         23-Feb-99     29-Apr-99      65     10-Aug-99   OGC              103       168
56         25-Nov-98     01-Jul-99     218     30-Sep-99   DEO               91       309
57         17-Dec-98     29-Apr-99     133     30-Sep-99   DEO              154       287
58         18-Sep-98     17-Aug-99     333     30-Sep-99   DEO               44       377
59         30-Jul-98     30-Nov-98     123     30-Sep-99   DEO              304       427
60         30-Jun-98     04-Jun-99     339     30-Sep-99   DEO              118       457
61         11-Mar-98     23-Sep-98     196     30-Sep-99   DEO              372       568
62         15-Jan-98     20-Oct-98     278     30-Sep-99   DEO              345       623
63         05-Apr-99     23-Jun-99      79     30-Sep-99   DEO               99       178




     USDA/OIG-A/24601-4-At                                          Section IV, Page 61
   EXHIBIT F - PROCESSING TIMEFRAMES FOR OPEN VIOLATION
               CASES AS OF SEPTEMBER 30, 1999 (CONT’)
                               (B)          (B-A)        (C)                    (C-B)        (C-A)
                (A)           DATE        ELAPSED       CASE                  ELAPSED       TOTAL
            PREDICATION     RECEIVED        DAYS        OPEN                  DAYS AT      ELAPSED
NUMBER         DATE          DEO HQ        AT DO        AS OF      STATUS     DEO-HQ         DAYS
64         13-Jan-98        08-Oct-98        268       04-Jun-99   USA              239         507
65         25-Jan-98        4-Aug-99         556       30-Sep-99   DEO                57        613
66         24-May-99        23-Sep-99        122       30-Sep-99   DEO                 7        129
67         19-Nov-97        16-Apr-98        148       30-Sep-99   DEO              532         680
68         12-Mar-98        08-Jul-98        118       22-Jun-99   USA              349         467
69         08-Oct-98        17-Feb-99        132       30-Sep-99   DEO              225         357
70         06-Feb-98        19-Aug-99        559       30-Sep-99   DEO                42        601
71         24-Feb-99        25-May-99         90       20-Jul-99   USA                56        146
72         05-Dec-95        31-Jul-98        969       19-Nov-99   USA              111        1080
73         20-Feb-98        17-Sep-98        209       30-Sep-99   DEO              378         587
74         21-Jul-97        28-Jul-98        372       30-Sep-99   DEO              429         801
75         12-Jun-97        10-Dec-97        181       18-Mar-98   USA                98        279
76         30-Apr-97        10-Dec-97        224       10-Mar-98   USA                90        314
77         20-Jul-98        29-Sep-98         71       30-Sep-99   DEO              366         437
78         08-Oct-98        26-Feb-99        141       14-Sep-99   OGC              200         341
79         14-Jan-99        09-Apr-99         85       30-Sep-99   DEO              174         259
80         26-Aug-99        03-Sep-99          8       30-Sep-99   DEO                27          35
81         06-Apr-98        14-Jul-98         99       08-Apr-99   OGC              268         367
Totals                                        14,719                              17,259      31,972

Count                                            81                                   81          81
Average                                         182                                  213         395
Days

Note: The column titled “CASE OPEN AS OF” is either the date the case was currently being reviewed at
DEO-headquarters through September 30, 1999, or the date the case was transferred out of DEO-
headquarters for review at OGC and subsequently to the USA, if appropriate.

Key – USA=United States Attorney, OGC=Office of General Counsel, DO=District Offices, DEO=District
Enforcement Operations




    Section IV, Page 62                                               USDA/OIG-A/24601-4-At
EXHIBIT G – VIOLATIONS DISCLOSED DURING OIG VISITS


TYPE OF                          DATE      ENFORCEMENT                          HISTORY
FIRMS          LOCATION VISITED ACTION                             DATE         ACTION          DATE
Custom         Chino, CA       6/29/99 LOW                     8/2/99   LOW            5/5/97
Exempt
Slaughter
FINDING: Found 28 pounds (one beef head, one hog head, and one goat head) of products that was not
associated with an owner. The custom slaughter records were incomplete.

VIOLATIONS: Failure to maintain custom exempt records and failure to identify custom exempt meat
products as “Not for Sale.”

Custom         Corona, CA      6/29/99    LOW                   8/2/99     LOW             9/11/96
Exempt
Slaughter
FINDING: Observed five pounds of pork lungs and liver not associated with an owner. Also records did
not account for animals slaughtered on June 27, 28, and 29, 1999.

VIOLATIONS: Failure to maintain custom exempt records and failure to identify custom exempt meat
products as “Not for Sale.”

Retailer    Ontario, CA       7/1/99     LOW                   8/2/99      LOW                3/19/99
FINDING: Retailer sold beef and pork tacos and chile verde dinners to another retailer in a catering truck.

VIOLATION: Sale of non-Federally inspected meat products.

Custom         Corona, CA        6/30/99 LOW                    8/11/99      LOW              9/4/97
Exempt
Slaughter
FINDING: Failed to maintain accurate records. Compliance officer detained 2,400 pounds of products, of
which 1,570 pounds were destroyed. Also, the firm failed to maintain control of persons who threatened,
intimidated, and interfered with USDA employees in performing their duties.

VIOLATION: Failure to maintain custom exempt records.

NOTES: Violations cases were established by FSIS compliance officers based on the violations disclosed
during the OIG visits with compliance officers.




USDA/OIG-A/24601-4-At                                                              Section IV, Page 63
EXHIBIT G – VIOLATIONS DISCLOSED DURING OIG VISITS (CONT’)

TYPE OF                         DATE     ENFORCEMENT                            HISTORY
FIRMS         LOCATION VISITED ACTION                            DATE           ACTION       DATE
                                                                          1/
Custom      Bronx, NY       5/20/99    LOW                     6/11/99
Exempt
Slaughter
FINDING: Slaughtered and cut goats and failed to mark product “Not for Sale.”

VIOLATION: Failure to identify custom meat products as “Not for Sale.”

Distributor   Brooklyn, NY 5/20/99       LOW                  6/11/99    LOW            4/4/99
FINDING: Had in possession 29 pounds of unlabeled or unidentified product from unnamed source.
Some of the product was sold to customers.

VIOLATION: Failure to identify custom meat products as “Not for Sale.”

Custom        Jamaica, NY   5/20/99    LOW                    8/9/99      LOW                11/14/97
Exempt                                                                    LOW                8/10/98
Slaughter                                                                 LOW                1/14/99
FINDING: Slaughtered and cut lamb and failed to mark product “Not for Sale.” Also, failed to maintain
proper records.

VIOLATIONS: Failure to maintain custom exempt records and failure to identify custom exempt meat
products as “Not for Sale.”

                                          2/
Custom        Jamaica, NY     5/21/99          RAV              6/21/99    LOW              8/1/95
                                                                           3/
Exempt                                                                        PYV           1/5/96
                                                                           4/
Slaughter                                                                     NOI           11/24/97
                                                                           5/
                                                                              RAV
FINDING: Observed unsanitary conditions and adulterated products.

VIOLATION: Failure to maintain and operate facility in a sanitary manner causing meat products to
become adulterated.

NOTES:
1/
   The firm at this location, operated by a different owner, had a history of noncompliance.
2/
   “Report of Apparent Violation.”
3/
   Firm was ordered to report to DEO HQ to “Present Your Views.”
4/
   Firm was issued a “Notice of Ineligibility” for custom exempt slaughter practices.
5/
   “Report of Apparent Violation” case pending.
Key: LOW – Letter of Warning




 Section IV, Page 64                                                      USDA/OIG-A/24601-4-At
EXHIBIT H – VIOLATION CASES RECEIVED FROM DISTRICT OFFICES
            THAT WERE NOT REFERRED FOR PROSECUTION
                REASONS NOT REFER FOR
                    PROSECUTION
                                 NOT
        INSUFFICIENT           PROPERLY       ENFORCEMENT
 NUMBER   EVIDENCE            DEVELOPED OTHER    ACTION         COMMENT
 1            X                                   LOW
 2                                X               LOW
 3            X                                   LOW
 4            X                                   LOW
 5                                        X       LOW     Firm no longer in
                                                          business
 6                 X                              LOW
 7                 X                              NOA
 8                                        X       LOW     Firm prosecuted By
                                                          State
 9                 X                              LOW
 10                X                              LOW
 11                               X               LOW
 12                X                              LOW
 13                X                              LOW
 14                X                              LOW
 15                X                              NOA
 16                X                              LOW
 17                X                              LOW
 18                X                              LOW
 19                X                              LOW
 20                X                              LOW
 21                X                              LOW
 22                X                              NOA
 23                               X               LOW
 24                X                              LOW
 25                X                              LOW
 26                X                              LOW
 27                                       X       LOW     Firm no longer in
                                                          business
 Totals           21              3       3

 KEY: LOW = Letter of Warning, NOA = No Action




USDA/OIG-A/24601-4-At                                            Section IV, Page 65
Section IV, Page 66   USDA/OIG-A/24601-4-At
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24601-4-At                           Section IV, Page 67
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




Section IV, Page 68                       USDA/OIG-A/24601-4-At
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24601-4-At                           Section IV, Page 69
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




Section IV, Page 70                       USDA/OIG-A/24601-4-At
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24601-4-At                           Section IV, Page 71
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




Section IV, Page 72                       USDA/OIG-A/24601-4-At
EXHIBIT I – FSIS RESPONSE TO THE DRAFT REPORT




USDA/OIG-A/24601-4-At                           Section IV, Page 73
                            ABBREVIATIONS


ADME       -Assistant District Manager for Enforcement

DEO        -District Enforcement Operations

DR         -Departmental Regulation

FMIA       -Federal Meat Inspection Act

FSIS       -Food Safety and Inspection Service

FY         -Fiscal Year

HACCP      -Hazard Analysis and Critical Control Point

OGC        -Office of General Counsel

OIG        -Office of Inspector General

OPHS       -Office of Public Health and Science

PCP        -Planned Compliance Program

PPIA       -Poultry Products Inspection Act

USDA       -U.S. Department of Agriculture




USDA/OIG-A/24601-4-At                                    Section IV, Page 75
